APPENDIX

1a
APPENDIX A
_________
IN THE COURT OF APPEALS OF MARYLAND
September Term, 2018
_______
STATE OF MARYLAND
v.
ADNAN SYED
_______
No. 24
________
Appeal from the Circuit Court for Baltimore City
Case No. 199103042 through 199103046
_______
Argued: November 29, 2018
_______
Barbera, C.J.
Greene
McDonald
Watts
Hotten
Getty
Adkins, Sally D., (Senior Judge, Specially Assigned),
JJ.
_______
Opinion by Greene, J.

2a
Watts, J. concurs.
Barbera, C.J., Hotten and Adkins, JJ.,
concur and dissent
_______
Filed: March 8, 2019
_______
In the present case, we are asked to reconsider the
decision of a post-conviction court that granted the
Respondent, Adnan Syed, a new trial. That decision
was affirmed in part and reversed in part by our
intermediate appellate court with the ultimate
disposition—a new trial—remaining in place. The
case now stands before us, twenty years after the
murder of the victim, seventeen-year-old high school
senior Hae Min Lee (“Ms. Lee”). We review the legal
correctness of the decision of the post-conviction
court and decide whether certain actions on the part
of Respondent’s trial counsel violated Respondent’s
right to the effective assistance of counsel.
FACTUAL AND PROCEDURAL BACKGROUND
We shall not endeavor to replicate the thorough,
carefully-written and well-organized Opinion,
penned by then-Chief Judge Patrick Woodward, of
the Court of Special Appeals in this case. For a more
exhaustive review of the underlying facts, evidence
presented at trial, and subsequent procedural events
involving Respondent’s (hereinafter “Respondent” or
“Mr. Syed”) conviction of first-degree murder of his
ex-girlfriend, we direct readers to the Opinion of that
court. Syed v. State, 236 Md. App. 183, 181 A.3d 860
(2018) (“Syed”). For purposes of our review of the
issues before us, we shall include relevant facts as

3a
necessary as well as an abbreviated recitation of the
significant procedural markers in this case’s sojourn.
On February 25, 2000, a jury sitting in the Circuit
Court for Baltimore City convicted Mr. Syed of firstdegree murder, robbery, kidnapping, and false
imprisonment of Ms. Lee. Mr. Syed challenged his
conviction on direct appeal. In an unreported
opinion, the Court of Special Appeals affirmed his
conviction on March 19, 2003. Syed v. State, No. 923,
Sept. Term 2000. On May 28, 2010, Mr. Syed filed a
petition for post-conviction relief, which he
supplemented on June 27, 2010. In that petition, Mr.
Syed alleged that he received ineffective assistance
of counsel and in so alleging lodged claims against
his trial counsel, sentencing counsel, and appellate
counsel. In the post-conviction petition, Mr. Syed
argued nine bases for his claim that he had received
ineffective assistance of counsel. Syed, 236 Md. App.
at 206-07, 181 A.3d at 872-73 (listing the nine bases
on which Mr. Syed claimed his trial counsel or
appellate counsel were ineffective). Of relevance to
our inquiry is that none of the nine bases was a
claim that his trial counsel failed to challenge an
alleged Brady1 violation regarding the admission of
evidence that potentially undermined the reliability
of cell tower location evidence that was used as part
of the State’s case.2 Mr. Syed did raise and argue
1

When evidence that is favorable to an accused is not
disclosed or is suppressed by the State, the result—colloquially
referred to as a Brady violation—is considered a denial of due
process. See Brady v. Maryland, 373 U.S. 83, 83 S. Ct. 1194, 10
L.Ed.2d 215 (1963).
2

By way of comparison, in his Motion to Re-Open PostConviction Proceedings, which he filed upon remand to the

4a
that his trial counsel was ineffective for failing to
investigate or call Asia McClain (“Ms. McClain”) as
an alibi witness. After a two-day hearing on October
11, 2012 and October 25, 2012, the post-conviction
court issued an order and memorandum in which it
denied post-conviction relief on January 6, 2014.
Thereafter, Mr. Syed filed a timely application for
leave to appeal, which presented the issue of his trial
counsel’s failure to interview or investigate Ms.
McClain as a potential alibi witness.3 Subsequent to
his filing of an application for leave to appeal, Mr.
Syed supplemented his application for leave to
appeal and requested that the Court of Special
Appeals remand the case for the post-conviction
court to consider an affidavit from Ms. McClain.4 The
Circuit Court by the Court of Special Appeals, Mr. Syed
presented two related questions regarding the cell tower
location evidence. As the Court of Special Appeals
characterized, one of the issues presented in his motion was
“[w]hether the State withheld potentially exculpatory evidence
related to the reliability of cell tower location evidence in
violation of the disclosure requirements under Brady.” Syed v.
State, 236 Md. App. 183, 208-09, 181 A.3d 860, 874 (2018). The
second issue presented was whether “trial counsel’s alleged
failure to challenge the reliability of the cell tower location
evidence violated [Mr. Syed’s] Sixth Amendment right to
effective assistance of counsel.” Id. at 209.
3

Additionally, Mr. Syed requested that the Court of Special
Appeals review whether his trial counsel rendered ineffective
assistance of counsel when she failed to pursue a plea offer on
his behalf.
4

The affidavit, dated January 13, 2015, repeated Ms.
McClain’s recollection of seeing and talking with Mr. Syed at
the Woodlawn Public Library at approximately 2:30 p.m. on
January 13, 1999, the day of Ms. Lee’s murder. The affidavit
explained that no one from Mr. Syed’s defense team contacted
her even though she would have been willing to tell her story.

5a
intermediate appellate court granted Mr. Syed’s
request and issued a limited remand order in which
it afforded Mr. Syed “the opportunity to file such a
request to re-open the post-conviction proceedings” in
the Circuit Court. See Syed, 236 Md. App. at 210, 181
A.3d at 875 (reciting the Remand Order in relevant
part).
Upon remand by the Court of Special Appeals and
as part of his request to the Circuit Court to reopen
his post-conviction proceedings, Mr. Syed filed a
request for the Circuit Court to consider, for the first
time, a new basis for his claim of ineffective
assistance of counsel related to a purported Brady
violation concerning the cell tower location evidence.
Mr. Syed continued to maintain his argument that
his trial counsel’s failure to pursue Ms. McClain as
an alibi witness amounted to ineffective assistance of
counsel. The Circuit Court granted Mr. Syed’s
request to reopen his post-conviction proceedings to
review both of the aforementioned issues.
After a five-day hearing, the post-conviction court
issued an order, accompanied by a thorough
memorandum, in which it denied relief to Mr. Syed
on the issue of his counsel’s failure to investigate Ms.
McClain as an alibi witness. The post-conviction
Ms. McClain affirmed that she completed an affidavit on March
25, 2000 and that she did so without pressure from Mr. Syed’s
family. Ms. McClain also affirmed that after a conversation
with one of the prosecutors involved with Mr. Syed’s case, Ms.
McClain was persuaded to cease further involvement with Mr.
Syed’s defense team. Finally, the affidavit indicates that after
an interview with a reporter from National Public Radio in
January 2014, Ms. McClain felt compelled to provide an
affidavit to Mr. Syed’s lawyer and appear in court, if necessary.

6a
court concluded that although Mr. Syed’s trial
counsel was deficient for not contacting Ms. McClain,
counsel’s failure to investigate Ms. McClain’s claim
did not prejudice Mr. Syed. Next, the post-conviction
court concluded that Mr. Syed waived his claim of a
Brady violation with respect to the cell tower
location evidence because he had not raised the claim
in his post-conviction petition. Finally, with respect
to Mr. Syed’s claim of ineffective assistance of
counsel concerning his trial counsel’s failure to
challenge the cell tower location evidence, the postconviction court first determined that Mr. Syed did
not knowingly and intelligently waive this claim.
Then, the post-conviction court reasoned that Mr.
Syed’s trial counsel’s failure to challenge the cell
tower information was in fact deficient and that this
deficiency prejudiced Mr. Syed. As a result, the postconviction court vacated the convictions and granted
Mr. Syed a new trial.
In its review of the post-conviction court’s order,
the Court of Special Appeals reversed the rulings in
two respects. With regard to the claim that Mr. Syed
suffered ineffective assistance of counsel due to his
trial counsel’s failure to investigate a potential alibi
witness, the Court of Special Appeals applied the
tenets of Strickland v. Washington, 466 U.S. 668, 104
S. Ct. 2052, 80 L.Ed.2d 674 (1984), and concluded
that Mr. Syed’s trial counsel’s performance was
deficient and that this deficiency resulted in
prejudice. Specifically, the intermediate appellate
court determined that Mr. Syed was prejudiced by
the absence of Ms. McClain’s testimony because of
the State’s timeline of the murder and the fact that
the State was required to prove that Mr. Syed caused

7a
the death of the victim in order to secure a conviction
for first-degree murder. 236 Md. App. at 281, 181
A.3d at 916. The court explained that, “the State had
to establish that [Mr.] Syed ‘caused the death’ of [Ms.
Lee], and the State’s theory of when, where, and how
[Mr.] Syed caused [Ms. Lee’s] death was critical to
proving this element of the crime.” Id. The court
characterized the State’s case as a circumstantial
one that “did not directly establish that [Mr.] Syed
caused [Ms. Lee’s] death sometime between 2:15 p.m.
and 2:35 p.m. in the Best Buy Parking lot on
January 13, 1999.” Id. at 282, 181 A.3d at 916. By
contrast, according to the intermediate appellate
court, Ms. McClain’s testimony would have been
evidence that could have supplied “‘reasonable doubt’
in at least one juror’s mind leading to a different
outcome[.]” Id. at 284, 181 A.3d at 918. The Court of
Special Appeals, thus, determined that Mr. Syed was
entitled to a new trial.5 Id. at 286, 181 A.3d at 919.
In addition, the Court of Special Appeals
considered whether Mr. Syed had waived his right to
a claim of ineffective assistance of counsel on the
basis that his trial counsel failed to challenge the cell
tower location evidence. Id. at 230, 181 A.3d at 886.
Heeding the collective guidance of the reasoning in
Curtis v. State, 6 Wyche v. State, 7 and Arrington v.
5

One member of the panel dissented and filed a separate
opinion. That member would have affirmed the post-conviction
court’s determination that Mr. Syed failed to meet his burden
with respect his claim of ineffective assistance of counsel, and,
thus, would have denied Mr. Syed’s request for a new trial.
Syed, 236 Md. App. 183, 306, 181 A.3d 860, 931 (2018) (Graeff,
J., dissenting).
6

284 Md. 132, 395 A.2d 464 (1978).

8a
State,8 the intermediate appellate court ruled that
because Mr. Syed had previously raised the issue of
ineffective assistance of counsel in his petition for
post-conviction relief, he was precluded from raising
the issue again on a totally different ground, namely,
the cell tower location ground. Id. at 237, 181 A.3d at
890. Specifically, the intermediate appellate court
explained that Mr. Syed’s post-conviction petition,
“advanced seven claims that trial counsel’s
representation[ 9 ] was constitutionally inadequate,
each on a separate ground. The cell tower ground
was not one of those grounds. Consequently, the
question of waiver regarding the failure to raise the
issue of ineffective assistance of trial counsel is not
present here.” Id. at 236-37, 181 A.3d at 890. The
Court of Special Appeals further held that the theory
relative to the reliability of the cell tower location
evidence was a non-fundamental right, and, as such,
Mr. Syed’s failure to assert this ground in his postconviction petition constituted a waiver. Id. at 239,
181 A.3d at 892. In short, because Mr. Syed could
have raised his ineffective assistance of counsel
claim on the basis of the cell tower location evidence
in his post-conviction petition and did not, he waived
the claim by failing to do so.10 Id. at 240, 181 A.3d at
892.
7

53 Md. App. 403, 454 A.2d 378 (1983).

8

411 Md. 524, 983 A.2d 1071 (2009).

9

Mr. Syed advanced nine claims in all in his post-conviction
petition, including seven claims related to trial counsel, one
claim related to appellate counsel, and one claim related to
sentencing counsel.
10

The Court of Special Appeals also ruled on the issue of
whether Mr. Syed’s trial counsel was ineffective by failing to

9a
Upon the issuance of the Opinion of the Court of
Special Appeals, the State filed in this Court a
petition for writ of certiorari. Mr. Syed filed a
conditional cross-petition for writ of certiorari. The
State requested that we review
[w]hether the Court of Special Appeals erred
in holding that defense counsel pursuing an
alibi strategy without speaking to one specific
potential witness of uncertain significance
violates the Sixth Amendment’s guarantee of
effective assistance of counsel.
Whereas, Mr. Syed in his conditional cross-petition
requested that we review
[w]hether the Court of Special Appeals drew
itself into conflict with Curtis v. State, 284 Md.
132 (1978), in finding that [Mr.] Syed waived
his ineffective-assistance claim based on trial
counsel’s failure to challenge cell-tower
location data, where the claim implicated the
fundamental right to effective [assistance of]
counsel and was therefore subject to the
statutory requirement of knowing and
intelligent waiver?
We granted certiorari on both issues. 460 Md. 3,
188 A.3d 918 (2018).

pursue a plea offer with the State. Syed, 236 Md. App. 183, 24146, 181 A.3d 860, 893-96. The court applied the two-part
Strickland test and held that the post-conviction court properly
denied Mr. Syed relief on this claim because Mr. Syed “failed to
prove that the State would have made him a plea offer if trial
counsel had requested one.” Id. at 246, 181 A.3d at 896.

10a
STANDARD OF REVIEW
Our review of a post-conviction court’s findings
regarding ineffective assistance of counsel is a mixed
question of law and fact. Newton v. State, 455 Md.
341, 351, 168 A.3d 1, 7 (2017) (citing Harris v. State,
303 Md. 685, 698, 496 A.2d 1074, 1080 (1985) (“[T]o
determine the ultimate mixed question of law and
fact, [we ask] namely, was there a violation of a
constitutional right as claimed.”). The factual
findings of the post-conviction court are reviewed for
clear error. Id. The legal conclusions, however, are
reviewed de novo. Id. at 351-52, 168 A.3d at 7. The
appellate court exercises “its own independent
analysis” as to the reasonableness, and prejudice
therein, of counsel’s conduct. Oken v. State, 343 Md.
256, 285, 681 A.2d 30, 44 (1996).
DISCUSSION
Trial Counsel’s Failure to Investigate a
Potential Alibi Witness
Parties’ Arguments
Mr. Syed urges this Court to affirm the Court of
Special Appeals’s holding as to the issue of whether
his trial counsel’s failure to investigate a potential
alibi witness was violative of Strickland. According
to Mr. Syed, it was a dereliction of duty for trial
counsel to make no effort to contact Ms. McClain.
This is so because, according to Mr. Syed, trial
counsel did not raise an alibi defense. Moreover, Mr.
Syed argues that because Ms. McClain’s alibi was
offered for a precise time it was even more crucial for
trial counsel to investigate her, and there is no
tactical consideration that could have justified a
failure to contact Ms. McClain. Finally, Mr. Syed

11a
suggests that Ms. McClain was a disinterested
witness whose testimony would have “punctured
both the ‘when’ and the ‘where’ of the State’s core
theory[,]” and, therefore, would have created
reasonable doubt as to Mr. Syed’s involvement to
satisfy the prejudice prong of Strickland.
The State, of course, seeks a reversal of the Court
of Special Appeals on the issue of trial counsel’s
efforts to investigate Ms. McClain as an alibi
witness. According to the State, the record here is
silent as to trial counsel’s reasons or motivations for
not investigating Ms. McClain and, without more,
Mr. Syed cannot satisfy his burden under Strickland.
The State contends that a proper application of
Strickland in the face of a silent, ambiguous or
incomplete record as to trial counsel’s reasons
requires that a court deny relief based on the
presumption that trial counsel acted reasonably.
Here, according to the State, there were several
plausible explanations for why Mr. Syed’s trial
counsel did not need to investigate Ms. McClain’s
purported alibi. Ultimately, the State concludes that
Mr. Syed has failed to show that his trial counsel’s
performance satisfied the second prong of Strickland
because the State presented “overwhelming evidence
of [Mr. Syed’s] guilt.”
Trial Counsel’s Duty to Investigate
The Sixth Amendment affords an individual
accused of a crime the right to effective assistance of
counsel. The Supreme Court has cautioned that “a
person who happens to be a lawyer [who] is present
at trial alongside the accused [] is not enough to
satisfy the constitutional command.” Strickland v.
Washington, 466 U.S. 668, 685, 104 S. Ct. 2052,

12a
2063, 80 L.Ed.2d 674 (1984). When a defendant
advances an ineffective assistance of counsel claim,
and requests that his or her conviction be reversed,
he or she must meet a two-part test to succeed on his
or her claim. Id. at 687, 104 S. Ct. at 2064, 80
L.Ed.2d 674. This test, referred to as the Strickland
test, guides a reviewing court’s consideration of the
claim of ineffective assistance of counsel. Id. Under
the first prong, the defendant must show that his or
her counsel performed deficiently. Id. Next, the
defendant must show that he or she has suffered
prejudice because of the deficient performance. Id. In
the absence of satisfying both prongs of the test, “it
cannot be said that the conviction [] resulted from a
breakdown in the adversary process that renders the
result unreliable.” Id.
The United States Supreme Court settled on an
objective standard of reasonableness for determining
whether an attorney’s performance was deficient. Id.
The Supreme Court declared, “[t]he benchmark for
judging any claim of ineffectiveness must be whether
counsel’s conduct so undermined the proper
functioning of the adversarial process that the trial
court cannot be relied on as having produced a just
result.” Id. at 686, 104 S. Ct. at 2064, 80 L.Ed.2d
674. In light of that objective standard, “[j]udicial
scrutiny of counsel’s performance is highly
deferential, and there is a strong (but rebuttable)
presumption that counsel rendered reasonable
assistance[.]” In re Parris W., 363 Md. 717, 725, 770
A.2d 202, 207 (2001). This Court has required that a
defendant, when alleging that counsel’s performance
was deficient, “must also show that counsel’s actions
were not the result of trial strategy.” Coleman v.

13a
State, 434 Md. 320, 338, 75 A.3d 916, 927 (2013). A
strategic trial decision is one that “is founded upon
adequate investigation and preparation.” Id. (quoting
State v. Borchardt, 396 Md. 586, 604, 914 A.2d 1126,
1136 (2007)) (cleaned up).
Whether
the
attorney’s
performance
was
reasonable is measured by the “prevailing
professional norms.” Strickland, 466 U.S. at 688, 104
S. Ct. at 2065, 80 L.Ed.2d 674. In the context of this
case, we look to the American Bar Association’s
Standards for Criminal Justice to inform our
understanding of the prevailing professional norms
of a criminal defense attorney’s duty to investigate a
potential alibi witness. Specifically, the ABA
Standards for Criminal Justice 4-4.1 provided at the
time of Mr. Syed’s trial, in relevant part:
Duty to Investigate
(a) Defense counsel should conduct a prompt
investigation of the circumstances of the case
and explore all avenues leading to facts
relevant to the merits of the case and the
penalty in the event of conviction. The
investigation should include efforts to secure
information in the possession of the
prosecution and law enforcement authorities.
The duty to investigate exists regardless of the
accused’s admissions or statements to defense
counsel of facts constituting guilt or the
accused’s stated desire to plead guilty.
American Bar Ass’n, ABA Standards for Criminal
Justice (3rd ed. 1993).11 See also Strickland, 466 U.S.
11

The fourth edition of the ABA Standards for Criminal Justice
was issued in 2015, long after trial counsel rendered

14a

representation to Mr. Syed. Standard 4-4.1 currently provides,
in relevant part:
Duty to Investigate and Engage Investigators
(a)
Defense counsel has a duty to
investigate in all cases, and to determine
whether there is a sufficient factual basis for
criminal charges. (b) The duty to investigate is
not terminated by factors such as the apparent
force of the prosecution’s evidence, a client’s
alleged admissions to others of facts suggesting
guilt, a client’s expressed desire to plead guilty
or that there should be no investigation, or
statements to defense counsel supporting guilt.
(b)
Defense counsel’s investigative efforts
should commence promptly and should explore
appropriate avenues that reasonably might lead
to information relevant to the merits of the
matter,
consequences
of
the
criminal
proceedings, and potential dispositions and
penalties. Although investigation will vary
depending on the circumstances, it should
always be shaped by what is in the client’s best
interests, after consultation with the client.
Defense counsel’s investigation of the merits of
the criminal charges should include efforts to
secure relevant information in the possession of
the prosecution, law enforcement authorities,
and
others,
as
well
as
independent
investigation. Counsel’s investigation should
also include evaluation of the prosecution’s
evidence (including possible re-testing or reevaluation of physical, forensic, and expert
evidence) and consideration of inconsistencies,
potential
avenues
of
impeachment
of
prosecution witnesses, and other possible
suspects and alternative theories that the
evidence may raise.

15a
at 689, 104 S. Ct. at 2065, 80 L.Ed.2d 674 (“A fair
assessment of attorney performance requires . . . [a
court] to evaluate the conduct from counsel’s
perspective at the time.”).
Pertinent to our analysis is the definition of an
alibi witness and the contours of an alibi defense. An
alibi witness is one “whose testimony ‘must tend to
prove that it was impossible or highly improbable
that the defendant was at the scene of the crime
when it was alleged to have occurred.’” McLennan v.
State, 418 Md. 335, 352, 14 A.3d 639, 649 (2011)
(quoting Ferguson v. State, 488 P.2d 1032, 1039
(Alaska 1971)) (cleaned up); see also Maryland Rule
4-263(e)(4) (“Without the necessity of a request, the
defense shall provide to the State’s Attorney: [i]f the
State’s Attorney has designated the time, place, and
date of the alleged offense, the name and . . . address
of each person other than the defendant whom the
defense intends to call as a witness to show that the
defendant was not present at the time, place, or date
designated by the State’s Attorney.”). When a
criminal defendant asserts an alibi defense, he or she
does so not as an affirmative defense but to “den[y]
the claim of the prosecution that he was present at
the scene of the crime at the time it was committed.”
Simms v. State, 194 Md. App. 285, 308, 4 A.3d 72, 85
(2010) (cleaned up); see also In re Parris W., 363 Md.
717, 728, 770 A.2d 202, 208 (2001) (“An alibi is not
an affirmative defense[.]”). An alibi defense is a
defendant’s claim “that he [or she] was at another
place at the time when the alleged crime was
American Bar Ass’n, ABA Standards for Criminal Justice (4th
ed. 2015).

16a
committed[.]” Simms, 194 Md. App. at 308, 4 A.3d at
85 (internal citations omitted). Importantly, to
establish an alibi that negates the defendant’s
criminal agency, “the [alibi] testimony must cover
the whole time in which the crime . . . might have
been committed.” Id. (citing Floyd v. State, 205 Md.
573, 581, 109 A.2d 729, 732 (1954)).
As the Court of Special Appeals and the postconviction court observed, an analysis of counsel’s
duty to investigate a potential alibi witness starts
with our decision In re Parris W., 363 Md. 717, 770
A.2d 202 (2000). There, it was nearly a foregone
conclusion that counsel’s failure to subpoena
corroborating alibi witnesses for the correct trial date
constituted deficient performance. Id. at 727, 770
A.2d at 208. (“That counsel’s performance was
deficient, even under the highly deferential standard
of Strickland, seems clear.”). We explained that
“counsel’s single, serious error . . . did not constitute
the exercise of reasonable professional judgment and
that such failure was not consistent with counsel’s
primary function of effectuating the adversarial
testing process in this case.” Id. In reaching the
conclusion that counsel’s deficiency prejudiced the
defendant, we cited a number of cases, which we
shall discuss forthwith, that held that trial counsel’s
failure to investigate a potential alibi witness fell
short of reasonable professional standards.
For example, in Griffin v. Warden, Maryland
Correctional Adjustment Center, the defendant
provided his attorney with a list of five alibi
witnesses that would have accounted for his time on
the day of a robbery and shooting at a drug store.
970 F.2d 1355, 1356 (4th Cir. 1992). The attorney

17a
failed to conduct any investigation of the witnesses
and failed to respond to the State’s discovery
requests, which included failing to provide notice of
intent to rely on an alibi and the identities of the
alibi witnesses. Id. Upon transferring the case to
another attorney, Mr. Griffin’s first trial attorney
counseled his successor that Mr. Griffin should plead
guilty. Id. Although the second attorney accepted the
case at least five months before Mr. Griffin’s trial, he
failed to conduct any investigation of the alibi
witnesses or confirm his predecessor’s compliance
with the State’s discovery requests. Id. Moreover, the
attorney knew that Mr. Griffin refused to plead
guilty. Id. A jury convicted Mr. Griffin of robbery and
use of a handgun in connection with a crime of
violence. Id.
Mr. Griffin sought relief in the state court on an
ineffective assistance of counsel claim but was
ultimately unsuccessful. Id. On a request for habeas
relief, the United States Court of Appeals for the
Fourth Circuit applied the Strickland two-prong
inquiry. Id. at 1357-58. As to the first prong, that
court determined that Mr. Griffin’s trial counsel’s
statements, in which he admitted that he did not
conduct an investigation of the alibi witnesses
because he expected his client to plead, were
“unambiguous admissions of unpardonable neglect.”
Id. at 1358. Given the facts in Griffin, counsel’s
performance was deficient because his lack of
preparation for trial fell below the standard of
“prevailing professional norms[.]” See Strickland,
466 U.S. at 690, 104 S. Ct. at 2066, 80 L.Ed.2d 674;
see also Griffin, 970 F.2d at 1357-58.

18a
In Grooms v. Solem, the defendant, William
Grooms, was accused of selling a stolen Native
American artifact between 5:00 and 5:30 p.m. in
Scenic, South Dakota on May 15, 1984. 923 F.2d 88,
89 (8th Cir. 1991). During the second of his three
meetings with his appointed counsel, Mr. Grooms
explained that he had an alibi. Id. On the morning of
his trial, Mr. Grooms informed his counsel that on
the day of the alleged crime, he, his wife, and a
friend were in Rapid City, South Dakota, a town fifty
miles away from Scenic, South Dakota. Id. Mr.
Grooms produced for his counsel a cancelled check as
well as a work order, both of which supported Mr.
Grooms’s alibi that he was in Rapid City, South
Dakota getting his truck’s transmission repaired
until well into the evening hours. Id. The cancelled
check was dated for May 15, 1984 and the work order
reflected the same check number as that of the
cancelled check. Id. In subsequent proceedings, two
witnesses from the repair shop testified that the
repairs lasted until sometime between 7:00 p.m. and
7:30 p.m. Id. at 89-90. Mr. Grooms’s trial counsel
failed to investigate the repair shop for
corroboration, failed to notify the trial court as to a
possible alibi witness, and failed to request a
continuance in light of his client’s claims. Id. at 90.
The Eighth Circuit advised that, “[o]nce a defendant
identifies potential alibi witnesses, it is unreasonable
not to make some effort to contact them to ascertain
whether their testimony would aid the defense.” Id.
Accordingly, the court concluded that even accepting
as true that Mr. Grooms’s trial counsel learned of the
alibi on the first day of trial, counsel should have
taken efforts to convey to the court that an
investigation of the alibi was necessary. Id. at 91.

19a
“Once [trial counsel] discovered the potential alibi, [ ]
trial counsel had a duty to attempt to investigate and
to argue on the record for the admission of the alibi
witnesses’ testimony.” Id. The Eighth Circuit
affirmed the grant of habeas relief to Mr. Grooms on
the basis that his trial counsel’s performance was
deficient and that the deficiency prejudiced Mr.
Grooms. Id.
In Montgomery v. Petersen, a defendant was
charged and tried for burglary in two different
jurisdictions for separate acts occurring on the same
day. 846 F.2d 407, 408 (1988). In Macon County,
Illinois the defendant was acquitted of burglary,
whereas in Moultrie County, Illinois the defendant
was convicted of burglary. Id. “The only difference
between the evidence presented in the two trials was
the testimony—presented in the Macon County trial
but not in the Moultrie County trial—of a
disinterested witness[, a store clerk].”12 Id. at 408409. The State’s evidence in both trials consisted of
witness testimony that the defendant had spent
nearly twelve hours attempting to or committing
burglaries. Id.
In Moultrie County, the defendant moved for postconviction relief on the basis of ineffective assistance
of counsel. Id. at 409. At the hearing on his motion,
12

The disinterested witness testified that the defendant was
in Springfield buying a child’s bike in the afternoon on the day
of the burglaries. Montgomery v. Petersen, 846 F.2d 407, 409
(1988). The defendant’s wife and mother-in-law used the store
receipt, which contained an employee code, to locate the
witness, presumably in time for the clerk to be called as a
witness for the Macon County trial but not for the Moultrie
County trial. Id. at 410.

20a
trial counsel, who had tried both cases, admitted that
he did not investigate the store clerk as a potential
alibi witness due to his “inadvertence” and because
he “simply didn’t believe the defendant[.]” Id. at 410.
The post-conviction court concluded that the store
clerk’s testimony, as that of a disinterested alibi
witness, was significant. Id. at 411. The store clerk’s
testimony would have not only “greatly enhance[d]
the defense[‘s] case if it stood alone” but it would
have served to corroborate “the otherwise
impeachable testimony of 12 additional alibi
witnesses.” Id. The post-conviction hearing judge
determined that, “the failure to investigate the only
available disinterested alibi witness fell below the
standard of reasonably effective assistance required
by Strickland.” Id. (emphasis in original). The
Seventh Circuit affirmed. Id. at 416. In doing so, the
court observed that the neutral, unbiased store clerk
was the linchpin for the alibi defense. Id. at 413-14.
The testimony was particularly impactful because,
without the disinterested witness testimony, the case
was “a straightforward credibility choice” between
twelve defense witnesses and four prosecution
witnesses, all of whom had family ties to each other.
Id. at 414.
As was consistently true in the cases cited in In re
Parris W., a trial attorney’s failure to investigate a
potential alibi witness ordinarily will fall below the
standard of reasonable professional judgment
because it undermines the adversarial testing
process inherent in a contested case. See Strickland,
466 U.S. at 690, 104 S. Ct. at 2066, 80 L.Ed.2d 674
(“In making that determination, the court should
keep in mind that counsel’s function, as elaborated in

21a
prevailing professional norms, is to make the
adversarial testing process work in the particular
case.”). Counsel’s duty is “to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691, 104 S. Ct. at 2066, 80
L.Ed.2d 674. Counsel cannot form a sound trial
strategy without an “adequate investigation and
preparation.” Coleman, 434 Md. at 338, 75 A.3d at
927.
The post-conviction court’s factual findings indicate
that Mr. Syed’s attorney had ample notice of the
existence of Ms. McClain as an alibi witness. The
post-conviction court found, for example, that on July
13, 1999 “[Mr. Syed] informed trial counsel’s law
clerk that [Ms.] McClain saw [Mr. Syed] at the
Woodlawn Public Library at around 3:00 p.m. on
January 13, 1999.” The notes in defense counsel’s file
also included the notation that “[Ms. McClain] and
her boyfriend saw [Mr. Syed] in [the] library.” Those
notes in the attorney’s files did not indicate that
counsel or her staff investigated Ms. McClain’s
statements or evaluated the two letters in which Ms.
McClain offered herself as an alibi. The postconviction court found that sometime “prior to trial”
Mr. Syed gave to his attorney two letters from Ms.
McClain, one dated March 1, 1999 and the other
dated March 2, 1999. In the letters, Ms. McClain
claimed to have seen Mr. Syed on the afternoon of
January 13, 1999 at the Woodlawn Public Library at
2:15 p.m. and offered herself as a witness to his

22a
whereabouts for part of that day.13 Finally, the postconviction court found that “[a]lthough trial counsel
had notice of the potential alibi witness, neither she
nor her staff ever contacted [Ms.] McClain.”
We uphold the factual findings of the postconviction court unless those findings are clearly
erroneous. See Newton v. State, 455 Md. 341, 351,
168 A.3d 1, 7 (2017). Notwithstanding that principle,
the parties do not dispute that Mr. Syed’s counsel
failed to investigate Ms. McClain as a potential alibi
witness. Trial counsel’s failure to investigate or
inquire into whether Ms. McClain might aid Mr.
Syed’s defense did not meet the standard of
reasonable professional judgment. Mr. Syed’s trial
counsel failed to even contact Ms. McClain. This lack
of exploration of Ms. McClain, whom trial counsel
learned of as early as July 13, 1999 and for whom
trial counsel had contact information, falls short of
the tenets of a criminal defense attorney’s minimum
duty to investigate the circumstances and facts of the
case. See American Bar Ass’n, ABA Standards for
Criminal Justice, 4-4.1 (3rd ed. 1993) (“Defense
counsel should conduct a prompt investigation of the
circumstances of the case and explore all avenues
leading to facts relevant to the merits of the case[.]”);
see also Rompilla v. Beard, 545 U.S. 374, 387, 125 S.
Ct. 2456, 2466, 162 L.Ed.2d. 360 (2005) (“We long
have referred to these ABA Standards as guides to
determining
what
is
reasonable.”
(internal
quotations and citations omitted)).

13

The Court of Special Appeals quoted Ms. McClain’s two
letters in full in its Opinion. Syed, 236 Md. App. at 251-55, 181
A.3d at 898-900.

23a
The Court of Special Appeals explained that, “no
reasonable evaluation of the advantages or
disadvantages of [Ms.] McClain’s alibi testimony, as
compared to an alibi defense based on [Mr.] Syed’s
habit or routine, could be made without first
contacting [Ms.] McClain.” Syed, 236 Md. App. at
272, 181 A.3d at 911. We agree.
At a minimum, due diligence obligated Mr. Syed’s
trial counsel to contact Ms. McClain in an effort to
explore her potential as an alibi witness. An attorney
cannot be said to be carrying out the ABA’s
requirement of due diligence without conducting a
factual investigation of an alibi witness who claims
to have knowledge of the defendant’s whereabouts on
the day of the crime in question. Even if Mr. Syed’s
trial counsel knew what facts Ms. McClain would
present about seeing Mr. Syed on January 13, 1999,
trial counsel should have nevertheless made a bona
fide effort to investigate Ms. McClain. An
investigation could have verified Ms. McClain’s
assertions as well as revealed whether Ms. McClain
was a disinterested witness. Our conclusion does not
change in spite of the “heavy measure of deference to
counsel’s judgments” required by Strickland. 466
U.S. at 687, 691, 104 S. Ct. at 2064, 2066, 80 L.Ed.2d
674. Where a defendant provides his or her counsel
with information about an alibi witness, the attorney
has an affirmative duty to make reasonable efforts to
investigate the information that was provided. Thus,
the performance of an attorney who clearly failed to
effectuate her duty to investigate a potential alibi
witness, or provide a reasonable explanation for not
investigating the witness, would be deficient under
Strickland.

24a
In the present case, Mr. Syed gave trial counsel the
name and address along with facts about the
testimony the potential witness would offer. Mr.
Syed’s trial counsel had received this information
and, therefore, had a duty to investigate Ms.
McClain as a potential alibi witness. By all accounts,
trial counsel did not conduct any inquiry of Ms.
McClain. Trial counsel neither confirmed Ms.
McClain’s statements, nor indicated in her case file
the reasons why she did not investigate Ms.
McClain’s background or alibi. Mr. Syed’s trial
counsel’s task list dated September 4, 1999 indicated
that one task was to “[m]ake determination
regarding alibi[,]” and a hand-written “urgent”
appeared next to this entry. We are mindful of
Strickland’ s wisdom that “[r]epresentation is an art,
and an act or omission that is unprofessional in one
case may be sound or even brilliant in another.” 466
U.S. at 693, 104 S. Ct. at 2067, 80 L.Ed.2d 674.
Documentation, though, is not an art. To the extent
that an attorney documents the steps of his or her
investigation is a reflection of that attorney’s
minimal competence and not a reflection of trial
strategy. If trial counsel had interviewed Ms.
McClain and decided that the information Ms.
McClain had about Mr. Syed’s whereabouts on the
afternoon of January 13, 1999 was not helpful to Mr.
Syed’s case, a notation in the file indicating as much
would have plainly defeated Mr. Syed’s argument on
his claim of ineffective assistance of counsel. Without
some indication to the contrary, we cannot conclude
that trial counsel’s failure to interview a potential
alibi witness was the result of a reasonable trial
strategy.

25a
We hold that trial counsel did not satisfy her duty
“to make [a] reasonable investigation[] or . . . make a
reasonable decision that makes a particular
investigation[ ] unnecessary.” Strickland, 466 U.S. at
691, 104 S. Ct. at 2066, 80 L.Ed.2d 674. Under the
circumstances, trial counsel knew in advance of trial
the identity of and how to contact Ms. McClain. Trial
counsel also knew the nature of her potential
testimony, yet still failed to contact the witness prior
to trial or make an effort to communicate with her.
Moreover, trial counsel’s failure to attempt to contact
the witness prior to trial did not constitute a
reasonable tactical or strategic decision because it
was not based upon an adequate investigation of the
facts. See State v. Borchardt, 396 Md. 586, 604, 914
A.2d 1126, 1136 (2007). Although trial counsel was
not available, as a result of her death, to testify at
the post-conviction proceedings to explain why she
did not attempt to make a reasonable investigation
of Ms. McClain’s background or alibi, her case file
notes were admitted into evidence during those
proceedings. Her notes, however, did not explain why
the investigation of Ms. McClain was unnecessary or
why she failed to ascertain whether Ms. McClain’s
testimony would aid the defense.
Our holding is limited to the narrow question of
whether trial counsel was deficient for failing to
investigate Ms. McClain as an alibi witness. Because
we conclude that counsel was deficient for failing to
investigate Ms. McClain, we need not and do not hold
that trial counsel was deficient for failing to call Ms.
McClain as an alibi witness at trial.
The State strongly advocates that we adopt a broad
bright-line rule that would never allow a defendant

26a
to prevail on the deficiency prong of the Strickland
test in the absence of trial counsel’s reasoning for his
or her failure to investigate an alibi witness.
According to the State, “where the record is silent—
or even just incomplete or ambiguous—proper
application
of
Strickland’s
presumption
of
competence requires that a court deny relief.”
Applied here, the State’s reasoning is grounded in
the fact that Mr. Syed’s trial counsel was unable—
due to her death—to explain why she did not contact
Ms. McClain as part of trial preparations. Therefore,
according to the State, Mr. Syed could not have met,
and did not meet, the high burden that Strickland
demands. The State would have this Court rule that
whenever a record is silent as to the reasons why
trial counsel failed to investigate a potential alibi
witness, the defendant may never prevail on an
ineffective assistance of counsel claim because a
reviewing court could not declare trial counsel’s
performance deficient. A ruling such as this would
divorce this Court from its obligation to review the
totality of the circumstances of ineffective assistance
claims through the lens of an “objective standard of
reasonableness.” Strickland, 466 U.S. at 687-88, 104
S. Ct. at 2064, 80 L.Ed.2d 674 (“When a convicted
defendant complains of the ineffectiveness of
counsel’s assistance, the defendant must show that
counsel’s representation fell below an objective
standard of reasonableness. More specific guidelines
are not appropriate.”). We are not persuaded that
such a sweeping mandate accomplishes the goal that
Strickland sought to achieve, namely, that of a just
result.

27a
Additionally, the State argues that any attempt by
this Court to rely on cases where the record was not
silent as to counsel’s reasoning, such as Griffin, is a
means of “turning Strickland on its head.” We resist
this siren call, as well. A silent record cannot be the
sole determinant in our reasonableness assessment.
Such a result would betray Strickland’s decree that a
“court must [] determine whether, in light of all the
circumstances, the identified acts or omissions were
outside the wide range of professionally competent
assistance.” 466 U.S. at 690, 104 S. Ct. at 2066, 80
L.Ed.2d 674 (emphasis added). Whether trial
counsel’s omission was due to neglect, an intentional
strategic decision, or some other reason altogether,
we hold that Mr. Syed’s trial counsel’s performance
fell below the standard of reasonable professional
judgment and was, therefore, deficient.
Whether Trial Counsel’s Deficient Performance
Prejudiced Mr. Syed
The second-prong of the Strickland standard
requires the defendant to show prejudice. Id. at 687,
104 S. Ct. at 2064, 80 L.Ed.2d 674. A showing of
prejudice is present where “there is a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different.” Id. at 694, 104 S. Ct. at 2068, 80 L.Ed.2d
674. We have explained that under this standard a
defendant “must show either: (1) a reasonable
probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been
different; or (2) that the result of the proceeding was
fundamentally unfair or unreliable.” Newton v. State,
455 Md. 341, 355, 168 A.3d 1, 9 (2017) (quoting
Coleman v. State, 434 Md. 320, 340, 75 A.3d 916, 928

28a
(2013) (cleaned up)). The Strickland Court described
a reasonable probability as “a probability sufficient
to undermine confidence in the outcome.” 466 U.S. at
694, 104 S. Ct. at 2068, 80 L.Ed.2d 674. We have
interpreted reasonable probability to mean “there
was a substantial or significant possibility that the
verdict of the trier of fact would have been affected.”
Bowers v. State, 320 Md. 416, 426, 578 A.2d 734, 739
(1990). A reviewing court’s determination of
prejudice to the defendant “must consider the
totality of the evidence before the judge or jury.”
Strickland, 466 U.S. at 695, 104 S. Ct. at 2069, 80
L.Ed.2d. 674.
Important to the present case is the principle that
even if a court has found that an attorney’s
performance was deficient, the court does not
presume the defendant suffered prejudice as a result
of the deficient performance. See Weaver v.
Massachusetts, 582 U.S. ____, ____, 137 S. Ct. 1899,
1910, 198 L.Ed.2d 420 (2017) (“The prejudice
showing is in most cases a necessary part of a
Strickland claim. The reason is that a defendant has
a right to effective representation, not a right to an
attorney who performs his duties ‘mistake-free.”)
(internal citation omitted). In other words, every
mistake made by trial counsel does not cause
prejudice to the defendant’s case. See, e.g., St. Cloud
v. Leapley, 521 N.W.2d 118, 128 (S.D. 1994) (holding
that attorney’s failure to investigate the defendant’s
tribal court file offended reasonable professional
judgment but that the failure did not prejudice the
case); see Brewer v. Hall, 603 S.E.2d. 244, 247 (Ga.
2004) (holding that appellate counsel’s failure to
present the testimony of trial counsel at an

29a
evidentiary hearing was deficient but that,
ultimately, trial counsel’s performance was not
deficient; thus, appellate counsel’s performance
caused no prejudice); see also Moreland v. Robinson,
813 F.3d 315, 329 (6th Cir. 2016) (holding that even
if counsel’s failure to use police reports at trial to
challenge a discrepancy was deficient performance,
the defendant was not prejudiced). A court’s
evaluation of the prejudice prong under Strickland
asks, “whether it is ‘reasonably likely’ the result
would have been different” if not for counsel’s
deficient performance. Harrington v. Richter, 562
U.S. 86, 111, 131 S. Ct. 707, 792, 178 L.Ed.2d 624
(2011); see also Bowers v. State, 320 Md. 416, 426,
578 A.2d 734, 739 (1990) (holding that the Strickland
prejudice standard is best described as “a substantial
or significant possibility that the verdict of the trier
of fact would have been affected.”). More succinctly,
“[t]he likelihood of a different result must be
substantial, not just conceivable.” Harrington, 562
U.S. at 112, 131 S. Ct. at 792, 178 L.Ed.2d 624.
Our analysis begins with the State’s theory of Mr.
Syed’s involvement in the murder of Ms. Lee. The
State focused primarily on Mr. Syed’s actions on the
evening of January 13, 1999. During the six-hour
period from approximately 2:00 p.m. after school
dismissed to approximately 8:00 p.m., the State’s
strongest evidence against Mr. Syed related to the
period of time Mr. Syed was involved in burying Ms.
Lee’s body in Leakin Park and the subsequent
abandonment of Ms. Lee’s car. The State relied on
the testimony of Jay Wilds (“Mr. Wilds”) to establish
that Mr. Syed buried the victim in Leakin Park at
approximately 7:00 p.m. Mr. Wilds testified that Mr.

30a
Syed received two calls to his cell phone during the
time that Mr. Syed was preparing the burial site for
the victim’s body. The State introduced Mr. Syed’s
cell phone records to corroborate Mr. Wilds’s
testimony. The cell phone records showed that Mr.
Syed’s cell phone received two incoming calls, one at
7:09 p.m. and one at 7:16 p.m. The State’s expert
testified that the cell towers where the calls were
received connected with cell sites that encompassed
Leakin Park, which is where Ms. Lee’s body was
discovered. The State also relied on the testimony of
Jennifer Pusateri (“Ms. Pusateri”). Ms. Pusateri’s
testimony served to corroborate the fact of the
incoming call at 7:09 p.m. or 7:16 p.m. as well as to
place Mr. Syed and Mr. Wilds together at the time of
that call. Ms. Pusateri testified that she received a
message from Mr. Wilds to call him, so she tried to
reach him using the number that was on her caller
I.D. from his message. When she called and asked to
speak with Mr. Wilds, the person who answered the
phone responded that Mr. Wilds was busy and would
call her back. The State proved that the number Ms.
Pusateri called was the number for Mr. Syed’s cell
phone. About ten to fifteen minutes after that call,
according to Ms. Pusateri, she met Mr. Wilds in a
parking lot where she saw Mr. Wilds get out of a car
that Mr. Syed was driving.
Additionally the State presented evidence that this
was a crime of premeditation and deliberation. For
example, through Mr. Wilds’s testimony, the State
established that Mr. Syed told Mr. Wilds on January
13, 1999, hours before the murder, referring to Ms.
Lee, “I’m going to kill that bitch.” According to Mr.
Wilds, while he and Mr. Syed were standing near the

31a
victim’s car in the Best Buy parking lot, Mr. Syed
showed Mr. Wilds the victim’s body in the trunk and
boasted, “I killed somebody with my bare hands.”
Also at that time, Mr. Wilds observed Mr. Syed
wearing red gloves. Following this conversation, Mr.
Syed directed Mr. Wilds to follow him, in Mr. Syed’s
car as Mr. Syed drove the victim’s car, to a Park and
Ride on Interstate 70. Thereafter, according to Mr.
Wilds, Mr. Syed said that he needed to return to
school so that he could be seen at track practice.
They left the victim’s car parked at the Park and
Ride and drove back to Mr. Syed’s school in his car.
In her discovery responses, Mr. Syed’s counsel
presented a theory that Mr. Syed had a routine of
attending track practice after school followed by
attending prayer service at his mosque. On October
4, 1999, Mr. Syed’s trial counsel issued an alibi
notice to the State, in which she stated:
On January 13, 1999, Adnan Masud Syed
attended Woodlawn High School for the
duration of the school day. At the conclusion of
the school day, the defendant remained at the
high school until the beginning of his track
practice.[14] After track practice, Adnan Syed
went home and remained there until attending
services at his mosque that evening. These
witnesses will testify as to the defendant’s
regular attendance at school, track practice,
and the Mosque; and that his absence on
January 13, 1999 would have been noticed.
14

The Woodlawn High School track coach testified that track
practice was “every day after school, after their study hall . . .
approximately 4:00 [p.m.] to 5:30 [p.m.], 6 [p.m.].”

32a
The notice also included the names of over eighty
individuals who would testify as to Mr. Syed’s
routine involving track practice and the Mosque. See
Md. Rule 4-263(e)(4) (explaining that defendant is
required to furnish to the State’s Attorney “the name
and . . . the address of each person other than the
defendant whom the defense intends to call as a
witness to show that the defendant was not present
at the time, place, or date designated by the State’s
Attorney[.]”); see also McLennan v. State, 418 Md.
335, 352, 14 A.3d 639, 649 (2011) (adopting the
definition of alibi witness as “a witness whose
testimony ‘must tend to prove that it was impossible
or highly improbable that the defendant was at the
scene of the crime when it was alleged to have
occurred.’ (quoting Ferguson v. State, 488 P.2d 1032,
1039 (Alaska 1971))); see also Jackson v. State, 22
Md. App. 257, 260, 322 A.2d 574, 576 (1974) (“Proof
of an alibi, like any other defense testimony, is
simply a means of controverting the State’s effort to
establish criminal agency.”). This alibi notice to the
State was consistent with the statements Mr. Syed
had made to the police on prior occasions.
On the evening of January 13, 1999, Officer Scott
Adcock spoke with Mr. Syed inquiring about Mr.
Syed’s knowledge of the whereabouts of Ms. Lee. At
that time, Mr. Syed told Officer Adcock that “he was
suppose[d] to get a ride home from the victim, but he
got detained at school and felt that she just got tired
of waiting and left.” Mr. Syed did not provide Officer
Adcock with an explanation of what detained him or
what he did after school. Two weeks after the initial
conversation with Officer Adcock, Mr. Syed was

33a
interviewed by Detective O’Shea on January 25,
1999. At that time, Mr. Syed said that he had
attended track practice after school on January 13,
1999. Detective O’Shea spoke with Mr. Syed again on
February 1, 1999 to ask him if he remembered
telling Officer Adcock that Ms. Lee was waiting to
give him a ride after school. At that time, Mr. Syed
told Detective O’Shea that “[Officer Adcock’s
information] was incorrect because he drives his own
car to school so he wouldn’t have needed a ride from
her.” When Mr. Syed was interviewed on February
26, 1999, he told investigators that he could not
remember what he did on January 13, 1999.
Although Mr. Syed offered conflicting statements to
law enforcement about needing a ride after school,
the conflict in those statements was not inconsistent
with whether he attended track practice that day.
In his post-conviction petition, Mr. Syed relied on
Ms. McClain’s contention that she observed him in
the Woodlawn Public Library on the afternoon of
January 13, 1999. Specifically, Ms. McClain averred
in her 2015 affidavit that she saw Mr. Syed between
2:30 p.m. and 2:40 p.m. and had a conversation with
him at that time. In assessing Ms. McClain’s value
as an alibi for Mr. Syed, her letters tended to show
that Mr. Syed and the victim were not together
between 2:30 p.m. and 2:40 p.m. on January 13,
1999. 15 Even taking Ms. McClain’s statements as
15

Ms. McClain has offered various times when she observed
Mr. Syed at the Woodlawn Public Library. For example, in her
letter to Mr. Syed dated March 1, 1999, Ms. McClain indicates
that she could help account for his “unaccountable lost time
(2:15 [p.m.] — 8:00 [p.m.]; Jan. 13th).” In the affidavit dated
March 25, 2000, Ms. McClain avers that she had been in the
library waiting for a ride at 2:20 p.m. when she saw Mr. Syed

34a
true, her alibi does little more than to call into
question the time that the State claimed Ms. Lee was
killed and does nothing to rebut the evidence
establishing Mr. Syed’s motive and opportunity to
kill Ms. Lee. Thus, the jury could have disbelieved
that Mr. Syed killed Ms. Lee by 2:36 p.m., as the
State’s timeline suggested, yet still believed that Mr.
Syed had the opportunity to kill Ms. Lee after 2:40
p.m. Ms. McClain’s testimony, according to her
affidavit, failed to account for Mr. Syed’s
whereabouts after 2:40 p.m. on January 13, 1999.
Likewise, Mr. Syed’s statements to the police fail to
and “held a 1520 minute conversation” with him and that she
left around 2:40 p.m. In Ms. McClain’s affidavit dated January
13, 2015, she alleges that she saw Mr. Syed enter the library “at
around 2:30 p.m.” and had a conversation with him at that time
and that she “left the library around 2:40 [p.m.]”. Had the jury
heard Ms. McClain’s alibi, her testimony could have been more
problematic than helpful to Mr. Syed’s case. For example, Ms.
McClain’s belief about Mr. Syed’s whereabouts on the afternoon
of January 13, 1999 did not comport with the theory that Mr.
Syed’s routine was to attend track practice after school because
his routine did not involve going to the Woodlawn Public
Library. Also, Ms. McClain’s letter dated March 1, 1999
indicated that she would “try [her] best to help [Mr. Syed]
account for some of [his] unwitnessed, unaccountable lost time
(2:15 — 8:00; Jan. 13th).” The jury could have concluded that
Ms. McClain’s statement was an offer to fabricate an alibi for
Mr. Syed, thereby undermining Ms. McClain’s credibility as a
disinterested witness. Given this potential, we cannot say there
is a substantial probability that the jury would have discounted
Mr. Wilds’s testimony in favor of Ms. McClain’s testimony.
Furthermore, Ms. McClain’s testimony could have been more
harmful than helpful because it would have created another
inconsistency in Mr. Syed’s case. Namely, Ms. McClain’s
testimony would have interjected facts into the case that were
inconsistent with Mr. Syed’s statements that he needed a ride
after school.

35a
account for his whereabouts after 2:15 p.m. when
school let out. Therefore, even if the alibi testimony
had been admitted into evidence it could not have
affected the outcome of the case because that
evidence did not negate Mr. Syed’s criminal agency.
To conclude that Mr. Syed allegedly suffered
prejudice as a result of his trial counsel’s deficient
performance, we must determine in light of all of the
evidence before the jury, that “there was a
substantial or significant possibility” that the jury’s
verdict would have been affected by the deficient
performance. See Bowers, 320 Md. at 426, 578 A.2d
at 739. The Court of Special Appeals provided a
thorough recounting of the evidence that the State
established in its case in chief, which included a
combination of witness testimony, cell phone
technology evidence, and some forensic evidence. See
Syed, 236 Md. App. at 196-06, 181 A.3d at 867-72.
The State, however, “adduced no direct evidence of
the exact time that [Ms. Lee] was killed, the location
where she was killed, the acts of the killer
immediately before and after [Ms. Lee] was
strangled, and of course, the identity of the person
who killed [Ms. Lee].” Id. at 284, 181 A.3d at 917.
Whether the State’s case was “a strong
circumstantial case,” as the Court of Special Appeals
described it, or a case built upon a combination of
direct and circumstantial evidence, is of no
consequence under the Strickland analysis. Compare
Hebron v. State, 331 Md. 219, 226, 627 A.2d 1029,
1032 (1993) (“Maryland has long held that there is
no difference between direct and circumstantial
evidence.”) with Strickland, 466 U.S. at 696, 104 S.
Ct. at 2069, 80 L.Ed.2d 674 (“[A] verdict or

36a
conclusion only weakly supported by the record is
more likely to have been affected by errors than one
with overwhelming record support.”). Our analysis
considers the totality of the evidence before the jury.
See Strickland, 466 U.S. at 695, 104 S. Ct. at 2069,
80 L.Ed.2d 674.
With that in mind, we highlight some of the more
crucial evidence the State relied on to prove its case.
Mr. Wilds testified that Mr. Syed had complained of
Ms. Lee’s treatment of him and said that he intended
“to kill that bitch.” Mr. Wilds claimed to have seen
the body of Ms. Lee in the trunk of her car at the
Best Buy parking lot. Ms. Pusateri, a friend of Mr.
Wilds, told police, and testified at trial consistent
with those statements, that Mr. Wilds told her that
Ms. Lee had been strangled. At the time Ms.
Pusateri relayed this information to the police, the
manner of Ms. Lee’s death had not been publicly
released. Mr. Syed’s cell phone records showed him
receiving a call in the vicinity of Leakin Park at the
time that Mr. Wilds claimed he and Mr. Syed were
there to bury Ms. Lee’s body. Mr. Wilds directed the
police to the location of Ms. Lee’s abandoned vehicle,
which law enforcement had been unable to find for
weeks. Mr. Syed’s palm print was found on the back
cover of a map book that was found inside Ms. Lee’s
car; the map showing the location of Leakin Park
had been removed from the map book. Various
witnesses, including Ms. Pusateri, Nisha Tanna, and
Kristina Vinson, testified to either seeing or
speaking by cell phone with Mr. Wilds and Mr. Syed
together at various times throughout the afternoon
and evening on January 13, 1999.

37a
Given the totality of the evidence the jury heard,
we conclude that there is not a significant or
substantial possibility that the verdict would have
been different had trial counsel presented Ms.
McClain as an alibi witness. Ms. McClain would
have been an alibi witness who contradicted the
defendant’s own statements, which were themselves
already internally inconsistent; thus Ms. McClain’s
proffered testimony could have further undermined
Mr. Syed’s credibility. Moreover, Ms. McClain’s
account was cabined to a narrow window of time in
the afternoon of January 13, 1999. Her testimony
would not have served to rebut the evidence the
State presented relative to Mr. Syed’s actions on the
evening of January 13, 1999. At best, her testimony
would have highlighted Mr. Syed’s failure to account
precisely for his whereabouts after school on January
13, 1999. Trial counsel’s deficient performance,
therefore, could not have prejudiced Mr. Syed in light
of the totality of the evidence presented to the jury.
Ultimately, the post-conviction court reached the
same conclusion as we do here. That court viewed
Ms. McClain’s testimony in light of “the crux of the
State’s case” which “did not rest on the time of the
murder.” The post-conviction court reasoned that the
State placed Mr. Syed in Leakin Park at
approximately 7:00 p.m. on January 13, 1999
through the testimony of Mr. Wilds and the cell
phone location evidence. With this theory in mind,
the post-conviction court concluded that Ms.
McClain’s testimony “would not have been able to
sever this crucial link” between Mr. Syed burying
Ms. Lee’s body and the State’s evidence supporting

38a
that allegation. The Court of Special Appeals,
however, disagreed with the post-conviction court.
The intermediate appellate court suggested that
the post-conviction court failed to consider that in
order to convict Mr. Syed of first-degree murder, the
State needed to prove that Mr. Syed “caused the
death” of Ms. Lee. 236 Md. App. at 281, 181 A.3d at
916. According to the intermediate appellate court,
“[t]he burial of [Ms. Lee] was not an element that the
State needed to prove in order to convict [Mr.] Syed.”
Id. Accordingly, “the State’s theory of when, where,
and how [Mr.] Syed caused [Ms. Lee’s] death was
critical to proving this element of the crime.” Id. To
that end, the Court of Special Appeals concluded that
Ms. McClain’s alibi testimony would have “directly
contradicted the State’s theory of when [Mr.] Syed
had the opportunity and did murder [Ms. Lee].” Id.
at 284, 181 A.3d at 917-18. The Court of Special
Appeals insisted that it did not consider Ms.
McClain’s testimony in isolation. Id. at 282, 181 A.3d
at 917. Nevertheless, clearly that court analyzed Ms.
McClain’s testimony exclusively against a backdrop
of what evidence was absent from the State’s case
with respect to the timing of Ms. Lee’s death. See id.
at 28384, 181 A.3d at 917 (listing evidence that
might have been used to establish the State’s
timeline of the murder but was not). In light of the
absence of evidence by the State relative to the time
of Ms. Lee’s murder and the fact that the evidence
against Mr. Syed was circumstantial, the Court of
Special Appeals surmised that one piece of evidence
in the form of Ms. McClain’s alibi would have
“altered the entire evidentiary picture.” Id. at 284,

39a
181 A.3d at 917-18 (citing Strickland, 466 U.S. at
696, 104 S. Ct. at 2069).
A reviewing court’s rejection of significant
circumstantial evidence in the face of a singular
piece of potential evidence undermines the
evidentiary value of circumstantial evidence. We
have previously opined:
Circumstantial evidence need not be such that
no possible theory other than guilt can
stand. . . . It is not necessary that the
circumstantial
evidence
exclude
every
possibility of the defendant’s innocence, or
produce an absolute certainty in the minds of
the jurors. . . . While it must afford the basis
for an inference of guilt beyond a reasonable
doubt, it is not necessary that each
circumstance, standing alone, be sufficient to
establish guilt, but the circumstances are to be
considered collectively.
Hebron v. State, 331 Md. 219, 227, 627 A.2d 1029,
1033 (1993) (citations omitted) (cleaned up). A
reviewing court must consider the entirety of the
evidence against the post-conviction petitioner who
has made a claim of ineffective assistance of counsel,
rather than separately weigh the circumstantial
evidence against the direct evidence. See Strickland,
466 U.S. at 695, 104 S. Ct. at 2069, 80 L.Ed.2d. 674.
In the case sub judice, the State’s case against Ms.
Syed was based, inter alia, on the testimony of Mr.
Wilds, the cell tower location evidence, as well as the
testimony of individuals who not only corroborated
Mr. Wilds’s testimony but also corroborated the cell
tower location evidence. Furthermore, the State
proved that Mr. Syed had the motive and the

40a
opportunity to take Ms. Lee’s life on January 13,
1999. As the post-conviction court noted in its first
Memorandum Opinion, 16 “[a]s a motive, the State
presented evidence that [Mr. Syed] was jealous and
enraged at the victim’s new romantic relationship
with another man.” The medical examiner
determined that Ms. Lee had died by strangulation.
The post-conviction court observed that the State
established through Mr. Wilds’s testimony that Mr.
Syed “called Mr. Wilds from a payphone . . . at 2:36
p.m. on January 13, 1999 to request a ride.”
According to Mr. Wilds’s testimony, Mr. Syed
“opened the trunk of the victim’s car, revealing the
victim’s lifeless body . . . told Mr. Wilds that he had
strangled the victim and bragged, ‘I killed someone
with my bare hands.’” The post-conviction court
found that the “State corroborated [Mr.] Wilds[‘s]
testimony with [Mr. Syed’s] cell phone records.”
Finally, the post-conviction court observed that,
“the crux of the State’s case did not rest on the time
of the murder. In fact, the State presented a
relatively weak theory as to the time of the murder
because the State relied upon inconsistent facts to
support its theory.” In other words, the State did not
rely on the time of the victim’s murder as much as it
relied on the substantial circumstantial evidence
that pointed to Mr. Syed’s motive and his
transportation and burial of the victim’s body to
establish his guilt. In reaching its conclusion that
16

The facts presented in the Statement of the Case in the
post-conviction court’s subsequent Memorandum Opinion
(“Memorandum Opinion II”) were substantially the same as in
its first Memorandum Opinion, but some details in
Memorandum Opinion II were abbreviated.

41a
Mr. Syed was not prejudiced by his trial counsel’s
failure to investigate Ms. McClain, the postconviction court identified the State’s testimonial
evidence and the evidence used to corroborate that
testimonial evidence, which, taken together,
established Mr. Syed’s motive and his opportunity to
fatally strangle Ms. Lee. Ms. McClain’s alibi
provided evidence of Mr. Syed’s whereabouts for a
narrow period of time, whereas the State’s case
covered a much more expanded period of time on
January 13, 1999. We agree with the post-conviction
court, and in doing so, depart from the view of the
Court of Special Appeals that the State’s evidence
failed to establish Mr. Syed’s criminal agency.17
Given our task of determining whether there is a
“substantial or significant” possibility that the jury’s
verdict would have been affected, we consider the
totality of the evidence. Under the circumstances,
the State’s case against Respondent could not have
been substantially undermined merely by the alibi
testimony of Ms. McClain because of the substantial
direct and circumstantial evidence pointing to Mr.
Syed’s guilt. See Harrington, 562 U.S. at 112, 131 S.
Ct. at 792, 178 L.Ed.2d 624 (noting that the
prejudice standard under Strickland means “[t]he
likelihood of a different result must be substantial,
not just conceivable.”).

17

We observe without further comment that Mr. Syed did not
challenge on direct appeal the sufficiency of the evidence of the
State’s case against him.

42a
Whether Respondent Waived Argument
Regarding Cell Tower Location Evidence
Parties’ Contentions
In his conditional cross-petition, Mr. Syed suggests
that the Court of Special Appeals drew itself into
conflict with this Court’s opinion in Curtis v. State,
284 Md. 132, 395 A.2d 238 (1978), when the
intermediate appellate court held that Mr. Syed had
waived his ineffective assistance of counsel claim
based on the allegation that his trial counsel failed to
challenge cell-tower location data. Mr. Syed
describes his ineffective-assistance claim variously
as a separate, free-standing, factually distinct
allegation of error that independently entitles him to
relief. According to Mr. Syed, because the allegation
of error he makes is premised on a fundamental
right, the waiver provision in the post-conviction
statute, as interpreted by Curtis, can only be waived
intelligently and knowingly. Mr. Syed suggests that
there is no sound reason for this Court to abandon
the well-established, and frequently affirmed,
precedent established by Curtis, which he argues, is
that the right to counsel is sufficiently fundamental
to require a knowing and intelligent waiver under
the post-conviction statute. With respect to the
holding of the Court of Special Appeals, Mr. Syed
argues that the distinction that that court made
between the issue of a violation of a fundamental
right and the grounds supporting such a claim is a
semantic distinction with no relevance. Finally, Mr.
Syed points this Court to an analogous context in
federal law, the federal habeas exhaustion
requirement. In that context, Mr. Syed argues that

43a
ineffective assistance claims with different factual
predicates must be treated separately.
The State responds to Mr. Syed’s cross-petition
urging this Court to affirm the Court of Special
Appeals. The State points to a number of important
distinctions between the facts of Curtis and Mr.
Syed’s case. The defendant in Curtis had never
raised the issue of ineffective assistance of counsel in
any prior court case.18 Whereas in the present case,
Mr. Syed set forth numerous grounds for finding
ineffective assistance of counsel in his postconviction petition. Additionally, the State argues
that Curtis was decided when the General Assembly
permitted a defendant to file an unlimited number of
post-conviction
petitions.
Since
Curtis,
the
Legislature has repeatedly circumscribed the
number of post-conviction petitions that a person
may file. In 1986, the Legislature limited the number
of post-conviction filings to two, then in 1995 further
limited the number of filings to one. According to the
State, adopting Mr. Syed’s reading of Curtis would
effectively undermine the General Assembly’s
legislative intent.
Waiver of Allegation of Error
The waiver provision contained in the Uniform
Postconviction Procedure Act (“UPPA”) provides for
waiver of an allegation of error when:
(b)(1)(i) Except as provided in subparagraph
(ii) of this paragraph, an allegation of error is
waived when a petitioner could have made but

18

Curtis v. State, 284 Md. 132, 134, 395 A.2d 464, 466 (1978).

44a
intelligently and knowingly failed to make the
allegation:
1. before trial;
2. at trial;
3. on direct appeal, whether or not the
petitioner took an appeal;
4. in application for leave to appeal a
conviction based on a guilty plea;
5. in a habeas corpus or coram nobis
proceeding began by the petitioner;
6. in a prior petition under this subtitle; or
7. in any other
petitioner began.

proceeding

that

the

***
(2) When a petitioner could have made an
allegation of error at a proceeding set forth in
paragraph (1)(i) of this subsection but did not
make an allegation of error, there is a
rebuttable presumption that the petitioner
intelligently and knowingly failed to make the
allegation.
Md. Code Ann., Criminal Procedure Article, § 7-106
(2001, 2008 Repl. Vol., 2017 Supp.) (“Crim. Pro.
Art.”).
In our opinion in Curtis, we explored the principles
of waiver as they related to the predecessor to Crim.
Pro. Art., § 7-106, which was then codified as part of
the Maryland Post Conviction Procedure Act, Article
27, § 645A. In 1967, Mr. Curtis was convicted of first
degree murder. 284 Md. 132, 134, 395 A.2d 464, 466.
Thereafter, he unsuccessfully challenged his
conviction on appeal, then filed, with the assistance

45a
of counsel, a post-conviction petition. Id. After a
hearing, the Circuit Court denied Mr. Curtis relief
and he was subsequently denied an application for
leave to appeal. Id. Six years after his first petition
was denied, Mr. Curtis filed a second petition for
post-conviction relief, arguing for the first time that
he had been denied effective assistance of counsel at
his trial, on appeal and during his post-conviction
proceedings. Id. We summarized the ineffective
assistance of counsel claims contained in his second
petition for post-conviction relief as follows:
With respect to the trial, the allegation was
based on the trial attorney’s failure to request
a jury instruction on alibi, failure to request
an instruction that voluntary intoxication
could reduce first degree murder to second
degree murder, failure of trial counsel to object
to hearsay testimony of certain witnesses, and
failure of counsel to request an instruction on
the defense of “diminished capacity.” The
allegation that Curtis’s second attorney was
inadequate was grounded upon that attorney’s
failure at the first post conviction proceeding
to raise the issue of previous counsel’s
ineffectiveness.
Id. at 134-35, 395 A.2d at 466. In granting certiorari
in that case, we reviewed the holding of the Court of
Special Appeals which concluded that “a waiver was
found to exist even though, under the proffered facts
. . . the defendant himself had not ‘intelligently and
knowingly’ failed to raise the question of trial
counsel’s alleged inadequate representation.” Id. at
137, 395 A.2d at 468. We reversed the intermediate
appellate court and explained that its holding

46a
“virtually does away with the concept of ‘waiver’ as
an intelligent and knowing failure to raise an issue.”
Id. at 140, 395 A.2d at 468. Our conclusion was
founded on a standard of whether the post-conviction
petitioner “was previously ‘aware of and understood
the possible defense[,] “ such as in cases where the
facts established that the defendant lacked
comprehension. Id. at 140, 395 A.2d at 469. Thus, we
held that in situations where “the [post-conviction]
petitioner establishes that he did not in fact
intelligently and knowingly fail to raise an issue
previously, such issue cannot be deemed to have
been waived.” Id.
Next, in that opinion, we signaled that our holding
in Mr. Curtis’s case was not dispositive of all cases in
which “there has been a failure to raise a matter
previously.” Id. at 141, 395 A.2d at 469. Specifically,
we narrowed the applicability of the principles of
waiver within the context of the post-conviction
statute to “those circumstances where the waiver
concept of Johnson v. Zerbst[19] and Fay v. Noia[20] was
applicable.” Id. at 149, 395 A.2d at 474. In other
words, only “where the courts have required an
19

304 U.S. 458, 58 S. Ct. 1019, 82 L. Ed. 1461 (1938). We
described Johnson v. Zerbst, which involved a defendant who
was tried and convicted without the presence of counsel, as the
“cornerstone” case involving the “waiver of certain basic
constitutional rights.” Curtis v. State, 284 Md. 132, 142-43, 395
A.2d 464, 470 (1978).
20

372 U.S. 391, 83 S. Ct. 822, 9 L.Ed.2d 837 (1963). Fay v.
Noia involved a defendant who “failed to appeal a murder
conviction even though it was undisputed that a coerced
confession was used against him at trial.” Curtis, 284 Md. at
144, 395 A.2d at 471. The Supreme Court reversed the lower
court’s finding that the defendant had waived his claim. Id.

47a
‘intelligent and knowing’ standard” would we apply
the waiver provision of the Maryland Post Conviction
Procedure Act. See id. at 148, 395 A.2d at 473. We
cautioned that any construction of the postconviction statute must not “lead to an unreasonable
or illogical result[,]” and that “[i]f . . . the General
Assembly intended to make [the waiver provision]
. . . applicable every time counsel made a tactical
decision or a procedural default occurred, the result
could be chaotic.” Id. at 149, 395 A.2d at 474. In the
case of Mr. Curtis, we held that because his
allegations involved the inadequacy of his trial
counsel’s representation, which invoked the
“intelligent and knowing” waiver standard of
Johnson v. Zerbst, the issue of ineffective assistance
of counsel could not be said to have been waived and
we remanded for consideration of his claims. Id. at
150-51, 395 A.2d at 474-75.
Mr. Syed suggests that the Court of Special
Appeals drew itself into conflict with the holding of
Curtis because the intermediate appellate court
concluded that Mr. Syed’s claim of ineffective
assistance of counsel based on counsel’s failure to
challenge cell-tower location evidence had been
waived. According to Mr. Syed, because his claim,
like Mr. Curtis’s claim, invokes a fundamental right,
i.e. the right to counsel, the claim was subject to the
statutory requirement of knowing and intelligent
waiver.
As the Court of Special Appeals recognized, Curtis
was decided when the UPPA permitted an unlimited
number of post-conviction petition filings. See Syed,
236 Md. App. at 224, 181 A.3d at 883. Since that
time the Legislature has limited the number of post-

48a
conviction petitions a person may file to one. See
Crim. Pro. Art. § 7-103(a) (“For each trial or
sentence, a person may file only one petition for
relief under this title.”). In Alston v. State, we
thoroughly examined the legislative history of
Chapter 110 of the Acts of 1995. 425 Md. 326, 33436, 40 A.3d 1028, 1033-35 (2012). The law, which
originated as Senate Bill 340 (“S.B. 340”), modified
the number of petitions a person could file. Id. at
335, 40 A.3d at 1034. The amendment also provided
a reopening provision “in the interests of justice”
which was “for the purpose of providing a safeguard
for the occasional meritorious case where the
convicted person had already filed one postconviction
petition.” Id. at 335, 40 A.3d at 1034 (case citations
omitted); see also Crim. Pro. Art. § 7-104. 21 We
cautioned, however, that the reopening provision
“was not to authorize a second postconviction
petition with all of the requirements applicable to
postconviction petitions[.]” Id. In our discussion of
the legislative materials relative to these changes to
the Act, we quoted the testimony of the Governor’s
Chief Legislative Officer, who explained, “[c]ommon
sense dictates that the defendant should include all
grounds for relief in one petition. The right to file a
second postconviction petition simply affords the . . .
defendant an unwarranted opportunity for delay.”
Id. at 336, 40 A.3d at 1034. Additionally, the bill file
contained the testimony of the chairperson of the
committee that drafted S.B. 340. Id. The
chairperson’s testimony explained that, “[t]here is
21

Crim. Pro. Art. § 7-104 provides, “The court may reopen a
postconviction proceeding that was previously concluded if the
court determines that the action is in the interests of justice.”

49a
simply no need for routine second petitions—counsel
can and should put all claims into a first petition. At
the federal level, a defendant gets only one habeas
corpus petition; he should not get more than one
post-conviction petition.” Id.
In its analysis in the present case, the Court of
Special Appeals echoed these telling statements from
the legislative history of the 1995 amendments to the
post-conviction statute. Syed, 236 Md. App. at 239,
181 A.3d at 891. Based upon the legislative history,
the intermediate appellate court concluded that the
Legislature’s intention was for a post-conviction
petitioner to raise “all claims cognizable under the
UPPA in his or her original petition.” Syed, 236 Md.
App. at 239, 181 A.3d at 892. We point out that
previously we have observed that the purpose of the
introduction of the doctrine of waiver in the UPPA
“was to achieve finality in the criminal adjudicative
process, without unduly interfering with a
defendant’s right to fully present his case before a
court.” Arrington v. State, 411 Md. 524, 548, 983 A.2d
1071, 1085 (2009). The Legislature’s emphasis on
bringing all cognizable claims in one and only one
petition under the UPPA serves to underscore our
holding. Mr. Syed’s claim of ineffective assistance of
counsel on the basis that his counsel failed to
challenge the cell tower location evidence was waived
because he did not raise that as a ground when
advancing his ineffective assistance of counsel claim
in his petition.
We reject Mr. Syed’s suggestion that the holding of
Curtis applies to his case. Unlike in Curtis, Mr. Syed
did not fail to raise a claim of ineffective assistance of
counsel in his petition for post-conviction relief. Mr.

50a
Syed advanced a claim of ineffective assistance of
counsel and provided nine bases upon which that
claim was premised. Those grounds were fully
litigated at a hearing on October 11, 2012 and
October 25, 2012. Whereas Mr. Curtis had not
previously advanced his claim of ineffective
assistance of counsel, thus implicating the possibility
that he had waived review of a fundamental right,
that is not the scenario in the present case. The
Court of Special Appeals reasoned:
To extend Curtis’s requirement of a knowing
and intelligent waiver from the issue of
ineffective assistance of counsel to every
ground that could support such claim would
run counter to the legislative history and
purpose of Chapter 110 of the Acts of 1995,
because it would allow a petitioner to raise
claims of ineffective assistance of counsel on
grounds not previously raised ad infinitum.
Syed, 236 Md. App. at 239, 181 A.3d at 892. The
Legislature’s various amendments to the UPPA,
which have curtailed the filing of successive postconvictions petitions, support this conclusion. The
Legislature unmistakably intended to discourage a
post-conviction petitioner from failing to raise all
claims, and the grounds or allegations supporting
those claims, for post-conviction relief in one petition.
When Mr. Syed advanced a claim of ineffective
assistance of counsel in his one post-conviction
petition under the UPPA but failed to assert all
grounds upon which that claim is made, he waived
any allegation upon which the ineffective assistance
of counsel claim could have been made but was not.
Permitting otherwise would result in an end-run

51a
around the UPPA’s limit to one post-conviction
petition and, importantly, the Legislature’s intention
to achieve finality in the context of post-conviction
litigation.22
Finally, recognizing that the case of Bahm v.
Indiana, 794 N.E.2d 444 (Ind. Ct. App. 2003), is only
persuasive authority for us, we nevertheless observe
that our holding in the present case is consistent
with that of our brethren jurisdiction. In response to
a petition for rehearing, the intermediate appellate
court clarified its earlier opinion with regard to
petitioner’s request for post-conviction relief. In
affirming its previous decision, the intermediate
appellate court explained in a succinct opinion that
upon remand issues that were previously waived “as
free-standing arguments” may be raised as an
argument supporting a claim of ineffective assistance
of counsel with the caveat that “for an argument to
be available in post-conviction proceedings as a
reason why counsel was ineffective, the petitioner
must have raised such ground in his petition for
post-conviction relief.” Id. at 445 (emphasis added).
CONCLUSION
For the reasons stated herein, we agree with the
conclusion of the Court of Special Appeals that Mr.
Syed’s trial counsel’s performance was deficient
22

The Court of Special Appeals relied on a footnote in the
case of Wyche v. State, 53 Md. App. 403, 454 A.2d 378 (1993) to
conclude that the “many different grounds that may be
advanced in support of a claim of a violation of a fundamental
right are not themselves a fundamental right.” Syed, 236 Md.
App. at 233, 181 A.3d at 888. Given our interpretation of the
legislative intent of the UPPA, we need not reach the question
of the authoritative value of the footnote in Wyche.

52a
under the Strickland v. Washington standard in
failing to investigate the alibi witness. We disagree,
however, with that court’s conclusion that Mr. Syed
was prejudiced by his trial counsel’s deficiency.
Finally, we agree with the holding of the
intermediate appellate court that Mr. Syed waived
his claim of ineffective assistance of counsel related
to his trial counsel’s failure to challenge cell-tower
location data. Accordingly, we hold that Mr. Syed
waived this claim under the waiver provision of the
UPPA. Because we conclude that trial counsel’s
deficient performance in one aspect of her
representation did not prejudice Mr. Syed within the
meaning of Strickland, we reverse the judgment of
the intermediate appellate court.
JUDGMENT OF THE COURT OF SPECIAL
APPEALS REVERSED. CASE REMANDED TO
THAT COURT WITH DIRECTIONS TO
REVERSE THE JUDGMENT OF THE CIRCUIT
COURT FOR BALTIMORE CITY WHICH
GRANTED RESPONDENT A NEW TRIAL.
COSTS TO BE PAID BY RESPONDENT.

53a
IN THE COURT OF APPEALS OF MARYLAND
September Term, 2018
_______
STATE OF MARYLAND
v.
ADNAN SYED
_______
No. 24
________
Appeal from the Circuit Court for Baltimore City
Case No. 199103042 through 199103046
_______
Argued: November 29, 2018
_______
Barbera, C.J.
Greene
McDonald
Watts
Hotten
Getty
Adkins, Sally D., (Senior Judge, Specially Assigned),
JJ.
_______
Concurring Opinion by Watts, J.
_______
Filed: March 8, 2019

54a
_______
Respectfully, I concur. As the Supreme Court
observed in Strickland v. Washington, 466 U.S. 668,
689 (1984), “[i]t is all too tempting for a defendant to
second-guess counsel’s assistance after conviction or
adverse sentence, and it is all too easy for a court,
examining counsel’s defense after it has proved
unsuccessful, to conclude that a particular act or
omission of counsel was unreasonable.” (Citation
omitted).
I fully agree with the Majority that, by failing to
raise the contention in the petition for postconviction
relief, Adnan Syed, Respondent/Cross-Petitioner,
waived the contention that he received ineffective
assistance of trial counsel with regard to his trial
counsel’s cross-examination of the wireless network
expert of the State, Petitioner/Cross-Respondent. See
Maj. Slip Op. at 44. I also agree with the Majority
that Syed was not prejudiced by his trial counsel’s
decision to refrain from contacting or calling as a
witness Asia McClain, an alleged alibi witness.1 See
Maj. Slip Op. at 44. Accordingly, I join the Majority’s
decision to reverse the Court of Special Appeals’s
judgment and remand to that Court with
instructions to reverse the Circuit Court for
Baltimore City’s judgment, and to remand to the
circuit court with instructions to deny the petition for
postconviction relief. See id. at 44-45.
1

Although the potential alibi witness’s current last name is
Chapman, her last name was McClain during the events that
gave rise to Syed’s convictions, and she has used her former last
name during the postconviction proceeding in this case. Thus, I
refer to her by her former last name.

55a
I do not, however, join all of the Majority’s
reasoning. Although I agree with the Majority that
Syed has failed to prove that his trial counsel’s
performance prejudiced him, I disagree with the
Majority that Syed has proven that his trial counsel’s
performance was deficient. See id. at 44. In my view,
Syed has failed to rebut the “strong presumption
that [his trial] counsel’s conduct [fell] within the
wide range of reasonable professional assistance[.]”
Strickland, 466 U.S. at 689 (citation omitted).
Most importantly, in light of the Majority’s
determination regarding the lack of prejudice, it is
unnecessary for the Majority to address whether
Syed has proven deficient performance, and the
Majority’s determination in this regard is merely
dicta. Thus, to the extent that the Majority implies
that trial counsel is always deficient for failing to
investigate or contact a potential alibi witness, these
comments are dicta and do not constitute precedent
of this Court.
To establish ineffective assistance of counsel, a
defendant must prove both deficient performance
and prejudice. See id. at 687. Where a court
determines that a defendant has failed to satisfy
either the performance prong or the prejudice prong,
the court may end its inquiry without addressing the
other prong. See id. at 697. As the Supreme Court
instructed in Strickland, id.:
Although we have discussed the performance
component of an ineffectiveness claim prior to
the prejudice component, there is no reason
for a court deciding an ineffective
assistance claim to approach the inquiry in
the same order or even to address both

56a
components of the inquiry if the
defendant makes an insufficient showing
on one. In particular, a court need not
determine
whether
counsel’s
performance
was
deficient
before
examining the prejudice suffered by the
defendant as a result of the alleged
deficiencies. The object of an ineffectiveness
claim is not to grade counsel’s performance. If
it
is
easier
to
dispose
of
an
ineffectiveness claim on the ground of
lack of sufficient prejudice, which we
expect will often be so, that course
should be followed.
(Emphasis added). In other words, a court may—and,
under certain circumstances, “should”—dispose of a
claim of ineffective assistance of counsel by
addressing only the prejudice prong. Id.
In multiple cases, this Court has done exactly that,
relying on the above-quoted portion of Strickland, id.
For example, in Newton v. State, 455 Md. 341, 366,
168 A.3d 1, 15 (2017), this Court concluded that a
defendant’s trial counsel’s and appellate counsel’s
performances did not prejudice him, and thus did not
address the performance prong. This Court observed:
“Strickland [] instructs that courts . . . need [not]
address both prongs in every case.” Newton, 455 Md.
at 356, 168 A.3d at 9 (citing two cases, including
Strickland, 466 U.S. at 697). In Gross v. State, 371
Md. 334, 355, 809 A.2d 627, 639 (2002), this Court
explained: “We need not ‘grade’ counsel’s
performance in failing to object or determine
whether counsel’s performance was deficient, []
Strickland, 466 U.S. at 697, [] because[,] even if

57a
[counsel’s]
failure
to
object
was
deficient
performance, [the defendant] was not prejudiced.”
And, in Yoswick v. State, 347 Md. 228, 246, 700 A.2d
251, 259 (1997), this Court determined: “We need not
address the question of whether counsel’s advice
constituted deficient representation because we find
that [the defendant] has failed to show that he was
prejudiced by [counsel’s] advice.” (Citing two cases,
including Strickland, 466 U.S. at 697).
Similar to Newton, Gross, and Yoswick, in this
case, because the Majority concludes that Syed has
failed to prove prejudice, the Majority need not
address whether deficient performance was proven.
Thus, significantly, all of the Majority’s comments on
the performance prong are dicta because they are not
necessary to the holding that Syed did not receive
ineffective assistance of trial counsel, i.e., the
Majority’s observations concerning trial counsel’s
alleged deficient performance and the need to contact
the alleged alibi witness have no precedential value.
That said, given that the Majority addresses the
performance prong, I will comment on the matter as
well. Contrary to the majority opinion, I would hold
that it is reasonable for a defendant’s trial counsel to
refrain from contacting a potential alibi witness
where trial counsel already knows of the potential
alibi witness’s version of events, and it is reasonable
for a defendant’s trial counsel to refrain from calling
a potential alibi witness where the potential alibi
witness’s testimony could prejudice the defendant by
contradicting the defendant’s pretrial statements to
law
enforcement
officers,
contradicting
the
defendant’s trial counsel’s reasonable choice of

58a
defense strategy, and/or otherwise appearing to be a
fabrication.
Where a defendant’s trial counsel has sufficient
information to know of a potential alibi witness’s
version of events, it does not constitute deficient
performance for the defendant’s trial counsel to
refrain from contacting the potential alibi witness to
confirm what trial counsel already knows. Indeed, as
the Supreme Court instructed in Strickland, 466
U.S. at 691, “when the facts that support a certain
potential line of defense are generally known to
counsel because of what the defendant has said, the
need for further investigation may be considerably
diminished or eliminated altogether.” And, as the
Supreme Court of Montana unanimously stated: “`A
claim of failure to interview a witness may sound
impressive in the abstract, but it cannot establish
ineffective assistance when the person’s account is
otherwise fairly known to defense counsel.’” State v.
Thomas, 946 P.2d 140, 144 (Mont. 1997) (quoting
United States v. Decoster, 624 F.2d 196, 209
(D.C.Cir.1976) (plurality op.)). By way of illustration,
in Weaver v. State, 114 P.3d 1039, 1042, 1044 (Mont.
2005) (plurality op.), where a defendant’s trial
counsel received police reports and recordings of
interviews “demonstrating the existence of potential
alibi witnesses,” a plurality of the Supreme Court of
Montana concluded that the defendant’s trial
counsel’s decision to refrain from contacting the
potential alibi witnesses was reasonable because “the
record demonstrate[d] that [the defendant’s trial
counsel] knew the possible accounts of exculpatory
testimony that may have been solicited from [the]
potential [alibi] witnesses.”

59a
Here, I would conclude that Syed has failed to
rebut the presumption that it was reasonable for his
trial counsel to refrain from contacting McClain, as
Syed’s trial counsel already knew McClain’s version
of events. The circuit court found that, before trial,
Syed gave McClain’s letters to his trial counsel; and,
in those letters, McClain described her alleged
interactions with Syed on January 13, 1999—i.e., the
date on which Hae Min Lee was murdered. In her
March 1, 1999 letter, McClain stated in pertinent
part: “I’m not sure if you remember talking to me in
the library on Jan 13th, but I remembered chatting
with you. . . . My boyfriend [(Derrick Banks)] and his
best friend [(Gerrod Johnson)] remember seeing you
there too.” McClain mentioned “the Woodlawn Public
Library[,]” thus making it clear that she was
referring to the public library, not the school library.2
McClain identified a timeframe in the following
sentence: “I will try my best to help you account for
some of your unwitnessed, unaccountable lost time
(2:15 - 8:00; Jan 13th).” In her March 2, 1999 letter,
McClain reiterated that, on January 13, 1999, she
and Syed had allegedly spoken to each other in the
public library.
In addition to McClain’s letters, notes from Syed’s
defense file demonstrate that his trial counsel was
2

The Woodlawn Branch of the Baltimore County Public
Library is at 1811 Woodlawn Drive. See Baltimore County
Public
Library,
Woodlawn
Branch,
https://www.
bcpLinfo/locations/woodlawn/index.html
[https://perma.cc/2G9D-62H9]. Woodlawn High School is nextdoor, at 1801 Woodlawn Drive. See Contact, Woodlawn High
School,
http://woodlawnhs.bcps.org/contact
school
[https://perma.cc/S3L2-74JJ].

60a
aware of McClain’s version of events. Undated notes
from Syed’s defense file state: “Asia + boy[]friend saw
him in Library 2:15 - 3:15[.]” Notes from Syed’s
defense file dated July 13, 1999 state: “Asia McClain
→ saw him in the library @ 3:00[.]” Immediately
below that, the following language appears: “Asia
boyfriend saw him too[.]” Under these circumstances,
like the defendant’s trial counsel in Weaver, 114 P.3d
at 1044, Syed’s trial counsel “knew the possible
accounts of exculpatory testimony that may have
been solicited from” a potential alibi witness. There
is no indication in the record—or, indeed, any
allegation whatsoever—that Syed’s counsel would
have gained any new material information by
speaking to McClain. Indeed, in his brief, Syed
acknowledges that his “trial counsel knew what
McClain would say[.]”
By determining that Syed’s trial counsel needed to
contact McClain, the Majority effectively purports to
adopt a bright-line rule that a defendant’s trial
counsel must always contact every single potential
alibi witness whom the defendant identifies before
trial. Ironically, both Syed and the majority of the
panel of the Court of Special Appeals have expressly
denied that they have espoused such a bright-line
rule—but that is essentially what the Majority has
set forth. At oral argument, Syed’s postconviction
counsel claimed that Syed’s position was not “that
there’s a per se rule that, every time there’s a[
potential] alibi witness, [he or] she must be
contacted.” Similarly, the majority of the panel of the
Court of Special Appeals insisted that it did not “say,
or imply, that there is a bright[-]line rule with
respect to ineffective assistance of counsel claims.”

61a
Syed v. State, 236 Md. App. 183, 271 n.37, 181 A.3d
860, 910 n.37 (2018) (internal quotation marks
omitted). Nonetheless, the Majority states that lamn
attorney cannot be said to be carrying out the
[American Bar Association]’s requirement of due
diligence without conducting a factual investigation
of an alibi witness who claims to have knowledge of
the defendant’s whereabouts on the day of the crime
in question.” Maj. Slip Op. at 19. And the Majority,
Maj. Slip Op. at 15, favorably quotes the following
statement by the Eighth Circuit in Grooms v. Solem,
923 F.2d 88, 90 (8th Cir. 1991): “Once a defendant
identifies potential alibi witnesses, it is unreasonable
not to make some effort to contact them to ascertain
whether their testimony would aid the defense.”
(Citing Lawrence v. Armontrout, 900 F.2d 127, 129
(8th Cir. 1990); Tosh v. Lockhart, 879 F.2d 412, 414
(8th Cir. 1989)).
I would decline to adopt the bright-line rule the
Majority has essentially espoused. In my view, such
a bright-line rule is inconsistent with the Supreme
Court’s mandate that, “[i]n any ineffectiveness case,
a particular decision not to investigate must be
directly assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.” Strickland, 466
U.S. at 691. Strickland, id., indicates that, in
determining whether a defendant’s trial counsel’s
decision to refrain from contacting a potential alibi
witness was reasonable, a court must consider the
circumstance that the defendant’s trial counsel
already knows of the potential alibi witness’s version
of events—which may obviate any need for the

62a
defendant’s trial counsel to contact the potential alibi
witness.
Tellingly, in each of the three aforementioned
Eighth Circuit cases—i.e., Grooms, Lawrence, and
Tosh—a defendant’s trial counsel failed to contact a
potential alibi witness where there was no indication
that the defendant’s trial counsel knew of the
potential alibi witness’s version of events. In Grooms,
923 F.2d at 89-90, a defendant’s trial counsel did not
contact a garage, and thus did not find out whether
anyone who worked at the garage remembered
whether the defendant’s truck had been repaired
there on the date of the crimes with which the
defendant had been charged. In Lawrence, 900 F.2d
at 128-29, at a postconviction hearing, a defendant
testified that he asked his trial counsel to interview
two potential alibi witnesses “who would have
corroborated [the] story” of his girlfriend, who “was
his main alibi witness”; the defendant’s trial counsel
testified that she interviewed the defendant’s
girlfriend and one of the other potential alibi
witnesses; the defendant’s trial counsel also testified
that the defendant’s girlfriend attempted to contact
yet another potential alibi witness; and, as far as the
Eighth Circuit’s opinion reveals, the defendant’s trial
counsel did not know the versions of events of the
two potential alibi witnesses whom she did not
interview. In Tosh, 879 F.2d at 413-14, at trial, a
defendant’s
girlfriend
testified
that,
at
approximately the time of the crimes with which the
defendant had been charged, one of her neighbors
confronted the defendant, and the neighbor’s sister
and father were present during the confrontation;
the defendant’s trial counsel did not contact the

63a
neighbor or his sister; and, as far as the Eighth
Circuit’s opinion reveals, the defendant’s trial
counsel did not know of the neighbor’s or his sister’s
versions of events.
Given that Grooms, Lawrence, and Tosh involved
defendants’ trial counsel who evidently lacked
information about potential alibi witnesses’ versions
of events, the Eighth Circuit’s edict that, “[o]nce a
defendant identifies potential alibi witnesses, it is
unreasonable not to make some effort to contact
them to ascertain whether their testimony would aid
the defense” is inapplicable here. Grooms, 923 F.2d
at 90 (citing Lawrence, 900 F.2d at 129; Tosh, 879
F.2d at 414).
I am unpersuaded by Syed’s postconviction
counsel’s contention at oral argument that, despite
knowing the contents of McClain’s letters, his trial
counsel was required to contact McClain to ask
questions such as: “Who was with you? Can they
come? What was the camera?” As to the first
question, Syed’s trial counsel already knew who was
with McClain; in her March 1, 1999 letter, McClain
stated that Banks (her boyfriend) and Johnson
(Banks’s friend) also saw Syed in the public library.
As to the second question, McClain could not have
known for certain whether Banks and/or Johnson
would be willing to testify on Syed’s behalf. As to the
third question, McClain was a high school student at
the time, and thus could not have been expected to
know how the public library’s surveillance cameras
functioned, or whether it would have been possible to
retrieve any recordings from January 13, 1999.
Further, at oral argument, the Special Assistant
Attorney General advised that, at the second

64a
postconviction hearing, a manager who had worked
at the public library testified that recordings from
the public library’s surveillance cameras were
maintained for only a matter of days. Under these
circumstances, Syed clearly failed to rebut the
presumption of reasonableness concerning trial
counsel not contacting McClain.
Having concluded that Syed has failed to rebut the
presumption that it was reasonable for his trial
counsel to refrain from contacting McClain, I would
address the issue of whether Syed has rebutted the
presumption that it was reasonable for his trial
counsel to refrain from calling McClain as a witness
at trial.3

3

In his brief, Syed contends that the majority of the panel of
the Court of Special Appeals “appropriately rejected the State’s
explanations for why Syed’s [trial] counsel could potentially
have believed it to be unnecessary to present the alibi at trial”
because “[t]he challenged conduct at issue was [Syed’s] trial
counsel’s failure even to contact [McClain] before trial.”
(Emphasis in original). Syed is mistaken to the extent that he
argues that this Court must exclusively analyze his trial
counsel’s refraining from contacting McClain, and that this
Court cannot analyze his trial counsel’s refraining from calling
McClain as a witness. To establish ineffective assistance of
counsel, Syed must prove both deficient performance and
prejudice. Syed would be unable to establish prejudice if his
claim of ineffective assistance of counsel was based exclusively
on his trial counsel’s refraining from contacting McClain. After
all, it would have made no difference to the second trial if
Syed’s trial counsel had contacted McClain, but then refrained
from calling her as a witness. Indeed, in his brief, Syed argues
that his “trial counsel’s failure to contact [McClain] and present
her testimony to the jury” prejudiced him. Thus, it is necessary
for this Court to analyze Syed’s trial counsel’s refraining from
calling McClain as a witness.

65a
In resolving that issue, I would hold that it is
reasonable for a defendant’s trial counsel to refrain
from calling a potential alibi witness where his or
her testimony could prejudice the defendant. As the
Supreme Court mandated in Strickland, 466 U.S. at
691, “when a defendant has given counsel reason to
believe that pursuing certain investigations
would be fruitless or even harmful, counsel’s
failure to pursue those investigations may not later
be challenged as unreasonable.” (Emphasis added).
Although this principle from Strickland, id., pertains
to trial counsel’s decision as to whether to pursue an
investigation, there is no reason why the principle
should not apply with equal force to trial counsel’s
decision as to whether to call a witness. I agree with
the Fourth Circuit that “[a]n attorney’s failure to
present available exculpatory evidence is ordinarily
deficient, unless some cogent tactical or other
consideration justified it.” Griffin v. Warden, Md.
Corr. Adjustment Ctr., 970 F.2d 1355, 1358 (4th Cir.
1992) (citing, among other cases, Lawrence, 900 F.2d
at 130, and Grooms, 923 F.2d at 90) (internal
quotation mark omitted). I also agree with the
Eighth Circuit that “not every failure to call a[
potential] alibi [witness] will render an attorney’s
performance deficient. For example, the decision not
to use alibi testimony may reflect the reasonable
exercise of judgment in view of the attorney’s concern
As discussed below, I would conclude that, in light of
information of which Syed’s trial counsel was aware, McClain’s
testimony could have prejudiced Syed. That conclusion supports
both Syed’s trial counsel’s decision to refrain from contacting
McClain and her decision to refrain from calling McClain as a
witness.

66a
that the testimony would be conflicting, or otherwise
unfavorable[.]” Tosh, 879 F.2d at 414 (citations
omitted).
One way in which a potential alibi witness’s
testimony could prejudice the defendant is by
contradicting the defendant’s pretrial statements to
law enforcement officers. For example, in Broadnax
v. State, 130 So. 3d 1232, 1260, 1248-49 (Ala. Crim.
App. 2013), the Court of Criminal Appeals of
Alabama unanimously held that a defendant’s trial
counsel’s performance was not deficient where the
defendant’s trial counsel allegedly failed to
adequately investigate an alibi. In Broadnax, id. at
1237, on a certain date, sometime after 6:00 p.m., the
defendant’s wife and her grandson visited the
defendant at his workplace. At approximately 9:00
p.m., in a town that was a ninety-minute drive away
from the town where the defendant lived and
worked, law enforcement officers saw blood on and
near the defendant’s wife’s vehicle; the officers
summoned paramedics, who opened the trunk and
discovered the bodies of the defendant’s wife and her
grandson. See id. at 1237-38, 1249. At approximately
10:30 p.m., witnesses saw the defendant at his
workplace. See id. at 1239. The defendant told law
enforcement officers that he had last seen his wife at
8:20 p.m., and that he had been at his workplace
until 10:45 p.m. See id. Consistent with his pretrial
statement to the officers, at trial, the defendant’s
theory of the case was that he was at his workplace
all evening. See id. The government’s theory of the
case was that the defendant killed his wife at his
workplace at approximately 6:30 p.m., put her body
and her grandson into her vehicle, drove to the town

67a
where their bodies were found, killed his wife’s
grandson, and got a ride back to his workplace, to
which he returned by approximately 10:30 p.m. See
id. In a petition for postconviction relief, the
defendant contended that his trial counsel were
ineffective because they failed to discover certain
potential alibi witnesses. See id. at 1248-49. At a
postconviction hearing, the potential alibi witnesses
testified that, at 9:00 p.m. on the date of the
murders, they saw the defendant at his work-release
facility. See id. at 1249. A trial court denied the
petition for postconviction relief. See id. at 1268.
The Court of Criminal Appeals of Alabama
unanimously affirmed. See id. The Court of Criminal
Appeals concluded that the defendant had failed to
prove that his trial counsel’s performance was
deficient, as, before trial, the defendant told both his
trial counsel and law enforcement officers that, at
9:00 p.m. on the date of the murders, he had been at
his workplace, not his work-release facility. See id. at
1258. The Court of Criminal Appeals observed that,
at trial, the government had offered evidence that
the defendant made three false pretrial statements
to the officers—namely, that his work uniform (on
which blood was found) had been stolen, that his wife
had left his workplace at 8:20 p.m., and that he had
telephoned his brother from his workplace at
approximately 9:00 p.m. See id. at 1257. These three
statements were demonstrably false because there
had been no report of a stolen work uniform, his
wife’s body had been found at approximately 9:00
p.m. in a town that was a ninety-minute drive away
from the town where he lived and worked, and there
was no record of a telephone call from the

68a
defendant’s workplace to his brother’s residence on
the night of the murders. See id. The Court of
Criminal
Appeals
explained
that,
in
the
postconviction proceeding, the defendant “argue[d],
essentially, that his trial counsel should have
investigated and presented evidence to the jury that
[he] had lied to the police a fourth time—when he
had said that he was at [his workplace] until 10:45
p.m. the night of the murders.” Id. at 1257-58
(footnote omitted). The Court of Criminal Appeals
stated:
[E]ven if [the defendant’s] counsel had some
basis for possibly thinking that [the
defendant] had lied to them and to the police[,]
and may have, in fact, been at [his workrelease facility] at 9:00 p.m., given that it
was clear that [the defendant] had lied to
the police regarding other things, we
cannot say that any decision to forgo
attempting to further impugn their
client’s
credibility
by
presenting
additional evidence of [the defendant]’s
lying to the police was unreasonable.
Id. at 1258 (emphasis added).
Another way in which a potential alibi witness’s
testimony could prejudice a defendant is by
contradicting the defendant’s trial counsel’s
reasonable choice of defense strategy. For example,
in Weeks v. Senkowski, 275 F. Supp. 2d 331, 341,
336 (E.D.N.Y. 2003), the United States District
Court for the Eastern District of New York concluded
that a defendant’s trial counsel’s performance was
not deficient where the defendant’s trial counsel did
not investigate multiple potential alibi witnesses. In

69a
Weeks, id. at 335, at trial, the government offered
evidence that the defendant and four accomplices
broke into an apartment and murdered two children.
In a habeas corpus proceeding, the defendant alleged
that he had provided his trial counsel with the
names of seven potential alibi witnesses, whom his
trial counsel failed to interview or otherwise
investigate. See id. at 341. The defendant also
alleged that he was drinking with the potential alibi
witnesses for several hours on the date of the
murders. See id.
The District Court concluded that there was “little
doubt that [the defendant’s] trial counsel’s refusal to
investigate the potential for an alibi . . . was a sound
strategic choice.” Id. The District Court noted that
three of the seven potential alibi witnesses had been
charged with the same murders as the defendant.
See id. The District Court explained that the
defendant’s trial counsel did not need “to pursue a
trial strategy in which [the] defense would be that he
was with the other [defendant]s drinking in a
different location; to do so would require [the
defendant]
to,
in
essence,
disprove
the
[government]’s ironclad case against the other
defendants.” Id. The District Court explained, that,
“[i]nstead, [the defendant’s trial] counsel reasonably
channeled his efforts toward suggesting to the jury
that [the defendant] was not at the crime scene[,]
where . . . the other defendants were” murdering the
victims. Id.
Commonwealth v. Rainey, 928 A.2d 215, 234 (Pa.
2007) is an example of a case in which a potential
alibi witness’s testimony could have prejudiced a
defendant by contradicting both the defendant’s

70a
pretrial statement to law enforcement officers and
the defendant’s trial counsel’s reasonable choice of
defense strategy. In Rainey, id. at 233-34, the
Supreme Court of Pennsylvania held that a
defendant’s trial counsel’s performance was not
deficient where the defendant’s trial counsel did not
investigate potential alibi witnesses in a murder
case. In a postconviction proceeding, the defendant
alleged that, before trial, he told his trial counsel
that five potential alibi witnesses would testify that,
on the night of the murder, the defendant spent the
entire night at their residence. See id. at 233. The
defendant’s trial counsel indicated that the defense
strategy was to concede that the defendant had been
involved with the murder, and argue that he was
guilty of a lesser degree of murder than first-degree
murder. See id. The trial court denied the petition for
postconviction relief. See id. at 220.
The Supreme Court of Pennsylvania vacated the
trial court’s order, remanded for an evidentiary
hearing on an issue that was unrelated to alibi
witnesses, and affirmed “[i]n all other respects[.]” Id.
The Supreme Court of Pennsylvania determined that
there was “[a] reasonable basis for not introducing
[the] purported alibi evidence[,]” as, before trial, the
defendant admitted to a law enforcement officer that
he had been present at the scene of the murder. See
id. at 234. The Supreme Court of Pennsylvania
explained that, although the government had not
offered the defendant’s pretrial statement during its
case-in-chief, if the defendant had offered evidence of
an alibi, the government likely would have offered
the defendant’s pretrial statement in rebuttal. See
id. The Supreme Court of Pennsylvania stated that

71a
the defendant’s trial “[c]ounsel was not ineffective for
declining to open the door for [the defendant]’s
[pretrial] statement to police.” Id. The Supreme
Court of Pennsylvania also noted that evidence of an
alibi “would have contradicted [the] defense strategy”
of conceding that the defendant had been involved
with the murder, and arguing that the defendant
was guilty of a lesser degree of murder than firstdegree murder—”which was reasonable[,] given the
testimony of” two eyewitnesses to the murder. See id.
at 234, 220-21.
“When a convicted defendant complains of the
ineffectiveness of counsel’s assistance, the defendant
must show that counsel’s representation fell below
an objective standard of reasonableness.”
Strickland, 466 U.S. at 687-88 (emphasis added). In
other words, a court must engage in “an inquiry into
the objective reasonableness of counsel’s
performance, not counsel’s subjective state of
mind.” Harrington v. Richter, 562 U.S. 86, 110
(2011) (citing Strickland, 466 U.S. at 688) (emphasis
added). Thus, a court must “affirmatively entertain
the range of possible reasons [that the
defendant]’s counsel may have had for proceeding as
they did[.]” Cullen v. Pinholster, 563 U.S. 170, 196
(2011) (cleaned up) (emphasis added).
In applying an objective standard of reasonableness
to claims of ineffective assistance of trial counsel, the
Supreme Court has inquired into what a reasonable
lawyer in the defendant’s trial counsel’s position
could, or could not, have decided. For example, in
Richter, 562 U.S. at 106, in assessing a claim of
ineffective assistance of trial counsel, the Supreme
Court stated: “It was at least arguable that a

72a
reasonable attorney could decide to forgo inquiry
into the blood evidence in the circumstances here.”
(Emphasis added). Similarly, in Rompilla v. Beard,
545 U.S. 374, 389 (2005), in assessing a claim of
ineffective assistance of trial counsel, the Supreme
Court stated: “No reasonable lawyer would forgo
examination of the file[,] thinking [that] he [or she]
could do as well by asking the defendant or family
relations whether they recalled anything helpful or
damaging in the [] victim’s testimony.” (Emphasis
added). Likewise, here, the question is not what
Syed’s trial counsel’s rationale was, but rather what
the rationale of a reasonable lawyer in Syed’s trial
counsel’s position could have been.
Significantly, there is not necessarily only one
answer to that question. “Even the best criminal
defense attorneys would not defend a particular
client in the same way.” Strickland, 466 U.S. at 689
(citation omitted). Thus, a court’s role is not to
pinpoint the best decision that a reasonable lawyer
in the defendant’s trial counsel’s position could have
possibly made; instead, the court must determine
whether the defendant’s trial counsel’s decision was
“within the wide range of reasonable professional
assistance[.]” Id. (emphasis added). In other words,
“[t]he
question
is
whether
an
attorney’s
representation amounted to incompetence under
‘prevailing professional norms,’ not whether it
deviated from best practices or most common
custom.” Richter, 562 U.S. at 105 (citing Strickland,
466 U.S. at 690).
The question is whether a reasonable lawyer in
Syed’s trial counsel’s position could have refrained

73a
from calling McClain as a witness.4 I would answer
that question unequivocally in the affirmative, and
would conclude that Syed has failed to rebut the
presumption that it was reasonable for his trial
counsel to refrain from calling McClain as a witness,
as her testimony could have prejudiced Syed by
contradicting his pretrial statements to law
enforcement officers, contradicting his trial counsel’s
reasonable choice of defense strategy, and otherwise
appearing to be a fabrication. Syed’s pretrial
statements to law enforcement officers, and his trial
counsel’s reasonable choice of defense strategy,
indicated that he was at track practice after school—
and did not indicate, in any way, that he was at the
public library after school. Additionally, there were
several other obvious indications that McClain’s
version of events was false.
In his pretrial statements to law enforcement
officers, Syed mentioned being at track practice, but
did not mention a library, and he made inconsistent
statements. At the second trial, Officer Scott Adcock
testified that, on January 13, 1999, Syed said that he
4

I am unpersuaded by the State’s contention that, where the
record is silent as to the reasons for a defendant’s trial counsel’s
decision, the defendant cannot rebut the presumption that his
or her trial counsel’s decision was reasonable. Strickland and
its progeny make clear that what matters is “the objective
reasonableness of counsel’s performance, not counsel’s
subjective state of mind.” Richter, 562 U.S. at 110 (citing
Strickland, 466 U.S. at 688) (emphasis added). Thus, here, even
if the record were silent as to the reasons for Syed’s trial
counsel’s decision not to call McClain as a witness, the record’s
silence would make no difference to the proper analysis, which
turns on whether a reasonable lawyer in Syed’s trial counsel’s
position could have refrained from calling McClain as a witness.

74a
had seen Lee at school earlier that day. According to
Officer Adcock, Syed also said that Lee had been
supposed to give him a ride home from school, but he
had gotten held up, and presumed that she had
gotten tired of waiting for him and left without him.
At the second trial, Detective Joseph O’Shea testified
that, on January 25, 1999, Syed said that, on
January 13, 1999, he had been in a class with Lee
from 12:50 p.m. to 2:15 p.m. According to Detective
O’Shea, Syed also said that he had not seen Lee after
school because he had gone to track practice.
Detective O’Shea testified that, on February 1, 1999,
he asked Syed whether he had told Officer Adcock
that, on January 13, 1999, Lee had been supposed to
give him a ride. According to Detective O’Shea, Syed
responded that that was incorrect because he had
driven to school, and thus would not have needed a
ride. In other words, Syed made inconsistent pretrial
statements to Officer Adcock and Detective O’Shea;
he told Officer Adcock that Lee had been supposed to
give him a ride, but he later told Detective O’Shea
that Lee had not been supposed to give him a ride.
Syed’s pretrial statements to Officer Adcock and
Detective O’Shea were inconsistent not only with
each other, but also with McClain’s version of events.
If, as McClain testified at the second postconviction
hearing, shortly after school ended, Syed went to the
public library and spoke to McClain, then, contrary
to his pretrial statement to Officer Adcock on
January 13, 1999, he neither expected a ride home
from Lee after school, nor missed that ride because
he got held up. Additionally, as Syed’s postconviction
counsel acknowledged at oral argument, McClain’s
version of events was inconsistent with Syed’s

75a
pretrial statement to Detective O’Shea on February
1, 1999, in that Syed failed to allege that he had gone
to the public library after school on January 13,
1999. Syed had every incentive to be complete while
volunteering to Detective O’Shea information about
his whereabouts on the date on which Lee had gone
missing, given that Syed knew that he was speaking
to a detective, that Lee had been missing for more
than two weeks, and that he was Lee’s most recent
ex-boyfriend.
Syed’s trial counsel would have known of his
pretrial statements to Officer Adcock and Detective
O’Shea before the first trial. At the time of the
second trial, Maryland Rule 4-263(b)(2)(B) stated:
“Upon request of the defendant, the State’s Attorney
shall . . . [a]s to all statements made by the
defendant to a State agent that the State intends to
use at . . . trial, furnish to the defendant . . . the
substance of each oral statement and a copy of all
reports of each oral statement[.]” In the absence of
evidence to the contrary, we must presume that
Syed’s trial counsel and the prosecutors acted
pursuant to former Maryland Rule 4-263(b)(2)(B);
“[t]here is a presumption of regularity [that]
normally attaches to trial court proceedings,
although its applicability may sometimes depend
upon the nature of the issue before the reviewing
court.” Harris v. State, 406 Md. 115, 122, 956 A.2d
204, 208 (2008) (citations omitted). The record
extract contains no evidence that rebuts the
presumptions that Syed’s trial counsel made, and
that the prosecutors complied with, a request for
records of all of Syed’s pretrial statements to law
enforcement officers. Additionally, Syed’s trial

76a
counsel heard Officer Scott Adcock testify at the first
trial. Thus, before the second trial, Syed’s trial
counsel necessarily knew of his pretrial statements
to Officer Adcock.
Consistent with Syed’s pretrial statements to
Officer Adcock and Detective O’Shea, his trial
counsel chose a defense strategy of, among other
things, establishing that he regularly attended track
practice. The circuit court found the following facts
regarding Syed’s trial counsel’s choice of defense
strategy:
[Syed’s t]rial counsel engaged in a three[]prong [defense] strategy at [the second] trial:
(1) to prove that [Syed] and [Lee] ended their
relationship amicably due to outside pressures
and remained friends after the breakup,
thereby challenging the State’s suggested
motive; (2) to show that the police hastily
focused their investigation on [Syed,] and
thus[] failed to pursue evidence that would
have proven [his] innocence; and (3) to
undermine [Jay] Wilds’s version of the
events by establishing [Syed]’s habit of
attending track practice after school[ 5 ]
5

Although the circuit court inadvertently stated that the
State’s evidence indicated that Lee was murdered between 2:35
p.m. and 2:40 p.m. on January 13, 1999, in actuality, the State’s
evidence indicated that, on that date, Lee was murdered
sometime in the twenty-one minutes between 2:15 p.m., when
the school day ended, and 2:36 p.m., when, according to Syed’s
cell phone records and Wilds’s testimony, Syed used a pay
phone to telephone Wilds (who had Syed’s cell phone) and asked
him to come to the parking lot of the Best Buy in Woodlawn.
Wilds testified that, after he arrived at the parking lot, Syed
showed him Lee’s body.

77a
and then reciting taraweeh prayers at the
mosque during the month of Ramadan.
(Emphasis added). In short, the circuit court
expressly found that Syed’s trial counsel pursued an
alibi that was based on his daily routine, which
included regular attendance of track practice—and
did not include regular attendance of the public
library.6
Syed’s trial counsel’s choice of defense strategy—
i.e., pursuing an alibi that was based on his daily
routine—was reasonable, given that Syed’s pretrial
statements to Officer Adcock and Detective O’Shea
did not include information about going to the public
library. Additionally, Syed’s statements to his trial
counsel and her law clerk demonstrated that his
memory of his whereabouts after school on January
13, 1999 varied over time. At the first postconviction
hearing, Syed testified that he had received
McClain’s letters within a week of being arrested on
February 28, 1999. According to Syed, McClain’s
letters “kind of fortified the memory that [he] had of
after school” on January 13, 1999. But, Syed testified
that, after his trial counsel told him that “nothing
came of” McClain’s letters, he told his trial counsel
“that [he] didn’t really have confidence that [he]’d be
able to prove [that he] was somewhere else when
6

The majority of the panel of the Court of Special Appeals
stated that, “in her opening statement and closing argument,
[Syed’s] trial counsel did not raise any alibi defense[.]” Syed,
236 Md. App. at 272, 181 A.3d at 910 (emphasis in original).
Opening statements and closing arguments, however, are not
evidence. See MPJI-Cr 3:00. As the circuit court found, during
the second trial’s evidentiary phase, Syed’s trial counsel
pursued an alibi that was based on his daily routine.

78a
[Lee’s] murder [took] place[.]” The undated notes
from Syed’s defense file indicate that he told his trial
counsel’s law clerk that McClain and Banks (her
boyfriend) saw him in a library between 2:15 p.m.
and 3:15 p.m. The notes from Syed’s defense file
dated July 13, 1999 indicate that he told his trial
counsel’s law clerk that McClain and Banks saw him
in a library at 3:00 p.m. In a memorandum
summarizing an August 21, 1999 interview with
Syed, his trial counsel’s law clerk stated that Syed
“believe[d that] he attended track practice on
[January 13, 1999] because he remembers informing
his coach that he had to lead prayers on Thursday.”
Attached to the memorandum summarizing the
August 21, 1999 meeting with Syed was a
handwritten account of his recollection of his
whereabouts on January 13, 1999. In that document,
Syed did not write anything about his whereabouts
after school on January 13, 1999. In sum, Syed’s
pretrial statements to Officer Adcock, Detective
O’Shea, his trial counsel, and her law clerk
demonstrate that he lacked a consistent memory of
his whereabouts after school on January 13, 1999—
which made it reasonable for Syed’s trial counsel to
focus on his daily routine rather than McClain’s
allegations about his whereabouts after school on
that date in particular.
This conclusion is supported by Syed’s post-trial
statements, which demonstrate that, after the second
trial, Syed could not remember his whereabouts after
school on January 13, 1999. At the first
postconviction hearing, Syed testified that, after the
jury found him guilty on February 25, 2000, he told
Rabia Chaudry, a family friend: “I wish there was

79a
some way that I could [have] proved that I was
somewhere else at [the] time” of Lee’s murder.
Consistently, at the first postconviction hearing,
Chaudry testified that, after the jury found him
guilty, Syed stated that January 13, 1999 “was like
any other day for” him, and that he did not “have any
specific recollection of that day[.]” Syed’s post-trial
statements constitute additional evidence that,
before trial, he failed to offer his trial counsel a
consistent memory of his whereabouts after school on
January 13, 1999.
In stark contrast to Syed, McClain has claimed to
remember his whereabouts after school on January
13, 1999. In her March 1, 1999 letter, McClain stated
that, on January 13, 1999, at or after 2:15 p.m., she,
Banks (her boyfriend), and Johnson (Banks’s friend)
saw Syed in the public library. Similarly, at the
second postconviction hearing, McClain testified
that, on January 13, 1999, she encountered Syed in
the public library shortly after 2:15 p.m., and spoke
to him for approximately fifteen to twenty minutes;
afterward, Banks and Johnson approached Syed and
McClain, and she and Banks left the public library.
Because McClain’s version of events contradicted
Syed’s pretrial statements to Officer Adcock and
Detective O’Shea and his trial counsel’s reasonable
choice of defense strategy, far from helping Syed’s
case, McClain’s testimony could have given the jury
reason to believe that McClain’s version of events
was a fabrication—and, worse still, reason to believe
that Syed himself had come up with the fabrication
himself. Such an inference would have been
disastrous to Syed’s case, as “[m]any jurors regard a
false alibi as an admission of guilt.” Henry v. Poole,

80a
409 F.3d 48, 65 (2d Cir. 2005) (cleaned up). In sum,
although Syed essentially argues that McClain’s
testimony was a life preserver that could have saved
him from conviction, her testimony was actually an
anchor that could have sunk his case.
This case is similar to Broadnax, 130 So. 3d at
1258, and Rainey, 928 A.2d at 234, in that a
potential alibi witness’s testimony would have
contradicted the defendant’s pretrial statements to
law enforcement officers. In Broadnax, 130 So. 3d at
1249, 1239, the potential alibi witnesses’ testimony
that they saw the defendant at his work-release
facility at 9:00 p.m. on the date of the murders would
have contradicted the defendant’s pretrial statement
to law enforcement officers that he was at his
workplace until 10:45 p.m. on the date of the
murders. In Rainey, 928 A.2d at 234, the potential
alibi witness’s testimony would have contradicted
the defendant’s statement to law enforcement
officers that he had been present at the scene of the
murder. Similarly, here, McClain’s testimony would
have contradicted Syed’s pretrial statements to
Officer Adcock and Detective O’Shea, both in that
Syed never alleged that he had been at the public
library while volunteering to the officers information
about his whereabouts after school on January 13,
1999, and in that he alleged that he had either been
at track practice and/or had been supposed to get a
ride from Lee and got held up.
This case is especially analogous to Broadnax, 130
So. 3d at 1258, in that, at trial in each case, there
was evidence that the defendant had lied to law
enforcement officers. In Broadnax, id. at 1257, the
defendant made to law enforcement officers three

81a
demonstrably untrue statements, such as his false
allegation that he had telephoned his brother from
his workplace on the night of the murders. Similarly,
here, Syed told Officer Adcock that Lee had been
supposed to give him a ride after school on January
13, 1999; however, later, Syed told Detective O’Shea
that Lee had not been supposed to give him a ride.
Just like the defendant’s trial counsel in Broadnax,
id. at 1258, a reasonable lawyer in Syed’s trial
counsel’s position could have decided to “forgo
attempting to further impugn [his or her] client’s
credibility by presenting additional evidence of
[Syed]’s lying to the police[.]” (Citation omitted).
This case is also similar to Weeks, 275 F. Supp. 2d
at 341, and Rainey, 928 A.2d at 234, in that a
potential alibi witness’s testimony would have
contradicted a defendant’s trial counsel’s reasonable
choice of defense strategy. In Weeks, 275 F. Supp. 2d
at 341, the potential alibi witnesses had been
charged with the same murders as the defendant,
and their testimony would have contradicted the
“reasonabl[e]” defense strategy of attempting to
establish that the defendant was not with the
potential alibi witnesses at the time of the murders.
In Rainey, 928 A.2d at 234, 237, the potential alibi
witnesses’ testimony “would have contradicted [the]
defense strategy[—]which was reasonable”—of
conceding that the defendant had been involved with
the murder, and arguing that he was guilty of a
lesser degree of murder than first-degree murder.
Similarly, here, McClain’s testimony would have
contradicted Syed’s trial counsel’s reasonable choice
of defense strategy of pursuing an alibi that was
based on his daily routine, which included regular

82a
attendance of track practice—and did not include
regular attendance of the public library.
The record belies Syed’s postconviction counsel’s
assertion at oral argument that McClain’s version of
events was consistent with Syed’s trial counsel’s
choice of defense strategy because it would have been
possible for Syed to speak to McClain in the public
library, then arrive at track practice on time.
McClain’s version of events was inconsistent with
Syed’s trial counsel’s choice of defense strategy
because the whole point of that strategy was to
convince the jury that, given that Syed had a daily
routine, he likely followed it on January 13, 1999—
and McClain’s version of events indicates that Syed
deviated from his daily routine by going to the public
library. Indeed, at oral argument, Syed’s
postconviction counsel acknowledged that going to
the public library “was not part of his regular
routine.” Similarly, the majority of the panel of the
Court of Special Appeals noted that, if Syed had gone
to the public library, he would have been “deviating
from his routine[.]” Syed, 236 Md. App. at 273, 181
A.3d at 911.
Having shown that McClain’s testimony could have
prejudiced Syed by contradicting his pretrial
statements to Officer Adcock and Detective O’Shea
and his trial counsel’s reasonable choice of defense
strategy, the inquiry could end at this point. In
addition, however, to the indications of fabrication
that were apparent at the second trial (such as
Syed’s failure to tell Officer Adcock or Detective
O’Shea that he had been in the public library after
school on January 13, 1999), Syed’s trial counsel was
privy to numerous other signs that McClain’s version

83a
of events was false. These were signs of fabrication
that could have led a reasonable lawyer in Syed’s
trial counsel’s position to doubt the veracity of
McClain’s version of events, and could have
prompted ethical concerns about suborning perjury
by calling McClain as a witness.7
One sign of possible fabrication that was available
to Syed’s trial counsel is that, as far as the record
extract reveals, outside of giving McClain’s letters to
his trial counsel, Syed told his defense team on only
two occasions that he had been seen at a library, by
merely conveying the information to his trial
counsel’s law clerk. The notes from Syed’s defense
file indicate that, on July 13, 1999 and another date,
he told his trial counsel’s law clerk that McClain and
Banks (her boyfriend) had seen him in a library. The
July 13, 1999 notes indicate that McClain and Banks
had seen Syed at the library at 3:00 p.m. The
undated notes from Syed’s defense file state that
McClain and Banks saw him in a library between
2:15 p.m. and 3:15 p.m. Given that the circuit court
found that no one on Syed’s defense team contacted
McClain, the information on the undated notes from
Syed’s defense file must have come from Syed
himself. In light of the importance of Syed’s
whereabouts after school on January 13, 1999, a
reasonable lawyer in Syed’s trial counsel’s position
could have expected him to mention having been
seen at a library more than two times and to have
discussed the matter directly with trial counsel.
Moreover, the notes do not allege that Syed ever told
7

At the time of the second trial, Maryland Rule of
Professional Conduct 3.3(a)(4) stated: “A lawyer shall not
knowingly . . . offer evidence that the lawyer knows to be false.”

84a
his defense team that he was, in fact, at a library on
July 13, 1999, but only that Syed alleged that others
had indicated that they had seen him there.
Another sign of fabrication is that Syed’s two
references to the alibi during his meetings with his
trial counsel’s law clerk were inconsistent with each
other. On July 13, 1999, Syed said that McClain and
Banks had seen him at a library at 3:00 p.m. On
another date, Syed said that McClain and Banks had
seen him in a library between 2:15 p.m. and 3:15
p.m. A reasonable lawyer in Syed’s trial counsel’s
position could have found it unusual that Syed
pinpointed a specific time on one occasion, yet
referred to a one-hour timeframe on another.
Yet another sign of fabrication is that, in stark
contrast to the two references to the library in the
notes from Syed’s defense file, the mention of the
library is conspicuously absent from memoranda in
which a member of Syed’s defense team summarized
meetings with him on August 21, 1999, October 9,
1999, and January 15, 2000. Attached to the
memorandum summarizing the August 21, 1999
meeting with Syed was a handwritten account of his
recollection of his whereabouts on January 13, 1999.
In that document, Syed did not write anything about
his whereabouts after 2:15 p.m.—much less allege
that he had gone to a library around that time.
According to the memorandum summarizing the
October 9, 1999 meeting with Syed, he said that he
and Lee had frequently gone to the parking lot of the
Best Buy in Woodlawn to engage in sexual activity—
but the memorandum does not say anything about
Syed going to a library, frequently or otherwise. And,
according to the memorandum summarizing the

85a
January 15, 2000 meeting with Syed, there were
several “points [that] he wanted to make with regard
to the first friar—none of which involved him being
at a library.
An additional sign of fabrication is that detectives’
interview notes, which the prosecutors made
available to Syed’s trial counsel, indicated that two
employees of Woodlawn High School said that Syed
frequently visited the school library—as opposed to
the public library, which is in a separate building
next-door to Woodlawn High School. According to the
employees, Syed and Lee went to the school library
often, and multiple computers at the school library
had internet access—which undermines Syed’s
testimony at the first postconviction hearing that,
after school on January 13, 1999, he went to the
public library to check his e-mail. Additionally,
according to the memorandum summarizing the
January 15, 2000 meeting, Syed challenged Wilds’s
testimony’s implication that he killed Lee on the side
of the Best Buy, as he “would not then walk all the
way to the phone booth (it is a long walk[,] and
[Syed] does not like walking).” Syed did not challenge
Wilds’s account on the ground that he had been at
the public library at the time of the murder, and was
not responsible for the murder.
Another sign of fabrication is that the notes from
Syed’s defense file do not specify which library he
claimed to have visited on January 13, 1999—the
school one, or the public one. Although the circuit
court found that the notes from Syed’s defense file
dated July 13, 1999 indicated that he told his trial
counsel’s law clerk that McClain saw him in the
public library, in actuality, the notes simply refer to

86a
“the library[.]” Similarly, the undated notes from
Syed’s defense file state that McClain and Banks
“saw him in Library[.]” Immediately below that, the
following language appears: “Went to Library
often[.]” Even assuming that this language refers to
Syed, as opposed to McClain and/or Banks, the
undated notes from Syed’s defense file do not specify
the library to which Syed claimed to go often. It is
possible that—consistent with his regular practice,
according to the two employees of Woodlawn High
School—Syed told his trial counsel’s law clerk on two
occasions that he had visited the school library after
school on January 13, 1999—which would have
contradicted both of McClain’s letters, in which she
stated that she had seen him in the public library.
An additional sign of fabrication is that, outside of
McClain’s and Syed’s statements, the record extract
contains no evidence that Banks (McClain’s
boyfriend) and/or Johnson (Banks’s friend) ever told
anyone else that they had seen Syed in the public
library on the afternoon of January 13, 1999.
Although McClain stated in her March 1, 1999 letter
that Banks and Johnson indicated that they had
seen Syed in the public library, McClain did not even
mention Banks or Johnson in her March 2, 1999
letter, much less repeat her allegation that they had
also seen Syed. Additionally, although the notes from
Syed’s defense file indicated that he told his trial
counsel’s law clerk on two occasions that McClain
and Banks had seen him at a library, the notes from
Syed’s defense file do not indicate that he ever said
that Johnson also saw him in a library.8 Under these
8

Neither Banks nor Johnson testified at the postconviction
hearings; thus, the record is devoid of any direct evidence that

87a
circumstances, a reasonable lawyer in Syed’s trial
counsel’s position could have been suspicious of
McClain’s version of events, which lacked
corroboration from anyone other than Syed—who
obviously had a motive to be untruthful about his
whereabouts after school on January 13, 1999 and
who had not been consistent in accounting for his
whereabouts on that date.
A further important sign of fabrication is that,
assuming that McClain actually saw Syed in the
public library on January 13, 1999, in her letters, she
would not have used language that indicated that
her version of events was untrue. In her March 1,
1999 letter, McClain stated in pertinent part:
I hope that you’re not guilty[,] and a I want
hope to death that you have nothing to do with
it. If so[,] I will try my best to help you
account for some of your unwitnessed,
unaccountable lost time (2:15 - 8:00; Jan
13th). The police have not been notified Yet to
my knowledge[. M]aybe it will give your side of
the story a particle [sic] head start. I hope
that you appreciate this, seeing as though I
really would like to stay out of this whole
thing.
(Bolding added) (underlining in original) (paragraph
break omitted). McClain also stated: “If you were in
the library for a[ ]while, tell the police[,] and I’ll
continue to tell what I know even louder than I am.”
This unusual language is indicative of an offer to
provide a false alibi.
Banks or Johnson remember seeing Syed in the public library
after school on January 13, 1999.

88a
Another sign of fabrication is that, in her March 1,
1999 letter, McClain referred to the nearly-six-hour
timeframe of 2:15 p.m. to 8:00 p.m. That
circumstance was unusual in light of Syed’s
statement to his trial counsel’s law clerk that
McClain had seen him in a library for only a fraction
of that timeframe—namely, between 2:15 p.m. and
3:15 p.m. 9 A final sign of fabrication is that
detectives’ notes regarding their April 9, 1999
interview of Ja’uan Gordon (a friend of Syed’s) stated
that Gordon said:
[10] WROTE ME A LETTER. HE CALLED
YESTERDAY, BUT I WASN’T HOME.
WROTE  BACK
HE WROTE A LETTER TO A GIRL TO
TYPE UP WITH HIS ADDRESS ON IT
BUT SHE GOT IT WRONG
101 EAST EAGER STREET
ASIA? 12TH GRADE
I GOT ONE, JUSTIN A[D]GER GOT ONE
(Emphasis added) (capitalization in original). The
detectives’ notes constitute evidence that Syed wrote
a letter to McClain and asked her to type it and
include the address of the Baltimore Central Booking
& Intake Center, and that, as a result, McClain
9

At the second postconviction hearing, McClain revealed that
she learned about the timeframe of 2:15 p.m. to 8:00 p.m. from
Syed’s family.
10

The black, upward-pointing triangles in the detectives’
notes () MPPL TJNJMBS UP UIF VQQFSDBTF (SFFL MFUUFS EFMUB å 
which is common shorthand for a defendant. See People v.
Jones, 930 N.Y.S.2d 176 n.2 (Sup. Ct. 2011). Thus, it is clear
that, when the detectives used a triangle, they were referring to
Syed.

89a
typed the letter and put an incorrect address on it.
Specifically, McClain put on her March 2, 1999 letter
the address of 301 East Eager Street—which is an
address that is associated with, but is not the main
address of, the Baltimore Central Booking & Intake
Center.11
The circuit court discounted the possibility that
Syed wrote a letter to McClain and asked her to type
it, stating:
[T]o adopt the State’s theory, the Court would have
to assume that the “Asia”
[who is] referenced by Gordon is McClain[,] as
opposed to another individual who shares the
same name. [The detectives’] notes are unclear
as to the identity of this “letter”; Gordon could
be referencing [McClain’s] March 2, 1999
letter[,] or another letter altogether. With
respect to the “wrong address,” the Court is
left to speculate whether “101 East Eager
Street” is the correct or wrong address[,] given
the lack of context in [the detectives’] notes.
Yet, McClain is the only person who is ever
mentioned throughout the entire record extract
whose first name or last name is “Asia.” Given that
circumstance, it is extremely unlikely that Gordon
was referring to someone other than McClain when
he mentioned “Asia.” Additionally, the record extract
11

The Baltimore Central Booking & Intake Center’s main
address is 300 East Madison Street. See Department of Public
Safety & Correctional Services, Baltimore Central Booking &
Intake
Center,
https://www.dpscs.state.md.us/locations/bcbic.shtml
[https://perma.cc/7VSP-MBJ7].

90a
is devoid of any letters to Syed other than McClain’s
letters to him, which undermines the circuit court’s
theory that Gordon might have been referring to
“another letter altogether.”
Significantly, the circuit court’s reasoning is not
entitled to deference. In reviewing a trial court’s
determination as to whether a defendant received
ineffective assistance of counsel, an appellate court
reviews for clear error the trial court’s findings of
fact, and reviews without deference the trial court’s
conclusions of law. As Judge Adkins wrote for this
Court in Newton, 455 Md. at 351-52, 168 A.3d at 7:
The review of a postconviction court’s
findings regarding ineffective assistance of
counsel is a mixed question of law and fact.
Because we are not finders of fact, we defer to
the factual findings of the postconviction court
unless clearly erroneous. But we review the
court’s legal conclusion regarding whether the
defendant’s Sixth Amendment rights were
violated without deference. We re-weigh the
facts in light of the law to determine whether
a constitutional violation has occurred.
(Cleaned up). Accordingly, here, this Court reviews
without deference the circuit court’s conclusions of
law, such as its conclusion that Syed’s trial counsel’s
performance was deficient. In other words, this
Court gives no weight to the circuit court’s
determination that Syed had proven deficient
performance, and the reasoning underlying that
determination. This standard of review is especially
appropriate in light of the circumstance that the
circuit court judge who presided over both
postconviction hearings was not the circuit court

91a
judge who presided over the second trial; in other
words, the circuit court judge whose decision we are
reviewing was not in a better position than this
Court is to determine whether Syed’s trial counsel’s
performance was deficient.
I am unpersuaded by Syed’s reliance on Grooms,
923 F.2d at 90-91, Lawrence, 900 F.2d at 129-30,
Montgomery v. Peterson, 846 F.2d 407, 409-11 (7th
Cir. 1988), Griffin, 970 F.2d at 1355-56, Bryant v.
Scott, 28 F.3d 1411, 1419 (5th Cir. 1994), and Towns
v. Smith, 395 F.3d 251, 259 (6th Cir. 2005), in which
Courts concluded that defendants’ trial counsel were
deficient for failure to contact, investigate, and/or
call potential alibi witnesses. In none of those cases
was there any indication that a potential alibi
witness’s testimony could have prejudiced the
defendant. By contrast, here, McClain’s testimony
could have prejudiced Syed by contradicting his
pretrial statements to Officer Adcock and Detective
O’Shea, contradicting his trial counsel’s reasonable
choice of defense strategy, and otherwise appearing
to be a fabrication.
Syed’s trial counsel was not required to call
McClain as a witness just because there was a
chance, however slight, that the jury would have
viewed her testimony as exculpatory. No reasonable
criminal defense lawyer would advocate that, in
every case, the defense should, to use a colloquialism,
“throw everything at the wall to see what sticks.”
Instead, a reasonable criminal defense lawyer should
evaluate each piece of allegedly exculpatory evidence
to determine whether it would, in fact, help the
defendant. Where, as here, the evidence could
prejudice the defendant, it is reasonable for the

92a
defendant’s trial counsel to exercise caution by
refraining from pursuing the evidence.
It might be tempting to reason that, given that the
jury found Syed guilty, his trial counsel might as
well have contacted McClain and called her as a
witness, as doing so could not have resulted in a
worse outcome for Syed. Such reasoning, however,
would fly in the face of the Supreme Court’s
jurisprudence regarding ineffective assistance of
counsel. By definition, a defendant who asserts
ineffective assistance of counsel has been found
guilty. See Strickland, 466 U.S. at 689. In assessing
a claim of ineffective assistance of counsel, a court
must make “every effort [] to eliminate the distorting
effects of hindsight, to reconstruct the circumstances
of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Id.
Here, the question is whether, in light of the
information that was available to Syed’s trial counsel
before the second trial, a reasonable lawyer in her
position could have refrained from calling McClain
as a witness. In my view, the answer is a resounding
“yes.”
In conclusion, I completely agree with Judge Graeff
that “a review of the record as a whole indicates
possible reasons why [Syed’s] trial counsel
reasonably could have concluded that pursuing []
McClain’s purported alibi, which was known to
[Syed’s] trial counsel, could have been more harmful
than helpful to Syed’s defense.” Syed, 236 Md. App.
at 297, 181 A.3d at 925 (Graeff, J., dissenting).
For the above reasons, respectfully, I concur.

93a
IN THE COURT OF APPEALS OF MARYLAND
September Term, 2018
_______
STATE OF MARYLAND
v.
ADNAN SYED
_______
No. 24
________
Appeal from the Circuit Court for Baltimore City
Case No. 199103042 through 199103046
_______
Argued: November 29, 2018
_______
Barbera, C.J.
Greene
McDonald
Watts
Hotten
Getty
Adkins, Sally D., (Senior Judge, Specially Assigned),
JJ.
_______
Concurring/Dissenting Opinion by Hotten, J.,
which Barbera, C.J. and Adkins, J. join
_______

94a
Filed: March 8, 2019
_______
I respectfully concur in part and dissent in part
from the majority opinion. I agree with the majority’s
conclusion that Mr. Syed’s trial counsel’s failure to
investigate Ms. McClain as a potential alibi witness
constituted deficient performance under Strickland
v. Washington. However, unlike the majority, I am
persuaded that this deficiency was prejudicial
against Mr. Syed and his defense. For these reasons,
I would affirm the Court of Special Appeals.1
Trial Counsel’s Failure to Investigate an Alibi
Witness was Deficient
The Supreme Court of the United States outlined a
two-prong test for determining whether a criminal
defendant has received ineffective assistance of
counsel in violation of the Sixth Amendment.
Strickland v. Washington, 466 U.S. 668, 104 S. Ct.
2052 (1984). The defendant must first prove that
trial counsel’s performance was deficient. Id. at 687,
104 S. Ct. at 2064. If established, the defendant must
then demonstrate that they were prejudiced by trial
counsel’s deficiency. Id. The majority accurately
observes that Mr. Syed’s trial counsel was under a
duty to investigate the circumstances of the case,
and explore any viable defenses on behalf of her
client. The scope of this duty to investigate extended
1

I also concur with the majority’s conclusion that Mr. Syed
waived his right to bring an ineffective assistance of counsel
claim based on his trial counsel’s failure to challenge the celltower location data, because this ground was not raised in Mr.
Syed’s petition for post-conviction relief. I would therefore
affirm the Court of Special Appeals on this issue as well.

95a
to trial counsel’s investigation into alibi witnesses
and alibi defenses for Mr. Syed.
The majority references a list of decisions in which
a trial counsel’s failure to investigate a potential
alibi witness constituted a deficiency under
Strickland. Majority Slip Op. at 13-17; see In re
Parris W., 363 Md. 717, 770 A.2d 202 (2000)
(concluding that trial counsel’s failure to subpoena
corroborating alibi witnesses for the correct trial date
constituted a deficiency); Griffin v. Warden,
Maryland Correctional Adjustment Center, 970 F.2d
1355 (4th Cir. 1992) (concluding that even though
trial counsel was transferred to the case five months
prior to trial, his failure to investigate five potential
alibi witnesses constituted a deficiency); Grooms v.
Solem, 923 F.2d 88 (1991) (concluding that trial
counsel’s failure to investigate and corroborate an
alibi witness that had been brought his attention
prior to, and on the day of, the trial, constituted a
deficiency); Montgomery v. Petersen, 846 F.2d 407
(1988) (concluding that trial counsel’s decision to
offer alibi testimony in the defendant’s burglary case
in one jurisdiction, but not for a second burglary
charge allegedly occurring on the same day in
another jurisdiction, constituted a deficiency).
Mr.
Syed’s
trial
counsel’s
actions
are
indistinguishable from these cases. Mr. Syed
informed trial counsel that he saw Ms. McClain at
the public library around 3:00PM on the date of Ms.
Lee’s death. Mr. Syed’s trial counsel also received
two letters from Ms. McClain, offering herself as a
witness who would testify that she saw Mr. Syed at
the public library. Given Mr. Syed’s trial counsel’s
undisputed knowledge of Ms. McClain as a potential

96a
alibi witness, I agree with the majority that trial
counsel’s failure to act, “falls short of the tenets of a
criminal defense attorney’s minimum duty to
investigate the circumstances and facts of the case.”
Majority Slip Op. at 18.
Trial Counsel’s Deficiency Prejudiced Mr. Syed
I respectfully diverge from the majority’s
conclusion that Mr. Syed suffered no prejudicial
effect regarding trial counsel’s deficient performance
within the context of Strickland. I would hold, as did
the majority of the Court of Special Appeals panel,
that counsel’s deficient performance did, in fact,
prejudice Mr. Syed’s defense. After determining that
trial counsel’s failure to investigate Ms. McClain as
an alibi witness was deficient, the majority
nonetheless concludes that this failure did not
prejudice Mr. Syed. The majority explains that “the
State’s case against [Mr. Syed] could not have been
substantially undermined merely by the alibi
testimony of Ms. McClain because of the substantial
direct and circumstantial evidence pointing to Mr.
Syed’s guilt.” Majority Slip Op. at 35.
Under the prejudice prong of Strickland, a
reviewing court must determine whether “there is a
reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at
694, 104 S. Ct. at 2068. A “reasonable probability” is
one that is “sufficient to undermine confidence in the
outcome.” Id. This Court has further interpreted the
“reasonable probability” standard to mean that there
existed “a substantial or significant possibility that
the verdict of the trier of fact would have been
affected[.]” Bowers v. State, 320 Md. 416, 426, 578

97a
A.2d 734, 739 (1990). While the Strickland standard
for proving prejudice is undeniably high, and
decidedly deferential to trial counsel’s performance,
it clearly requires the showing of merely “a
probability sufficient to undermine confidence in the
outcome.” 466 U.S. at 694, 104 S. Ct. at 2068.
The State offered a significant amount of evidence
regarding Mr. Syed’s whereabouts and actions on the
evening of January 13, 1999, beginning after the
time in which the State argued Ms. Lee had been
killed. The State posited that Ms. Lee was killed
between 2:15PM and 2:35PM that afternoon, a
contention that Mr. Syed did not, and does not,
refute. The State’s evidence included testimony that
Mr. Syed’s handprint was found on Ms. Lee’s car,
evidence putting him in the vicinity of Ms. Lee’s
body, evidence of Mr. Syed’s involvement in
disposing Ms. Lee’s body, and motive and
opportunity to kill Ms. Lee. Of particular importance,
the State offered no direct evidence regarding Mr.
Syed’s whereabouts during the time of Ms. Lee’s
death. This evidence submitted by the State, albeit
extensive, was circumstantial. The post-conviction
court even observed that the crux of the State’s
argument was that Mr. Syed buried Ms. Lee in the
park at approximately 7:00PM on January 13, 1999,
roughly four and a half hours after the State’s
proposed time of death.
In his defense, Mr. Syed offered testimony from a
number of witnesses to establish a timeline of Mr.
Syed’s daily schedule and habit. This included Mr.
Syed’s practice of attending track practice from
approximately 4:00PM to 5:30PM or 6:00PM,
followed by attending services at his mosque in the

98a
evening. The evidence offered by Mr. Syed similarly
does not address his whereabouts during the crucial
time of Ms. Lee’s death that day. The lack of
evidence offered establishing Mr. Syed’s location
between 2:15PM and 2:35PM is precisely why Ms.
McClain’s alibi is so significant to the present case.
Ms. McClain offered to testify, and offered multiple
corresponding affidavits, that she and her boyfriend
at the time saw and spoke with Mr. Syed at the
Woodlawn Public Library at the time the State
contends that Mr. Syed killed Ms. Lee. Not only does
Ms. McClain’s alibi address the most integral period
of time in the case, it presents direct, not merely
circumstantial, evidence of Mr. Syed’s whereabouts
during that time. In so far as I could determine, no
other evidence was offered by the State that would
have refuted Ms. McClain’s testimony and affidavits.
In Griffin v. Warden, Maryland Correctional
Adjustment Center, the Fourth Circuit determined
that an attorney’s failure to investigate an alibi
witness was both deficient and prejudicial to the
defendant’s case. 970 F.2d 1355, 1358 (4th Cir.
1992).
The
Fourth
Circuit
reasoned
that
“[e]yewitness identification evidence, uncorroborated
by a fingerprint, gun, confession, or coconspirator
testimony, is a thin thread to shackle a man for forty
years.” Id. at 1359. In the present case, the State
offered no eyewitness testimony, or any other
evidence for that matter, putting Mr. Syed with Ms.
Lee during the time of her death, much less any
direct evidence that Mr. Syed caused the death of
Ms. Lee. Ms. McClain’s alibi was direct,
uncontroverted evidence that Mr. Syed was
elsewhere at the time of Ms. Lee’s death. Mr. Syed

99a
does not have to definitively rebut his criminal
agency, he merely has to establish that there is a
reasonable probability that the result would have
been different. See id. at 1359 (commenting that the
state court incorrectly posited that the alibi evidence
“did not affirmatively demonstrate that [Griffin] was
at home when the crime was committed[]”). In my
view, there exists a reasonable probability that had
this alibi defense been offered, at least one juror, if
not more jurors, would have had a reasonable doubt
of Mr. Syed’s guilt.
In concluding that Mr. Syed did not reach this
reasonable probability threshold, the majority points
out that if Ms. McClain’s testimony was offered and
believed by the jury, the jury could still conclude that
Mr. Syed killed Ms. Lee, but at a different time. In
fact, the State made the same argument, attempting
to establish before the post-conviction court a new
timeline in which Ms. Lee died after 2:45PM rather
than between 2:15PM and 2:35PM. However, “[t]he
post-conviction court concluded that ‘ [b]ased on the
facts and arguments reflected in the record, the
[c]ourt finds that the State committed to the 2:36 p.m.
timeline and thus, the [c]ourt will not accept the
newly established timeline.” Syed v. State, 236 Md.
App. 183, 281, 181 A.3d 860, 916 (2018) (emphasis in
original). This original timeline was undisputed by
Mr. Syed during trial, and throughout his postconviction proceedings. The post-conviction court was
correct in declining to adopt this new timeline. The
majority’s argument that Mr. Syed could have killed
Ms. Lee at another time blatantly conflicts with the
post-conviction court’s holding. I would not disturb
the post-conviction court’s ruling on this issue. The

100a
possibility that Ms. Lee was killed at a different time
was not offered before the judge and jury during
trial. Accordingly, I would not adopt the
unsubstantiated opinion that the jury could create
and believe a timeline other than the original one
posited to them at trial. See Strickland, 466 U.S. at
695, 104 S.Ct. at 2052 (stating that a court must
analyze “the totality of the evidence before the judge
or jury[ ]”) (emphasis added).
The majority, echoing the argument advanced by
the State during the post-conviction proceeding,
declared that Ms. McClain’s alibi is just a single
piece of evidence that does not satisfactorily
challenge the substantial amount of evidence
presented by the State. To my knowledge, this Court
has never held within the Strickland context, that a
criminal defendant must offer demonstrative
evidence to prove that there is a reasonable
probability that the verdict would have been affected.
There is no dispute that the State offered a
significant amount of evidence regarding Mr. Syed’s
involvement in Ms. Lee’s burial, and that such
evidence “did create an inference that he committed
her murder.” 236 Md. App. at 282, 181 A.3d at 916.
However,
[t]he burial of [Ms. Lee] was not an element
that the State needed to prove in order to
convict [Mr.] Syed. Instead, the State had to
establish that [Mr.] Syed “caused the death” of
[Ms. Lee], and the State’s theory of when,
where, and how [Mr.] Syed caused [Ms. Lee’s]
death was critical to proving this element of
the crime.
Id. at 281, 181 A.3d at 916.

101a
A jury is advised during jury instructions that the
law does not distinguish between the weight to be
given to direct or circumstantial evidence and that
the jury must weigh all of the evidence presented in
reaching its verdict. Even though this Court has
acknowledged “that there is no difference between
direct and circumstantial evidence[,]” it does not
automatically follow that one significant piece of
direct evidence cannot sufficiently contradict many
pieces of circumstantial evidence, so as to affect the
jury’s verdict. Hebron v. State, 331 Md. 219, 226, 627
A.2d 1029, 1032 (1993). “But as with many criminal
cases of a circumstantial nature, [the present case]
had its flaws.” 236 Md. App at 283, 181 A.3d at 917.
The State offered no direct evidence establishing that
Mr. Syed “caused the death” of Ms. Lee, and its case
was largely dependent on witness testimony, which
the State readily admitted was conflicting and
problematic. See id. On the other hand, Ms.
McClain’s alibi testimony would have been direct
evidence, from a disinterested witness, that Mr. Syed
was not in the same location as Ms. Lee at the time
of her death. Id. at 282, 181 A.3d at 916. In fact,
“[t]he State’s case was weakest when it came to the
time it theorized that [Mr.] Syed killed [Ms. Lee].”
Id. at 283, 181 A.3d at 917. As the Court of Special
Appeals observed, “[Ms.] McClain’s testimony, if
believed by the trier of fact, would have made it
impossible for [Mr.] Syed to have murdered [Ms.
Lee].” Id. at 285, 181 A.3d at 918.
Ms. McClain’s uncontroverted alibi witness
testimony for Mr. Syed and Ms. Lee’s uncontroverted
time of death, as well as the State’s lack of direct
evidence as to Mr. Syed’s whereabouts at the time of

102a
Ms. Lee’s death, was sufficient to establish “a
reasonable probability that, but for trial counsel’s
deficient performance, the result of [Mr.] Syed’s trial
would have been different.” Id. at 284, 181 A.3d at
918. Because Mr. Syed has, in my opinion, proven
both the deficiency and prejudice prongs of the
Strickland test thereby establishing an ineffective
assistance of counsel, I would remand the case for a
new trial.
For these reasons, I respectfully concur in part and
dissent in part, and would affirm the judgment of the
Court of Special Appeals.
Chief Judge Barbera and Judge Adkins have
authorized me to state that they join in this opinion.

103a
APPENDIX B
_________
IN THE COURT OF APPEALS OF MARYLAND
September Term, 2018
_______
STATE OF MARYLAND,
Petitioner/Cross-Respondent,
v.
ADNAN SYED,
Respondent/Cross-Petitioner.
_______
No. 24
________
ORDER
The
Court
having
considered
the
Respondent/Cross-Petitioner’s
Motion
for
Reconsideration of this Court’s Opinion issued on
.BSDI     BOE 3FRVFTU GPS "EEJUJPOBM #SJFmOH
and Argument; the Motion for Leave to File Brief of
Amici Curiae the Innocence Network and the
MacArthur
Justice
Center
in
Support
of
Respondent’s Motion for Reconsideration; the Motion
for Special Admission of Out-of-State Attorney,
Elaine J. Goldenberg; the Motion for Leave to File
Brief of Amici Curiae Maryland Criminal Defense
"UUPSOFZT"TTPDJBUJPO .BSZMBOE0GmDFPGUIF1VCMJD
Defender, and Individual Criminal Defense
Attorneys in Support of Respondent’s Motion for

104a
Reconsideration; the Motion for Leave to File Brief of
Amicus Curiae The National Association of Criminal
Defense Lawyers in Support of Respondent’s Motion
for Reconsideration; the Motions for Special
Admission of Out-of-State Attorneys, Elizabeth A.
Franklin-Best, Lindsay C. Harrison, and Catherine
$ $FBTF BOE UIF SFTQPOTFT mMFE UIFSFUP  JO UIF
above-captioned case, it is this 19th day of April,
2019,
ORDERED, by the Court of Appeals of Maryland,
a majority of the Court concurring, that the
Respondent/Cross-Petitioner’s
Motion
for
Reconsideration of this Court’s Opinion issued on
.BSDI     BOE 3FRVFTU GPS "EEJUJPOBM #SJFmOH
and Argument, the Motions for Leave to File Briefs
of Amici Curiae, and the Motions for Special
Admissions of Out-of-State Attorneys, be and they
are hereby, DENIED.
/s/Mary Ellen Barbera
Chief Judge

105a
APPENDIX C
_________
COURT OF SPECIAL APPEALS OF MARYLAND
_________
ADNAN SYED,
v.
STATE OF MARYLAND,
STATE OF MARYLAND,
v.
ADNAN SYED,
_________
No. 2519, Sept. Term, 2013
No. 1396, Sept. Term, 2016
_________
March 29, 2018
_________
Circuit Court for Baltimore City, Case Nos.
199103042 to 046. Martin P. Welch, Judge.
Argued by: C. Justin Brown (Brown & Nieto, LLC,
Baltimore MD), (Cate E. Stetson, Kathryn M. Ali,
James W. Clayton, W. David Maxwell, Hogan Lovells
US LLP, Washington, D.C.), all on the brief, for
Appellant.
Argued by: Thiruvendran Vignarajah (DLA Piper
LLP, Brian E. Frosh, Atty. Gen., on the brief)
Baltimore, MD, for Appellee.

106a
Panel: Woodward, C.J., Wright, Graeff, JJ.*
Woodward, C.J.
TABLE OF CONTENTS
I. BACKGROUND...5
A. Trial...5
1. Day of the Murder...6
a. Morning of January 13, 1999...6
b. Midday...6
c. Afternoon...7
d. Evening...10
e. Nighttime...12
2. Forensic Evidence...14
3. Verdict and Appeal...16
B. Post–Conviction Proceedings...16
THE STATE’S PROCEDURAL QUESTIONS...21
I. The Scope of this Court’s May 18, 2015
Remand Order...21
A. Background...21
B. Contentions...24
C. Analysis...25
II. The Reopening of Syed’s Post–Conviction
Proceeding...27
A. Background...27
B. Contentions...28
*

Judge Matthew J. Fader did not participate in the Court’s
decision to designate this opinion for publication pursuant to
Md. Rule 8–605.1.

107a
C. Analysis...29
III. Waiver of Syed’s Claim of Ineffective
Assistance of Counsel Pertaining to the Cell
Tower Location Evidence...35
A. Legal Background...35
B. Reopened Post–Conviction Proceeding...41
C. Contentions on Appeal...42
D. Analysis…43
SYED’S QUESTIONS ON HIS CLAIMS OF
INEFFECTIVE ASSISTANCE OF COUNSEL…54
Standard of Review …54
I. Trial Counsel’s Failure to Pursue a Plea Deal
with the State…55
A. Background...55
B. Memorandum Opinion I...58
C. Analysis...59
II. Trial Counsel’s Failure to Investigate
McClain as a Potential Alibi Witness...61
A. Background...61
1. First Hearing...61
2. First Appeal...64
3. Second Hearing...65
4. Memorandum Opinion II...73
B. Deficient Performance...74
1. Contentions...74
2. Relevant Case Law...76
3. Analysis...85
C. Prejudice...94

108a
1. Contentions...95
2. Analysis...96
D. Conclusion...104
Hae Min Lee (“Hae”) 1 was last seen on the
afternoon of January 13, 1999, at Woodlawn High
School in Baltimore County, Maryland. Less than a
month later, on February 9, 1999, Hae’s body was
discovered in a shallow grave in Leakin Park located
in Baltimore City, Maryland. Through investigation,
Baltimore City authorities came to believe that
appellant/cross-appellee,
Adnan
Syed,
was
responsible for Hae’s death and charged Syed with
first degree murder and related crimes.
On February 25, 2000, a jury in the Circuit Court
for Baltimore City returned verdicts of guilty against
Syed for first degree murder, kidnapping, robbery,
and false imprisonment. The court subsequently
sentenced Syed to life imprisonment for first degree
murder, thirty years for kidnapping (to run
consecutive to the life sentence), and ten years for
robbery (to run consecutive to the life sentence but
concurrent to the thirty years for kidnapping). The
conviction for false imprisonment was merged for
sentencing purposes. On direct appeal, this Court
affirmed the convictions in an unreported opinion,
and in June 2003, the Court of Appeals denied Syed’s
petition for writ of certiorari. Syed v. State, No. 923,

1

Because the brother of Hae Min Lee is mentioned in the
Background Section, infra, we will refer to Hae and her brother
by their first names for the sake of clarity. We intend no
disrespect in doing so.

109a
Sept. Term 2000 (filed March 19, 2003), cert. denied,
376 Md. 52, 827 A.2d 114 (2003).
The unusual procedural posture of this case began
ten years after Syed’s convictions, when he filed a
petition for post-conviction relief on May 28, 2010.
After a two-day hearing, the circuit court denied all
nine of Syed’s claims for post-conviction relief in
January 2014.
Syed filed a timely application for leave to appeal
to this Court, which we granted on February 6, 2015.
After considering Syed’s request to remand his
appeal because of a newly obtained affidavit from
Asia McClain, a potential alibi witness, we remanded
the case to the circuit court by order dated May 18,
2015, for that court to decide whether to reopen
Syed’s post-conviction proceeding. We stayed the
remaining question raised in Syed’s appeal.
On remand, the circuit court reopened Syed’s postconviction proceeding and conducted a five-day
evidentiary hearing in February 2016. Ultimately,
the circuit court granted Syed a new trial on the
grounds of ineffective assistance of trial counsel2 for
counsel’s failure to properly challenge the reliability
of the evidence relating to the location of Syed’s cell
phone at the time that incoming calls were received
on the night of the murder.
The State filed a timely application for leave to
appeal on August 1, 2016, and Syed filed a
2

Syed’s trial counsel was M. Cristina Gutierrez, Esq.
Unfortunately, Gutierrez passed away prior to the filing of
Syed’s petition for post-conviction relief. Unless otherwise
stated, “trial counsel” or “Syed’s trial counsel” will refer to
Gutierrez.

110a
conditional cross-application for leave to appeal. We
granted both applications, lifted the stay imposed
pertaining to Syed’s original appeal, and
consolidated the appeals. Accordingly, we will
consider the questions and issues raised in both
appeals, which we have rephrased and organized
into the following questions:3

3

In their briefs, the parties presented the following questions
and issues:
Syed’s Appeal Questions—No. 2519–2013:
1. Was [Syed’s] trial counsel constitutionally ineffective
when she failed to investigate a potential alibi witness,
then told [Syed] that “nothing came of” the alibi
witness?
2. Was [Syed’s] trial counsel constitutionally ineffective
when [Syed] asked her to seek a plea offer, but counsel
failed to do so, and counsel falsely reported back to
[Syed] that the State refused to tender an offer?
The State’s Appeal Issues—No. 1396–2016:
1. Whether the post-conviction court abused its discretion
in reopening the post-conviction proceeding to consider
Syed’s claim that his trial counsel’s failure to challenge
the reliability of the cell phone location data evidence,
based on the cell phone provider’s “disclaimer” about
the unreliability of incoming calls for location purposes
violated Syed’s Sixth Amendment right to the effective
assistance of counsel.
2. Whether the post-conviction court erred in finding that
Syed had not waived his claim regarding trial counsel’s
failure to challenge the reliability of the cell phone
location data for incoming calls by failing to raise it
earlier.
3. Whether the post-conviction court erred in finding that
Syed’s trial counsel’s failure to challenge the State’s cell
phone location data evidence, based on the cell phone

111a
The State’s Procedural Questions:
1. Did the post-conviction court abuse its
discretion by exceeding the scope of this Court’s
May 18, 2015 remand order?
2. Did the post-conviction court abuse its
discretion when it reopened Syed’s postconviction proceeding to consider the claim of
ineffective assistance of counsel for trial
counsel’s failure to properly challenge the
reliability of the cell tower location evidence?
3. Did the post-conviction court err by determining
that Syed did not waive his ineffective
assistance of counsel claim pertaining to trial
counsel’s failure to properly challenge the
reliability of the cell tower location evidence?4
Syed’s Questions on His Claims of Ineffective
Assistance of Counsel:
1. Did the post-conviction court err by holding that
Syed’s right to effective assistance of counsel
provider’s
“disclaimer,”
violated
Syed’s
Sixth
Amendment right to effective assistance of counsel.
Syed’s Cross–Appeal Issue—No. 1396–2016:
1. Whether the post-conviction court erred in concluding
that—despite the finding Syed’s trial counsel rendered
ineffective assistance in failing to investigate a
potential
alibi
witness—counsel’s
deficient
representation did not violate Syed’s Sixth Amendment
right because Syed was purportedly not “prejudiced.”
4

Because, as discussed infra, we conclude that Syed waived
his claim of ineffective assistance of counsel regarding trial
counsel’s failure to properly challenge the reliability of the cell
tower location evidence, we need not address the State’s
challenge to the post-conviction court’s ruling in favor of Syed
on that claim.

112a
was not violated when trial counsel failed to
pursue a plea deal with the State?
2. Did the post-conviction court err by holding that
Syed’s right to effective assistance of counsel
was not violated when trial counsel failed to
investigate McClain as a potential alibi witness?
For the reasons set forth below, we affirm the
judgment of the circuit court, but do so by concluding
that Syed’s Sixth Amendment right to effective
assistance of counsel was violated by trial counsel’s
failure to investigate McClain as a potential alibi
witness. Accordingly, we remand the case for a new
trial.
BACKGROUND
A. Trial
At trial,5 the State’s theory was one of a scorned
lover. The State described Syed as resentful when
Hae ended her and Syed’s on-again, off-again
relationship in November of 1998. According to the
State, this resentfulness only grew after Syed
discovered that at the beginning of January 1999,
Hae had begun dating Donald Cliendinst (“Don”). To
make matters worse, Hae’s new relationship quickly
became common knowledge among students and
teachers at Woodlawn High School, where both Hae
and Syed were enrolled as students in the Magnet
program for gifted students.
The State theorized that sometime before the
school day ended on January 13, 1999, Syed asked
5

Syed’s first trial ended in a mistrial on December 15, 1999.
The second trial began on January 27, 2000, and concluded on
February 25, 2000.

113a
Hae for a ride so that he could pick up his car at the
repair shop, knowing that she would say yes. During
that ride, Syed, a regular operator of Hae’s Nissan
Sentra, drove them to the Best Buy parking lot
situated off Security Boulevard in Baltimore County,
a location frequented by them during their courtship.
Central to the State’s theory was that Syed
murdered Hae between 2:15 p.m. and 2:35 p.m. in
the Best Buy parking lot by strangling her and then
placing her body in the trunk of her car. The State
adduced evidence showing that later that night, Syed
and Jay Wilds (the State’s key witness) buried Hae’s
body in Leakin Park.
A summary of the evidence adduced at trial in a
light most favorable to the State is set forth below.
1. The Day of the Murder
a. Morning of January 13, 1999
At 10:45 a.m. on January 13, 1999, Syed used his
newly purchased cell phone 6 to call Wilds’s home
phone. Syed asked Wilds if he had any plans that
day, to which Wilds replied that he needed to go to
the mall to purchase a birthday present for his
girlfriend. Syed stated that he would give Wilds “a
lift.” Later that morning, Syed arrived at Wilds’s
house in a tan four-door Honda Accord, and the two
drove to Security Square Mall.
After shopping, Syed told Wilds that he had to get
back to school, because his lunch period was ending.
During the drive to school, Syed told Wilds “how
[Hae] made him mad,” and declared, “I’m going to
6

Syed purchased and activated a new cell phone two days
before Hae’s murder.

114a
kill that bitch . . .” Wilds dropped Syed off at school,
and Syed permitted Wilds to drive his car and keep
Syed’s cell phone. Syed said that he would give Wilds
a call when he was ready to be picked up.
b. Midday
As Wilds was leaving school, he used Syed’s phone
to call his close friend, Jennifer Pusateri, to see if he
could come over to her house. Syed’s cell phone
records indicate that a call was placed to Pusateri’s
phone at 12:07 p.m. Pusateri’s brother answered the
phone and told Wilds to come over, even though
Pusateri was still at work. Pusateri was supposed to
leave work around noon but was delayed that day.
While at Pusateri’s house, Wilds received a call from
Syed, who stated that he was not ready to be picked
up yet but that he needed to be picked up “at like
3:45 or something like that[.]”
When Pusateri got home from work, she observed
that Wilds had a cell phone with him and had driven
a tan four-door car to her house. Pusateri also noted
that Wilds “wasn’t acting like [he] normally
acts[,]”and “[h]e wasn’t as relaxed as he normally
is[.]”
c. Afternoon
Aisha Pittman, Hae’s best friend, said that she saw
Hae “[r]ight at the end of the school day at 2:15
[p.m.] in Psychology class.” When Pittman saw Hae,
Hae was talking to Syed. Rebecca Walker, a student
and friend of Hae and Syed, said that she too “saw
[Hae for] a few seconds after class let out” at 2:15
p.m. that day. Walker said that she “saw [Hae]
heading towards the door [that would have led to
where her car was parked] but [ ] did not see [Hae]

115a
actually leave.” Hae told Walker that “she had to be
somewhere after school.” But Hae did not say where
she was going.
Inez Butler Hendricks, a teacher and athletic
trainer at Woodlawn High School, saw Hae at the
concession stand in the gym lobby at “about 2:15,
2:20 [p.m].” She recalled that Hae was wearing “[a]
little short black skirt, light colored blouse, [ ] black
heels[, and] . . . some [clear] nylon stockings [on her
legs]” that day.7
Young Lee, (“Young”), Hae’s brother, stated that
Hae was supposed to pick up their cousin from
elementary school around 3:00 p.m. that day. Young
discovered that Hae had not picked up the cousin
when the elementary school called to notify him that
the cousin needed to be picked up.
Meanwhile, Wilds received a phone call from Syed.
According to Wilds, “[Syed] asked [him] to come and
get him from Best Buy.” Syed’s cell phone records
indicate an incoming call was received at 2:36 p.m.8
Upon receiving the call from Syed, Wilds stated
that he went straight to Best Buy where he saw Syed
standing next to a pay phone wearing a pair of red
gloves. Syed instructed Wilds to drive to the side of
the building and park the car next to a gray Nissan
Sentra, which was later identified as Hae’s car.
Wilds got out of the car and walked towards Syed.
7
8

These were the clothes found on Hae’s body.

Syed’s phone records set forth the time, duration, and
number dialed of each outgoing call. For incoming calls,
however, the records showed the time and duration of each call,
but not the number of the incoming call, listing it simply as
“incoming call.”

116a
Syed asked Wilds if he was “ready for this.”
According to Wilds, Syed “opened the trunk and
[Hae] was dead in the trunk.”
Syed then closed the trunk and instructed Wilds to
follow him as he drove Hae’s car. In a self-described
state of bewilderment, Wilds followed Syed to the
Interstate 70 Park and Ride where Syed parked
Hae’s car. Syed got into the driver’s seat of his car
and drove away with Wilds as a passenger. Syed
asked Wilds if he wanted to go buy some marijuana,
to which Wilds agreed.
On their way to the house of Patrick Furlow,
Wilds’s friend and marijuana dealer, Wilds made a
call to Pusateri to see if she knew if Furlow was
home; Pusateri replied that she did not. Syed’s cell
phone records indicate that a call was made to
Pusateri’s phone at 3:21 p.m.
During their drive to Furlow’s house, Syed also
made a call to Nisha Tanna, a friend of his who lived
in Silver Spring. Syed asked Wilds if he wanted to
talk to Tanna and passed the cell phone to Wilds.
Not feeling like talking, Wilds said, “hello, my name
is Jay” and passed the phone back to Syed.
According to Tanna, Syed asked her how she was
doing and then “put his friend Jay [Wilds] on the
line, and he basically asked the same question.”
Syed’s cell phone records indicate that a call was
made to Tanna’s phone at 3:32 p.m.
Wilds called Furlow at 3:59 p.m. and learned that
he was not home. At this point, Syed and Wilds
changed course and drove to Forest Park to purchase
marijuana. Wilds stated that he called Pusateri to

117a
see if she knew if Kristina Vinson,9 a mutual friend
of Pusateri and Wilds, was home. Syed’s cell phone
records indicate that a call was made to Pusateri’s
phone at 4:12 p.m.
Syed told Wilds that he wanted to go to track
practice at Woodlawn High School, because “he
needed to be seen.”10 During the ride to Woodlawn
High School, Syed express that “it kind of hurt him
but not really, and when someone treats him like
that, they deserve to die.” Syed asked: “How can
you treat somebody like that, that you are supposed
to love?” Wilds stated that Syed spoke about the
murder and confessed that “he thought [Hae] was
trying to say something to him like apologize or say
she was sorry, and that she had kicked off the turn
signal in the car, and he was worried about her
scratching him on the face or something like
that . . . .” 11 When they arrived at Woodlawn High

9

“Vinson” is occasionally spelled as “Vincent” throughout the
record and in this Court’s unreported opinion in the direct
appeal. Syed v State, No. 923, Sept. Term 2000 slip op. at 4-5
(filed Mar. 19, 2003), cert. denied, 376 Md. 52, 827 A.2d 114
(2003). Upon our review of the record, we believe that “Vinson”
is the correct spelling and will use that spelling to reference her
in this opinion.
10

Hendricks stated that Syed was on the track team at
Woodlawn High School. She testified that she would see Syed
go to track practice, because Syed would come over and talk to
her or would purchase things from the concession stand located
in the gym lobby. Track practice began at 3:00 p.m., and the
athletes had to be at practice by at least 3:30 p.m. Because no
attendance was taken at track practice, it is unclear whether
Syed attended practice on January 13, 1999, and if so, when he
arrived for practice.

118a
School, Syed told Wilds, “mother-fuckers think they
are hard, I killed somebody with my bare hands.”
Wilds then drove to Vinson’s apartment to smoke
marijuana and debate with himself about what to do.
Wilds received a call from Syed on the cell phone half
an hour later saying that he was at school ready to
be picked up, and Wilds left Vinson’s apartment to
retrieve Syed.
d. Evening
Wilds stated that, after he picked up Syed, they
both went to Vinson’s apartment. Vinson stated that
Wilds and Syed arrived at her apartment around
6:00 p.m. According to Vinson, it was memorable,
because “they were acting real shady when they got
there.” While they were at Vinson’s apartment, Wilds
recalled that Syed received three phone calls. The
first call was from Hae’s parents asking if Syed knew
where Hae was, to which he stated, “I haven’t seen
Hae, I don’t know where she is, try her new
boyfriend.”
Wilds said that the second call occurred when
“Hae’s cousin or someone had called back[,] but it
was the wrong number. They thought it was the new
boyfriend’s number[,] and it was his cellphone
number or something like that.” Young testified that
“[he] looked around the house to look for [Hae’s]
friends’ phone numbers and such,” and discovered a
phone number listed in Hae’s diary as “443 253–
11

Kevin Forrester, former homicide Sergeant for the
Baltimore City Police Department, stated that on February 28,
1999, Wilds led him, Detective Gregory MacGillivary, and
another detective to Hae’s abandoned car. According to
Sergeant Forrester, the wind-shield wiper control was broken.

119a
9023.”12 Young called that phone number believing
that it was the number of Hae’s new boyfriend, Don,
because the sheet of paper had “Don” written all over
it. After talking for a while, Young realized that he
was speaking to Syed, because he recognized Syed’s
voice. Young asked Syed “if he knew where [Hae]
was, or where she could be.” According to Young,
Syed did not say whether he knew where Hae was.
The third phone call, according to Wilds, was “from
a police officer who was asking about Hae.” Officer
Scott Adcock testified that he called Syed between
6:00 p.m. and 6:30 p.m. and spoke to him for “no
more than three to four minutes.” Syed responded to
the police officer stating, “I don’t know where Hae
is.” Syed also “advised [him] that he did see her at
school and that [Hae] was going to give him a ride
home from school, but he got detained and felt that
she probably got tired of waiting for him and left.”
Vinson testified that after receiving the last phone
call, Syed said, “they’re going to come talk to me” and
then “ran out of the apartment.” According to
Vinson, Wilds “jumped up and ran out of the
apartment, too.” Vinson looked out the window of her
apartment and observed Syed and Wilds drive away.
Syed’s cell phone records indicate that three
incoming calls were received by Syed’s cell phone at
6:07 p.m., 6:09 p.m., and 6:24 p.m.
e. Nighttime
Wilds recounted that after leaving Vinson’s
apartment, Syed drove them to Wilds’s house. There,
Syed told Wilds that he needed his help getting rid of
12

This is Syed’s cell phone number.

120a
Hae’s body, stating that “he knew what [Wilds] did,”
and “how [he] did it[.]” Fearing that this comment
was a threat to report Wilds to the police for his drug
dealing, Wilds agreed to help. Syed then “grabbed
two shovels and put them in the back seat of his car.
[Wilds] got in [Syed’s] car with him.” The two went
back to the Interstate 70 Park and Ride where Syed
got out of his car and got into Hae’s parked car.
Wilds followed Syed, and they drove around for fortyfive minutes, ultimately arriving at Leakin Park.
Wilds stated that, because he was supposed to meet
Pusateri at 7:00 p.m. that evening, he paged her to
tell her that he was going to be late for their
meeting. Syed’s cell phone records indicate that a
call was made to Pusateri’s pager number at 7:00
p.m.
When Syed and Wilds arrived at Leakin Park, Syed
parked Hae’s car on a nearby hill, got into his car,
and instructed Wilds to drive down the hill. They
then went about 150 feet13 into the woods and used
the shovels to begin digging.
Wilds stated that, “while we were digging,
[Pusateri] had called back, and [Syed] just told her
[Wilds] was busy now and hung up the phone.”
Pusateri testified that at 7:00 p.m. she received “a
page from [Wilds,] and it was a voice message.” She
was confused by Wilds’s page and “didn’t understand
the message [about] where [Wilds] wanted [her] to
pick him up and what time. So [she] thought that it
13

According to Technician Romano Thomas and Detective
Gregory MacGillivary of the Baltimore City Police Department
Homicide Unit, the burial site of Hae’s body was 127 feet from
the road.

121a
was necessary to call him.” When she called the
number on her caller I.D., “[s]omeone answered the
phone and said [Wilds] will call me when he was
ready for me to come and get him. He was busy.”
Syed’s cell phone records indicate an incoming call
was received at 7:09 p.m. Abraham Waranowitz, the
State’s expert in “cell phone network design and
functioning[,]” testified that this call registered with
cell site “L689B[,]” which was the strongest cell site
for the location of Hae’s body in Leakin Park.
After digging the grave, Wilds and Syed went back
to Syed’s car and put the shovels in the passenger
side. Wilds then drove up the hill and parked behind
Hae’s car. According to Wilds, “[Syed] asked me for
like five to ten minutes, he was like I don’t think I’m
going to be able to get her out by myself, I think I
need your help.” When Wilds responded that he was
not going to help, Syed drove Hae’s car down the hill.
Soon thereafter, Syed came back up the hill, parked
Hae’s car, got into his car, and told Wilds that they
needed to bury Hae. Wilds returned with Syed to the
woods where Hae was “laying kind of twisted face
down.” While they were burying the body, Syed
received another phone call. Wilds did not know who
the caller was, but noted that part of the
conversation was not in English. Syed’s cell phone
records indicate an incoming call was received at
7:16 p.m. and registered with the same cell site,
“L689B.”
After Wilds and Syed finished burying Hae’s body,
Syed put the shovels in his car, and they drove up
the hill to Hae’s parked car. Syed drove away in
Hae’s car, with Wilds following behind driving Syed’s
car. Wilds recalled that the two traveled towards the

122a
[C]ity on Route 40 and some of the back streets. We
cut north and south, up and down roads. [Syed]
pulled into like this alcove in the back of a whole lot
of apartments. He parked [Hae’s] car and came back
to his vehicle.[14] At that time, I told him just flat out
to take me home. He started driving me home.
Wilds further testified that Syed stopped his car at
Westview Mall where he threw Hae’s wallet, prom
picture, and other possessions into a dumpster.
Wilds then told Syed to pull behind Value City in
Westview Mall where he threw the two shovels into a
dumpster.15
Wilds stated that he paged Pusateri, and she
testified that she received a page to pick Wilds up
from Westview Mall around 8:00 p.m. Pusateri
testified further that she picked Wilds up from the
Value City in Westview Mall about ten to fifteen
minutes after receiving his page. When Wilds got
into her car, “the first thing he said was like put on
your seat belt and let’s go.” When they left the
parking lot, Wilds confessed that he had something
to tell her that she could not tell anybody. Wilds then
disclosed that Syed had strangled Hae in the Best
Buy parking lot and that he had seen Hae’s body in
the trunk of a car.
2. Forensic Evidence
Although there were no eyewitnesses to the
murder, there was forensic evidence that the State
theorized linked Syed to the crimes. Margarita
Korell, M.D., an assistant medical examiner at the
14
15

Hae’s vehicle was found parked at this location.

Detective MacGillivary testified that Hae’s possessions, as
well as the shovels, were never recovered.

123a
Office of the Chief Medical Examiner in Baltimore
City, was accepted as “an expert in forensic
pathology” at trial. Dr. Korell testified that on
February 10, 1999, she performed an autopsy on
Hae. Dr. Korell opined that “the cause of death was
strangulation” and that the manner of death was
“[h]omicide.” Dr. Korell noted that the hyoid bone in
Hae’s neck was broken, and the strap muscles of the
neck showed hemorrhaging, which indicated that
pressure had been applied to the skin on the neck.
Dr. Korell stated that in her experience, “if [ ]
pressure [is applied] on the neck for ten seconds or
so,” that could lead to unconsciousness and death
within “a couple of minutes.”
Romano Thomas, a crime lab technician with the
Baltimore City Police Department Mobile Crime Lab
Unit, testified that on February 28, 1999, he
supervised the inspection of Hae’s vehicle. Thomas
stated that one of the items recovered from the car
was a map of the Leakin Park area that was torn out
of a map book. The torn out piece was found in the
rear seat area of the vehicle.
Sharon Talmadge, an employee at the Baltimore
City Police Department Latent Print Unit, testified
that her duties were to “evaluate partial latent
prints to determine if they [were] suitable for
comparison.” Talmadge would “then compare
suitable partial latent prints to the prints of victims,
suspects[,] or defendants. [She would also] process
physical evidence to determine if there [were] any
partial latent prints on that particular piece of
evidence.” Talmadge said that she was asked to
determine if there were any partial latent prints on
the map and map book that were recovered from

124a
Hae’s vehicle. Talmadge made a comparison to Syed
and Wilds, and testified that “[a] partial latent print
developed on the back cover of the map [book] . . .
was identified as an impression of the left palm of [ ]
Syed.”
3. Verdict and Appeal
After six weeks of trial, the jury spent only about
three hours deliberating before finding Syed guilty
on February 25, 2000, of the charges of first degree
murder,
robbery,
kidnapping,
and
false
imprisonment. Syed was sentenced on June 6, 2000,
to a total term of life imprisonment plus thirty years.
On direct appeal, Syed did not challenge the
sufficiency of the State’s evidence pertaining to any
of his convictions. See Syed v. State, No. 923, Sept.
Term 2000, slip op. at 1 (filed March 19, 2003), cert.
denied, 376 Md. 52, 827 A.2d 114 (2003). Instead, he
raised numerous evidentiary issues and alleged
violations of Brady v. Maryland, 373 U.S. 83, 83
S.Ct. 1194, 10 L.Ed.2d 215 (1963). Id. at 1–2. In an
unreported opinion, filed on March 19, 2003, this
Court found no merit to Syed’s contentions and
affirmed all of his convictions. Id. at 57. The Court of
Appeals denied Syed’s petition for writ of certiorari
on June 20, 2003.
B. Post–Conviction Proceedings
On May 28, 2010, Syed filed a petition for postconviction relief, and later supplemented his petition
on June 27, 2010. Syed raised nine claims of
ineffective assistance of counsel concerning trial
counsel, sentencing counsel, and appellate counsel,
which the post-conviction court summarized as
follows:

125a
I.

Trial counsel failed to establish a timeline that
would have disproved the State’s theory and
shown that [Syed] could not have killed [Hae]
in the manner described by [the] State[’]s
witness Jay Wilds[;]

II.

Trial counsel failed to call or investigate an
alibi witness, Asia McClain, who was able and
willing to testify;

III. Trial counsel failed to move for a new trial
based on the statements of Asia McClain,
which exonerated [Syed];
IV. Trial counsel failed to adequately crossexamine Deborah Warren, a State witness;
V.

Trial counsel failed to approach the State
about a possible plea deal;

VI. Trial counsel failed to inform [Syed] of his
right to request a change of venue;
VII. Trial counsel failed to investigate the State’s
key witness, Jay Wilds, for impeachment
evidence;
VIII. Appellate counsel failed to challenge
testimony of [the] State’s expert witness that
strayed outside of his expertise; and
IX. [Syed’s] counsel at sentencing failed to request
that the [sentencing court] hold [Syed’s]
hearing on Motion for Modification of Sentence
in abeyance.[16]

16

In his petition, Syed also raised the issue of cumulative
error, but the post-conviction court did not address it. In Syed’s
first application for leave to appeal, he did not challenge the
failure of the post-conviction court to address this issue, and

126a
On October 11, 2012, and October 25, 2012, a postconviction hearing was held (“first hearing”). In a
Memorandum Opinion and Order (“Memorandum
Opinion I”), issued on January 6, 2014, the postconviction court denied Syed post-conviction relief.
On January 27, 2014, Syed filed a timely
application for leave to appeal to this Court, which
requested that we review “(1) whether his trial
counsel rendered ineffective assistance [of counsel]
by failing to interview or even contact Asia McClain,
a potential alibi witness; and (2) whether [his trial
counsel rendered ineffective assistance of counsel by]
failing to pursue a plea offer and purportedly
misrepresenting to Syed that she had.” On January
20, 2015, Syed supplemented his application for
leave to appeal, requesting that this Court remand
the case for additional fact finding in light of an
affidavit by McClain, dated January 13, 2015. In
that affidavit, McClain reaffirmed her recollection of
seeing Syed at the Woodlawn Public Library at the
time that the State alleged that Syed murdered Hae.
McClain also stated in the affidavit that in telephone
conversations with the Assistant State’s Attorney,
Kevin Urick, she was discouraged from attending the
first hearing.
After granting leave to appeal on February 6, 2015,
and receiving briefs from both the State and Syed,
this Court, on May 18, 2015, issued an order staying
Syed’s appeal on the issue of ineffective assistance of
trial counsel for failure to pursue a plea offer. We
further granted Syed’s request to remand the case to
Syed did not raise it in his motion to reopen the post-conviction
proceeding.

127a
the circuit court for further proceedings pursuant to
the Uniform Post conviction Procedure Act (“UPPA”),
Maryland Code (2001, 2008 Repl. Vol.), § 7–
109(b)(3)(ii)(2) of the Criminal Procedure Article
(“CP”) and Maryland Rule 8–604(a)(5), (d). In our
order, we instructed the post-conviction court to
consider reopening the post-conviction proceeding if
Syed were to file a motion to reopen within 45 days
of our order.
On remand, on June 30, 2015, Syed filed, pursuant
to CP § 7–104, a Motion to Reopen Post–Conviction
Proceedings (“Motion to Reopen”), based upon the
January 13, 2015 affidavit of McClain. On August
24, 2015, Syed filed a “Supplement to Motion to Re–
Open Post–Conviction Proceedings” (“Supplement”),
requesting that the post-conviction court reopen the
post-conviction proceeding to consider new claims of
ineffective assistance of trial counsel and a Brady
violation concerning the reliability of certain cell
tower location evidence admitted at trial. The State
filed a consolidated response, and Syed, in turn, filed
a reply. The post-conviction court granted Syed’s
request to reopen his post-conviction proceeding to
consider those “issues raised by McClain’s January
13, 2015 affidavit[,] and [Syed’s] Supplement
concerning the matter of cell tower location
reliability.”
On February 3, 2016, the post-conviction court
began a five-day hearing (“second hearing”) to
consider the aforementioned issues raised by Syed,
and on June 30, 016, the post-conviction court issued
its “Memorandum Opinion II.” In this opinion, the
post-conviction court first considered the issue of
“[w]hether trial counsel’s alleged failure to contact

128a
McClain as a potential alibi witness violated [Syed’s]
Sixth Amendment right to effective assistance of
counsel.” On this issue, the post-conviction court
concluded that Syed’s trial counsel was deficient by
failing to investigate McClain as a potential alibi
witness but that such deficiency did not prejudice
Syed. Accordingly, the post-conviction court denied
Syed post-conviction relief on that claim.
Next, the post-conviction court considered
“[w]hether
the
State
withheld
potentially
exculpatory evidence related to the reliability of cell
tower location evidence in violation of the disclosure
requirements under Brady.” The post-conviction
court ruled that Syed had waived this claim by
failing to raise it in his petition for post-conviction
relief and accordingly, denied post-conviction relief. 17
Lastly, the post-conviction court considered Syed’s
claim that “trial counsel’s alleged failure to challenge
the reliability of the cell tower location evidence
violated [his] Sixth Amendment right to effective
assistance of counsel.” The post-conviction court first
held that Syed had not knowingly and intelligently
waived this claim. On the merits, the post-conviction
court determined that the performance of Syed’s trial
counsel was deficient because of her failure to crossexamine Waranowitz concerning a fax cover sheet for
Syed’s cell phone records that contained a disclaimer
stating: “Any incoming calls will NOT be considered
reliable information for location.” The post-conviction
court then concluded that such deficiency was
17

In the instant appeal, Syed does not challenge the postconviction court’s decision that Syed waived his claim of a
Brady violation.

129a
prejudicial to Syed, because the State’s case relied
heavily on placing Syed at Leakin Park at the
alleged time of the burial of Hae’s body. Accordingly,
on this issue, the post-conviction court granted
Syed’s petition for post-conviction relief. The court
vacated Syed’s convictions and granted him a new
trial.
On August 1, 2016, the State filed a timely
application for leave to appeal to this Court. Syed
then filed a conditional application for leave to crossappeal. On January 18, 2017, this Court issued an
order granting the State’s application for leave to
appeal and Syed’s conditional application for leave to
cross-appeal. We further lifted the stay of Syed’s first
appeal imposed by our remand order and
consolidated the appeals.
Additional facts will be provided as they become
necessary to the resolution of the questions
presented in the case sub judice.
THE STATE’S PROCEDURAL
QUESTIONS
I. Did the Post–Conviction Court Abuse Its
Discretion by Exceeding the Scope of This
Court’s May 18, 2015 Remand Order?
A. Background
[1] In our May 18, 2015 remand order, this Court
wrote, in relevant part:
The purpose of the stay and the remand is
to provide Syed with the opportunity to file
with the circuit court a request, pursuant to
§ 7–104 of the Criminal Procedure Article of
Md. Code, to re-open the previously

130a
concluded post-conviction proceeding in
light of [ ] McClain’s January 13, 2015,
affidavit, which has not hereto-fore been
reviewed or considered by the circuit court.
Moreover, because the affidavit was not presented
to the circuit court during Syed’s post-conviction
proceeding, as it did not then exist, it is not a part
of the record and, there-fore, this Court may not
properly con-sider it in addressing the merits of
this appeal. This remand, among other things,
will afford the parties the opportunity to
supplement the record with relevant documents
and even testimony pertinent to the issues raised
by this appeal.
We shall, therefore, remand the case to the
circuit court, without affirmance or reversal, to
afford Syed the opportunity to file such a
request to re-open the post-conviction
proceedings. In the event that the circuit
court grants a request to re-open the postconviction proceedings, the circuit court
may, in its discretion, con-duct any further
proceedings it deems appropriate. If that
occurs, the parties will be given, if and when this
matter returns to this Court, an opportunity to
supplement their briefs and the record.
Accordingly, it is this 18th day of May 2015, by
the Court of Special Appeals,
ORDERED that the above-captioned appeal be
and hereby is STAYED; and it is further
ORDERED that [Syed’s] request for a remand to
the circuit court is GRANTED and the case be
and hereby is REMANDED to the Circuit Court

131a
for Baltimore City, without affirmance or
reversal, for the purpose set forth in this Order;
and it is further
ORDERED that [Syed] shall file his motion to
re-open the closed post-conviction proceeding
within 45 days of the date of this Order and, if he
fails to do so, the stay shall be lifted and this
Court will proceed with the appeal without any
reference to or consideration of [Syed’s]
Supplement to Application for Leave to Appeal or
any documents not presently a part of the circuit
court’s record; and it is further
ORDERED that, after taking any action it
deems appropriate, the circuit court shall
forthwith re-transmit the record to this
Court for further proceedings.
(Emphasis added).
As authorized by our remand order, Syed timely
filed the Motion to Reopen, which was based on the
McClain affidavit. Almost two months later,
however, Syed filed the Supplement that raised,
among other things, a claim of ineffective assistance
of counsel pertaining to trial counsel’s failure to
properly challenge the reliability of the cell tower
location evidence, which claim had never been raised
before in any proceeding arising out of the charges
against Syed. In the Supplement, Syed explained
why such claim should be heard at the same time as
the claim raised in his Motion to Reopen:
[A]s a matter of judicial economy, the [c]ourt
should consider this issue now. If it does not, and
if Syed’s conviction is not vacated on the alibi
issue, Syed would have to raise the issue in a

132a
successive motion to re-open post-conviction
proceedings. Not only could this lead to another
separate proceeding, but it could lead to another
appeal. It is in the interest of all parties to resolve
this matter—and get to the heart of the
problem—once and for all. Now is the time to do
so.
In
its
consolidated
response,
the
State
acknowledged that Syed appeared to be advocating
for his Supplement to be considered as a new motion
to reopen under CP § 7–104, but argued that the
post-conviction court should not reopen, be-cause the
issue concerning the failure of trial counsel to
properly challenge the reliability of the cell tower
location evidence had “been repeatedly waived.”
In its “Statement of Reasons” regarding Syed’s
Motion to Reopen and Supplement, the postconviction court first observed that “[t]his [c]ourt
may reopen [Syed’s] previously concluded postconviction proceedings if the [c]ourt determines that
reopening the matter is in the interests of justice.
Crim. Pro. § 7–104.” With respect to Syed’s Motion to
Reopen, which was based on the McClain affidavit,
the court determined, “in its own discretion,” that
“reopening the post-conviction proceedings would be
in the interests of justice for all parties[,]” because
“[t]his [would] allow [Syed] to introduce the January
13, 2015 affidavit from McClain, the potential
testimony of McClain, and relevant evidence
concerning [Syed’s] claims of ineffective counsel and
alleged prosecutorial misconduct during the postconviction proceedings,” and also would give the
State “an equal opportunity to introduce testimony
and other evidence to refute [Syed’s] claims.”

133a
Next, the post-conviction court addressed Syed’s
Supplement, and stated in relevant part:
[Syed] also moves this [c]ourt to reopen the postconviction proceedings to allow him to raise the
issue of cell tower location reliability, which is
not currently before the Court of Special
Appeals and was not raised at the
previously
concluded
post-conviction
proceedings. Although this [c]ourt is aware
that the Court of Special Appeals issued a
limited
remand,
the
Remand
Order
provided this [c]ourt with the discretion to
conduct any further proceedings it deems
appropriate.
(Emphasis added).
The post-conviction court concluded by ordering
that “[Syed’s] Motion to Reopen [ ] and Supplement
thereto is hereby GRANTED[.]” (Bold emphasis in
original) (italic emphasis added).
B. Contentions
The State argues that the post-conviction court
abused its discretion when it exceeded the scope of
this Court’s remand order by reopening Syed’s postconviction proceeding to consider issues that were
not raised in the first hearing, and not the subject of
our remand order. The State interprets the scope of
our remand order as follows: “the plain and natural
reading of the order gave the post-conviction court
considerable discretion to conduct a full range of
proceedings, so long as they were related to [ ]
McClain and the issue of Syed’s alibi defense.” From
that reading of the “limited” remand order, the State
concludes that to allow the court to reopen Syed’s

134a
post-conviction proceeding and consider any issue
other than those arising out of the McClain affidavit
would run counter to the order’s purpose and would
constitute “an open invitation to litigate unpreserved
issues altogether unconnected to McClain and the
issue of an alibi.”18
Syed responds that this Court delegated to the
post-conviction court the latitude to “conduct further
proceedings it deem[ed] appropriate.” In Syed’s view,
our remand order was sufficiently broad to allow the
post-conviction court to reopen Syed’s post-conviction
proceeding for any reason that it deemed was in the
interests of justice.

18

The State also argues that this Court’s remand order
prohibited the post-conviction court from considering the
Supplement, because the Supplement was filed after the 45–
day deadline specified in the order. We disagree. First, the 45–
day deadline in our remand order was a procedural mechanism
to prevent the instant appeal from entering a state of limbo.
The remand order specified that either the appeal would be
stayed pending the post-conviction court’s consideration of a
motion to reopen filed within 45 days, or the appeal would
proceed without this Court’s consideration of any document not
made part of the circuit court record, e.g., the McClain affidavit.
Because Syed filed the Motion to Reopen within 45 days, the
purpose of that deadline was satisfied. Second, as will be
discussed infra, the Supplement sets forth a separate motion to
reopen Syed’s post-conviction proceeding under CP § 7–104. CP
§ 7–104 does not specify a limitation on the number of motions
to reopen that can be filed or on the time that any such motion
must be filed. See Gray v. State, 388 Md. 366, 380, 380 n.6, 879
A.2d 1064 (2005) (stating that CP “§ 7–104 does not prohibit a
person from filing more than one petition to reopen” and that
“the statute does not specify when a defendant must file a
petition to reopen”).

135a
C. Analysis
This Court concludes that the post-conviction court
did not exceed the scope of our May 18, 2015 remand
order. In remanding Syed’s appeal, we did not
require that the post-conviction court reopen Syed’s
previously concluded post-conviction proceeding.
Instead, we provided Syed “with the opportunity to
file” with the post-conviction court a motion,
pursuant CP § 7–104, “to re-open the previously
concluded post-conviction proceeding in light of [ ]
McClain’s January 13, 2015, affidavit.” Syed did in
fact take such opportunity by filing the Motion to
Reopen, which was based on McClain’s affidavit.
Upon Syed’s filing of the Motion to Reopen, the
post-conviction court was required by the remand
order to decide whether to reopen the post-conviction
proceeding under CP § 7–104. CP § 7–104 states:
“The court may reopen a post[-]conviction proceeding
that was previously concluded if the court
determines that the action is in the interests of
justice.” Here, the post-conviction court decided to
grant the Motion to Reopen, because the reopening of
the post-conviction proceeding to consider the issues
raised by the McClain affidavit would be “in the
interests of justice for all parties.” In the instant
appeal, the State does not challenge the postconviction court’s granting of the Motion to Reopen.
The remand order goes on to provide that “[i]n the
event that the circuit court grants a request to re-open
the post-conviction proceedings, the circuit court may,
in its discretion, conduct any further proceedings it
deems appropriate.” Because the post-conviction
court granted Syed’s Motion to Reopen, the court was

136a
specifically authorized to “conduct any further
proceedings it deem[ed] appropriate.”
As the State properly points out, the authority
granted by our remand order for the post-conviction
court to “conduct further proceedings it deem[ed]
appropriate” was not a carte blanche grant for the
court to hear any matter raised by the parties. Here,
however, the Supplement was, in effect, a separate
motion to reopen the post-conviction proceeding
under CP § 7–104 for the court to consider, among
other things, a new claim of ineffective assistance of
counsel, namely, the failure of trial counsel to
properly challenge the reliability of the cell tower
location evidence. Clearly, as Syed suggests, it would
be in the interests of judicial economy for the postconviction court to hear both of Syed’s claims of
ineffective assistance of trial counsel under CP § 7–
104 in one proceeding. Therefore, under the
circumstances of the instant case, the post-conviction
court acted within the scope of the May 18, 2015
remand order to conduct a “further proceeding[ ]”
regarding the Supplement.
Nevertheless, because we conclude that the
Supplement is a separate motion to reopen under CP
§ 7–104, there is a condition precedent to the postconviction court’s consideration of the Supplement
with the Motion to Reopen—the court must
determine whether a reopening for the Supplement
is in the “interests of justice.” See CP § 7–104. As
will be discussed, infra, the post-conviction court
exercised its discretion and concluded that the
reopening of the post-conviction proceeding to
consider the Supplement was “in the interests of
justice.” We shall now turn to the issue of whether

137a
the post-conviction court abused its discretion in so
doing.
II. Did the Post–Conviction Court Abuse Its
Discretion When It Reopened Syed’s Post–
Conviction Proceeding to Consider the
Claim of Ineffective Assistance of Counsel
for Trial Counsel’s Failure to Properly
Challenge the Reliability of the Cell Tower
Location Evidence?
A. Background
[2] As previously stated, the post-conviction court
first granted Syed’s Motion to Reopen concerning his
claim of ineffective assistance of counsel for trial
counsel’s failure to investigate a potential alibi
witness, McClain. After recognizing its authority
under the remand order “to conduct any further
proceedings it deems appropriate[,]” the postconviction court stated, in relevant part:
After careful consideration of the parties’
pleadings, this [c]ourt in the exercise of its
discretion, concludes that reopening the postconviction proceedings to allow [Syed] to raise the
issue of cell tower location reliability and
supplement the record with relevant materials
would be in the interests of justice. The issue of
cell tower location reliability is premised upon
[Syed’s] claims of ineffective assistance of counsel
and potential prosecutorial misconduct during
trial, which are grounds for reopening the postconviction proceedings under Maryland law.
[Gray v. State, 388 Md. 366, 382 n.7, 879 A.2d
1064 (2005)]. [The State] can, of course, submit
relevant materials to rebut [Syed’s] claims.

138a
***
ORDERED, that this [c]ourt shall limit its
consideration to:
***
2) Relevant evidence relating to a) trial counsel’s
alleged failure to cross[-]examine [the State’s]
expert on the reliability of the cell tower location
evidence
and
b)
potential
prosecutorial
misconduct during trial[.]
(Bold emphasis in original) (italic emphasis added).
B. Contentions
The State argues that the post-conviction court
abused its discretion by reopening the postconviction proceeding to consider the claim of
ineffective assistance of trial counsel raised in the
Supplement, because “there was no new evidence, no
change in law, no connection to the reason for the
remand, and no excuse for why the claim was not
raised earlier.” Recognizing that Maryland appellate
courts have interpreted the “interests of justice”
standard to give wide discretion to a post-conviction
court to consider whether to reopen a previously
concluded post-conviction proceeding, the State,
nevertheless, contends that, “the ‘interests of justice’
standard must operate as a standard.” (Emphasis in
original). According to the State, if “the ‘interests of
justice’ standard is satisfied whenever [an] attorney[
] can conjure a ‘potentially meritorious’ claim based
on a decades-old record, despite there being no new
evidence, no change in the law, no misconduct, and

139a
no other special circumstances, then the ‘interests of
justice’ standard amounts to no standard at all.”19
Syed responds that the interests of justice standard
has been interpreted to give a post-conviction court
broad discretion in determining whether it is in the
interests of justice to reopen a post-conviction
proceeding. Acknowledging that the Court of Appeals
gave examples of meritorious reasons to reopen a
post-conviction proceeding in Gray v. State, 388 Md.
366, 879 A.2d 1064 (2005), Syed argues that those
examples are just examples, and a post-conviction
court is not required to grant a motion to reopen only
on grounds that Maryland courts have heretofore
suggested are proper. Syed further points out that
the State cannot cite to any case where a post-

19

The State also argues that Syed’s Supplement should be
considered a second post-conviction petition, which is forbidden
under CP § 7-103(b)(1). We have searched the record in vain to
find where the State has ever articulated this argument. Our
review of the record reveals that on remand, the State never
characterized Syed’s Supplement as a second petition for postconviction relief. Moreover, the State’s procedural argument
has consistently been that Syed’s cell tower location claims fell
outside the scope of our remand order and that those claims
were waived. Accordingly, we do not consider the State’s
argument, because it was not “raised in or decided by the trial
court.” Md. Rule 8–131(a) (“Ordinarily, the appellate court will
not decide any other issue unless it plainly appears by the
record to have been raised in or decided by the trial court[.]”);
see also Conyers v. State, 367 Md. 571, 593–95, 790 A.2d 15
(2002). Even if this Court were to consider the State’s
argument, we would conclude that the post-conviction court did
not abuse its discretion when it interpreted Syed’s Supplement
as a new motion to reopen and not a second petition for postconviction relief. See Gray v. State, 388 Md. 366, 383–84, 879
A.2d 1064 (2005).

140a
conviction court’s reopening of a post-conviction
proceeding has been overturned on appeal.
C. Analysis
We begin by briefly reciting the history of CP § 7–
103, which governs a petition for post-conviction
relief, and its relationship to CP § 7–104. This Court
has articulated such history as follows:
Since the enactment of the UPPA in 1958, the
General Assembly has acted to limit the number
of post[-]conviction petitions that a person may
file for each conviction. Originally, the UPPA “did
not place any limit on the number of post[]conviction petitions which a petitioner was
entitled to file.” Mason v. State, 309 Md. 215,
217–18, 522 A.2d 1344 (1987). But, effective July
1, 1986, Art. 27, § 645A was amended by adding
subsection (a)(2), which provided that a “person
may not file more than two petitions, arising out
of each trial, for relief under this Subtitle,”
Grayson v. State, 354 Md. 1, 3, 728 A.2d 1280
(1999).
In 1995, the General Assembly again changed
the number of petitions that could be filed to
challenge a particular conviction. By Ch. 110 of
the Acts of 1995, which primarily amended
provisions relating to the death penalty, (I) and
(II) were added to subsection (a)(2) and
subsequently codified as Art. 27, [§ ] 645A(a)(2)(i)
and (iii). Under subsection (a)(2)(i), a person was
permitted to “file only one petition[,] arising out
of each trial,” id. at 4, 728 A.2d 1280, and
subsection (a)(2)(iii) provided that “[t]he court
may in its discretion reopen a post[-]conviction
proceeding that was previously concluded if the

141a
court determines that such action is in the
interests of justice.” Id.
In 2001, the UPPA was repealed and reenacted
at CP §§ 7–101 et seq. The provision relating to
the reopening of a post[-]conviction proceeding is
now codified at CP § 7–104 and contains “new
language derived without substantive change.”
Revisor’s Note. The words “in its discretion” were
“deleted as surplusage.” Id.
Gray v. State, 158 Md. App. 635, 645–46, 857 A.2d
1176 (2004), aff’d, 388 Md. 366, 879 A.2d 1064
(2005).
We further noted that
[t]here are significant differences between the
filing of a petition for post[-]conviction relief and a
request to reopen a post[-]conviction proceeding.
For example, a person is entitled, as a matter of
right, to file one post[-]conviction petition. CP
§ 7–103(a). The reopening of a closed post[]conviction proceeding, however, is at the
discretion of the circuit court. CP § 7–104.
Also, as a matter of right, a person filing a
petition for post[-]conviction relief is entitled to a
hearing and the assistance of counsel. CP § 7–
108(a); Md. Rule 4–406(a). A request that a post[]conviction proceeding be reopened does not
entitle a person to either. Under the statute, the
circuit court determines if a hearing and the
assistance of counsel “should be granted.” CP § 7–
108(b)(1). Md. Rule 4–406(a) provides that, in the
absence of a stipulation that the applicable facts
and law justify the requested relief, the circuit
court may not reopen a proceeding or grant relief

142a
without a hearing, but a request to reopen can be
denied without a hearing.
Id. at 645, 857 A.2d 1176.
The Court of Appeals has determined that the
proper standard of review for a ruling on a motion to
reopen is an abuse of discretion standard, which
is one of those very general, amorphous terms
that appellate courts use and apply with great
frequency but which they have defined in many
different ways . . . [A] ruling reviewed under an
abuse of discretion standard will not be reversed
simply because the appellate court would not
have made the same ruling. The decision under
consideration has to be well removed from
any center mark imagined by the reviewing
court and beyond the fringe of what that
court deems minimally acceptable. That kind
of distance can arise in a number of ways, among
which are that the ruling either does not logically
follow from the findings upon which it supposedly
rests or has no reasonable relationship to its
announced objective. That, we think, is
included within the notion of untenable
grounds, violative of fact and logic, and
against the logic and effect of facts and
inferences before the court.
Gray, 388 Md. at 383–84, 879 A.2d 1064
(alternations in original) (emphasis added) (internal
quotation marks omitted).
Relevant to the instant appeal, the Court of
Appeals has discussed the meaning of the phrase
“interests of justice:”

143a
The phrase “interests of justice” has been
interpreted to include a wide array of
possibilities. See Love v. State, 95 Md. App. 420,
427, 621 A.2d 910, 914 (1993) (mentioning a long
list of reasons for granting a new trial in the
interests of justice). While it is within the trial
court’s discretion to decide when “the
interests of justice” require reopening, we
note that some reasons for reopening could
include, for example, ineffective assistance of
post[-]conviction counsel or a change made in the
law that should be applied retroactively. See Oken
v. State, 367 Md. 191, 195, 786 A.2d 691, 693
(2001) (noting Oken’s motion to reopen a post[]conviction proceeding on the basis that the
Supreme Court’s opinion in Apprendi v. New
Jersey, 530 U.S. 466, 120 S.Ct. 2348, 147 L.Ed.2d
435 (2000) rendered his sentencing proceeding
invalid); see Harris v. State, 160 Md. App. 78, 862
A.2d 516 [(2004) ] (discussing the defendant’s
motion to reopen post[-]conviction proceeding on
the ground that he had ineffective assistance of
post[-]conviction counsel, in addition to ineffective
assistance of trial and appellate counsel); [Stovall
v. State, 144 Md. App. 711, 715, 800 A.2d 31, 34
(2002) ] (holding that a defendant may petition to
reopen a post[-]conviction proceeding if post[]conviction counsel was ineffective).
Id. at 382 n.7, 879 A.2d 1064 (emphasis added).
It is clear to us that the Court of Appeals’
discussion of the phrase “interests of justice” in Gray,
quoted above, reaffirmed the broad discretion
accorded to trial courts in deciding, “when ‘the
interests of justice’ require reopening[.]” See id. The

144a
Court cited to a number of cases as examples of the
reasons found by the courts to support a reopening of
a post-conviction proceeding. Id. The examples cited
by the Court of Appeals are just that—examples. See
id. They are by no means intended to circumscribe
the trial court’s discretion in deciding whether or not
the “interests of justice” warrant a reopening of a
post-conviction proceeding.
In the case sub judice, the post-conviction court
determined that it was in the interests of justice to
reopen Syed’s post-conviction proceeding to consider
Syed’s claims that (1) trial counsel rendered
ineffective assistance when she failed to properly
challenge the reliability of the cell tower location
evidence, and (2) the State failed to disclose
potentially exculpatory evidence related to the
reliability of the cell tower location evidence in
violation of the State’s obligation under Brady. The
aforementioned claims revolve around the AT & T
fax cover sheet for Syed’s phone records, which cover
sheet contained a disclaimer stating that “[a]ny
incoming calls will NOT be considered reliable
information for location.” Although trial counsel had
the disclaimer at the time of trial, she never crossexamined the State’s cell tower expert, Waranowitz,
about the reliability of the location of Syed’s cell
phone based on the location of the cell tower when
the cell phone received an incoming call. Also,
Waranowitz filed an affidavit in which he averred
that the State never gave him the disclaimer before
he testified as to the phone records’ reliability for
determining cell phone location.
Syed’s claims of ineffective assistance of trial
counsel and violation of Brady by the State regarding

145a
the reliability of the cell tower location evidence are
clearly cognizable under the UPPA. See CP § 7–
102(a). 20 If his claims were not waived, and if he
adduced sufficient evidence to satisfy the test of
Strickland or Brady, Syed would be entitled to the
remedy of a new trial under the UPPA. Therefore, it
was not “violative of fact and logic” for the postconviction court to conclude that reopening Syed’s
post-conviction proceeding to consider his claim
regarding the reliability of the cell tower location
evidence was in the “interests of justice.” See Gray,
388 Md. at 383–84, 879 A.2d 1064. Hence, the postconviction court did not abuse its discretion in so
doing.
Nevertheless, the State argues that the postconviction court abused its discretion by reopening
Syed’s post-conviction proceeding, because his claim
regarding the reliability of the cell tower location
20

CP § 7–102(a) provides:
(a)
In general—Subject to subsection (b) of this
section, §§ 7–103 and 7–104 of this subtitle and Subtitle 2 of
this title, a convicted person may begin a proceeding under
this title in the circuit court for the county in which the
conviction took place at any time if the person claims that:
(1) the sentence or judgment was imposed in violation
of the Constitution of the United States or the
Constitution or laws of the State;
(2) the court lacked jurisdiction to impose the sentence;
(3) the sentence exceeds the maximum allowed by law;
or
(4) the sentence is otherwise subject to collateral attack
on a ground of alleged error that would otherwise be
available under a writ of habeas corpus, writ of
coram nobis, or other common law or statutory
remedy.

146a
evidence could have been raised in his petition for
post-conviction relief and prosecuted at the first
hearing but were not. In other words, the State
contends that the decision of whether to reopen a
post-conviction proceeding under CP § 7–104
necessarily includes a decision on whether the
subject claim has been waived, and if so, whether the
waiver can be excused under the circumstances of
the case. See, e.g., CP § 7–106(b)(1)(ii) (stating that
“[f]ailure to make an allegation of error shall be
excused if special circumstances exist”).
We need not decide whether the issue of waiver is
part of the decisional process regarding a motion to
reopen under CP § 7–104. In the instant case, the
post-conviction court did not address the State’s
waiver argument when it decided that the reopening
of the post-conviction proceeding to hear Syed’s
claims set forth in the Supplement was “in the
interests of justice.” Nonetheless, the court fully
considered the waiver issue during the reopened
post-conviction proceeding and ruled on that issue in
its Memorandum Opinion II. Therefore, even if the
post-conviction court erred by failing to address the
waiver issue when it decided to reopen the postconviction proceeding under CP § 7–104 to hear the
Supplement, such error was harmless.

147a
III.Did the Post–Conviction Court Err by
Determining That Syed Did Not Waive His
Ineffective Assistance of Counsel Claim
Pertaining to Trial Counsel’s Failure to
Properly Challenge the Reliability of the
Cell Tower Location Evidence?
A. Legal Background
The UPPA’s waiver provision in CP § 7–106(b)
states as follows:
(b) Waiver of allegation of error.—(1)
(i) Except as provided in subparagraph (ii) of this
paragraph, an allegation of error is waived
when a petitioner could have made but
intelligently and knowingly failed to make
the allegation:
1. before trial;
2. at trial;
3. on direct appeal, whether or not the
petitioner took an appeal;
4. in an application for leave to appeal a
conviction based on a guilty plea;
5. in a habeas corpus or coram nobis
proceeding began by the petitioner;
6. in a prior petition under this subtitle;
or
7. in any other proceeding that the petitioner
began.
(ii) 1. Failure to make an allegation of error
shall be excused if special circumstances
exist.

148a
2. The petitioner has the burden of proving
that special circumstances exist.
(2) When a petitioner could have made an
allegation of error at a proceeding set forth
in paragraph (1)(i) of this subsection but did
not make an allegation of error, there is a
rebuttable presumption that the petitioner
intelligently and knowingly failed to make
the allegation.
(Italic emphasis in original) (bold emphasis added).
In the seminal case of Curtis v. State, 284 Md. 132,
133, 395 A.2d 464 (1978), the Court of Appeals
addressed the application of CP § 7–106(b), then
known as Article 27, § 645A,21 to claims of ineffective
21

The waiver provision in Maryland Code (1957, 1976 Repl.
Vol.), Article 27, § 645A (c) read as follows:
(c) When allegation of error deemed to have been
waived.—For the purposes of this subtitle, an allegation of
error shall be deemed to be waived when a petitioner could
have made, but intelligently and knowingly failed to make,
such allegation before trial, at trial, on direct appeal
(whether or not said petitioner actually took such an
appeal), in any habeas corpus or coram nobis proceeding
actually instituted by said petitioner, in a prior petition
under this subtitle, or in any other proceeding actually
instituted by said petitioner, unless the failure to make
such allegation shall be excused because of special
circumstances. The burden of proving the existence of such
special circumstances shall be upon the petitioner.
When an allegation of error could have been made by a
petitioner before trial, at trial, on direct appeal (whether or
not said petitioner actually took such an appeal), in any
habeas corpus or coram nobis proceeding actually
instituted by said petitioner, in a prior petition under this
subtitle, or in any other proceeding actually instituted by
said petitioner, but was not in fact so made, there shall be

149a
assistance of counsel. Because both parties in the
instant appeal focus their arguments on Curtis, we
shall begin with an examination of that case.
In 1967, Curtis “was convicted of first degree
murder . . . in . . . Prince George’s County[;]” a
conviction that was subsequently upheld on direct
appeal. Id. at 134, 395 A.2d 464. With the aid of
counsel different from his trial and appellate counsel,
Curtis filed his first petition for post-conviction
relief. Id. Curtis’s petition alleged several errors, but
it did not contain any claim of ineffective assistance
of counsel. Id. “After a hearing on the merits, the
[post-conviction] court denied relief” in 1970. Id.
In 1976, when the UPPA still allowed an unlimited
number of post-conviction petitions,22 Curtis filed a
second petition for post-conviction relief with the aid
of new post-conviction counsel. See id. at 134, 395
A.2d 464. In that petition, Curtis raised for the first
time, among other things, the issue of ineffective
assistance of trial counsel. Id. at 134–35, 395 A.2d
464. Upon consideration of the State’s motion to
dismiss, the post-conviction court dismissed Curtis’s
second petition for post-conviction relief, reasoning
that, because Curtis failed to raise the issue of
ineffective assistance of trial counsel in his first posta rebuttable presumption that said petitioner intelligently
and knowingly failed to make such allegation.
22

“Ch. 110 of the Acts of 1995,” “permitted [a petitioner] to
‘file only one petition arising out of each trial,’ . . . . [and]
provided that ‘[t]he court may in its discretion reopen a post[]conviction proceeding that was previously concluded if the
court determines that such action is in the interests of justice.’ ”
Gray, 158 Md. App. at 645–46, 857 A.2d 1176 (quoting Grayson
v. State, 354 Md. 1, 4, 728 A.2d 1280 (1999)).

150a
conviction petition, he waived the issue. Id. at 135–
36, 395 A.2d 464.
After this Court granted Curtis leave to appeal and
upheld the post-conviction court’s dismissal, the
Court of Appeals granted certiorari. Id. at 136–37,
395 A.2d 464. The Court stated that the issue before
it was whether
the General Assembly, by use of the term ‘waiver’
in the [UPPA], intend[ed] that [that] definition of
‘waiver’ set forth in subsection (c) [now CP § 7–
106(b) ] determine in all cases the right to raise
for the first time any issue in a post[-]conviction
action, regardless of the nature of prior
procedural defaults, tactical decisions of counsel,
or omissions of counsel[.]
Id. at 141, 395 A.2d 464.
The Court determined that, because the term
“waiver” possesses inherent ambiguity, the waiver
provision in the UPPA did not necessary apply to “all
allegations made in post[-]conviction actions.” Id. at
142, 395 A.2d 464. The Court reasoned:
If, in defining “waiver” for purposes of the
[UPPA], the General Assembly intended to
make subsection (c), with its “intelligent
and knowing” definition, applicable every
time counsel made a tactical decision or a
procedural default occurred, the result
could be chaotic. For example, under such
an interpretation of the statute, for a
criminal defendant to be bound by his
lawyer’s actions, the lawyer would have to
interrupt a trial repeatedly and go through
countless litanies with his client. One of the

151a
basic principles of statutory construction is that a
statute should not be construed to lead to an
unreasonable or illogical result. Grosvenor v.
Supervisor of Assess., 271 Md. 232, 242, 315 A.2d
758 (1974); Coerper v. Comptroller, 265 Md. 3, 6,
288 A.2d 187 (1972); Pan Am. Sulphur Co. v.
State Dep’t of Assessments and Taxation, 251 Md.
620, 627, 248 A.2d 354 (1968); Sanza v. Maryland
Board of Censors, 245 Md. 319, 340, 226 A.2d 317
(1967). It is hardly conceivable that the
Legislature, in adopting § 645A (c) [now CP § 7–
106(b) ], could have intended to use the word
“waiver” in its broadest sense, thereby requiring
that the “intelligent and knowing” standard apply
every time an issue was not raised before.
Id. at 149, 395 A.2d 464 (emphasis added). The Court
then turned its attention to “what type of situations
the Legislature intended to” require an intelligent
and knowing waiver. See id. at 142, 149, 395 A.2d
464.
The Court held that the UPPA’s “intelligent and
knowing”
requirement
applies
“in
those
circumstances where [a knowing and intelligent]
waiver”
is
required
to
relinquish
certain
fundamental constitutional rights such as the right
to counsel, the right to a jury trial, the right against
self-incrimination, and the right against double
jeopardy. Id. at 143–44, 49, 395 A.2d 464. The Court
cautioned, however, that not all rights are so
fundamental as those rights that require a knowing
and intelligent waiver. Id. at 145, 395 A.2d 464. For
example, even though “a defendant has a
constitutional right not to be tried in [prison] attire,
only by affirmatively asserting this right will it be

152a
given effect.” Id. This is because when competent
trial counsel represents a defendant, that counsel
may determine as a matter of trial tactics to decline
to invoke this right. Id. at 145–46, 395 A.2d 464. In
addition, the Court stated that the Supreme Court
has recognized that “a ‘procedural default’ in certain
circumstances, even where a defendant may
personally have been without knowledge or
understanding of the matter, may result in his being
precluded from asserting important rights[,]” such as
a procedural requirement that a defendant timely
object to the racial composition of a grand jury. Id. at
146–47, 395 A.2d 464.
[3] In sum,
whether one is precluded from asserting a
constitutional right because of what may have
occurred previously, even though the failure was
not “intelligent and knowing,” depends upon the
nature of the right and the surrounding
circumstances. A defendant may forego a broad
spectrum of rights which are deemed to fall
within the category of tactical decisions by
counsel or involve procedural defaults.
Id. at 147, 395 A.2d 464.
The Court concluded that
the term “waiver” could be said to connote the
intelligent and knowing relinquishment of certain
basic constitutional rights under circumstances
where the courts have held that only such
intelligent and knowing action will bind the
defendant. In our view, the Legislature was using
the word “waiver” in this narrow sense in the

153a
Maryland Post Conviction Procedure Act, Art. 27,
§ 645A [now CP § 7–106(b) ].
Id. at 148, 395 A.2d 464.
Returning to the case before it, the Court addressed
Curtis’s claim “that the representation by his trial
counsel was so inadequate that he was deprived of
his Sixth Amendment right to have the Assistance of
Counsel for his defense.” Id. at 150, 395 A.2d 464
(internal quotation marks omitted). The Court held
“that a criminal defendant cannot be precluded from
having this issue considered because of his [or her]
mere failure to raise the issue previously.” Id.
(emphasis added). The Court explained:
The question of the constitutional adequacy of
trial counsel’s representation is governed by the
Johnson v. Zerbst [304 U.S. 458, 58 S.Ct. 1019, 82
L.Ed. 1461 (1938) ] standard of an “intelligent
and knowing” waiver. Hawk v. Olson, 326 U.S.
271, 274, 279, 66 S.Ct. 116, 90 L.Ed. 61 (1945);
Glasser v. United States, 315 U.S. 60, 70–72, 62
S.Ct. 457, 86 L.Ed. 680 (1942); United States v.
Garcia, 517 F.2d 272 (5th Cir. 1975); Kelly v.
Peyton, 420 F.2d 912, 914 (4th Cir. 1969); Sawyer
v. Brough, 358 F.2d 70, 73–74 (4th Cir. 1966).
Consequently, subsection (c) of the [UPPA] is
applicable to Curtis’s contention, and it can only
be deemed “waived” for purposes of the [UPPA] if
Curtis “intelligently and knowingly” failed to
raise it previously. The proffered facts,
accepted as true by the circuit court for purposes
of the State’s motion to dismiss on the ground of
waiver, clearly disclose that Curtis did not
“intelligently and knowingly” fail to
previously raise the matter of his trial

154a
counsel’s alleged inadequacy. Therefore, the
issue cannot be deemed to have been
waived.
Id. at 150–51, 395 A.2d 464 (emphasis added).
[4–7] The Curtis Court’s holding that the UPPA
waiver provision is only applicable when allegations
of error raised by a petitioner invoke a narrow set of
fundamental constitutional rights has created “a
dual framework” for analyzing whether a petitioner
has waived a particular issue for failure to raise that
issue in a previous proceeding. See Hunt v. State, 345
Md. 122, 137–38, 691 A.2d 1255 (1997). A court must
examine whether the “nature of the right involved” is
recognized by the Supreme Court as requiring an
intelligent and knowing waiver, and thereby a
fundamental right governed by CP § 7–106(b), see id.
at 137–38, 691 A.2d 1255, or, whether the “nature of
the right involved” is a non-fundamental right and
thereby governed by the “general legal principles” of
waiver. See State v. Torres, 86 Md. App. 560, 568,
587 A.2d 582 (1991) (stating that for claims invoking
non-fundamental rights “waiver is determined by
general legal principles. The most significant of these
principles is that the failure to exercise a prior
opportunity to raise an allegation of error generally
effects a waiver of the right to raise the matter at a
later time.”). In other words,
when [a] court finds that the possibility existed
for a petitioner to have previously raised a
particular allegation but he [or she] did not do so,
the allegation will be deemed waived because of
the failure to have previously raised it only if the
right upon which the allegation is premised is a
non-fundamental right. Conversely, if the right

155a
upon which the allegation is premised is a
fundamental right, the allegation will not be
deemed waived simply because it was not raised
at a prior proceeding. Fundamental rights . . .
may be waived only where the petitioner
intelligently and knowingly effects the waiver.
Wyche v. State, 53 Md. App. 403, 407, 454 A.2d 378
(1983).23 With the above legal background in mind,
we return to the case before us.
B. Reopened Post-Conviction Proceeding
Syed argued at the second hearing that his trial
counsel rendered ineffective assistance of counsel on
the ground that she failed to challenge the reliability
of the cell tower location evidence by cross-examining
Waranowitz about the fax cover sheet disclaimer,
which stated: “Any incoming calls will NOT be
23

To be sure, however, if a post-conviction court determines
that a petitioner has waived his or her allegation of error, a
petitioner still has the opportunity to argue that the court
should excuse the waiver and proceed to the merits. Hunt, 345
Md. at 139, 691 A.2d 1255. If a petitioner waived an allegation
premised on a fundamental right, then the petitioner has the
burden of proving that “special circumstances” exist. See CP
§ 7–106(b)(1)(ii). If a petitioner has waived an allegation
premised on a non-fundamental right, then a court, in a postconviction proceeding, can excuse a waiver “if the circumstances
warrant such action.” See Walker v. State, 343 Md. 629, 647–48,
684 A.2d 429 (1996) (“Nevertheless, as the circuit court
recognized in the present case, this Court has taken the
position that a court, in a post[-]conviction proceeding can
excuse a waiver based upon an earlier procedural default if the
circumstances warrant such action. In effect, we have upheld
the application of the ‘plain error’ or ‘special circumstances’
principles to waivers of the type here involved.”); see also
Cirincione v. State, 119 Md. App. 471, 512–17, 705 A.2d 96
(1998).

156a
reliable information for location” (“cell tower
ground”). Syed asserted that the disclaimer was
important, because the State relied on the cell tower
location for two incoming calls to place him at the
burial site after 7:00 p.m. on January 13, 1999. The
State responded that Syed waived this allegation of
error, because he failed to raise it during the first
hearing.
In considering the State’s waiver argument, the
post-conviction court, relying on Curtis, stated that
“the Sixth Amendment right to effective assistance of
counsel [w]as a fundamental right in the context of
waiver.” The post-conviction court then determined
that Syed had sufficiently rebutted the presumption
that he intelligently and knowingly waived such
claim, reasoning:
Although [Syed] alleged that trial counsel may
have been ineffective on other grounds in his
initial petition, he has never alleged that trial
counsel rendered ineffective assistance for her
alleged failure to challenge the State’s cell tower
expert with the disclaimer. More importantly,
[Syed] was never advised that trial counsel may
have been ineffective for her alleged failure to
challenge the State’s cell tower expert at trial
with the disclaimer in prior proceedings. In fact,
[Syed’s]
counsel
for
the
post-conviction
proceedings did not advise [Syed] about the issue
until shortly before August 24, 2015, when
counsel consulted with a cell tower expert about
the potential ramifications of the disclaimer . . .
Since [Syed] did not know about the potential
implications of trial counsel’s failure to challenge
the cell tower evidence, he could not have

157a
knowingly
allegation.

waived

his

right

to

raise

the

The post-conviction court then proceeded to address
the merits of such claim and granted Syed postconviction relief.
C. Contentions on Appeal
The State contends that the post-conviction court
erred in ruling that Syed’s ineffective assistance of
counsel claim was based on a fundamental
constitutional right and thus required a knowing and
intelligent waiver pursuant to CP § 7– 106(b) and
Curtis. The State asserts that the post-conviction
court erroneously relied on Curtis, because in that
case, Curtis never raised the issue of ineffective
assistance of trial counsel in his first post-conviction
petition while in the instant case, Syed did raise the
issue of ineffective assistance of trial counsel at the
first hearing, but failed to raise the cell tower
ground. Accordingly, the State urges this Court to
conclude that Syed waived his new claim of
ineffective assistance of counsel.
Syed responds that the post-conviction court
properly ruled that a knowing and intelligent waiver
was required for Syed to waive his claim of
ineffective assistance of counsel pursuant to Curtis.
Syed contends that Curtis has not been overturned,
is still good law, and is not distinguishable.
Moreover, Syed asserts that he did not knowingly
and intelligently waive his claim of ineffective
assistance of counsel on the cell tower ground,
because he did not discover such ground until after
this Court stayed and remanded his first appeal and

158a
his post-conviction counsel informed him of the
significance of the fax cover sheet disclaimer.24
D. Analysis
[8] In our view, the question that the State raises
in the instant appeal is as follows: Where the issue of
ineffective assistance of trial counsel has been raised
and decided in a previous post-conviction proceeding,
does a petitioner, absent a knowing and intelligent
waiver, have the right to raise such issue again but
on a different ground in a reopening of that
proceeding? The post-conviction court answered this
question by announcing that Curtis stood for the
proposition that the issue of ineffective assistance of
counsel may be raised a second time on a ground not
raised previously, and a petitioner only waives this
issue when he or she does so knowingly and
intelligently as to that particular ground. We
disagree with this broad reading of Curtis.
We are not aware of any decision by the Supreme
Court, Court of Appeals of Maryland, or this Court
holding that for waiver to apply, a petitioner in his or
her
first
post-conviction
proceeding
must
intelligently and knowingly waive the grounds not
raised in support of a claim of ineffective assistance
24

At oral argument before this Court, Syed’s counsel
suggested that waiver is not applicable in this case, because
Syed’s original post-conviction proceeding was not finally
litigated when his case was remanded by this Court’s May 18,
2015 remand order. The record is devoid of any instance in
which Syed has ever articulated this argument. Therefore,
Syed’s argument is not preserved for appellate review. Md. Rule
8–131(a); see also Conyers v. State, 367 Md. 571, 593–95, 790
A.2d 15 (2002) (“Ordinarily, an argument not raised in the
proceedings below is not preserved for appellate review.”).

159a
of counsel. Moreover, Syed has not directed our
attention to any precedent to support such principle,
except that of a broad reading of Curtis. Our
research, however, has identified two Maryland
cases that point us to the answer.
In Wyche, this Court reviewed the denial of
Wyche’s third petition for post-conviction relief, in
which he contended “that he was denied his
constitutional right to be present at his trial because
he was not present when the trial judge . . .
reinstructed the jury.” 53 Md. App. at 404, 454 A.2d
378. Because Wyche had failed to raise such error at
trial, on appeal, or in either of his prior postconviction petitions, the post-conviction court held
that Wyche had waived his right to raise it. Id. at
404– 05, 454 A.2d 378. Consequently, we were called
upon to decide whether the post-conviction court
correctly determined that there had been a waiver
because of Wyche’s failure to raise the claim in a
prior proceeding. Id. at 405, 454 A.2d 378. In our
discussion of the law, we set forth a synthesis of the
holdings in Curtis and its progeny regarding waiver
under Article 27, § 645A. Id. at 405–06, 454 A.2d
378. At the conclusion of our summary of the
dichotomy between the waiver of a fundamental
right, which requires an intelligent and knowing
waiver by the petitioner, and a non-fundamental
right, which occurs from the failure to raise a
violation in a prior proceeding when it was possible
to do so, we added the following footnote:
If an allegation concerning a fundamental right
has been made and considered at a prior
proceeding, a petitioner may not again raise that
same allegation in a subsequent post[-]conviction

160a
petition by assigning new reasons as to why the
right had been violated, unless the court finds
that those new reasons could not have been
presented in the prior proceeding.
Id. at 407 n.2, 454 A.2d 378.
We recognize that the above footnote is dicta and
that no legal authority was cited in support of it.
Nevertheless, we believe that the language in the
footnote identifies an important distinction in the
UPPA waiver analysis. Specifically, the distinction
between the issue of a violation of a fundamental
right, such as a claim of ineffective assistance of
counsel, and the grounds supporting such claim
where the fundamental right can be violated in many
different ways. The footnote suggests that the
“intelligent and knowing” requirement for waiving a
fundamental right is limited to a failure to raise a
claim of a violation of that right in a prior proceeding
and does not extend to the grounds for such claim
where the issue has been raised in a prior
proceeding. In other words, the many different
grounds that may be advanced in support of a claim
of a violation of a fundamental right are not
themselves a fundamental right.
We also find Arrington v. State, 411 Md. 524, 983
A.2d 1071 (2009), to be instructive. In Arrington,
“Arrington was convicted of second degree murder in
connection with the stabbing death of Paul
Simmons” in 1995 and filed his post-conviction
petition in 2000. Id. at 527, 530, 983 A.2d 1071. In
his post-conviction petition, Arrington raised the
issue of ineffective assistance of counsel on the
ground of trial counsel’s failure “to have the blood
evidence presented in the case tested through a DNA

161a
analysis[,]” despite Arrington’s request for testing.
Id. at 530, 983 A.2d 1071. The blood evidence at trial
showed only that the bloodstains on Arrington’s
sweatpants “were consistent with the blood type of
the victim in this particular case, or any other
individual with the same blood type[.]” Id. at 529,
983 A.2d 1071 (emphasis added) (internal quotation
marks omitted). According to Arrington, DNA testing
would have shown that the blood on his sweatpants
was not the victim’s blood. Id. at 531, 983 A.2d 1071.
The post-conviction court, however, determined from
the testimony of Arrington’s trial counsel that
counsel made the tactical decision not to have
Arrington’s sweatpants tested, because of, among
other things, the risk that the DNA testing would
show that the victim’s blood was indeed on
Arrington’s sweatpants. Id. at 532–33, 983 A.2d
1071. Thus the post-conviction court denied
Arrington’s request for a finding of ineffective
assistance of counsel. Id. at 532, 983 A.2d 1071.
In 2006, Arrington filed a motion to reopen his
post-conviction proceeding and request for a new
trial pursuant to CP § 8–20125 on the basis of “newly
discovered DNA testing results” that proved that the
blood on Arrington’s sweatpants was not from the
victim. Id. at 534, 983 A.2d 1071. Arrington asserted
that he was entitled to a new trial, because the blood
25

“Maryland is among the many states in this country that
have enacted post-conviction DNA testing statutes. Section 8–
201 was enacted in Maryland in 2001, in line with a nationwide
trend to adopt post[-]conviction DNA testing statutes designed
to provide an avenue for the exoneration of the actually
innocent.” Blake v. State, 395 Md. 213, 218–19, 909 A.2d 1020
(2006) (footnote omitted).

162a
evidence at trial misled the jury. Id. In addition to
this claim, Arrington made claims of ineffective
assistance of trial counsel based on grounds not
previously raised, including, inter alia, grounds that
“his trial counsel[ ] fail[ed] to cross-examine the
State’s expert regarding the percentage of the
population that possesse[d] the blood type or enzyme
at issue in the case[,]” and that his trial counsel
allegedly failed “to make use of critical exculpatory
evidence contained in various police reports.” Id. at
535, 983 A.2d 1071.
The post-conviction court dismissed the new claims
of ineffective assistance of trial counsel as waived,
and the Court of Appeals quoted the post-conviction
court’s reasoning at length. Id. at 539–40, 983 A.2d
1071. That reasoning was as follows:
Petitioner
also
claims
ineffective
assistance of counsel stemming from
counsel’s failure to use critical exculpatory
evidence contained in various police
reports, as well as failure to establish the
percentage of individuals having the same
blood type as both Petitioner and the victim.
Petitioner raised ineffective assistance of
counsel at his first post[-]conviction
proceeding. It is Petitioner’s position that a
reopening of post[-]conviction proceedings
pursuant to § 8–201, ipso facto reopens all
issues, regardless of any claims of waiver,
abandonment or that claims have been fully
litigated. Petitioner fails to cite any authority
for such a reading of § 8–201. The legislature
intended § 8–201 to provide a mechanism for
those with claims of “actual innocence” to utilize

163a
favorable scientific evidence at any time to prove
their innocence. The statute was not designed
to open the floodgates of otherwise
structured and constricted post[-]conviction
law. Nor was it designed to provide a “superappeal” as an end-run around the entire body of
post[-]conviction law. An additional question for
the [c]ourt is whether it is in the interests of
justice to reopen the issue of ineffective assistance
of counsel at this juncture.
Petitioner points to trial counsel’s failure
to utilize exculpatory information contained
within certain police reports to demonstrate
ineffective assistance of trial counsel. All of
the information was known prior to trial, let
alone prior to the first post[-]conviction
hearing. Petitioner had the benefit of
counsel on appeal and failed to raise these
issues. Further, Petitioner had the benefit of
counsel during his initial post[-]conviction
and failed to raise these issues in support of
his allegation of ineffective assistance of
counsel. Consequently, Petitioner has
waived the right to now assert these claims.
Furthermore, it would not be in the
interests of justice to reopen the ineffective
assistance of counsel claim where, as here,
the Petitioner had access to the information
complained of prior to his appeal, as well as
his first post[-]conviction hearing, and
failed to raise these issues in those forums.
Id. (emphasis added).

164a
On a direct appeal to the Court of Appeals,
pursuant to CP § 8–201(j)(6) (2001, 2008 Repl. Vol.),
Arrington argued that the post-conviction court erred
in failing to reopen his post-conviction proceeding to
consider his claims of ineffective assistance of
counsel on new grounds. Id. at 540–42, 983 A.2d
1071. In rejecting Arrington’s argument, the Court
stated:
This Court has yet to decide whether a
petitioner in a reopened post[-]conviction
proceeding may raise claims that would normally
be precluded under the statutory provisions about
waiver
in
the
Uniform
Post[-]conviction
Procedure Act (“UPPA”), CP Sections 7–101
through 7–301 (2008 Repl. Vol.). We decide today,
for the reasons explained below, that a petitioner
may not assert, in a post[-]conviction proceeding
reopened under the authority of CP Section 8–
201, claims that could have been, but were not,
raised in the original post[-]conviction proceeding,
other than claims based on the results of the
post[-]conviction DNA testing.
Id. at 545, 983 A.2d 1071.
The above language in Arrington implies that
“under the statutory provisions about waiver in the
[UPPA,]” id., Arrington had waived his right to
assert claims of ineffective assistance of counsel on
the new grounds alleged in his motion to reopen,
where (1) all of the information about the new
grounds was known prior to the first post-conviction
hearing; (2) Arrington had the benefit of postconviction counsel during the initial post-conviction
proceeding; and (3) his post-conviction counsel failed
to raise those grounds in support of his claims of

165a
ineffective assistance of trial counsel. See id. at 539,
983 A.2d 1071. The issue before the Court of Appeals
in Arrington was whether the waived claims of
ineffective assistance of counsel could still be raised
“in a post[-]conviction proceeding reopened under the
authority of CP Section 8–201[.]” Id. at 545, 983 A.2d
1071. The Court held that those waived claims could
not be raised. Id.
[9] Considering Curtis, Wyche, and Arrington
together, we conclude that the UPPA’s “intelligent
and knowing” requirement for the waiver of a
fundamental right is limited to situations where the
issue of a violation of a fundamental right was not
raised in a prior proceeding. In Curtis, the issue of
ineffective assistance of counsel was not raised in the
first petition for post-conviction relief. 284 Md. at
134–35, 395 A.2d 464. The Court of Appeals
determined that the issue of ineffective assistance of
counsel
was
premised
on
a
fundamental
constitutional right, and thus “a criminal defendant
cannot be precluded from having this issue
considered because of his mere failure to raise the
issue previously.” Id. at 150, 395 A.2d 464. In the
instant case, by contrast, Syed did raise the issue of
ineffective assistance of trial counsel at the first
hearing. Syed’s post- conviction counsel advanced
seven claims that trial counsel’s representation was
constitutionally inadequate, each on a separate
ground. The cell tower ground was not one of those
grounds. Consequently, the question of waiver
regarding the failure to raise the issue of ineffective
assistance of trial counsel is not present here.
[10] In Curtis, the Court of Appeals identified nonfundamental rights, which can be precluded without

166a
an “intelligent and knowing” waiver, as those that
“fall within the category of tactical decisions by
counsel or involve procedural defaults.” Id. at 147,
395 A.2d 464. “Tactical decisions, when made by an
authorized competent attorney, as well as legitimate
procedural requirements, will normally bind a
criminal defendant.”26 Id. at 150, 395 A.2d 464. In
our view, the selection of a particular ground to
support a claim of ineffective assistance of counsel is
a quintessential tactical decision of counsel. Counsel
must (1) decide whether the record supports a
particular ground for a claim of ineffective assistance
of counsel, (2) identify and develop evidence in
support of such ground, (3) assess the strength of the
evidence, and (4) evaluate the likelihood of success.
Therefore, although the issue of ineffective
assistance of counsel is premised on a fundamental
right under Curtis, a ground supporting that issue is
not. Cf. Arrington, 411 Md. at 545, 983 A.2d 1071;
Wyche, 53 Md. App. at 407 n.2, 454 A.2d 378.
Accordingly, the cell tower ground supporting Syed’s
new claim of ineffective assistance of trial counsel is

26

Although Curtis also asserted that first post-conviction
counsel was ineffective because that attorney failed to raise the
issue of ineffective assistance of trial counsel in the first
petition, this Court held that the representation of first postconviction counsel was not constitutionally inadequate, and
Curtis did not challenge that holding before the Court of
Appeals. Curtis, 284 Md. at 135, 137–41, 395 A.2d 464.
Likewise, in the instant case, the failure to raise the cell tower
ground at the first hearing was done by competent postconviction counsel. Nowhere in the Motion to Reopen or the
Supplement did Syed assert that his post-conviction counsel
was ineffective at the first hearing.

167a
based on a non-fundamental right for the purpose of
waiver under the UPPA.
[11, 12] As the Court of Appeals has explained:
As to lesser or non-fundamental rights, the
petitioner will be deemed to have waived any
claim of error if petitioner or petitioner’s counsel
failed to exercise a prior opportunity to raise it
notwithstanding a lack of personal knowledge of
the right of which petitioner was deprived, except
when the failure to allege the error is excused by
special circumstances.
McElroy v. State, 329 Md. 136, 140–41, 617 A.2d
1068 (1993) (footnote omitted). We thus conclude
that, where the issue of ineffective assistance of
counsel is raised in a prior proceeding, the failure to
assert a particular ground in support of the issue will
constitute a waiver of that ground, unless the court
finds that the ground could not have been presented
in the prior proceeding.27
Our conclusion is consistent with the legislative
history of the UPPA; specifically, Chapter 110 of the
Acts of 1995, which reduced the number of petitions
allowed to one and created the procedure for
reopening a post-conviction proceeding. See Alston v.
State, 425 Md. 326, 335, 40 A.3d 1028 (2012). In
examining the legislative history of Chapter 110 of
the Acts of 1995, the Court of Appeals observed that
the purpose of this provision was to amend the
UPPA to allow for a petitioner to have one petition
for post-conviction relief but “provide a safeguard for
27

Even if a particular ground has been waived, the court has
the authority to excuse such waiver if the circumstances so
warrant. See supra note 23.

168a
the occasional meritorious case” through the
reopening procedure, now codified in CP § 7–104. See
id.
The Court explained the new provision by pointing
to the testimony of “the Governor’s Chief Legislative
Officer [ ] before the Senate Judicial Proceedings
Committee on Senate Bill 340, which became Ch.
110,” and was as follows:
“In [1986], the General Assembly capped the
number of post[-]conviction petitions to two.
However, there is no apparent rationale for not
limiting the defendant to one petition. Common
sense dictates that the defendant should
include all grounds for relief in one petition.
The right to file a second post[-]conviction
petition simply affords the . . . defendant an
unwarranted opportunity for delay. Senate
Bill 340 limits the defendant to one post[]conviction petition unless the court determines
that reopening the case is necessary to prevent a
miscarriage of justice.”
Id. at 336, 40 A.3d 1028 (italic emphasis in original)
(bold emphasis added). In addition,
[t]he Chairperson of the Governor’s Commission
on the Death Penalty, which drafted Senate Bill
340, also testified on the Bill before the Senate
Judicial Proceedings Committee. He stated:
“This amendment would reduce the number of
post[-]conviction petitions from two to one, but
would permit a court to reopen a previously
concluded proceeding if necessary to avoid a
miscarriage of justice. This balances the need
for procedural safeguards with the need for

169a
stemming cost and delay. There simply is no
need for routine second petitions—
counsel can and should put all claims
into a first petition. At the federal level, a
defendant gets only one habeas corpus
petition; he should not get more than one
post[-]conviction petition.”
Id. (emphasis added).
As we read the legislative history, the General
Assembly intended that a petitioner raise all claims
cognizable under the UPPA in his or her original
petition. See id. To extend Curtis’s requirement of a
knowing and intelligent waiver from the issue of
ineffective assistance of counsel to every ground that
could support such claim would run counter to the
legislative history and purpose of Chapter 110 of the
Acts of 1995, because it would allow a petitioner to
raise claims of ineffective assistance of counsel on
grounds not previously raised ad infinitum.
Finally, because the cell tower ground is premised
on a non-fundamental right, the failure to assert
such ground at the first hearing constituted a waiver
of the claim of ineffective assistance of trial counsel
based on that ground, unless it was not possible for
Syed to have raised it at that time. See Wyche, 53
Md. App. at 407 n.2, 454 A.2d 378. Syed has not
argued that it was not possible for his post-conviction
counsel to raise in the initial petition the claim of
ineffective assistance of counsel based on the cell
tower ground, and we see no support in the record for
the argument that it was not possible for Syed’s postconviction counsel to assert such ground at that time.
Specifically, there is no dispute that Syed’s trial
counsel and post-conviction counsel possessed the fax

170a
cover sheet disclaimer, which is the basis of Syed’s
new ineffective assistance of trial counsel claim.
Because Syed’s post-conviction counsel could have
raised at the first hearing the claim of ineffective
assistance of counsel based on trial counsel’s failure
to challenge the reliability of the cell tower location
evidence by cross-examining Waranowitz about the
fax cover sheet disclaimer, we hold that Syed waived
this claim of ineffective assistance of counsel.28
SYED’S QUESTIONS ON HIS CLAIMS OF
INEFFECTIVE ASSISTANCE OF COUNSEL
A defendant has the right to effective assistance of
counsel pursuant to the Sixth Amendment of the
United States Constitution and Article 21 of the
Maryland Declaration of Rights. State v. Sanmartin
Prado, 448 Md. 664, 681, 141 A.3d 99 (2016). When a
defendant claims that this right has been violated,
he or she must satisfy a two-step test known as the
Strickland test. Strickland v. Washington, 466 U.S.
668, 687, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984).
First, the defendant must show that counsel’s
performance was deficient. This requires showing
that counsel made errors so serious that counsel
was not functioning as the “counsel” guaranteed
the defendant by the Sixth Amendment. Second,
the defendant must show that the deficient
performance prejudiced the defense. This requires
28

We note that Syed did not argue that his waiver should be
excused under general waiver principles in his reopened postconviction proceeding. See, e.g., Walker v. State, 343 Md. 629,
647–650, 684 A.2d 429 (1996) (concluding that the petitioner
did not present circumstances sufficient to excuse waiver of jury
instruction error). Accordingly, such issue is not before us in the
instant appeal. See Md. Rule 8–131(a).

171a
showing that counsel’s errors were so serious as
to deprive the defendant of a fair trial, a trial
whose result is reliable. Unless a defendant
makes both showings, it cannot be said that the
conviction ... resulted from a breakdown in the
adversary process that renders the result
unreliable.
Id.
Standard of Review
[13–16] When a claim of ineffective assistance of
counsel is considered on appeal, as in this case, we
apply the following standard of review:
[T]he [trial] court’s determinations regarding
issues of effective assistance of counsel is a mixed
question of law and fact. We will not disturb the
factual findings of the post-conviction court
unless they are clearly erroneous. But, a
reviewing court must make an independent
analysis to determine the ultimate mixed
question of law and fact, namely, was there a
violation of a constitutional right as claimed. In
other words, the appellate court must exercise its
own
independent
judgment
as
to
the
reasonableness of counsel’s conduct and the
prejudice, if any. . . . [The appellate court] will
evaluate anew the findings of the [trial] court as
to the reasonableness of counsel’s conduct and the
prejudice suffered. As a question of whether a
constitutional right has been violated, we make
our own independent analysis by reviewing the
law and applying it to the facts of the case.

172a
Sanmartin Prado, 448 Md. at 679, 141 A.3d 99 (some
alterations in original) (internal quotation marks
and citation omitted).
I. Did the Post–Conviction Court Err by
Holding that Syed’s Right to Effective
Assistance of Counsel Was Not Violated
When Trial Counsel Failed to Pursue a Plea
Deal With the State?
A. Background
In his petition for post-conviction relief, Syed
claimed, inter alia, that his trial counsel was
ineffective for failing to pursue a plea offer. The
following relevant testimony was adduced at the first
hearing.
Syed testified that he consistently expressed his
innocence to trial counsel, but after speaking with
fellow inmates at the Baltimore City jail, he was
urged to ask trial counsel about the possibility of the
State offering a plea. Consequently, according to
Syed, he took the following actions prior to his first
trial:
[SYED]: [ ] I asked [trial counsel] if the State
offered a plea deal. She said no. My next
question [ ] was to her, could she speak to the
State’s Attorney or request some type of a plea.
And I explained to her that I didn’t really have
confidence that I’d be able to prove I was
somewhere else when the murder take [sic]
place and when the State’s theory that the
murder took place, from the information that we
were getting. So that’s what I asked her.
[PC1 COUNSEL]: And how did she respond to
your request?

173a
[SYED]: She responded in the affirmative. And I
took it to mean that, okay, she was going to ask
[the State].
[PC1 COUNSEL]: And did she ever follow-up on
this?
[SYED]: Well, my [sic] next time that I saw her, I
asked her, what was the end result? Did she get
a chance to speak to the State’s Attorney? And
her response was, “They’re not offering you a
plea deal.” So, when she said that, that’s what it
was. There was nothing else for me to ask her
after that, because I believed that she went and
spoke to the State’s Attorney, the State’s
Attorney said no, and that’s what it was.
After the first trial ended in a mistrial but before
the second trial began, Syed recalled:
[SYED]: [ ] I expressed to [trial counsel] again
that, I really didn’t have confidence in the case
because now, my fears are confirmed that, that’s
essentially to me what it came down to. The
perception in my mind was, this is what this
case comes down to. Where was I at this time.
So, I asked [trial counsel] once again, do you
think the State will offer a deal? Could you talk
to them again?
[PC1 COUNSEL]: And, did she respond?
[SYED]: She responded that, they’re not offering
you a deal.
Kevin Urick, the lead prosecutor for Syed’s case,
testified as to his recollection of any plea discussions,
as follows:

174a
[PC1 COUNSEL]: Okay. So . . . to the best of your
knowledge, it’s your recollection and it’s [cocounsel’s] recollection, that [trial counsel]
never once approached either of you about
a plea, a plea deal for [ ] Syed?
[URICK]: That’s correct. She never made any
presentation other than that they were
seeking a finding of actual innocence for
[Syed].
[PC1 COUNSEL]: And when we spoke on the
phone, you told me that you had no idea
what kind of plea [ ] Syed might have
received if one had been requested; is that
correct?
[URICK]: That is correct.
(Emphasis added).
When asked whether there was any “plea
bargaining policy that existed within the State’s
Attorney’s Office” at the time of Syed’s trial, Urick
stated that “[t]here’s never been an established plea
bargaining policy. At least not in the time [he] was
[t]here.” Moreover, Urick explained that in a high
profile case like Syed’s, he would have had to take
multiple steps in order to find out if he could even
make a plea offer:
[STATE]: Had you been asked to extend any kind
of an offer in a case such as this one, how would
you handle that?
[URICK]: The first thing I would have done,
would have been to talk to the family. In a case
like this, you give even more consideration to a
family of a homicide victim. You try always to

175a
be considerate of a victim, and the victim’s
family in all cases. But a homicide case, it’s even
more so. So, I would have talked to Ms. Lee’s
family, see what they thought. Then after I
talked to them, I would have gone probably to
Sal Fili[, Urick’s supervisor and Division Chief
of Felony Narcotics], and told him that we were
beginning to talk about [a] plea and I was
planning to go to Mark Cohen[, the head of the
Homicide Unit at the time,] to discuss it. . . . I
would have then gone to talk to Mark Cohen to
see what he felt. And I’m pretty certain that in
this particular case, he would have suggested
that we go to Ms. Jessamy[, the Baltimore City
State’s Attorney at the time,] with it and see
where she stood on it as well.
Urick was never asked whether, after the above
consultations were conducted, he would have made a
plea offer to Syed. Finally, Urick recalled that he
handled at least three other high profile murder
cases, like Syed’s, and he did not recall any plea
discussions with defense counsel in those cases.
Syed called Margaret Meade as an expert in the
practice of criminal defense of murder cases in the
Circuit Court for Baltimore City, and she testified
about her experience with the prosecutors at the
State’s Attorney’s Office in Baltimore City. In
Meade’s experience, she could not “even imagine” the
State not offering a plea if she were to ask for it.
B. Memorandum Opinion I
In its Memorandum Opinion I, the post-conviction
court addressed Syed’s claim of ineffective assistance
of trial counsel for failure to pursue a plea offer:

176a
[T]here is nothing in the record indicating
that the State was prepared to make a plea
offer had trial counsel pursued such
negotiations. In fact, [Syed] provided no
convincing evidence that a plea offer was even
contemplated or discussed by the State. [Syed’s]
bald assertion that the policy of the State’s
Attorney’s Office at the time was to offer
plea[s] to defendants charged with murder
is unfounded and is inconsistent with the
State’s claim that there was never a plea
available in [Syed’s] case.
(Emphasis added). The post-conviction court
concluded that trial counsel was not deficient, and
even if she was deficient, Syed failed to prove
prejudice, because there was no indication that Syed
would have accepted any type of plea offer after
maintaining his innocence throughout the trial and
sentencing. The post-conviction court, therefore,
denied Syed post-conviction relief on that claim.
C. Analysis
[17] On appeal, Syed contends that trial counsel
had a duty to pursue plea negotiations, and trial
counsel was deficient for failing to explore a possible
plea offer when Syed requested her to do so.
Moreover, Syed argues that he was prejudiced,
because he “was denied the basic right to make a
choice of whether to go to trial or to accept a plea
bargain[,]” and had trial counsel done what Syed
requested, “it is extremely likely that Syed would
have had a choice” of whether to go to trial or to plea.
The State responds by arguing that, “[e]ven
assuming Syed raised a cognizable ineffective

177a
assistance of counsel claim, he still failed to establish
that [his trial counsel] acted deficiently in the
context of his case.” Specifically, the State contends
that Syed failed to show that the State would have
made a plea offer, and there was “no evidence
regarding a specific charge or sentence that Syed
would have been offered[,]” much less accepted.
[18–20] “Defendants have a Sixth Amendment
right to counsel, a right that extends to the pleabargaining process.” Lafler v. Cooper, 566 U.S. 156,
162, 132 S.Ct. 1376, 182 L.Ed.2d 398 (2012).
Defendants do not, however, have the “right to be
offered a plea . . . .” Id. at 168, 132 S.Ct. 1376
(emphasis added). Therefore, assuming that defense
counsel has the duty to pursue a plea offer when
requested, the failure to pursue a plea offer cannot
prejudice
a
defendant
without
evidence
demonstrating that, if defense counsel had requested
a plea offer, the State would have made a plea offer.
Cf. Delatorre v. United States, 847 F.3d 837, 846 (7th
Cir. 2017) (“Because [the defendant’s] prejudice
argument centers on his attorney’s inability to secure
a plea agreement for him, [the defendant] had to
show—at a minimum— that the prosecutor would
have actually offered him a deal had his attorney
been competent.”).
In the case sub judice, Urick testified that, if Syed’s
trial counsel had asked for a plea, Urick would have
begun a process of speaking with Hae’s family and
his superiors to ascertain whether he could offer a
plea. Urick, however, was never asked whether, after
completing such process, he would have made Syed a
plea offer. Thus the post-conviction court was not
clearly erroneous when it found that “there is

178a
nothing in the record indicating that the State was
prepared to make a plea offer had trial counsel
pursued such negotiations.”
Moreover, Urick testified that there was no “plea
bargaining policy” within the State’s Attorney’s
Office while he was there, and with regard to three
high profile murder cases that he handled, Urick did
not recall any plea discussions with defense counsel.
On the other hand, Syed’s expert stated that in her
experience, the prosecutor always made a plea offer
when requested and could not “even imagine a
State’s Attorney saying, we’re not offering anything.”
By crediting Urick’s testimony, the post-conviction
court had sufficient evidence to support its finding
that Syed’s “assertion that the policy of the State’s
Attorney’s Office at the time was to offer plea[s] to
defendants charged with murder is unfounded.”
Because Syed failed to prove that the State would
have made him a plea offer if trial counsel had
requested one, the post-conviction court correctly
concluded that Syed had not established a claim of
ineffective assistance of counsel based on trial
counsel’s failure to pursue a plea offer. We, therefore,
affirm the post-conviction court’s denial of relief on
that claim.

179a
II. Did the Post–Conviction Court Err by
Holding that Syed’s Right to Effective
Assistance of Counsel Was Not Violated
When Trial Counsel Failed to Investigate
McClain as a Potential Alibi Witness?
A. Background
1. First Hearing
In his petition for post-conviction relief, Syed raised
the issue of ineffective assistance of counsel for trial
counsel’s failure “to call or investigate an alibi
witness, Asia McClain, who was able and willing to
testify[.]”
On October 25, 2012, the second day of the first
hearing, Syed testified that, after he was arrested on
February 28, 1999, he “received two letters from
[McClain] back to back.” He “received these letters
within the first week of being arrested,” and
“immediately notified” trial counsel. According to
Syed, “the next time that [he] saw [trial counsel] on a
visit, [he] showed her the two letters and she read
them. And [he] asked her, could she please do two
things, contact [ ] McCla[in], and try to go to the
library to retrieve whatever security footage was
there.” Syed stated that prior to the first trial, he
told trial counsel’s law clerk, Ali Pournader, about
McClain; specifically, that “[he] remembered being in
the public library with her that day from right after
school, which is about 2:15 to around 2:40, 2:45’ish,
close to three [p.m].”29
29

An affidavit written and signed by Ali Pournader was
admitted as an exhibit at the second hearing. It stated:
I remember that on at least one occasion I visited [ ]
Syed in jail. . . . [I]t appears that I may have visited

180a
Syed stated further that during the next visit he
had with trial counsel, he “immediately asked her
. . . did [she] speak to [ ] McCla[in]?” Trial counsel
responded that she had “looked into it and nothing
came of it.” Syed then testified that, “[w]hen I asked
her, and her response was that, I asked her again,
well, [trial counsel], did you go speak to her? You
know, did they say that—I just began in my mind to
try to understand what she meant, but she moved
onto another subject.”
Shortly after his conviction, Syed mentioned
McClain to Rabia Chaudry, a family friend who was
a law student at the time. Syed stated that he
“wish[ed] there was some way that [he] could [have]
prove[n] that [he] was somewhere else at this time.”
Syed explained to Chaudry that trial counsel
“checked into it and obviously it didn’t pan out.” At
that point, Chaudry requested Syed to send her the
information about McClain, and Syed sent her copies
of the two letters. Chaudry then contacted McClain
by calling McClain’s grandparents’ phone number,
listed on one of the letters. After contacting McClain,
Chaudry told Syed that “McCla[in] informed her that
she was never contacted.”
Chaudry testified at the first hearing and
confirmed that she had spoken with McClain about
Syed’s case. Chaudry stated that during their brief
phone conversation, McClain “seemed very happy
Syed at BCDC on July 13, 1999. [ ] I reviewed a copy of
some hand-written notes, dated ‘7/13,’ and those notes
(attached) are in my handwriting. [ ] Those notes
mention an individual named Asia McClain, and say,
among other things, “Asia McClain→ saw him in the
library @ 3:00.”

181a
that somebody was reaching out to her. And she was
very willing to meet.” The day following the phone
conversation, Chaudry met with McClain in the
parking lot of the Woodlawn Public Library. Chaudry
stated that from their conversation, she “learned [ ]
that, [McClain] had seen [Syed] after school that day
at the library, which was next door to the school. And
she recalled the day very clearly. She recalled very
specific things about the day and she had spent the
time immediately after school with him for about 15,
20 minutes.” Chaudry asked McClain if she would
put her story down on paper, and McClain agreed.
That same day, McClain signed an affidavit dated
March 25, 2000, which was then notarized.
Chaudry gave Syed a copy of McClain’s affidavit,
and Syed called trial counsel from the jail. Syed
testified:
I read through the affidavit and I reminded her
about the letters. And I said, [trial counsel],
did you speak to her? Did you talk to her?
Did you contact her? And she said, no. And I
was very upset at that point. Because I said,
[trial counsel], it’s the exact same time. And
I asked her, did she ever try to go to the
library to secure the video footage? And she
said, no. So, I became very upset with her. And I
asked her, was there anything we can do at this
point? And she said, no. We need to focus on the
appeal.
(Emphasis added).
Trial counsel did not testify at the first hearing,
because she had passed away before the hearing took

182a
place. McClain also did not testify at the first
hearing.
On January 6, 2014, the post-conviction court
issued its Memorandum Opinion I denying Syed
post-conviction relief. The post-conviction court
determined, among other things, that Syed’s trial
counsel was not deficient for failing to investigate
McClain for two reasons. First, “the letters sent from
[ ] McClain to [Syed] [did] not clearly show [ ]
McClain’s potential to provide a reliable alibi for
[Syed].” The court explained that the letters did not
state an exact time the encounter at the library took
place and thus “trial counsel could have reasonably
concluded that [ ] McClain was offering to lie in order
to help [Syed] avoid conviction.” Second, McClain’s
story conflicted with Syed’s version of events and
thus “pursuing [ ] McClain as a potential alibi
witness would not have been helpful to [Syed’s]
defense and may have, in fact, harmed the defense’s
ultimate theory of the case.” The post-conviction
court concluded that trial counsel’s failure to
investigate McClain as an alibi witness was the
result of sound and reasonable trial strategy, and
thus was not deficient performance.
2. First Appeal
On January 27, 2014, Syed filed a timely
application for leave to appeal to this Court, raising
two issues, one of which was whether Syed’s trial
counsel rendered ineffective assistance of counsel by
failing to interview or even contact the potential alibi
witness, McClain. As previously indicated, on
January 20, 2015, Syed supplemented his application
for leave to appeal, requesting that this Court
remand the case back to the post-conviction court for

183a
additional fact-finding on the alibi witness issue in
light of McClain’s January 13, 2015 affidavit. On
February 6, 2015, this Court granted Syed’s
application for leave to appeal, reserving a decision
on Syed’s request to remand. After reviewing the
briefs, Syed’s supplement, and other pleadings, this
Court by order dated May 18, 2015, stayed Syed’s
appeal and remanded to the post-conviction court for
Syed to file a motion to reopen the post-conviction
proceeding.
3. Second Hearing
Pursuant to this Court’s remand order, Syed filed a
Motion to Reopen, and the post-conviction court
granted the motion “to introduce the January 13,
2015 affidavit from McClain, the potential testimony
of McClain, and relevant evidence concerning
[Syed’s] claims of ineffective counsel and alleged
prosecutorial misconduct during the post-conviction
proceedings[.]” The second hearing began on
February 3, 2016, and lasted until February 9, 2016.
At the second hearing, McClain30 testified to being
with Syed at the Woodlawn Public Library on
January 13, 1999. That day, McClain had a
conversation with Syed “[s]hortly after 2:15 [p.m.]”
while McClain was waiting for her boyfriend to pick
her up from the library. McClain noted that Syed’s
demeanor
was
“[c]ompletely
normal.”
The
conversation lasted “about 15 to 20 minutes” and
ended when McClain’s boyfriend and his friend
arrived to pick her up. McClain further stated that

30

At the time of the second hearing, Asia McClain was known
as Asia Chapman.

184a
school was closed the next two days, January 14 and
January 15, 1999, due to bad weather.31
McClain testified that, after Syed was arrested on
February 28, 1999, she and her friend, Justin Adger,
went to Syed’s house to inform his family that she
had seen Syed and spoke to him at the library on
January 13, 1999. On March 1, 1999, McClain wrote
a letter (“first letter”) to Syed. The first letter, 32
which was admitted into evidence at the second
hearing, stated the following:
It’s late.
I just came from your house an hour ago.
March 1, 1999
Dear Adnon, (hope I sp. it right)
I know that you can’t visitors, so I decided to
write you a letter. I’m not sure if you
remember talking to me in the library on
Jan. 13th, but I remembered chatting with
you. Throughout you’re actions that day I have
reason to believe in your innocense. I went to your
family’s house and discussed your “calm” manner
towards them. I also called the Woodlawn
31

At the first hearing, Chaudry testified to a conversation
that she had with McClain in March of 2000, during which
McClain mentioned that school was closed for two days
following her conversation with Syed due to heavy snowfall.
Chaudry stated that she verified the two-day school closure
because of snow, and that such verification was significant to
her, because “[t]hat showed [her] that there were details about
that day. It was not just any other day for [McClain]. She
remembered specific details about that day, and her details
were verifiable.”
32

The typographical errors therein have not been altered.

185a
Public Library and found that they have a
surveillance system inside the building.
Depending on the amount of time you spend
in the library that afternoon, it might help
in your defense. I really would appreciate it
if you would contact me between 1:00pm–
4pm or 8:45pm → until . . . My number is
[redacted]. More importantly I’m trying to
reach your lawyer to schedule a possible
meeting with the three of us. We aren’t
really close friends, but I want you to look
into my eyes and tell me of your innocense.
If I ever find otherwise I will hunt you down
and wip your ass, ok friend.
I hope that you’re not guilty and I hope to death
that you have nothing to do with it. If so I
will try my best to help you account for
some of your unwitnessed, unaccountable
lost time (2:15– 8:00; Jan 13th.)
The police have not been notified Yet to my
knowledge maybe it will give your side of the
story a particle head start. I hope that you
appreciate this, seeing as though I really would
like to stay out of this whole thing. Thank Justin,
he gave me a little more faith in you, through his
friendship and faith. I’ll pray for you and that the
“REAL TRUTH” comes out in the end.
“I hope it will set you free” Only trying to help
Asia McClain
*P.S. If necessary my grandparents line
number is [redacted]. Do not call that line after
11:00 O.K.

186a
Like I told Justin if your innocent I do my best to
help you. But if you’re not only God can help you.
If you were in the library for awhile, tell the
police and I’ll continue to tell what I know even
louder than I am. My boyfriend and his best
friend remember seeing you there too.
Your amiga
Asia McClain
(Emphasis added).
McClain testified that she wrote Syed a second
letter (“second letter”), dated March 2, 1999. The
second letter,33 which was admitted into evidence at
the second hearing, stated in relevant part:
Adnon Syed # 992005477
301 East Eager Street
Baltimore, MD. 21202
Dear Adnon,
How is everything? I know that we haven’t
been best friends in the past, however I
believe in your innocence. I know that central
booking is probably not the best place to make
friends, so I’ll attempt to be the best friend
possible. I hope that nobody has attempted to
harm you (not that they will). Just remember that
if someone says something to you, that their just
f**king with your emotions. I know that my first
letter was probably a little harsh, but I just
wanted you to know where I strode in this entire
issue (on the centerline). I don’t know you very
well, however I didn’t know Hae very well.
33

See supra note 32.

187a
The information that I know about you
being in the library could helpful,
unimportant or unhelpful to your case. I’ve
been think a few things lately, that I wanted to
ask you:
1. Why haven’t you told anyone about
talking to me in the library? Did you
think it was unimportant, you didn’t
think that I would remember? Or did you
just totally forget yourself?
2. How long did you stay in the library that day?
Your family will probably try to obtain the
library’s surveillance tape.
3. Where exactly did you do and go that day?
What is the so-called evidence that my
statement is up against? And who are these
WITNESSES?
***
You’ll be happy to know that the gossip is dead
for your associates, it’s starting to get old. Your
real friends are concentrated on you and your
defense. I want you to know that I’m missing the
instructions of Mrs. Ogle’s CIP class, writing this
letter. It’s weird, since I realized that I saw
you in the public library that day, you’ve
been on my mind. The conversation that we
had, has been on my mind. Everything was
cool that day, maybe if I would have stayed
with you or something this entire situation
could have been avoided. Did you cut school
that day? Someone told me that you cut school to
play video games at someone’s house. Is that
what you told the police? This entire case puzzles

188a
me, you see I have an analytical mind. I want to
be a criminal psychologist for the FBI one day. I
don’t understand how it took the police three
weeks to find Hae’s car, if it was found in the
same park. I don’t understand how you would
even know about Leakin Park or how the police
expect you to follow Hae in your car, kill her and
take her car to Leakin Park, dig a grave and find
you way back home. As well how come you don’t
have any markings on your body from Hae’s
struggle. I know that if I was her, I would have
struggled. I guess that’s where the SO–CALLED
witnesses. White girl Stacie just mentioned that
she thinks you did it. Something about your fibers
on Hae’s body...something like that (evidence). I
don’t mean to make you upset talking about it...if
I am. I just thought that maybe you should know.
Anyway I have to go to third period. I’ll write you
again. Maybe tomorrow.
Hope this letter brightens your day. . . Your
Friend,
Asia R. McClain
P.S: Your brother said that he going to tell you to
maybe call me, it’s not necessary, save the phone
call for your family. You could attempt to write
back though. So I can tell everyone how you’re
doing (and so I’ll know too).
Asia R. McClain
6603 Marott Drive
Baltimore, MD 21207
Apparently a whole bunch of girl were crying for
you at the jail...Big Playa Playa (ha ha ha he he
he).

189a
(Emphasis added).
McClain testified that no one from Syed’s defense
team contacted her, but had they, she would have
spoken to them. McClain stated that after Syed’s
conviction, Chaudry came to her house and asked if
she had a conversation with Syed in the library on
January 13, 1999. McClain told Chaudry that she did
have a conversation with Syed, to which Chaudry
requested McClain write an affidavit. The notarized
affidavit, dated March 25, 2000 (“March 25, 2000
affidavit”), 34 was admitted into evidence at the
second hearing and stated the following:
Affidavit
A.R.M.
Asia McClain having been duly sworn, do depose
and state:
I am 18 years old. I attend college at Catonsville
Community College of Baltimore County. In
January of 1999, I attended high school at
Woodlawn Senior High. I have known Adnan
Syed since my 9th grade freshmen year (at high
school.) On 1/13/99, I was waiting in the
Woodlawn Branch Public Library. I was
waiting for a ride from my boyfriend (2:20),
when I spotted Mr. Syed and held a 15–20
minute conversation. We talked about his
girlfriend and he seemed extremely calm and very
caring. He explained to me that he just wanted
her to be happy. Soon after my boyfriend
(Derrick Banks) and his best-friend (Gerrod

34

See supra note 32.

190a
Johnson) came to pick me up. Spoke to
Adnan (briefly) and we left around 2:40.
A.R.M.
No attorney has ever contacted me about
January 13, 1999 and the above information
Asia McClain 3/25/00
[signature of notary listed below]
(Emphasis added).
After moving across the country to the State of
Washington, McClain testified that Syed’s first postconviction counsel attempted to contact her in April
of 2010. She then contacted the lead prosecutor from
Syed’s trial, Kevin Urick, to see if he could provide
her with unbiased information as to what was going
on with the case. Urick explained to her the evidence
of the case, the absence of alibi witnesses at trial,
and the likely result of the post-conviction
proceeding. Because of Urick’s advice “that it was [ ]
a waste of time for [McClain] to get involved with
something that was just obviously a tactic to
manipulate the court system[,]” McClain did not
respond to the inquiries of Syed’s post-conviction
counsel. McClain stated that in January of 2014, she
was contacted by National Public Radio (“NPR”) and
was interviewed about the case. According to
McClain, the NPR podcast changed her outlook on
the case and caused her to realize how important her
information was.
McClain contacted Syed’s post-conviction counsel in
December of 2014, after learning that Urick had
testified at Syed’s first hearing that McClain wrote
the March 25, 2000 affidavit because of pressure
from Syed’s family. Thereafter, McClain wrote the

191a
January 13, 2015 affidavit, which was admitted into
evidence at the second hearing. The January 13,
2015 affidavit35 stated in relevant part:
ASIA MCCLAIN
1. I swear to the following, to the best of my
recollection, under penalty of perjury:
2. I am 33years old and competent to testify in a
court of law.
3. I currently reside in Washington State.
4. I grew up in Baltimore County, MD, and
attended high school at Woodlawn High
School. I graduated in 1999 and attended
college at Catonsville Community College.
5. While a senior at Woodlawn, I knew both
Adnan Syed and Hae Min Lee. I was not
particularly close friends with either.
6. On January 13, 1999, I got out of school early.
At some point in the early afternoon, I went to
Woodlawn Public Library, which was right
next to the high school.
7. I was in the library when school let out around
2:15 p.m. I was waiting for my boyfriend,
Derrick Banks, to pick me up. He was running
late.
8. At around 2:30 p.m., I saw Adnan Syed enter
the library. Syed and I had a conversation. We
talked about his ex-girlfriend Hae Min Lee
and he seemed extremely calm and caring. He
explained that he wanted her to be happy and
that he had no ill will towards her.
35

See supra note 32.

192a
9. Eventually my boyfriend arrived to pick me
up. He was with his best friend, Jerrod
Johnson. We left the library around 2:40. Syed
was still at the library when we left.
10. I remember that my boyfriend seemed
jealous that I had been talking to Syed. I was
angry at him for being extremely late.
11. The 13th of January 1999 was memorable
because the following two school days were
cancelled due to hazardous winter weather.
12. I did not think much of this interaction with
Syed until he was later arrested and charged
in the murder of Hae Min Lee.
13. Upon learning that he was charged with
murder [sic] related to Lee’s disappearance
on the 13th, I promptly attempted to contact
him.
14. I mailed him two letters to the Baltimore
City Jail, one dated March 1, the other dated
March 2. (See letters, attached). In these
letters I reminded him that we had been in
the library together after school. At the time
when I wrote these letters, I did not know
that the State theorized that the murder
took place just before 2:36 pm on January
13, 1999.
15. I also made it clear in those letters that I
wanted to speak to Syed’s lawyer about what
I remembered, and that I would have been
willing to help his defense if necessary.
16. The content of both of those letters was true
and accurate to the best of my recollection.

193a
17. After sending those letters to Syed in early
March, 1999, I never heard from anybody
from the legal team representing Syed.
Nobody ever contacted me to find out my
story.
18. If someone had contacted me, I would have
been willing to tell my story and testify at
trial. My testimony would have been
consistent with the letters described above,
as well as the affidavit I would later provide.
See below.
***
[Signature]
ASIA MCCLAIN
DATE 1/13/15
David Irwin, Esquire, was called to testify at the
second hearing as an expert in criminal defense
practices and Brady disclosure duties of the
prosecution. Irwin opined that McClain’s story was
“[p]owerfully credible.” Irwin explained that back in
1999, based on what trial counsel had and was on
notice for, she
had to meet the minimal objective standard of
reasonable defense care. She had to go talk to [ ]
McClain. She had to investigate what [ ] McClain
was saying and she had to then determine if—she
had to investigate the two young guys that were
with her. She had to go talk to them. Somebody
had to talk to those people because the testimony
could have been critical.
Irwin stated further that “now we know that [ ]
McClain is a fabulous witness, lovely lady, credible,
intelligent and she would have been material and

194a
changed the ball game’s result. It’s pretty obvious to
me.” It was Irwin’s opinion that trial counsel’s
performance “was well below the minimum required
by Strickland[.]” (Emphasis added). Irwin concluded
that McClain’s testimony “was a game changer. It
would have made an incredible difference in the
outcome of the case. It’s material. It’s important. It
certainly takes away any confidence that one would
have in the verdict in that case.”
4. Memorandum Opinion II
In addressing the deficiency prong of Strickland in
its Memorandum Opinion II, the post-conviction
court held that trial counsel’s “failure to investigate
McClain as a potential alibi witness fell below the
standard of reasonable professional judgment.” In
reaching its holding, the post-conviction court found
that after learning about McClain, trial counsel
“failed to make any effort to contact McClain and
investigate the bona fides of the March 1, 1999 and
March 2, 1999 letters, or ascertain whether
McClain’s testimony would aid [Syed’s] defense.”
According to the post-conviction court, trial counsel
learned about the potential alibi witness “nearly five
months prior to trial, and thus, she had ample time
and opportunity to investigate the potential alibi.”
The post-conviction court rejected the State’s
argument that trial counsel’s failure to investigate
was a “strategic decision not to investigate McClain
because the potential alibi was in fact a scheme
manufactured by [Syed] to secure a false alibi.” The
post-conviction court stated that, because adopting
the State’s argument “would require the [postconviction court] to retroactively supply key
assumptions and speculations, the [c]ourt rejects the

195a
State’s invitation to indulge in such hindsight
sophistry, given that it is contrary to the legal
framework set forth under Strickland.”
The post-conviction court summarized its holding of
deficient performance by Syed’s trial counsel,
succinctly and articulately, as follows:
As the [c]ourt has explained, reasonable
professional judgment under the facts of the
present case required trial counsel to contact the
potential alibi witness and investigate whether
her testimony would aid [Syed’s] defense. The
facts in the present matter are clear; trial counsel
made no effort to contact McClain in order to
investigate the alibi and thus, trial counsel’s
omission fell below the standard of reasonable
professional judgment.
(Emphasis in original).
B. Deficient Performance for Failure
to Investigate McClain as a
Potential Alibi Witness
1. Contentions
Syed contends that the post-conviction court
correctly ruled that trial counsel’s failure to
investigate McClain as an alibi witness rendered her
performance deficient, because trial counsel “was
aware that McClain would have testified that Syed
was in the Woodlawn Public Library at the time of
the murder.” The State responds that the postconviction court erred in holding that trial counsel
rendered deficient performance. The State contends
that trial counsel had three justifiable reasons for
not pursuing the McClain alibi defense: (1) “the alibi
proposed by McClain threatened to suggest that

196a
Syed had lied to police and had gone to the public
library, a place no one had ever associated with
Syed[;]” (2) “the [public] library alibi ran the risk of
placing Syed at the public library with the victim at
critical junctures[;]” and (3) “pursuing the [ ]
McClain alibi expose[d] Syed to the risk of being
accused of colluding with a witness to falsify an
alibi.” The State further argues that the defense
theory adopted by trial counsel, which was based
upon Syed’s daily routine, was better than the
McClain alibi, because “it covered a broader range of
time, which was important since prosecutors could
not narrow [the] time of death even after [trial
counsel] inquired.”
In his reply brief, Syed asserts that instead of
providing support for the proposition that trial
counsel’s performance was not deficient, “the State
relies on assorted after-the-fact rationalizations for
why trial counsel could have ignored Syed’s request
that she pursue the McClain alibi.” Syed argues that
the post-conviction court thus was proper in
disregarding these rationalizations. Lastly, Syed
contends that, because the State disclosed the
timeline for the murder five months before trial and
further clarified that timeline during its opening
statement at the first trial on December 9, 1999, trial
counsel had plenty of time to contact McClain and
determine whether her testimony would be helpful to
Syed’s defense.
We agree with the post-conviction court that trial
counsel’s
performance
was
deficient
under
Strickland. We shall explain.

197a
2. Relevant Case Law
As stated supra, in Strickland the Supreme Court
set forth a two-step process for determining whether
an attorney’s assistance was so defective as to
require reversal of a conviction. 466 U.S. at 687, 104
S.Ct. 2052. “First, the defendant must show that
counsel’s performance was deficient. . . . Second, the
defendant must show that the deficient performance
prejudiced the defense.” Id.
[21] In discussing the first step, commonly referred
to as the deficiency prong, the Supreme Court stated
that “the proper standard for attorney performance
is that of reasonably effective assistance[,]” id., and
that “the defendant must show that counsel’s
representation fell below an objective standard of
reasonableness.” Id. at 688, 104 S.Ct. 2052. The
Court noted that the reasonableness of attorney
performance must be considered “under prevailing
professional
norms”
and
under
“all
the
circumstances.” Id. The Court then cautioned that
“[j]udicial scrutiny of counsel’s performance must be
highly deferential[,]”with “every effort to be made to
eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged
conduct, and to evaluate the conduct from counsel’s
perspective at the time.” Id. at 689, 104 S.Ct. 2052.
In other words, there is “a strong presumption that
counsel’s conduct falls within the wide range of
reasonable professional assistance.” Id. In sum, in
deciding the deficiency prong of an ineffective
assistance of counsel claim under Strickland, a court
must assess counsel’s performance under an
objective standard of a reasonably competent
attorney acting under prevailing norms, taking into

198a
consideration all of the circumstances existing at the
time of counsel’s conduct with a strong presumption
of reasonable professional assistance.
In further defining the objective standard of
reasonable professional assistance, the Court in
Strickland identified certain basic duties of counsel’s
representation of a criminal defendant, to include a
duty of loyalty, a duty to avoid conflicts of interest,
and a duty to advocate the defendant’s cause. Id. at
688, 104 S.Ct. 2052. Like the instant case, the duty
at issue in Strickland was “counsel’s duty to
investigate.” Id. at 690, 104 S.Ct. 2052. The Court
discussed the duty to investigate as follows:
[S]trategic
choices
made
after
thorough
investigation of law and facts relevant to
plausible options are virtually unchallengeable;
and strategic choices made after less than
complete investigation are reasonable precisely to
the extent that reasonable professional judgments
support the limitations on investigation. In other
words, counsel has a duty to make
reasonable investigations or to make a
reasonable decision that makes particular
investigations
unnecessary.
In
any
ineffectiveness case, a particular decision
not to investigate must be directly assessed
for reasonableness in all the circumstances,
applying a heavy measure of deference to
counsel’s judgments.
Id. at 690–91, 104 S.Ct. 2052 (emphasis added).
In the case sub judice, our inquiry is not on the
general duty of trial counsel to investigate a possible
defense for Syed, but rather a subset of that duty.

199a
Specifically, the duty in question here is trial
counsel’s duty to investigate a potential alibi
witness, and the issue raised is whether trial
counsel’s failure to investigate McClain as a
potential alibi witness was deficient performance
under Strickland.
The Court of Appeals has defined an alibi witness
as follows: “[A]n ‘alibi’ witness [is] a witness whose
testimony ‘must tend to prove that it was impossible
or highly improbable that [the defendant] was at the
scene of the crime when it was alleged to have
occurred.’ “ McLennan v. State, 418 Md. 335, 352, 14
A.3d 639 (2011) (quoting Ferguson v. State, 488 P.2d
1032, 1039 (Alaska 1971) ). In Simms v. State, this
Court explained what an alibi defense is:
An alibi is [a] defense that places the defendant
at the relevant time of [the] crime in a different
place than the scene involved . . . . The presence
of the defendant at the scene of the crime at the
time it was committed is obviously an essential
element of the prosecutor’s case[.] When a
defendant raises an alibi defense, he is in effect
denying the claim of the prosecution that he was
present at the scene of the crime at the time it
was committed. By claiming that he was at
another place at the time when the alleged crime
was committed, the defendant is denying by
necessary implication, if not expressly, the
allegations set forth in the charge.
194 Md. App. 285, 307–08, 4 A.3d 72 (2010) (internal
quotation marks and citations omitted), aff’d, 420
Md. 705, 25 A.3d 144 (2011).
Our research has revealed no Maryland case that
has addressed directly the issue of a defense

200a
counsel’s failure to investigate a potential alibi
witness in the context of an ineffective assistance of
counsel claim. The closest Maryland case is In re
Parris W., 363 Md. 717, 770 A.2d 202 (2001), but that
case involved defense counsel’s failure to subpoena
alibi witnesses for the correct trial date. Id. at 727,
770 A.2d 202. Nevertheless, in In re Parris W., the
Court of Appeals cited with approval, and discussed
at length, three federal cases that considered, among
other things, the issue of defense counsel’s failure to
investigate a potential alibi witness. Id. at 730–34,
770 A.2d 202. Thus a review of those cases first,
along with others from outside of Maryland, will be
instructive to our analysis.
In Griffin v. Warden, Maryland Correctional
Adjustment Center, Griffin was identified by two
security guards as being a participant in an armed
robbery that occurred at 3:45 p.m. on July 24, 1983.
970 F.2d 1355, 1356 (4th Cir. 1992). Griffin provided
his trial counsel with a list of five alibi witnesses. Id.
Defense counsel, however, failed to contact these
witnesses or to respond to the State’s discovery
request to be notified of an alibi defense and the
identities of alibi witnesses. Id. Defense counsel
explained that he did not contact any of the alibi
witnesses, because he expected Griffin to take a plea.
Id. Among the “cogent tactical considerations” that
the state court bestowed on defense counsel was not
calling one of the alibi witnesses, because a security
guard had identified that witness as a participant in
the robbery and calling a witness who was an
accomplice to the robbery could have hurt Griffin’s
case. Id. at 1358. The Fourth Circuit rejected the
state court’s rationale, because defense counsel did

201a
not even interview the witness, “let alone make some
strategic decision not to call him.” Id. The Fourth
Circuit warned:
[C]ourts should not conjure up tactical decisions
an attorney could have made, but plainly did not.
The illogic of this approach is pellucidly depicted
by this case, where the attorney’s incompetent
performance deprived him of the opportunity to
even make a tactical decision about putting [the
witness] on the stand. A court should evaluate the
conduct from counsel’s perspective at the time.
Tolerance of tactical miscalculations is one thing;
fabrication of tactical excuses is quite another.
Id. at 1358–59 (internal quotation marks and
citations omitted).
In Grooms v. Solem, Grooms was convicted of
selling stolen Native American artifacts. 923 F.2d 88,
89 (8th Cir. 1991). Grooms’s conviction was based on
the testimony of a police informant who was married
to Grooms’s ex-wife, and they were engaged with
Grooms “in a bitter and spiteful battle over the
custody of the three children.” Id. The informant
testified that on May 15, 1984, between 5:00 p.m.
and 5:30 p.m. in Scenic, South Dakota, Grooms sold
him a stolen Native American beaded dress. Id.
Grooms told his counsel on the day of trial that he,
his wife, and a friend spent that same day waiting at
a garage for the mechanics to replace the
transmission in his truck. Id. The garage was located
in Rapid City, South Dakota, approximately fifty
miles from Scenic, South Dakota. Id. Grooms had a
cancelled check dated May 15, 1984, payable to the
garage and labeled “trans repair” in the memo. Id.
Grooms also produced a work order dated May 14,

202a
1984, with the same check number written on the
face of the order. Id. At the post-conviction hearing,
the garage’s employees who worked on Grooms’s
transmission testified that they did not finish
working on Grooms’s truck until 7:00 or 7:30 p.m. Id.
at 90. Defense counsel did not look into this possible
alibi defense nor did he request a short continuance
of the trial for further investigation; “he assumed
that the court would preclude any evidence of alibi[,]
because counsel had not given the notice of an alibi
. . . .” Id. The Eighth Circuit noted that, “[o]nce a
defendant identifies potential alibi witnesses, it is
unreasonable not to make some effort to contact
them to ascertain whether their testimony would aid
the defense.” Id. The Eighth Circuit determined that
defense counsel’s failure to make any effort to check
the bona fides of the alibi was unreasonable under
the circumstances. Id. The Court concluded that,
even though counsel discovered this alibi on the day
of trial, “trial counsel had a duty to attempt to
investigate and to argue on the record for the
admission of the alibi witnesses’ testimony.” Id. at
91; accord Washington v. Smith, 219 F.3d 620, 630–
32 (7th Cir. 2000) (holding that defense counsel
rendered constitutionally deficient performance by
failing to attempt to contact alibi witnesses who were
not identified until immediately before trial).
The Seventh Circuit in Montgomery v. Petersen
addressed whether defense counsel was ineffective
for failing to investigate and call the single
disinterested alibi witness identified by the
defendant. 846 F.2d 407, 407 (7th Cir. 1988). In
Montgomery, Montgomery was charged with the
commission of two burglaries in two different

203a
counties on the same day. Id. at 408. At the trial for
one burglary, Montgomery’s wife testified that she
and her husband spent the afternoon of the robbery
shopping for a bicycle for their son in Springfield,
Illinois, and that Montgomery was at home the rest
of the day and evening. Id. at 409. Such testimony
was in direct contradiction to the testimony of the
State’s witnesses, who testified that they and
Montgomery had spent the day committing
burglaries. Id. at 408–09. Defense counsel called
twelve other witnesses who were friends or close
relatives of Montgomery to testify as to
Montgomery’s whereabouts on the day of the crime.
Id. at 409. Defense counsel failed to investigate or
call the sole disinterested witness, a Sears clerk who
sold Montgomery and his wife the bicycle. Id.
Montgomery was convicted of burglary. Id. At the
trial for the other burglary, Montgomery’s counsel
called the clerk, and the trial resulted in an
acquittal. Id. at 409.
At Montgomery’s post-conviction hearing, defense
counsel testified that Montgomery and his wife gave
him a receipt for the purchase of the bicycle and
requested that he investigate the Sears clerk, but he
failed to do so. Id. at 409–10. Defense counsel stated
that his failure to investigate “was merely due to
‘inadvertence’ on his part, as he was busy
interviewing other potential witnesses” and did not
believe Montgomery. Id. at 410. The Seventh Circuit
agreed with the post-conviction court that, “[i]n light
of the information available to counsel at the time,
the failure to investigate the only available
disinterested alibi witness fell below the standard of
reasonably
effective
assistance
required
by

204a
Strickland.” Id. at 411–12 (emphasis in original)
(internal quotations omitted). The Seventh Circuit
stated that defense counsel should have recognized
the crucial importance of the clerk as the only
disinterested witness in the case. Id. at 414. The fact
that defense counsel did not have the name or
address of the clerk did not excuse defense counsel’s
failure to investigate, because Montgomery’s wife
and mother-in-law were able to find the clerk easily.
Id. Nor did counsel’s lack of belief in Montgomery’s
alibi serve as “an adequate basis for ignoring such an
important lead. Indeed, if counsel had taken the few
steps necessary to identify and interview the Sears
clerk, he may well have formed a more favorable
view of his client’s veracity.” Id.
In Bryant v. Scott, the Fifth Circuit determined
that Bryant’s counsel rendered ineffective assistance
of counsel by failing to investigate and interview
alibi witnesses made known to counsel three days
before trial. 28 F.3d 1411, 1411 (5th Cir. 1994). At
trial, Bryant was convicted of armed robbery. Id. at
1413–14. After exhausting state court remedies,
Bryant filed a petition for writ of habeas corpus in
the federal district court claiming, inter alia, that
trial counsel was ineffective for failure to investigate
alibi witnesses. Id. at 1414. Because the district
court found that Bryant had not given defense
counsel the names and addresses of any alibi
witnesses prior to trial, the court concluded that
defense counsel provided Bryant with effective
assistance of counsel. Id. at 1415.
On appeal, the Fifth Circuit disagreed with the
district court. Id. at 1416. The Court stated that
defense counsel was well aware of Bryant’s interest

205a
in pursuing an alibi defense. Id. The Court
acknowledged that Bryant did not provide defense
counsel with the names or addresses of alibi
witnesses prior to the pre-trial hearing, id. at 1415,
but defense counsel, according to the Court, obtained
sufficient information at the pre-trial hearing to
contact Bryant’s alibi witnesses. Id. at 1417. The
Court also noted that there was seventy-two hours
between the pre-trial hearing and the trial during
which defense counsel had the opportunity to contact
the alibi witnesses. Id. The Court concluded that “the
record shows that [defense counsel] had information
on potential alibi witnesses before trial, and had the
opportunity to try to interview such witnesses.” Id.
Accordingly, the Court held that defense counsel
abdicated his responsibility of investigating
potential alibi witnesses and failed to “attempt to
investigate and to argue on the record for the
admission of the alibi witnesses’ testimony.”
Grooms v. Solem, 923 F.2d 88, 91 (8th Cir. 1991).
[Defense counsel’s] failure to investigate potential
alibi witnesses was not a “strategic choice” that
precludes claims of ineffective assistance. See
Nealy [v. Cabana, 764 F.2d 1173, 1178 (5th Cir.
1985).]
Id.
In summary, the Fifth Circuit stated:
Thus, we disagree with the district court’s
conclusion that [defense counsel] was “hog-tied”
or “stonewalled” from making any investigation of
alibi witnesses. [Defense counsel] knew of
three alibi witnesses before trial and should
have made some effort to contact or

206a
interview these people in furtherance of
Bryant’s defense. [Defense counsel’s] complete
failure to investigate alibi witnesses fell below the
standard of a reasonably competent attorney
practicing under prevailing norms.
Id. at 1418 (emphasis added) (footnotes omitted).
In Lawrence v. Armontrout, Lawrence was
convicted of capital murder and murder in the first
degree. 900 F.2d 127, 128 (8th Cir. 1990). After his
convictions were affirmed on appeal, Lawrence
sought post-conviction relief in state court, claiming
ineffective assistance of counsel. Id. Lawrence
claimed that defense counsel was ineffective because
she “failed to interview or call as witnesses several
people who would have corroborated his alibi on the
evening of the murders.” Id. According to the record,
four potential alibi witnesses were identified to
defense counsel: Betty Buie (Lawrence’s girlfriend),
Brenda Buie, Veronica Trice, and Felicia Longstreet.
Id. at 128–29. At the evidentiary hearing, defense
counsel testified that she interviewed Betty Buie and
Brenda Buie, but decided not to use either of them at
trial. Id. at 129. Defense counsel, however, made no
effort to locate or interview the other two witnesses,
relying instead on Betty Buie’s assertions that
Longstreet could not be located and Trice would not
come to court. Id. After relief was denied in state
court, Lawrence filed a petition for writ of habeas
corpus in federal district court, which also denied
any relief. Id.
On appeal, the Eighth Circuit reversed, stating
that, “once Lawrence provided his trial counsel with
the names of potential alibi witnesses, it was
unreasonable of her not to make some effort to

207a
interview all these potential witnesses to ascertain
whether their testimony would aid an alibi defense.”
Id. Moreover, according to the Court, defense
counsel’s “failure to attempt to find and interview
Longstreet and Trice herself [fell] short of the
diligence that a reasonably competent attorney
would exercise under similar circumstances.” Id. at
129–30 (emphasis added). The Court concluded that
defense counsel “owed Lawrence a duty to pursue his
alibi defense and to investigate all witnesses who
allegedly
possessed
knowledge
concerning
Lawrence’s guilt or innocence. Because she failed to
do so, Lawrence [ ] satisfied the first prong of the
Strickland standard.” Id. at 130 (citation omitted);
see Avery v. Prelesnik, 548 F.3d 434, 437–38 (6th Cir.
2008) (finding deficient performance where defense
counsel never personally attempted to contact any of
the potential alibi witnesses, even though counsel’s
investigator had talked with one alibi witness).
There are also cases where courts have found
defense counsel’s performance was not deficient for
failing to investigate an alibi witness. One such case
is Russell v. Lynaugh, 892 F.2d 1205 (5th Cir. 1989),
cert. denied, 501 U.S. 1259, 111 S.Ct. 2909, 115
L.Ed.2d 1073 (1991). The Fifth Circuit in Russell
held that counsel’s decision not to investigate alibi
and character witnesses to testify on behalf of a
murder defendant was not deficient performance. Id.
at 1205. In 1977, Russell was convicted of capital
murder and sentenced to death. Id. at 1207. After
exhausting all state court remedies, Russell
petitioned for writ of habeas corpus in federal district
court, claiming, inter alia, that trial counsel was
ineffective at trial and on appeal. Id. at 1212. Russell

208a
argued that “his lawyer failed to investigate the law
and facts. In particular, he failed to discover alibi
witnesses who could have testified in the guiltinnocence phase of the trial.” Id. (emphasis added).
On appeal, the Fifth Circuit affirmed the district
court’s decision to deny Russell post-conviction relief.
Id. at 1213. Explaining that Russell “specifically
identified no potential alibi witnesses who did not
testify,” the Court concluded that Russell failed to
show that his counsel’s “performance in this respect
was deficient and prejudicial.” Id. Accordingly, the
Court denied relief. Id.
3. Analysis
[22] We learn from the above cases that, once a
defendant identifies potential alibi witnesses,
defense counsel has the duty “to make some effort to
contact them to ascertain whether their testimony
would aid the defense.” Grooms, 923 F.2d at 90;
accord Lawrence, 900 F.2d at 129; Bryant, 28 F.3d at
1415; see Russell, 892 F.2d at 1213. Such
identification normally includes names and
addresses of potential alibi witnesses, but need not if
sufficient information is provided or acquired to
enable defense counsel to contact the witnesses. See
Montgomery, 846 F.2d at 414 (although defense
counsel did not have the name or address of the
Sears clerk, Montgomery’s wife and mother-in-law
were able to find him easily); Bryant, 28 F.3d at
1416–17 (defense counsel learned the names and
contact information of potential alibi witnesses at a
pre-trial hearing). Such identification also includes
sufficient information to suggest that the witness’s
testimony could provide the defendant with an alibi.

209a
[23] In the case sub judice, Syed identified McClain
as a potential alibi witness and requested trial
counsel to contact her. Syed gave trial counsel two
letters written by McClain, the first contained
McClain’s phone number and her grandparents’
phone number and the second contained McClain’s
address in Baltimore. In the first letter, McClain
reminded Syed that she had talked with him in the
Woodlawn Public Library in the afternoon after
school on January 13, 1999, and that she may be able
to account for his “lost time” from “2:15–8:00” that
day. She also told Syed that the library had a
surveillance system inside the building. In the
second letter, McClain again referred to their conversation at the library that day. In addition, trial
counsel’s file contained notes from her law clerk of an
interview with Syed on July 13, 1999, wherein Syed
said that McClain “saw him in the library @ 3:00
[p.m.]” and her “boyfriend saw him too.” Trial
counsel also noted in her file that “[McClain] +
boyfriend saw [Syed] in library 2:15–3:15 [p.m.].”
Finally, trial counsel was aware, at least six weeks
before the second trial, that McClain’s alibi
testimony probably covered the same time period as
when the State theorized that Hae’s murder
occurred.36 Therefore, we conclude that Syed’s trial
counsel had the duty to investigate McClain as a
potential alibi witness, which required counsel to
make some effort to contact McClain to ascertain
whether her testimony would aid Syed’s defense. See
Grooms, 923 F.2d at 90.

36

For a discussion of the State’s disclosure to trial counsel of
its timeline for the murder, see infra p. 274-75, 181 A.3d at 912.

210a
The post-conviction court found that Syed’s trial
counsel “failed to make any effort to contact McClain
and investigate the bona fides of the March 1, 1999
and March 2, 1999 letters, or ascertain whether
McClain’s testimony would aid [Syed’s] defense.”
That finding is not challenged by the State.
[24–26] “The failure to investigate a particular lead
may be excused if a lawyer has made ‘a reasonable
decision that makes particular investigations
unnecessary.’ ” Washington, 219 F.3d at 631 (quoting
Strickland, 466 U.S. at 691, 104 S.Ct. 2052). In other
words, “a particular decision not to investigate must
be directly assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.” Strickland, 466
U.S. at 691, 104 S.Ct. 2052. Here, however, because
of trial counsel’s death, there is no record of why trial
counsel decided not to make any attempt to contact
McClain and investigate the importance vel non of
her testimony to Syed’s defense. In such a situation,
we must guard against “the distorting effects of
hindsight,” id. at 689, 104 S.Ct. 2052, or to “conjure
up tactical decisions an attorney could have made,
but plainly did not.” Griffin, 970 F.2d at 1358. Yet,
even without trial counsel’s explanation for her
failure to investigate McClain as an alibi witness, we
must still assess trial counsel’s performance under
the objective standard of a reasonably competent
attorney acting under prevailing norms.37
37

The dissent disagrees that trial counsel had a duty to make
some effort to contact McClain to ascertain whether her
testimony would aid Syed’s defense. The dissent then argues
that in Strickland “the Supreme Court has rejected a bright
line rule with respect to ineffective assistance of counsel

211a
The State posits four reasons why Syed’s trial
counsel performed as a reasonably competent
attorney when she failed to investigate McClain as
an alibi witness. We conclude that none of these
reasons have merit.

claims.” Respectfully, the dissent misconstrues the analytical
paradigm that we have just set forth. In sum, the first step in
the paradigm is to determine whether the duty arose for
defense counsel to investigate a potential alibi witness. If, and
only if, such duty arose and defense counsel failed to make any
effort to contact the alibi witness, we move to the second step of
the paradigm and determine whether defense counsel’s failure
was deficient performance under the objective standard of a
reasonably competent attorney acting under prevailing norms.
Nowhere do we say, or imply, that there is “a bright line rule
with respect to ineffective assistance of counsel claims.”
The dissent also attempts to distinguish the cases on which
we rely on the ground that “[i]n those cases there was
testimony by defense counsel, or other statements in the record,
indicating that the reason defense counsel did not interview the
witness was something other than trial strategy.” The dissent
argues that “[t]he absence of testimony by trial counsel makes
it difficult for Syed to meet his burden of showing deficient
performance[,]” citing for authority to Broadnax v. State, 130
So.3d 1232 (Ala. Crim. App. 2013). Broadnax is clearly
distinguishable from the case sub judice, because both of
Broadnax’s trial attorneys testified at the post-conviction
hearing, but were never questioned about their investigation of
Broadnax’s alibi defense. Id. at 1256. The Alabama court
concluded “that Broadnax, by failing to question his attorneys
about this specific claim, failed to overcome the presumption
that counsel acted reasonably.” Id. at 1256 (footnote omitted).
Under Strickland, the “deference to counsel’s judgments” is
part of, but not controlling over, the requirement that “a
particular decision not to investigate must be directly assessed
for reasonableness in all of the circumstances.” 466 U.S. at 691,
104 S.Ct. 2052.

212a
First, the alibi proposed by McClain threatened
to suggest that Syed had lied to police and had
gone to the public library, a place no one had ever
associated with Syed. There are a number of
problems with the alibi proposed by McClain,
especially compared to the alibi strategy [trial
counsel] adopted based on habit and routine—
Syed stayed at Woodlawn High School until track
practice after which he attended prayers at his
mosque.
In this argument, the State suggests that trial
counsel rejected the McClain alibi because it was
inconsistent with the alibi defense adopted by trial
counsel “based on [Syed’s] habit and routine.” The
record does contain trial counsel’s alibi notice to the
State in October of 1999, in which she appeared to
adopt the alibi defense of Syed’s routine of staying at
the high school after class, going to track practice,
then going home and to the mosque. It is important
to note, however, that in her opening statement and
closing argument, trial counsel did not raise any alibi
defense for Syed. Specifically, trial counsel said
nothing about Syed’s whereabouts from 2:15 p.m. to
2:35 p.m. on January 13—the precise twenty minute
time period during which the State argued to the
jury that Syed murdered Hae.38
Nevertheless, in our view, the bottom line is that
no reasonable evaluation of the advantages or
disadvantages of McClain’s alibi testimony, as
compared to an alibi defense based on Syed’s habit or
38

In her closing argument, trial counsel did say that Syed
told the police that he went to track practice on the day of the
murder. But trial counsel then stated that, according to Coach
Michael Sye, “track practice—no later than 4 to 5 or 5:30.”

213a
routine, could be made without first contacting
McClain. Only by contacting McClain would trial
counsel have been able to determine (1) exactly what
McClain would say, (2) how certain McClain was
concerning her interactions with Syed that day, (3)
how credible McClain would appear to a jury, (4)
what, if any, corroborating evidence was available,
and (5) whether McClain’s testimony would aid in
Syed’s defense.
In Griffin, the Fourth Circuit stated that the
failure of defense counsel to “even talk to [the alibi
witness]” “deprived him of the opportunity to even
make a tactical decision about putting [the alibi
witness] on the stand.” 970 F.2d at 1358; see Avery,
548 F.3d at 438 (stating that it was “impossible for
[defense counsel] to have made a ‘strategic choice’
not to have [the two alibi witnesses] testify because
he had no idea what they would have said”).
Moreover, in Lawrence, defense counsel had decided
to defend Lawrence on a theory of misidentification.
900 F.2d at 130. The Eighth Circuit held that such
decision “d[id] not excuse her failure to investigate
all potential alibi witnesses.” Id. Thus, without
contacting McClain, trial counsel could not
reasonably reject McClain’s potential alibi testimony.
Second, the [ ] alibi [proposed by McClain] ran
the risk of placing Syed at the public library [and
ultimately at Best Buy] with the victim at critical
junctures. A review of [trial counsel’s] notes and
her approach at trial also indicated that she
identified and sought to exploit a weakness in the
prosecution’s case—it was unclear how Syed got
into [Hae’s] car the day she was killed.... Thus,
placing Syed at or near the public library, where

214a
students were regularly picked up and where Hae
[ ] could have picked up Syed, resolves a flaw
[trial counsel] intended to exploit.
The State fails to provide a citation from the record
to support the assertion that students were regularly
picked up from the Woodlawn Public Library, nor is
this a finding made by the post-conviction court.
Nevertheless, if we follow the State’s adopted theory
at trial, that the murder occurred between 2:15 p.m.
and 2:35 p.m., McClain’s testimony would have
rendered irrelevant the aforementioned weakness in
the prosecution’s case. In other words, Syed
deviating from his routine to go to the Woodlawn
Public Library and to speak with McClain from 2:20
p.m. to 2:40 p.m. would have placed him at a location
other than the crime scene at precisely the time of
Hae’s murder. Thus it would not matter whether the
alibi “ran the risk of placing Syed at the public
library with the victim at critical junctures.”
Third, pursuing the [ ] McClain alibi exposes
Syed to the risk of being accused of colluding with
a witness to falsify an alibi. The State submitted
that, with the knowledge and documents
available to [trial counsel] . . ., she could easily
have detected in the letters . . . clear warning
signs that would have prompted this experienced
criminal attorney to fear that her client was
coordinating, either directly or indirectly, with
McClain to falsify an alibi.
This argument was rejected by the post-conviction
court in its Memorandum Opinion II. The postconviction court observed that the details about
Hae’s murder and the investigation were a matter of
public knowledge prior to when McClain wrote the

215a
letters. The post-conviction court ultimately
concluded that, “[i]f trial counsel had reservations
about the bona fides of the letters as the State
suggests, trial counsel could have spoken to McClain
about these concerns instead of rejecting the
potential alibi outright.” Such conclusion is
consistent with the case law. In Montgomery, the
Seventh Circuit rejected the argument that defense
counsel’s lack of belief in the defendant’s credibility
was a reasonable basis for foregoing the
investigation of a potential alibi witness. 846 F.2d at
414. Moreover, trial counsel was aware of potential
corroboration of McClain’s information. Trial
counsel’s file noted that McClain’s “boyfriend saw
[Syed] in library.” Also, in McClain’s first letter she
advised Syed of the surveillance system inside of the
Woodlawn Public Library. Thus, whether McClain
and Syed were involved in the falsification of an alibi
defense could be determined by a reasonably
competent attorney only after contacting McClain
and investigating her potential alibi testimony.
Finally, the State asserts that the alibi adopted by
trial counsel, which was based upon Syed’s habit or
routine, was advantageous, “[b]ecause a precise time
of death was not identified by the State leading up to
trial, [and thus trial counsel] had to establish an
alibi that would account for Syed’s whereabouts for
an extended period of time after school on January
13.” This argument is directly contrary to the facts in
the record.
In its Amended State’s Disclosure filed with the
circuit court on July 8, 1999, the State notified Syed
that, “to the best of the State’s information, the
victim was murdered the afternoon of the day she

216a
was reported missing, shortly after she would have
left school for the day, January 13, 1999.” (Emphasis
added). This disclosure dating more than five months
prior to the first trial was sufficient to put Syed’s
trial counsel on notice that Syed’s whereabouts that
afternoon needed to be accounted for. In addition, at
Syed’s first trial, the State noted in its opening
statement that Wilds received the call from Syed
around “2:30, 2:40” p.m. and Wilds went to meet
Syed, which was when he saw the victim’s body.
Because the first trial ended in a mistrial, the State’s
opening statement was sufficient to put Syed’s trial
counsel on notice of the pertinent time frame for
which Syed needed an alibi going into the second
trial, which began six weeks later. There was only
one call listed in Syed’s cell phone records that fell
within the time frame of “2:30, 2:40” p.m. and that
was the 2:36 p.m. call. As a result, trial counsel had
clear knowledge six weeks before the second trial
that the time frame of 2:15 p.m. to 2:35 p.m. on
January 13, 1999, was going to be the crux of the
State’s case, and therefore, an alibi covering this
precise time frame was extremely important.
In sum, Syed gave to trial counsel McClain’s name
and contact information as a potential alibi witness.
Trial counsel also was aware six weeks before the
second trial that McClain’s testimony could place
Syed at a location other than the scene of the crime
at the exact time that the State claimed Syed
murdered Hae. Thus trial counsel had the duty to
make some effort to interview McClain to ascertain
whether her testimony would aid in Syed’s defense.
Trial counsel failed to make any effort to contact
McClain, and neither a review of the record nor the

217a
State’s arguments provide a reasonable basis to
justify such failure. Moreover, regardless of the
defense strategy that trial counsel had adopted for
Syed’s trial, once the State committed itself, at the
first trial, to the period of 2:15 p.m. to 2:35 p.m. on
January 13, 1999, as the time of the murder, it was
manifestly unreasonable for trial counsel not to
make any effort to contact McClain, who, along with
her boyfriend, had seen Syed “in library 2:15–3:15[,]”
according to trial counsel’s own notes to the file. We,
therefore, conclude that trial counsel’s failure to
make any effort to contact McClain as an alibi
witness fell below the objective standard of a
reasonably competent attorney acting under
prevailing norms, taking into consideration all of the
circumstances existing at the time of counsel’s
conduct with a strong presumption of reasonable
professional assistance.39 Accordingly, trial counsel’s
performance was deficient, and Syed has satisfied
the first prong of the Strickland test.
C. Prejudice for Trial Counsel’s Failure
to Investigate McClain as a
Potential Alibi Witness
Having found trial counsel’s performance deficient,
we now turn to the second step in the Strickland
39

The dissent argues at length that trial counsel’s strategy at
trial was reasonable, and thus there was no deficient
performance. The issue raised in the deficiency prong of the
Strickland test in the instant case is not whether the apparent
defense strategy adopted by trial counsel fell below the
objective standard of a reasonably competent attorney acting
under prevailing norms. Rather, the issue presented is whether
trial counsel’s failure to make any effort to contact McClain as a
potential alibi witness fell below such standard.

218a
test, commonly known as the prejudice prong. To
satisfy this prong, “[t]he defendant must show that
there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different. A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Strickland, 466 U.S. at
694, 104 S.Ct. 2052. We, however, do not “focus
solely on an outcome determination, but [also]
consider ‘whether the result of the proceeding was
fundamentally unfair or unreliable.’ ” Oken v. State,
343 Md. 256, 284, 681 A.2d 30 (1996) (quoting
Lockhart v. Fretwell, 506 U.S. 364, 369, 113 S.Ct.
838, 122 L.Ed.2d 180 (1993) ).
In determining the prejudice of trial counsel’s
failure to investigate McClain as a potential alibi
witness, we must consider “the totality of the
evidence before the judge or jury.” Strickland, 466
U.S. at 695, 104 S.Ct. 2052; see also Avery, 548 F.3d
at 439 (“[The] potential alibi witnesses coupled with
an otherwise weak case renders the failure to
investigate the testimony sufficient to ‘undermine
confidence’ in the outcome of the jury verdict. . . .
Here, the jury was deprived of the right to hear
testimony that could have supplied such ‘reasonable
doubt.’ ”). In considering the totality of the evidence,
we recognize that
[s]ome of the factual findings will have been
unaffected by the errors, and factual findings that
were affected will have been affected in different
ways. Some errors will have had a pervasive
effect on the inferences to be drawn from
the evidence, altering the entire evidentiary
picture, and some will have had an isolated,

219a
trivial effect. Moreover, a verdict or conclusion
only weakly supported by the record is more
likely to have been affected by errors than one
with overwhelming record support. Taking the
unaffected findings as a given, and taking due
account of the effect of the errors on the
remaining findings, a court making the prejudice
inquiry must ask if the defendant has met the
burden of showing that the decision reached
would reasonably likely have been different
absent the errors.
Strickland, 466 U.S. at 695–96, 104 S.Ct. 2052
(emphasis added).
In addressing the prejudice prong of Strickland, the
post-conviction court concluded
that trial counsel’s failure to investigate
McClain’s alibi did not prejudice the defense
because the crux of the State’s case did not rest
on the time of the murder. In fact, the State
presented a relatively weak theory as to the time
of the murder because the State relied upon
inconsistent facts to support its theory.
The post-conviction court explained that, had “trial
counsel investigated the potential alibi witness, she
could have undermined [the State’s] theory premised
upon inconsistent facts. The potential alibi witness,
however, would not have undermined the crux of the
State’s case: that [Syed] buried the victim’s body in
Leakin Park at approximately 7:00 p.m. on January
13, 1999.” According to the post-conviction court,
“Wilds’s testimony and [Syed’s] cell phone records
created the nexus between [Syed] and the murder.
Even if trial counsel had contacted McClain to
investigate the potential alibi, McClain’s testimony

220a
would not have been able to sever this crucial link.”
The post-conviction court thus concluded that Syed
“failed to establish a substantial possibility that, but
for trial counsel’s deficient performance, the result of
the trial would have been different.”
1. Contentions
Syed argues that trial counsel’s failure to
investigate McClain was prejudicial, because
“McClain was a disinterested witness whose
testimony would have provided Syed an alibi for the
entire period when, according to the State, the
murder took place.” In Syed’s view, “[a]t the very
least, there is a reasonable probability that a credible
alibi witness’s testimony would have ‘create[d] a
reasonable doubt as to [Syed’s] involvement,’ which
is enough to demonstrate Strickland prejudice. In re
Parris W., 363 Md. [717, 729, 770 A.2d 202 (2001) ].”
The State responds that the post-conviction court’s
focus on the burial of Hae’s body was correct, because
the “time of death was hardly a key fact of the State’s
case[.]” The State also contends that Syed cannot
meet his burden of establishing prejudice, because
the State presented overwhelming evidence of Syed’s
guilt. The State points to several critical aspects of
its case including, but not limited to, (1) evidence of
motive from Hae’s break up note found in Syed’s
room in which the words “I’m going to kill” are
written on the back; (2) Wilds’s testimony; (3)
forensic evidence of Syed’s partial palm print on the
back cover of a map book with the Leakin Park page
ripped out; and (4) witness testimony from Vinson,
Pusateri, and Tanna that corroborated Wilds’s
testimony. The State concludes that, when such
evidence is considered with the cell tower evidence,

221a
Syed fails to meet his burden of proving prejudice
under Strickland.
2. Analysis
[27] At the second trial, the State set forth in its
opening statement the following timeline for Hae’s
murder:
One Inez Butler [Hendricks], who’s a teacher
[at Woodlawn High School] who runs a little
concession stand for the athletic department,
talks briefly to Hae Lee about 2:15, 2:20
when she’s leaving school. She picks up a soda
and a bag of snacks. She’s going to come back and
pay for them. That’s her usual practice.
She has a cousin who she picks up after school.
She’s leaving to pick up that relative who’s a—I
think elementary student, take that person home
then come back to school.
About 2:35, 2:36, Jay Wilds receives a call
on the cell phone from the defendant saying,
“Hey, come meet me at the [Best Buy].” This
is the [Best Buy] off Security Boulevard just
across from Security Square Mall. When he gets
there, the defendant has Hae Lee’s car.
Defendant says, “I’ve done it. I’ve done it.” He
pops open the trunk of the car. Jay Wilds see[s]
the body of Hae Min Lee in the trunk dead.
(Emphasis added).
Throughout the trial, the State presented evidence
to support this timeline and eventually summarized
the timeline in its closing argument:
We know that class ended at 2:15 that day.
And remember back to [ ] Pittman’s testimony.

222a
[Syed] was talking to [Hae] Lee at that point in
time and Inez Butler [Hendricks] sees [Hae] as
she rushes out of school, grabs her snack, and
heads out the door. 40 Ladies and gentlemen,
she’s dead within 20 minutes.
2:36 p.m. [Syed] calls Jay Wilds, come get
me at Best Buy. Jay Wilds is at the home of
[Pusateri] at this point, and the records are clear.
Call no. 28 occurs in the cell area covered by
L651B. This is the area that the AT & T engineer
told you covers house—
So Jay drives to the Best Buy, and it is there
that [Syed], for the first time, opens his trunk and
shows Jay Wilds the body of [Hae] Lee. By 3
p.m., by 3 p.m., her family knows she hasn’t
picked up her cousins.
[Syed] gets Jay to follow him to the I-70 parking
lot where they leave [Hae’s] car, and they then
head back towards Woodlawn from the park and
ride together.
It’s at that point, at 3:32 p.m., that [Syed] calls
[Tanna] in Silver Spring. She says hello to Jay.
We know they are together at that point in time.
That call lasts for 2 minutes and 22 seconds. Jay
Wilds doesn’t know [Tanna], and [Tanna] told you
this is her own private line, nobody answers that
line but her, and [Syed] is the only one who
knows her. This occurs in the coverage area of
L651C, the pink area, which would be consistent
if they were heading back towards Woodlawn
from the I–70 parking lot.
40

The State theorized that Syed had driven Hae’s car to the
Best Buy.

223a
(Emphasis added).
According to the post-conviction court, during the
second hearing, the State for the first time
“suggested a new timeline that would have allowed
[Syed] to commit the murder after 2:45 p.m. and
then call Wilds at 3:15 p.m. instead of 2:36 p.m.,
which would negate the relevance of the potential
alibi.” The post-conviction court rejected this
suggestion, stating that “[t]he trial record is clear,
however, that the State committed to the 2:25–2:45
p.m. window as the timeframe of the murder and the
2:36 p.m. call as the call from the Best Buy parking
lot.”
The post-conviction court went on to observe:
The State [ ] elicited testimony during the trial
that is incongruent with the State’s newly
adopted timeline. Wilds testified on direct
examination that he called Pusateri at 3:21 p.m.
to go buy some marijuana after abandoning the
victim’s body and her vehicle at the Interstate 70
Park & Ride. Accordingly, the State’s new
timeline would create a six-minute window
between the 3:15 p.m. call from [Syed] and the
3:21 p.m. call to Pusateri. Within this six-minute
window, Wilds had to complete a seven-minute
drive to the Best Buy on Security Boulevard from
Craigmount Street, where he claimed he was
located when he received [Syed’s] call. Wilds then
had to make a stop at the Best Buy parking lot,
where [Syed] showed him the body in the victim’s
vehicle. Then, both parties had to take another
seven-minute drive to the Interstate 70 Park &
Ride to abandon the victim’s body and her vehicle.
It would be highly unlikely that Wilds could have

224a
completed this sequence of events within a sixminute window under the State’s new timeline.
The post-conviction court concluded that “[b]ased on
the facts and arguments reflected in the record, the
[c]ourt finds that the State committed to the 2:36 p.m.
timeline and thus, the [c]ourt will not accept the
newly established timeline.” (Emphasis added).
In Strickland, the Supreme Court stated that a
court must analyze “the totality of the evidence
before the judge or jury.” 466 U.S. at 695, 104 S.Ct.
2052 (emphasis added). Accordingly, we agree with
the post-conviction court’s rejection of the State’s
attempt to alter its timeline of the murder and will
analyze the prejudice prong relating to McClain’s
alibi testimony based on the State’s timeframe of
Hae’s murder: between 2:15 p.m. and 2:35 p.m. on
January 13, 1999.
We disagree, however, with the post-conviction
court’s conclusion that, because the crux of the
State’s case was the burial of Hae’s body in Leakin
Park, there was no prejudice from the absence of
McClain’s testimony at trial. Syed was charged with,
inter alia, first degree murder, and the trial court
properly instructed the jury as follows: “In order to
convict the Defendant of first degree murder, the
State must prove that the conduct of the Defendant
caused the death of the victim, Ms. [Hae] Lee, and
that the killing was willful, deliberate, and
premeditated.” See, e.g., Willey v. State, 328 Md. 126,
132, 613 A.2d 956 (1992) (approving this portion of
the pattern jury instruction). The burial of
Hae was not an element that the State needed to
prove in order to convict Syed. Instead, the State had
to establish that Syed “caused the death” of Hae, and

225a
the State’s theory of when, where, and how Syed
caused Hae’s death was critical to proving this
element of the crime.
We acknowledge that evidence of Syed’s
involvement in the burial of Hae’s body was
significant, because Syed’s actions after Hae’s death
did create an inference that he committed her
murder. Syed’s involvement in the burial, in other
words, was circumstantial evidence of his
committing the murder of Hae. See Circumstantial
Evidence, Black’s Law Dictionary (10th ed. 2014)
(defining circumstantial evidence as “[e]vidence
based on inference and not on personal knowledge or
observation”). It, however, did not directly establish
that Syed caused Hae’s death sometime between 2:15
p.m. and 2:35 p.m. in the Best Buy Parking lot on
January 13, 1999.
McClain’s alibi testimony, on the other hand, would
have been direct evidence that Syed was not at the
Best Buy parking lot between 2:15 p.m. and 2:35
p.m. See Direct Evidence, Black’s Law Dictionary
(10th ed. 2014) (defining direct evidence as
“[e]vidence that is based on personal knowledge or
observation and that, if true, proves a fact without
inference or presumption”). McClain’s testimony at
the second hearing demonstrated that she was a
disinterested witness who would have testified about
seeing Syed (1) at a specific location, the Woodlawn
Public Library, (2) on a specific date, January 13,
1999, and (3) during a specific time frame, at about
2:20 p.m. for 15–20 minutes. Hence, if believed by a
trier of fact, McClain’s testimony would have
“‘tend[ed] to prove that it was impossible or highly
improbable that [the defendant] was at the scene of

226a
the crime when it was alleged to have occurred.’ ”
McLennan v. State, 418 Md. 335, 352, 14 A.3d 639
(2011) (second alteration in original) (quoting
Ferguson v. State, 488 P.2d 1032, 1039 (Alaska
1971) ).
McClain’s alibi testimony, however, cannot be
viewed in isolation. Strickland, 466 U.S. at 695, 104
S.Ct. 2052. We must look to the totality of the
evidence presented to the jury to determine whether
McClain’s testimony would “have had a pervasive
effect on the inferences to be drawn from the
evidence, altering the entire evidentiary picture,” or
whether her testimony would “have had an isolated,
trivial effect.” Id. at 695–96, 104 S.Ct. 2052.
As indicated in the Background Section of this
opinion, the State presented a strong circumstantial
case. After six weeks of trial, the jury took only three
hours to convict Syed of all charges, and on direct
appeal, Syed made no claim of insufficiency of the
evidence as to any of his convictions. But as with
many criminal cases of a circumstantial nature, it
had its flaws. With little forensic evidence, the case
was largely dependent on witness testimony of
events before and after Hae’s death. Testimony of
these witnesses often conflicted with the State’s
corroborating evidence, i.e., the cell phone records
and the cell tower location testimony by its expert,
Waranowitz. The State’s key witness, Wilds, also
was problematic; something the State readily
admitted during its opening statement.41 Wilds had
41

In its opening statement, the State made the following
remarks:

227a
given three different statements to police about the
events surrounding Hae’s death.
The State’s case was weakest when it came to the
time it theorized that Syed killed Hae.42 As the postconviction court highlighted in its opinion, Wilds’s
own testimony conflicted with the State’s timeline of
the murder. 43 Moreover, there was no video
surveillance outside the Best Buy parking lot placing
Hae and Syed together at the Best Buy parking lot
during the afternoon of the murder; no eyewitness
testimony placing Syed and Hae together leaving
school or at the Best Buy parking lot; no eyewitness
testimony, video surveillance, or confession of the
actual murder; no forensic evidence linking Syed to
the act of strangling Hae or putting Hae’s body in the
You’re going to hear how on the evening of the 12th of
January, the defendant called Jay Wilds.
Now, Jay Wilds was a high school student at Woodlawn,
too. But he’s not among the bright and gifted. He lives in
that area. He lives with his mother, who’s very poor. He’s
had to work most of his own life.
And remember when you hear about Jay Wilds and you
hear him, remember this is the person the defendant seated
here, [chose] to use to put into effect his murder of his
girlfriend.
The State has to take—take its witnesses where it finds
them. We don’t get to pick and choose. We can’t go down
and ask Bea Ga[ddy] to come in and testify for us because
we need a good witness. We have to take the ones that the
defendants leave us.
42

The post-conviction court opined that “the State presented
a relatively weak theory as to the time of the murder[.]”
43

The post-conviction court cited to Wilds’s testimony on
cross-examination, wherein Wilds testified to receiving Syed’s
call to come and get him at Best Buy sometime after 3:45 p.m.

228a
trunk of her car; and no records from the Best Buy
payphone documenting a phone call to Syed’s cell
phone. In short, at trial the State adduced no direct
evidence of the exact time that Hae was killed, the
location where she was killed, the acts of the killer
immediately before and after Hae was strangled, and
of course, the identity of the person who killed Hae.
It is our opinion that, if McClain’s testimony had
been presented to the jury, it would have “alter[ed]
the entire evidentiary picture,” because her
testimony would have placed Syed at the Woodlawn
Public Library at the time the State claimed that
Syed murdered Hae. See Strickland, 466 U.S. at 696,
104 S.Ct. 2052. Such testimony would have directly
contradicted the State’s theory of when Syed had the
opportunity and did murder Hae. The State even
implicitly conceded the strength of McClain’s
testimony and its potential impact on the jury when
it attempted to present a new timeline for the
murder at the second hearing. The post-conviction
court aptly noted that the new timeline “would
[have] negate[d] the relevance of the potential alibi.”
The State’s attempt to change the time of the murder
further solidifies our own conclusion that “the jury
was deprived of the [opportunity] to hear testimony
that could have supplied [ ] ‘reasonable doubt’” in at
least one juror’s mind leading to a different outcome:
a hung jury. Avery, 548 F.3d at 439; see Strickland,
466 U.S. at 695, 104 S.Ct. 2052 (“When a defendant
challenges a conviction, the question is whether
there is a reasonable probability that, absent the
errors, the factfinder would have had a reasonable
doubt respecting guilt.”). Accordingly, in considering
the totality of the evidence at Syed’s trial with the

229a
potential impact of McClain’s alibi testimony, this
Court holds that there is a reasonable probability
that, but for trial counsel’s deficient performance, the
result of Syed’s trial would have been different. See
Strickland, 466 U.S. at 694, 104 S.Ct. 2052. Thus
Syed has satisfied the prejudice prong of
Strickland.44

44

In the State’s Conditional Application for Limited Remand,
it requested that this Court allow the State to supplement the
record with two witnesses who claimed that McClain did not
see Syed at the Woodlawn Public Library on January 13, 1999.
Because the State is asking that the post-conviction record be
supplemented with testimony or affidavits of these State
witnesses, the State, like Syed, would be required to file a
motion to reopen the post-conviction proceeding pursuant to CP
§ 7–104. The State, however, is precluded from doing so by the
opinion of the Court of Appeals in Alston v. State, 425 Md. 326,
40 A.3d 1028 (2012). The Alston Court stated:
When a final judgment in a post[-]conviction case is
adverse to the State, the only remedy granted to the
State in the Post[-]conviction Procedure Act is to
“apply to the Court of Special Appeals for leave to appeal
the order.”
***
There is no support in the language of the Post[]conviction Procedure Act, in the history of the Act, or in
any of this Court’s opinions, for the . . . position that the
State could reopen a proceeding under [CP] § 7–104. It is
clear that the reopening provision is solely for the
benefit of a “convicted person.”
Id. at 332, 338, 40 A.3d 1028 (emphasis added) (internal
citations omitted). Accordingly, we deny the State’s request for
a limited remand. We note, however, that if the State does reprosecute Syed, the State will have the opportunity to present
these witnesses at the new trial.

230a
D. Conclusion
[28, 29] As previously stated, to establish an
ineffective assistance of counsel claim under
Strickland, the defendant must prove that (1)
“counsel’s performance was deficient[,]” and (2) “the
deficient performance prejudiced the defense.” 466
U.S. at 687, 104 S.Ct. 2052. In the case sub judice,
trial counsel rendered deficient performance when
she failed to conduct any investigation of McClain as
a potential alibi witness. McClain appeared to be a
disinterested witness, and her testimony would have
placed Syed at a location other than the scene of the
crime at the exact time that the State claimed that
Syed murdered Hae. McClain’s testimony, if believed
by the trier of fact, would have made it impossible for
Syed to have murdered Hae. Trial counsel’s deficient
performance prejudiced Syed’s defense, because, but
for trial counsel’s failure to investigate, there is a
reasonable probability that McClain’s alibi testimony
would have raised a reasonable doubt in the mind of
at least one juror about Syed’s involvement in Hae’s
murder, and thus “the result of the proceedings
would have been different.” Id. at 694, 104 S.Ct.
2052. Because Syed has proven both the performance
and prejudice prongs of the Strickland test, we
conclude that his claim of ineffective assistance of
counsel has been established. Accordingly, Syed’s
murder conviction must be vacated, and because
Syed’s convictions for kidnapping, robbery, and false
imprisonment are predicated on his commission of
Hae’s murder, these convictions must be vacated as

231a
well. The instant case will be remanded for a new
trial on all charges against Syed.45
JUDGMENT OF THE CIRCUIT COURT FOR
BALTIMORE
CITY
AFFIRMED;
CASE
REMANDED TO THAT COURT FOR NEW
TRIAL ON ALL CHARGES; COSTS TO BE PAID
BY THE MAYOR AND CITY COUNCIL OF
BALTIMORE.
Dissenting Opinion by Graeff, J.
Dissenting Opinion by Graeff, J.
I respectfully dissent. Although I agree with the
majority opinion on the first four questions
presented, I disagree with the majority’s decision on
the last issue, whether Syed received ineffective
assistance of counsel due to defense counsel’s failure
to contact Asia McClain, an alleged alibi witness.
45

In analyzing the prejudice prong of the Strickland test, a
court is confined to the evidence presented at the defendant’s
trial. 466 U.S. at 695, 104 S.Ct. 2052. Here, the potential
impact of McClain’s alibi testimony was measured against the
timeline for the murder adopted by the State at Syed’s trial. By
our opinion, we do not and cannot suggest that the State is
bound to that timeline in the event that the State decides to reprosecute and a new trial commences on remand. A new trial on
remand is a blank slate, and the State is free to adduce any
evidence or adopt any theory that it believes supports the
charges against Syed. See Tichnell v. State, 297 Md. 432, 440,
468 A.2d 1 (1983) (“With some exceptions, the defendant who
successfully challenges his conviction may be retried, under the
rationale that the defendant wiped the slate clean and the
parties may start anew.” (internal quotation marks and citation
omitted) ); see also Hammersla v. State, 184 Md. App. 295, 313,
965 A.2d 912 (2009) (“The reversal of appellant’s conviction,
with an order for a new trial, ‘wiped the slate clean,’ and the
case began anew procedurally.”).

232a
After a review of the record, I conclude that Syed
failed to meet his burden of showing that he received
ineffective assistance of counsel in this regard.
In Strickland v. Washington, 466 U.S. 668, 686,
104 S.Ct. 2052, 80 L.Ed.2d 674 (1984), the United
States Supreme Court stated that the “benchmark”
for judging a claim of ineffective assistance of counsel
is “whether counsel’s conduct so undermined the
proper functioning of the adversarial process that the
trial cannot be relied on as having produced a just
result.” To prevail on a claim of ineffective assistance
of counsel, a defendant must satisfy a two-prong test:
“First, the defendant must show that counsel’s
performance was deficient.” Id. at 687, 104 S.Ct.
2052. Second, the defendant must show that
counsel’s deficient performance prejudiced the
defense, i.e., that “there is a reasonable probability
that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different.”
Id. at 694, 104 S.Ct. 2052. The defendant must make
both showings. Id. at 687, 104 S.Ct. 2052. If he or she
fails to show either prong, “it cannot be said that the
conviction or death sentence resulted from a
breakdown in the adversary process that renders the
result unreliable.” Id.
The Supreme Court has made clear that
“ ‘[s]urmounting Strickland’s high bar is never an
easy task.’” Harrington v. Richter, 562 U.S. 86, 105,
131 S.Ct. 770, 178 L.Ed.2d 624 (2011) (quoting
Padilla v. Kentucky, 559 U.S. 356, 371, 130 S.Ct.
1473, 176 L.Ed.2d 284 (2010) ). The Strickland test
“must be applied with scrupulous care, lest ‘intrusive
post-trial inquiry’ threaten the integrity of the very
adversary process the right to counsel is meant to

233a
serve.” Id. (quoting Strickland, 466 U.S. at 689–690,
104 S.Ct. 2052).
Although the performance and prejudice prong can
be addressed in either order, I will address first the
performance prong. To show that counsel’s
performance was deficient, the defendant must show
that “counsel’s representations fell below an objective
standard of reasonableness.” Strickland, 466 U.S. at
688, 104 S.Ct. 2052. The performance prong “is
satisfied only where, given the facts known at the
time, counsel’s ‘choice was so patently unreasonable
that no competent attorney would have made it.’ ”
State v. Borchardt, 396 Md. 586, 623, 914 A.2d 1126
(2007) (quoting Knight v. Spencer, 447 F.3d 6, 15 (1st
Cir. 2006) ). “The question is whether an attorney’s
representation amounted to incompetence under
‘prevailing professional norms,’ not whether it
deviated from best practices or most common
custom.” Harrington, 562 U.S. at 105, 131 S.Ct. 770
(quoting Strickland, 466 U.S. at 690, 104 S.Ct. 2052).
In reviewing such a claim, the lens through which
we view it is critical. We must begin our analysis
with the “strong presumption that counsel’s conduct
falls within the wide range of reasonable professional
assistance,” Strickland, 466 U.S. at 689, 104 S.Ct.
2052, and that counsel “made all significant
decisions in the exercise of reasonable professional
judgment.” Id. at 690, 104 S.Ct. 2052. Courts apply a
highly deferential standard “to avoid the post hoc
second-guessing of decisions simply because they
proved unsuccessful.” Evans v. State, 396 Md. 256,
274, 914 A.2d 25 (2006).
It is the defendant’s burden to “overcome the
presumption that, under the circumstances, the

234a
challenged action ‘might be considered sound trial
strategy.’” Strickland, 466 U.S. at 689, 104 S.Ct.
2052 (quoting Michel v. Louisiana, 350 U.S. 91, 101,
76 S.Ct. 158, 100 L.Ed. 83 (1955)). The defendant
must show “that counsel made errors so serious that
counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment.”
Id. at 687, 104 S.Ct. 2052.
Here, Syed contends that his trial counsel rendered
deficient performance because she failed to contact
Ms. McClain after becoming aware that Ms. McClain
“would have testified that Syed was in the Woodlawn
Public Library at the time of the murder.” The postconviction court rejected this claim in its first
opinion, finding “several reasonable strategic
grounds for trial counsel’s decision to forego pursuing
Ms. McClain as an alibi witness.” First, the court
found that the letters Ms. McClain sent to Syed did
“not clearly show Ms. McClain’s potential to provide
a reliable alibi” for Syed, noting that the only
indication of her potential as an alibi witness was
her offer to “ ‘account for some of [Syed’s]
unwitnessed, unaccountable lost time (2:15–8:00;
Jan 13th).’ ” And the court concluded that “trial
counsel could have reasonably concluded that Ms.
McClain was offering to lie in order to help [Syed]
avoid conviction.” Second, the court stated that the
information from Ms. McClain, that Syed was at the
public library, contradicted Syed’s “own stated alibi
that he remained on the school campus from 2:15
p.m. to 3:30 p.m.” It found that, “[b]ased on this
inconsistency, trial counsel had adequate reason to
believe that pursuing Ms. McClain as a potential
alibi witness would not have been helpful to [Syed’s]

235a
defense and may have, in fact, harmed the defense’s
ultimate theory of the case.” Accordingly, the court
determined that counsel’s failure to investigate Ms.
McClain as a potential alibi witness was “the result
of a sound and reasonable trial strategy.”
In its second opinion, the court reversed itself,
based on “the expanded record and the legal
arguments presented.”1 With respect to the State’s
argument that counsel made a strategic decision not
to investigate Ms. McClain because there was
evidence suggesting it was a false alibi, the court
stated that, although the State presented “a
compelling theory,” its argument would “invite the
[c]ourt to entertain speculations about strategic
decisions that counsel made,” and the court would
not “indulge in such hindsight sophistry.” The court
found that, because trial counsel knew about the
potential alibi witness approximately five months
before trial, she had “ample time and opportunity to
investigate the potential alibi,” and “[u]nder these
circumstances,” counsel’s “failure to contact and
investigate McClain as a potential alibi witness fell
below the standard of reasonable professional
judgment.”
The post-conviction court based its ruling on its
factual finding that defense counsel was aware that
Ms. McClain was a potential alibi witness and did
not contact her, ruling that, based on these
circumstances, counsel’s performance was deficient.
1

The expanded record at the second post-conviction hearing
included the testimony of David B. Irwin, who was admitted as
an expert in criminal practice, that “to meet the minimal
objective standard of reasonable defense care,” trial counsel
“had to go talk to Asia McClain.”

236a
Counsel for Syed similarly stated at oral argument
that, any time a defendant advises counsel of a
potential alibi witness, counsel must contact that
witness and pursue that potential alibi defense. The
majority likewise asserts that, once trial counsel
learned about Ms. McClain as a potential alibi
witness, she “had the duty to . . . make some effort to
contact McClain.”
I disagree. There may be good reasons for a
reasonable attorney not to contact a potential alibi
witness. For example, if the defense is that the
defendant was in Maryland during the time a crime
was committed in Virginia, defense counsel
reasonably could conclude that there was no need to
contact or follow up on a potential witness who said
that he or she saw the defendant in California at the
time of the crime.
Indeed, the Supreme Court has rejected a bright
line rule with respect to ineffective assistance of
counsel claims. It explained in Strickland:
[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible options are virtually unchallengeable;
and strategic choices made after less than
complete investigation are reasonable precisely to
the extent that reasonable professional judgments
support the limitations on investigation. . . .
[C]ounsel has a duty to make reasonable
investigations or to make a reasonable
decision
that
makes
particular
investigations
unnecessary.
In
any
effectiveness case, a particular decision not to
investigate must be directly assessed for
reasonableness in all the circumstances, applying

237a
a heavy measure of deference to counsel’s
judgments.
466 U.S. at 690–91, 104 S.Ct. 2052 (emphasis
added). Thus, counsel’s “duty” may be satisfied by
making a reasonable decision, based on all the
circumstances, that it is not necessary to interview
an alibi witness.
In determining whether counsel’s failure to
investigate is reasonable, a court must engage in “a
context-dependent consideration of the challenged
conduct as seen ‘from counsel’s perspective at the
time,’” eliminating “‘the distorting effects of
hindsight.’” Wiggins v. Smith, 539 U.S. 510, 523, 123
S.Ct. 2527, 156 L.Ed.2d 471 (2003) (quoting
Strickland, 466 U.S. at 689, 104 S.Ct. 2052). The
information available to counsel is important,
particularly statements and information given by the
defendant:
[W]hen the facts that support a certain potential
line of defense are generally known to counsel
because of what the defendant has said, the need
for further investigation may be considerably
diminished or eliminated altogether. And when a
defendant has given counsel reason to believe
that pursuing certain investigations would be
fruitless or even harmful, counsel’s failure to
pursue those investigations may not later be
challenged as unreasonable.
Strickland, 466 U.S. at 691, 104 S.Ct. 2052. Accord
Espinal v. Bennett, 588 F.Supp.2d 388, 399 (E.D.N.Y.
2008) (“A reasonable decision to forego investigation
may be based on a reasoned judgment that such

238a
investigation would be fruitless, wasteful, or even
counterproductive.”).2
Several courts have held that a failure to
investigate a potential alibi did not constitute
ineffective assistance of counsel when counsel’s
decision to forgo investigation was reasonably based
in trial strategy. In Broadnax v. State, 130 So.3d
1232, 1236 (Ala. Crim. App. 2013), the defendant
was convicted of murdering his wife and her
grandson. The State’s evidence indicated that
Broadnax, who had a prior conviction for murder,
resided at a work release center and worked at
Welborn Forest Products, both in Alexander City,
Alabama. Id. at 1237. The State’s theory was that,
between 6:30 p.m. and 10:30 p.m., Broadnax killed
his wife after she visited him at Welborn, put her
body in the trunk of her car, drove the car to
Birmingham, which was approximately one and onehalf hours from Welborn, killed his wife’s grandson,
and found someone to drive him back to Welborn,
where witnesses saw him around 10:30 p.m. Id. at
1238–39. The defense theory of the case was that the
defendant was at Welborn all day and evening, “as
Broadnax had said in his statements to police—and
that the State’s evidence was insufficient to prove
that Broadnax had committed the murders.” Id. at
1239.
2

The court in Espinal v. Bennett, 588 F.Supp.2d 388, 399
(E.D.N.Y. 2008), went on to state that “a failure to conduct
reasonable investigation into possible alibi evidence, in the
absence of such a reasonable explanation, falls below the
standard of effective representation required by Strickland.” As
explained in more detail, infra, the cases cited by Syed and the
majority fall into this category.

239a
After he was convicted of murder, Broadnax sought
post-conviction relief, claiming that his trial
attorneys were “ineffective for not adequately
investigating and presenting” the alibi that he was
at the work-release facility at 9 p.m. on the night of
the murders. Id. at 1246. He argued that “a proper
and adequate investigation would have resulted in
the discovery of witnesses” who saw him at the
facility at “‘a time which would have made it
impossible for him to have committed’ the murders.”3
Id. at 1249.
The Alabama court rejected Broadnax’s claim that
counsel’s performance was deficient, for several
reasons. Initially, the court found that, “by failing to
question his [trial] attorneys about this specific
claim, [Broadnax]
failed to overcome the
presumption that counsel acted reasonably.” Id. at
1256. The court stated: “It is extremely difficult, if
not impossible, to prove a claim of ineffective
assistance of counsel without questioning counsel
about the specific claim, especially when the claim is
based on specific actions, or inactions, of counsel that
occurred outside the record.” Id. at 1255. This is
because “ ‘[c]ounsel’s competence . . . is presumed,
and the [petitioner] must rebut this presumption by
proving that his attorney’s representation was
unreasonable under prevailing professional norms
and that the challenged action was notPublish
3

In support of this argument, Broadnax identified five
individuals who supported his alibi that he was at the work
release facility, rather than at Welborn, and “[a]ll five witnesses
stated that they had never been contacted by defense counsel or
by a defense investigator.” Broadnax v. State, 130 So.3d 1232,
1250–51 (Ala. Crim. App. 2013).

240a
sch_step_judicial.artifact_1.xsl using xsl. sound
strategy.’” Id. (quoting Chandler v. U.S., 218 F.3d
1305, 1314 n. 15 (11th Cir. 2000) ). The court stated:
“‘If the record is silent as to the reasoning behind
counsel’s actions, the presumption of effectiveness is
sufficient to deny relief on [an] ineffective assistance
of counsel claim.’” Id. at 1256 (quoting Dunaway v.
State, 198 So.3d 530, 547 (Ala. Crim. App. 2009) ).4
The court further held that Broadnax failed to
overcome the presumption of effectiveness and prove
that his counsel’s performance was deficient. Id. at
1256. In that regard, the court noted that Broadnax’s
claim was based on an alibi that was inconsistent
with what Broadnax told the police and his
attorneys, i.e., that he was at Welborn, not the work
release facility, until about 10:45 p.m. the night of
the murder. Id. at 1249. Noting that the State had
other evidence that Broadnax lied to the police,5 the
court stated: “[W]e cannot say that any decision to
forgo attempting to further impugn the client’s
credibility by presenting additional evidence of
4

In Broadnax, 130 So.3d at 1255, the defendant failed to call
trial counsel at the post-conviction hearing. Here, trial counsel
was unavailable to testify because she passed away prior to the
post-conviction hearing. That distinction, however, does not
change the legal analysis. See Walker v. State, 194 So.3d 253,
297 (Ala. Crim. App. 2015) (“the death of an attorney did not
relieve postconviction counsel of satisfying the Strickland test
when raising a claim of ineffective assistance of counsel.”).
5

Broadnax told the police that he called his brother from
Welborn at approximately 9:00 p.m., but telephone records
indicated that no such call was made. Broadnax, 130 So.3d at
1239. Broadnax also told the police that a bloody uniform
belonging to him had been stolen, but no report of a stolen
uniform had been made. Id.

241a
Broadnax’s lying to the police was unreasonable.” Id.
at 1258.
Although Broadnax did not involve a failure to
investigate an alibi witness identified by the
defendant prior to trial, it does illustrate the
principle that a decision not to investigate a certain
defense does not constitute ineffective assistance of
counsel if it is reasonably based in trial strategy.
Two other cases, however, reach the same conclusion
in the circumstance where the potential alibi witness
was identified by the defendant.
In Commonwealth v. Rainey, 593 Pa. 67, 928 A.2d
215, 233 (2007), Rainey argued that he was denied
effective assistance of counsel because he made
counsel aware of five alibi witnesses, who would have
testified that the defendant was at their house on the
night of the murder and did not leave, but counsel
failed to reasonably “investigate, develop, and
present” these witnesses. Trial counsel testified that,
although Rainey had “mentioned the possibility of
presenting alibi witnesses, ‘he had never in my
discussions persuaded me that he had witnesses,
reliable witnesses to alibi.’” Id. The Supreme Court
of Pennsylvania, in rejecting Rainey’s claim, stated
that, “[t]o show ineffectiveness for not presenting
alibi evidence, [Rainey] must establish that counsel
could have no reasonable basis for his act or
omission,” but in that case, a reasonable basis for not
presenting this purported alibi evidence was “readily
apparent from the record.” Id. at 234.
The record showed that Rainey, who was charged
with murder during a robbery, had told the police
that he was present during the robbery, but his codefendant shot the victim. Id. at 221. The defense

242a
theory was to concede Rainey’s involvement in the
crime but argue that the facts did not support firstdegree murder. Id. The court held that, because
pursuing Rainey’s purported alibi evidence would
have contradicted the defense strategy and opened
the door to the State admitting into evidence
Rainey’s statement to the police, counsel was not
ineffective for failing to present the witnesses. Id. at
234.6
In Weeks v. Senkowski, 275 F.Supp.2d 331, 341
(E.D.N.Y. 2003), Weeks alleged that he provided trial
counsel with alibi witnesses who would testify that
he was drinking with them on the day of the murder.
Weeks asserted that he was denied the effective
assistance of counsel because trial counsel refused to
interview these witnesses. Id. at 340. The court
rejected this argument, finding that this was a
“sound strategic choice,” not “ineffective assistance of
counsel,” where the witnesses had been “convicted of
having participated in the same murders for which
[Weeks] was being tried.” Id. at 341.
These cases illustrate that counsel does not,
contrary to Syed’s argument, have an absolute duty
to interview a witness identified as an alibi witness.
Rather, the “duty” is “to make reasonable
investigations or to make a reasonable decision that
makes particular investigations unnecessary.”
Strickland, 466 U.S. at 691, 104 S.Ct. 2052
(emphasis added).

6

Although the court focused on the failure to present
witnesses, the claim was the failure “to investigate and present”
the alibi witnesses. Commonwealth v. Rainey, 593 Pa. 67, 928
A.2d 215, 233 (2007).

243a
Thus, the finding by the post-conviction court that
defense counsel did not contact Ms. McClain is only
the first step in the inquiry. It is not the end of the
inquiry.
The ultimate inquiry is whether defense counsel
made a reasonable decision that interviewing Ms.
McClain was not necessary. And more specifically,
the question is whether Syed has met his burden to
overcome the presumption that counsel’s decision
was based on reasonable trial strategy. See Coleman
v. State, 434 Md. 320, 335, 75 A.3d 916 (2013)
(“‘Reviewing courts must thus assume, until proven
otherwise, that counsel’s conduct fell within a broad
range of reasonable professional judgment, and that
counsel’s conduct derived not from error but from
trial strategy.’”) (quoting Mosley v. State, 378 Md.
548, 558, 836 A.2d 678 (2003) (emphasis added) ).7
In addressing whether trial counsel made a
reasonable decision not to contact Ms. McClain, the
decision in Weaver v. State, 327 Mont. 441, 114 P.3d
1039 (2005) is instructive. In that case, the Supreme
Court of Montana stated: “ ‘A claim of failure to
7

Syed, in his petition for post-conviction relief claiming
ineffective assistance of counsel regarding the McClain alibi,
relied on nothing more than the fact that defense counsel did
not contact Ms. McClain, stating summarily that “[t]here is no
possible strategic reason why a defense attorney would not even
investigate a possible witness.” Similarly, on appeal, Syed relies
on “the basic fact that trial counsel knew of but failed to pursue
a potential alibi witness,” stating: “That should be the end of
the deficiency inquiry.” That counsel failed to contact Ms.
McClain, however, is not sufficient to satisfy Syed’s burden to
overcome the presumption that counsel’s decision not to
interview Ms. McClain was a reasonable one, based on trial
strategy.

244a
interview a witness may sound impressive in the
abstract, but it cannot establish ineffective
assistance when the person’s account is otherwise
fairly known to defense counsel.’ ” Id. at 1043
(quoting State v. Thomas, 285 Mont. 112, 946 P.2d
140, 144 (1997) ). The court held that, where counsel
knew the substance of the testimony that could be
elicited from the potential witnesses identified by
Weaver, counsel made a “reasonable decision” that it
was not necessary to investigate those witnesses,
and therefore, Weaver failed to prove that counsel’s
decision not to investigate fell below an objective
standard of reasonableness. Id. at 1044.
Here, the evidence that trial counsel failed to
obtain by not contacting Ms. McClain, as presented
in Ms. McClain’s post-conviction testimony, was that
Ms. McClain had a 15–20 minute conversation with
Syed at the public library on the day of the murder,
starting at “[s]hortly after 2:15” p.m.8 Syed asserts
that counsel unreasonably failed to contact Ms.
McClain because her testimony provided an alibi for
the time the State alleged that the murder occurred,
i.e., between 2:15 p.m., when school let out, and 2:36
p.m., when the State alleged that Syed called Jay
Wilds to pick him up at the Best Buy parking lot.
The record here reflects that, as in Weaver, trial
counsel knew the gist of Ms. McClain’s alibi. Trial
counsel’s file contained notes from her law clerk
8

Ms. McClain’s testimony, that she spoke with Syed for 15–
20 minutes, beginning shortly after 2:15 p.m., is similar to, but
slightly different from, her January 13, 2015, affidavit, in which
she stated that she saw Syed enter the library “around 2:30
p.m.,” and Syed was still there when she left the library
“around 2:40” p.m.

245a
regarding an interview with Syed on July 13, 1999,
indicating that Syed said that Ms. McClain “saw him
in the library @ 3:00” and her “boyfriend saw him
too.” Trial counsel also noted in her file that
“[McClain] v boyfriend saw [Syed] in library 2:15–
3:15.”Because counsel knew the gist of what Ms.
McClain would say if counsel contacted her, the
reviewing court must presume that she made a
“reasonable decision,” based on trial strategy, that it
was not necessary to investigate this potential alibi.
The State has suggested several possible reasons
why the decision not to contact Ms. McClain was a
reasonable one, reasons suggesting that the
substance of Ms. McClain’s testimony would not be
particularly helpful, and might be harmful, to the
trial strategy counsel was pursuing. The postconviction court, in its second opinion, rejected this
argument, indicating that the reasons were
speculative.
The majority similarly states that courts should not
“ ‘conjure up tactical decisions an attorney could
have made, but plainly did not.’” (quoting Griffin,
970 F.2d at 1358). In Griffin, however, defense
counsel testified that he did not interview the alibi
witness because it was his impression that the case
was “going to be pleaded.” Id. at 1357. It was in that
context that the court declined to consider other
tactical decisions that the attorney “could have
made, but plainly did not.” Id. at 1358.
The Supreme Court has stated that, in applying
“the strong presumption of competence that
Strickland mandates,” the court must “affirmatively
entertain the range of possible reasons” trial counsel
may have had for proceeding as he or she did. Cullen

246a
v. Pinholster, 563 U.S. 170, 196, 131 S.Ct. 1388, 179
L.Ed.2d 557 (2011). Here, a review of the record as a
whole indicates possible reasons why trial counsel
reasonably could have concluded that pursuing Ms.
McClain’s purported alibi, which was known to trial
counsel, could have been more harmful than helpful
to Syed’s defense.
Trial counsel clearly prepared for an alibi defense.
She provided the following alibi notice to the State:
At the conclusion of the school day, the
defendant remained at the high school until the
beginning of his track practice. After track
practice, Adnan Syed went home and remained
there until attending services at his mosque that
evening. These witnesses will testify . . . as to the
defendant’s regular attendance at school, track
practice, and the Mosque, and that his absence on
January 13, 1999 would have been missed.
This alibi was consistent with what Syed told
Detective Joshua O’Shea on January 25, 1999, i.e.,
that on the day of the murder he was in class with
the victim until 2:15 p.m., but “[h]e did not see her
after school because he had gone to track practice.”
The State, however, had strong evidence
supporting Jay Wilds’ testimony regarding what
occurred the evening of January 13, 1999, which,
according to his testimony, was when he and Syed
buried the victim’s body. Trial counsel’s strategy,
based on her opening statement, closing argument,
and examination of witnesses, appears to have
included, in addition to eliciting evidence consistent
with the alibi notice: (1) attacking the credibility of
Jay Wilds; (2) arguing that, although there were
phone records supporting that Syed’s phone was in

247a
locations consistent with Wilds’ testimony, there was
no evidence that Syed was in possession of his phone
during that time; (3) noting that the State did not
produce any evidence of the time the victim was
murdered, and one witness stated that she saw the
victim at 3:00 p.m. on the date of the murder; (4)
presenting Syed, a young man from a good family,
who was a gifted student and athlete, well-liked,
well-mannered, and cooperative with the police, as a
person of good character who would not commit
murder; (5) minimizing the inconsistency in Syed’s
statements regarding whether the victim had agreed
to give him a ride after school; and (6) suggesting
that, once the police arrested Syed, they “disregarded
anything else,” including more likely culprits, such
as Wilds and the person who found the victim’s body.
Trial counsel did convey, consistent with the alibi
notice, that Syed typically went to track practice
after school, and then to mosque.9 Counsel’s focus,
however, took the long view, trying to cast doubt on
the whole of the State’s case. The circuit court
9

For example, trial counsel established during crossexamination of Detective O’Shea that the information that Syed
gave, that after class with the victim he went to track practice,
was consistent with what Detective O’Shea was able to confirm
from other sources. Counsel established during examination of
other witnesses that Syed was a regular attendee at track
practice. Counsel also elicited testimony that Syed regularly
attended mosque in the evening during Ramadan, the holy
month from December 20, 1998, through January 18, 1999, and
Syed’s father testified that he went to mosque with Syed on
January 13, 1999, for prayers beginning at 8:00 p.m. During
opening statement and closing argument, counsel stated that
Syed consistently told people that he went to track practice
after school, and in closing argument, counsel further argued
that, during Ramadan, Syed was always at mosque.

248a
similarly assessed the strength of the State’s case,
finding that the State “presented a relatively weak
theory as to the time of the murder,” and Ms.
McClain “would not have undermined the crux of the
State’s case[,] that [Syed] buried the victim’s body”
with Wilds, which “created the nexus between [Syed]
and the murder.” Although the majority disagrees
with this determination, it is hard to argue that trial
counsel, adopting a strategy based on the view that it
was not necessary to contact Ms. McClain, was “so
patently unreasonable that no competent attorney”
would take a similar view. Borchardt, 396 Md. at
623, 914 A.2d 1126 (quoting Knight, 447 F.3d at 15).
Ms. McClain’s testimony, although addressing the
time immediately after school, did nothing to dispute
the voluminous evidence connecting Syed to the
burial of the body. And trial counsel’s strategy with
respect to the actual murder, based on her crossexamination of the medical examiner and her closing
argument, was that there was no evidence regarding
the victim’s time of death. Although the State argued
that the murder occurred by 2:36 p.m., when it
alleged Syed called Wilds to request a ride from Best
Buy, trial counsel argued that the medical examiner
could not confirm this time of death, and Deborah
Warren indicated that she had seen the victim at
3:00 p.m. the day of the murder.
The record supports the post-conviction court’s
conclusion that the State had limited evidence
pinpointing the time of the murder. Indeed, as the
post-conviction court noted, Jay Wilds’ testimony,
that Syed did not call Wilds to pick him up until
after 3:45 p.m., was inconsistent with the State’s
argument that Syed called Wilds at 2:36 p.m.

249a
The State did, however, present significant
evidence connecting Syed to the burial of the victim’s
body, which implicated Syed in the murder. Under
all the circumstances, counsel reasonably could have
determined that contacting Ms. McClain to pursue
her potential alibi, and focusing too much on Syed’s
whereabouts right after school, would not be
particularly helpful, given the context of the State’s
entire case, especially when weighed against the
potential pitfalls presented by pursuing Ms.
McClain’s testimony.
As indicated, Syed initially told the police that he
had gone to track practice after school. He never
mentioned going to the public library after school.
Although, as the post-conviction court noted, there
was evidence that the high school and the public
library were in close proximity, that does not take
away from the fact that Syed never mentioned going
to the public library. The State already had one
inconsistency in Syed’s statement to the police,
which the prosecutor highlighted for the jury. Syed
initially told Officer Scott Adcock that he saw the
victim at school and that she was going to give him a
ride home, but “he got detained and felt that she
probably got tired of waiting for him and left.” Syed
subsequently contradicted himself, telling Detective
O’Shea that he drove his own vehicle to school “so he
wouldn’t have needed a ride from [the victim].”10

10

The State argued in closing that the jury could consider
Syed’s actions in assessing his guilt. The prosecutor then noted
that Syed told a classmate that the victim was giving him a ride
to get his car, which he also told Office Adcock, but Syed later
“changed his story,” telling Detective O’Shea that he had his

250a
Defense counsel reasonably could have concluded
that Ms. McClain’s testimony that she saw Syed at
the public library after school, when Syed never
before had mentioned the public library, could be
harmful because it would give the State another
inconsistency or omission in Syed’s statements to the
police. Evidence of inconsistencies in two aspects of
Syed’s story to the police, whether he had asked the
victim for a ride and where he was after school, was
detrimental to the strenuous defense that Syed was a
good person with nothing to hide.
Documents in the record further indicate potential
cause for concern regarding the trustworthiness of
Ms.
McClain’s
alibi,
and
therefore,
the
reasonableness of counsel’s decision not to contact
Ms. McClain or pursue her alibi. The first letter Ms.
McClain sent to Syed on March 1, 1999, stated that
she hoped Syed was not guilty, and “[i]f so I will try
my best to help you account for some of your
unwitnessed, unaccountable lost time (2:15–8:00;
Jan 13th.).” The letter further stated: “If you were in
the library for awhile, tell the police and I’ll continue
to tell what I know even louder than I am.”
(Emphasis added). In its first post-conviction
opinion, the circuit court found that, based on this
language, “trial counsel could have reasonably
concluded that Ms. McClain was offering to lie in
order to help [Syed] avoid conviction.”
Moreover, at the second post-conviction hearing,
the State introduced into evidence trial counsel’s file,
as well as police records to which trial counsel had
own car and did not need a ride, so Officer Adcock “must have
been incorrect.”

251a
access. Included in those records were detective
notes indicating that Syed had called and written to
someone from school. The notes reflect that Syed:
WROTE A LETER TO A GIRL TO TYPE UP
WITH HIS ADDRESS ON IT
BUT SHE GOT IT WRONG
101 EAST EAGER STREET
ASIA? 12TH GRADE
I GOT ONE, JUSTIN AGER GOT ONE11
A review of the March 2nd letter shows a
discrepancy between the address on the top of the
letter, “301 East Eager Street” and the address
referenced by Gordon: “101 EAST EAGER STREET.”
To the extent that Ms. McClain’s potential alibi
could give the prosecution ammunition to argue that
Syed and Ms. McClain were working together to
falsify an alibi, it would be a reasonable decision not
to contact Ms. McClain to pursue that alibi. See
Henry v. Poole, 409 F.3d 48, 65 (2d Cir. 2005) (“[I]t is
generally acknowledged that an ‘attempt to create a
false alibi’ constitutes ‘evidence of the defendant’s
consciousness of guilt.’ ”) (quoting Loliscio v. Goord,
263 F.3d 178, 190 (2d Cir. 2001) ). See also Rogers v.
Zant, 13 F.3d 384, 387 (11th Cir. 1994) (“By its
nature, ‘strategy’ can include a decision not to
investigate . . . [and] a lawyer can make a reasonable
decision that no matter what an investigation might
produce, he wants to steer clear of a certain course.”),

11

In closing argument at the second post-conviction hearing,
the State asserted that these notes were from a detective’s
interview with Ju’uan Gordon, one of Syed’s best friends.

252a
cert. denied, 513 U.S. 899, 115 S.Ct. 255, 130 L.Ed.2d
175 (1994).
The majority states that trial counsel could not
reasonably
evaluate
the
advantages
or
disadvantages of Ms. McClain’s alibi testimony
without first contacting her. I disagree, under the
facts here, where counsel knew the gist of Ms.
McClain’s testimony. In Griffin v. Warden, Md. Corr.
Adjustment Ctr., 970 F.2d 1355, 1357 (4th Cir. 1992),
upon which the majority relies, defense counsel
stated that he did not contact any alibi witnesses
because it was his impression that the “case was
going to be pleaded.” It was in that context, where
trial counsel “did not even talk to [the witness], let
alone make some strategic decision not to call him,”
that the court found ineffective assistance of counsel.
Id. at 1358. This case is not remotely analogous to
the facts in that case.
Here, based on “all the circumstances, applying a
heavy measure of deference to counsel’s judgments,”
Strickland, 466 U.S. at 691, 104 S.Ct. 2052, counsel’s
decision not to call Ms. McClain and pursue the
public library alibi defense cannot be said to be
“incompetence,” Harrington, 562 U.S. at 105, 131
S.Ct. 770, or “ ‘so patently unreasonable that no
competent attorney would have made it,’ ”
Borchardt, 396 Md. at 623, 914 A.2d 1126 (quoting
Knight, 447 F.3d at 15), as required to satisfy a
finding of deficient performance. This is particularly
the case where the post-conviction court, in its first
opinion, agreed that counsel’s decision was
reasonable trial strategy, and in its second opinion,
stated that Ms. McClain’s testimony ultimately
would not have been that helpful because it “would

253a
not have undermined the crux of the State’s case[,]
that [Syed] buried the victim’s body” with Wilds,
which “created the nexus between [Syed] and the
murder.”
This case is distinguishable from the cases relied
upon by Syed and the majority, in which courts
found ineffective assistance of counsel due to
counsel’s failure to contact a witness identified by
the defendant. In those cases, there was testimony
by defense counsel, or other statements in the record,
indicating that the reason defense counsel did not
interview the witness was something other than
reasonable trial strategy. See Washington v. Smith,
219 F.3d 620, 625, 630 (7th Cir. 2000) (defense
counsel stated that he did not contact identified alibi
witnesses because he did not receive the names until
the first day of trial, and “at that late time,” he “was
busy trying the case”); Bryant v. Scott, 28 F.3d 1411,
1419 n.13 (5th Cir. 1994) (although making clear
that the court was not holding that counsel must
interview every claimed alibi witness, because it
depends on the overall context of the case, the court
found that counsel’s failure to investigate potential
alibi witness not a “strategic choice” where counsel
stated that he “would have loved to have the [alibi]
evidence.”); Griffin v. Warden, Md. Corr. Adjustment
Ctr., 970 F.2d 1355, 1357 (4th Cir. 1992) (trial
counsel failed to interview alibi witness, not because
he thought the witness would be unhelpful or
harmful, but because he thought the case was “going
to be pleaded”); Grooms v. Solem, 923 F.2d 88, 90
(8th Cir. 1991) (where counsel was not advised of the
potential alibi witness until the day of trial, the
decision not to investigate, because he assumed that

254a
the court would preclude the evidence of an alibi due
to the lack of an alibi notice, was deficient
performance); Montgomery v. Petersen, 846 F.2d 407,
412 (7th Cir. 1988) (where trial counsel stated that
he failed to investigate a potential alibi witness due
to “inadvertence” and his disbelief of Montgomery,
the failure was not a strategic decision, and
therefore, counsel “did not make a reasonable
decision
that
further
investigation
was
unnecessary.”). See also Avery v. Prelesnik, 548 F.3d
434, 437–38 (6th Cir. 2008) (where counsel testified
that he was interested in talking with the alibi
witness identified by the defendant, but failed to
follow up, and counsel had “no idea” what the
witness would have said, counsel could not have
made a strategic choice not to have the witness
testify); Lawrence v. Armontrout, 900 F.2d 127, 130–
31 (8th Cir. 1990) (counsel’s admitted failure to
interview potential witnesses was unreasonable
where: (1) he relied on assertions of a third person
that one witness could not be located and the other
would not testify; and (2) the failure was based on
the defense strategy to focus on the defense of
misidentification, rather than alibi, but alibi
witnesses “would bolster rather than detract from a
defense of misidentification.”).
Here, by contrast, there was no testimony by trial
counsel regarding why she did not contact Ms.
McClain. Although this was because counsel was
deceased at the time the post-conviction hearing
occurred, this did not relieve Syed of his duty to
satisfy the Strickland test. See Walker v. State, 194
So.3d 253, 297 (Ala. Crim. App. 2015).

255a
The absence of testimony by trial counsel makes it
difficult for Syed to meet his burden of showing
deficient performance. As the court stated in
Broadnax, 130 So.3d at 1255, it is “extremely
difficult” for a petitioner “to prove a claim of
ineffective assistance of counsel without questioning
counsel about the specific claim, especially when the
claim is based on specific actions, or inactions, of
counsel that occurred outside the record.” Similarly,
in Williams v. Head, 185 F.3d 1223, 1227–28 (11th
Cir. 1999), cert. denied, 530 U.S. 1246, 120 S.Ct.
2696, 147 L.Ed.2d 967 (2000), the court stated that,
“where the record is incomplete or unclear about
[counsel’s] actions, we will presume that he did what
he should have done, and that he exercised
reasonable professional judgment,” noting that the
“district court correctly refused to ‘turn that
presumption on its head by giving Williams the
benefit of the doubt when it is unclear what [counsel]
did or did not do.’” Accord Jones v. State, 500 S.W.3d
106, 114 (Tex. App.-Hous. [1st Dist.] 2016) (“‘When
the record is silent on the motivations underlying
counsel’s tactical decisions, the appellant usually
cannot overcome the strong presumption that
counsel’s conduct was reasonable.’”) (quoting Mallett
v. State, 65 S.W.3d 59, 63 (Tex. Crim. App. 2001) ).
To be sure, there could be circumstances where the
record is sufficient for the defendant to overcome the
presumption that counsel acted reasonably, without
questioning trial counsel. This case, however, does
not present such circumstances. Syed has pointed to
no evidence in the record indicating that trial
counsel’s decision not to interview Ms. McClain was
based on anything other than reasonable trial

256a
strategy, relying instead on his blanket assertion
that it is unreasonable in every case for trial counsel
to fail to contact a potential alibi witness identified
by the defense.12
Although possible reasons for counsel’s decision
have been discussed, we do not know if these were
the reasons that counsel decided not to contact Ms.
McClain. We do know, based on the record, that trial
counsel presented a vigorous defense of Syed in the
face of strong evidence of guilt. What we do not know
is why trial counsel did not contact Ms. McClain,
whether she decided not to for the reasons proffered
by the State, or if there were other reasons that led
counsel to conclude that it was not necessary to
further investigate Ms. McClain’s public library
alibi.13
12

Syed does attempt to poke holes in the State’s asserted
reasons why trial counsel reasonably could have decided not to
pursue Ms. McClain’s purported alibi. For example, Syed
argues that no witness testified in support of the State’s
argument that trial counsel may have believed the McClain
alibi was fabricated. The State, however, does not have the
burden to show why trial counsel failed to interview Ms.
McClain. It is Syed’s burden to overcome the presumption that
she did so based on reasonable trial strategy.
13

The State filed a Conditional Application for Limited
Remand requesting that, if this Court granted Syed’s
application for leave to appeal regarding the McClain-alibi
claim, it be permitted to incorporate into the record affidavits of
two former classmates of Ms. McClain. The State asserted that
these witnesses emailed the State after the post-conviction
court granted Syed a new trial, stating that Ms. McClain’s
“story” about seeing Syed in the library “is a lie,” and they
recalled a prior conversation in class where Ms. McClain said
that she believed in Syed’s innocence and “would make up a lie
to prove he couldn’t have done it.” These assertions, although

257a
Under these circumstances, Syed has failed to
satisfy Strickland’s “high bar,” Harrington, 562 U.S.
at 105, 131 S.Ct. 770. He has failed to meet his
burden to overcome the presumption that counsel’s
failure to contact Ms. McClain was based on
reasonable trial strategy, and therefore, he has failed
to meet the requirements of the performance prong
of the Strickland test. I would reverse the judgment
of the circuit court granting Syed a new trial.

not evidence in this appeal, illustrate the danger in a court
finding that strategy decisions made by trial counsel were
unreasonable, without any evidence regarding why those
decisions were made. See Harrington, 562 U.S. at 105, 131 S.Ct.
770 (deferential review of trial counsel’s performance is
required because “[u]nlike a later reviewing court, the attorney
observed the relevant proceedings, knew of materials outside
the record, and interacted with the client.”).

258a
APPENDIX D
_________
IN THE CIRCUIT COURT
FOR BALTIMORE CITY
_________
Case Nos. 199103042-046
_________
Petition No. 10432
_________
ADNAN SYED,
Petitioner,
v.
STATE OF MARYLAND,
Respondent,
_________
MEMORANDUM OPINION II
ADNAN SYED, Petitioner, by and through his
counsel, filed a Petition for Post-Conviction Relief on
May 28, 2010, pursuant to the Maryland Uniform
Post-Conviction Procedure Act, codified in Md. Code.
Ann. (2001, 2008 Repl.), §§ 7-101 et seq. of the
Criminal Procedure Article (hereinafter “Crim.
Proc.”). Petitioner filed a Supplement to the Petition
for Post-Conviction Relief on June 27, 2011. The
Court held a hearing over the course of two days on
October 11, 2012, and October 25, 2012. Based on the
reasons stated in the January 6, 2014 Memorandum
Opinion, the Court denied the Petition for PostConviction Relief and thereby concluded the postconviction proceedings.

259a
Petitioner filed a timely Application for Leave to
Appeal the Denial of Post-Conviction Relief on
January 27, 2014.1 Based on information contained
in the January 13, 2015 affidavit of a potential alibi
witness, Petitioner filed a Supplement to the
Application for Leave to Appeal on January 20, 2015.
The Maryland Court of Special Appeals granted
Petitioner’s Application for Leave to Appeal on
February 6, 2015. On May 18, 2015, the Maryland
Court of Special Appeals issued an order remanding
this matter, without affirmance or reversal, to the
Circuit Court for Baltimore City. The Maryland
Court of Special Appeals remanded the matter to
afford Petitioner the opportunity to file a request to
re-open the previously concluded post-conviction
proceedings and supplement the record in light of the
potential alibi witness’s January 13, 2015 affidavit.
May 18, 2015 Remand Order, at 4. Although the
subject of the Remand Order is limited to the alibi
issue, the Maryland Court of Special Appeals gave
the Court the discretion to “conduct any further
proceedings it deem[ed] appropriate” in the event the
Court granted Petitioner’s request to re-open the

1

Petitioner raised nine allegations in the May 28, 2010
Petition for Post-Conviction Relief and the June 27, 2011
Supplement. The Court addressed all nine allegations in the
January 6, 2014 Memorandum Opinion and Order. After the
Court denied relief, Petitioner filed an Application for Leave to
Appeal on whether trial counsel rendered ineffective assistance
when she allegedly failed to: 1) contact the potential alibi
witness; and 2) pursue a plea deal with the State. See January
27, 2014 Petitioner’s Application for Leave to Appeal, at 1.

260a
previously concluded post-conviction proceedings. 2
Id.
Pursuant to the Remand Order and Crim. Proc.
§ 7-104, Petitioner filed a Motion to Re-Open PostConviction Proceedings on June 30, 2015. On August
24, 2015, Petitioner filed a Supplement to the Motion
to Re-Open Post-Conviction Proceedings requesting
the Court to consider an additional allegation
concerning the reliability of cell tower location
evidence that the State used at trial. The State of
Maryland (hereinafter “State”) filed a Consolidated
Response in Opposition to Petitioner’s Motion and
Supplement to Re-Open Post-Conviction Proceedings
on September 23, 2015. Petitioner filed a Reply to
the State’s Consolidated Response on October 13,
2015.
The Court issued the Statement of Reasons and
Order of the Court on November 6, 2015, granting
Petitioner’s Motion to Re-Open Post-Conviction
Proceedings. The Order limited the scope of the reopened post-conviction proceedings to the following
matters: 1) trial counsel’s alleged failure to contact a
potential alibi witness, Asia McClain (hereinafter
“McClain”); and 2) the reliability of the cell tower
location evidence. The Court held a five-day hearing
from February 3, 2016, through February 9, 2016.
Petitioner presented the following issues to the
Court:

2

Given that the subject of the remand is limited to the alibi
issue, Petitioner’s allegation regarding trial counsel’s alleged
failure to pursue a plea deal is currently pending before the
Maryland Court of Special Appeals.

261a
I.

Whether trial counsel’s alleged failure to
contact McClain as a potential alibi witness
violated Petitioner’s Sixth Amendment right
to effective assistance of counsel?
II. Whether the State withheld potentially
exculpatory evidence related to the reliability
of cell tower location evidence in violation of
the disclosure requirements under Brady?
III. Whether trial counsel’s alleged failure to
challenge the reliability of the cell tower
location evidence violated Petitioner’s Sixth
Amendment right to effective assistance of
counsel?
STATEMENT OF THE CASE
Hae Min Lee (hereinafter “victim”), a gifted and
talented student at Woodlawn High School in
Baltimore County, disappeared during the afternoon
of January 13, 1999. On February 9, 1999, the
victim’s body was found partially buried in a shallow
grave located in Leakin Park near the 4400 block of
North Franklintown Road in Baltimore City. The
medical examiner determined that the cause of the
victim’s death was strangulation.
Following an anonymous tip, Baltimore City police
arrested Petitioner, who was also a student at
Woodlawn High School, on February 28, 1999. The
State charged Petitioner with first-degree murder,
second-degree murder, kidnapping, robbery, and
false imprisonment. A grand jury issued an
indictment on April 13, 1999. Petitioner was
arraigned in the Circuit Court for Baltimore City
before Judge David B. Mitchell on June 3, 1999.
Petitioner’s first trial began on December 9, 1999,
before Judge William D. Quarles, Jr., and concluded

262a
in a mistrial on December 15, 1999. Petitioner’s
second trial lasted from January 7, 2000, through
February 25, 2000, before Judge Wanda K. Heard. At
both trials, M. Christina Gutierrez, Esq., (hereinafter
“trial counsel”) represented Petitioner, and Assistant
State’s Attorneys Kevin Urick, Esq., and Kathleen C.
Murphy, Esq., represented the State.
At trial, the State argued that Petitioner killed the
victim out of jealousy and rage over the victim’s new
romantic relationship with another individual. The
State presented a timeline through the testimony of
Jay Wilds (hereinafter “Wilds”), who testified as to
the following:
On the morning of January 13, 1999, Wilds
received a phone call from Petitioner offering to drive
Wilds to the mall, so Wilds could purchase a birthday
present for his girlfriend. After shopping for
approximately an hour and fifteen minutes,
Petitioner and Wilds left the mall for Woodlawn
High School because Petitioner had to return to
school before the end of lunch period. When
Petitioner returned to school, he left his vehicle and
cell phone with Wilds and told Wilds that he would
call later that day to request a ride. Wilds testified
that he then drove to the residence of Jennifer
Pusateri (hereinafter “Pusateri”) and waited at her
residence for Petitioner’s call until approximately
3:45 p.m.
Sometime during the afternoon of January 13,
1999, Petitioner called Wilds from a payphone in the
Best Buy parking lot to request a ride. When Wilds
arrived at the Best Buy parking lot, Petitioner
opened the trunk of the victim’s vehicle, revealing
the victim’s lifeless body. Petitioner told Wilds that

263a
he had strangled the victim. Petitioner left the Best
Buy parking lot in the victim’s vehicle, and Wilds
followed him in Petitioner’s vehicle. Petitioner
abandoned the victim and her vehicle in the
Interstate 70 Park & Ride located at the end of
Security Boulevard and Cooks Lane in Baltimore
City. Petitioner and Wilds left the Interstate 70 Park
& Ride in Petitioner’s vehicle to go buy some
marijuana.
After purchasing marijuana, Petitioner asked
Wilds to drop him off at Woodlawn High School for
track practice, where he could be seen by others.
Wilds dropped Petitioner off, and when Petitioner
called Wilds approximately thirty minutes later to
request a ride, Wilds picked up Petitioner from track
practice and then drove to Kristi Vincent’s
(hereinafter “Vincent”) residence located at the 2700
block of Gateway Terrace in Baltimore City.
Petitioner’s cell phone received two incoming calls
after
arriving
at
Vincent’s
residence
at
approximately 6:00 p.m. The first call came from the
victim’s family who called to ask if Petitioner knew of
the victim’s whereabouts. Petitioner responded that
they should contact the victim’s new boyfriend,
suggesting that she may be with him. The second call
came from a police officer, who also asked about the
victim’s whereabouts.
After speaking with the police officer, Petitioner
told Wilds that they had to leave Vincent’s residence
and dispose of the victim’s body. Petitioner and Wilds
drove back to the Interstate 70 Park & Ride to pick
up the victim and her vehicle. After obtaining
shovels from Wilds’s residence, they drove to Leakin
Park, where they dug a shallow grave to bury the

264a
victim’s body. Wilds testified that Petitioner received
two incoming calls while burying the victim’s body in
Leakin Park, both at approximately 7:00 p.m. After
burying the victim’s body, Petitioner and Wilds
abandoned the victim’s vehicle behind some
apartment buildings and then drove east on Route 40
in Petitioner’s vehicle. Petitioner and Wilds traveled
to a dumpster behind Westview Mall, where they
disposed of the victim’s belongings and the shovels
that they had used to dig the grave.
At trial, the State presented Petitioner’s cell phone
records and the expert testimony of Abraham
Waranowitz
(hereinafter
“Waranowitz”)
as
circumstantial evidence to corroborate Wilds’s
testimony. Petitioner’s cell phone records indicated
that the cell phone made an outgoing call to the
Wilds residence on January 13, 1999 at 10:45 a.m.,
which Wilds testified was the call to offer him a ride
to the mall. According to the cell phone records, the
cell phone also received an incoming call at 2:36
p.m., which the State argued was the call that
Petitioner made to request a ride from Wilds after
strangling the victim in the Best Buy parking lot.
The State relied on Petitioner’s cell phone records
to place Petitioner with his phone after the murder
took place. The cell phone records reflected an
outgoing call made to the residence of Nisha Tanna
(hereinafter “Tanna”) at approximately 3:32 p.m.
Petitioner called Tanna after leaving the Interstate
70 Park & Ride and placed Wilds on the phone, so
Tanna could speak to Wilds. 3 Waranowitz then
3

At trial, Tanna testified that while she may have spoken to
Petitioner and Wilds during the 3:32 p.m. phone call, she also
testified on cross-examination that she could have spoken to

265a
identified a 5:14 p.m. call made to Petitioner’s
voicemail, suggesting that Petitioner had his cell
phone during this time and called to check his
voicemail.4
Relying on Waranowitz’s expert testimony and
Petitioner’s cell phone records, the State provided
circumstantial evidence as to the possible location of
Petitioner’s cell phone during the evening of January
13, 1999. As noted, supra, Wilds testified that
Petitioner received incoming calls from the victim’s
family and a police officer shortly before leaving
Vincent’s residence to dispose of the victim’s body.
The cell phone records indicated that Petitioner’s cell
phone received an incoming call at 6:07 p.m. that
connected with cell site “L655A.” The cell phone
records also reflected two other incoming calls at
6:09 p.m. and 6:24 p.m., both of which connected
with cell site “L608C.” Waranowitz testified that the
functioning of the AT&T network, as reflected by the
cell phone records, would be consistent with
testimony that an AT&T wireless subscriber received
two or three incoming calls at the 2700 block of
Gateway Terrace – the location of Vincent’s
residence. Waranowitz’s testimony essentially
confirmed that if the cell phone records showed an
incoming call that connected with either cell sites
Petitioner and Wilds on any other day between meeting
Petitioner at a New Year’s Eve Party on December 31, 1998 and
January 13, 1999.
4

Waranowitz was incorrect when he identified the 5:14 p.m.
call as a call to check Petitioner’s voicemail. The 5:14 p.m. call
actually was a “missed” or unanswered call that was forwarded
to Petitioner’s voicemail. The implications of this error will be
addressed, infra.

266a
“L655A” or “L608C,” then the cell phone could
possibly be located at Vincent’s residence when the
cell phone received the incoming calls.
The State then identified two crucial calls on
Petitioner’s cell phone records. According to Wilds’s
testimony, Petitioner received two incoming calls at
approximately 7:00 p.m. while burying the victim’s
body in Leakin Park. The cell phone records revealed
that Petitioner’s cell phone received two incoming
calls at 7:09 p.m. and 7:16 p.m. that connected with
cell site “L689B,” which Waranowitz identified as the
cell site that provided coverage to an area that
encompassed Leakin Park. Waranowitz testified that
the functioning of the AT&T wireless network, as
indicated in the cell phone records, would be
consistent with testimony that an AT&T wireless
subscriber received two incoming calls in Leakin
Park. In other words, if the cell phone records
showed two incoming calls that connected with cell
site “L689B,” then the cell phone could possibly be
located in Leakin Park when the cell phone received
the two incoming calls.
Trial counsel engaged in a three prong strategy at
trial: (1) to prove that Petitioner and the victim
ended their relationship amicably due to outside
pressures and remained friends after the breakup,
thereby challenging the State’s suggested motive; (2)
to show that the police hastily focused their
investigation on Petitioner and thus, failed to pursue
evidence that would have proven Petitioner’s
innocence; and (3) to undermine Wilds’s version of
the events by establishing Petitioner’s habit of
attending track practice after school and then

267a
reciting taraweeh prayers at the mosque during the
month of Ramadan.5
At the conclusion of trial, Petitioner was convicted
of first-degree murder, kidnapping, robbery, and
false imprisonment. On June 6, 2000, Petitioner
appeared before Judge Wanda K. Heard for
sentencing, and the Court sentenced Petitioner to life
in prison for first-degree murder, thirty (30) years for
kidnapping to run consecutive with the life sentence
for first degree murder, and ten (10) years for
robbery to run concurrent with the thirty (30) years
sentence for kidnapping. Petitioner, through his
attorney at sentencing, Charles H. Dorsey. Jr., Esq.,
filed a Motion for Modification of Sentence on July
28, 2000. Judge Wanda K. Heard denied Petitioner’s
motion on August 2, 2000.
Petitioner filed a timely appeal to the Maryland
Court of Special Appeals. Warren A. Brown, Esq.,
and Nancy S. Forster, Esq., represented Petitioner.
On appeal, Petitioner raised the following issues: (1)
whether the State committed prosecutorial
misconduct, violated Brady, and violated Petitioner’s
Due Process rights when the State, (a) suppressed
favorable and material evidence of an oral side
agreement with the State’s key witness, and (b)
5

Taraweeh prayers are evening prayers conducted during
Ramadan, the ninth month of the Islamic calendar. During
Ramadan, Muslims engage in a month long period of fasting
during the day and praying at night to honor the revelation of
the Quran to the Prophet Muhammad. Taraweeh prayers are
conducted by reciting from the Quran. See generally Ramadan,
The
British
Broadcasting
Corporation,
http://www.bbc.co.uk/religion
/religions/islam
/practices/ramadan_1.shtml (last updated Jul. 5, 2011).

268a
when the State introduced false and misleading
evidence; (2) whether the trial court committed
reversible error in prohibiting Petitioner from
presenting evidence to the jury; (3) whether the trial
court erred in admitting hearsay in the faun of a
letter written by the victim to Petitioner, which was
highly prejudicial; and (4) whether the trial court
erred in permitting the introduction of the victim’s
diary. The Maryland Court of Special Appeals denied
Petitioner’s appeal on March 19, 2003. On June 25,
2003, the Maryland Court of Appeals denied the
petition for certiorari.
Petitioner filed a Petition for Post-Conviction
Relief, which was received on May 28, 2010,6 alleging
ineffective assistance of trial counsel, ineffective
assistance of counsel at sentencing, Charles H.
Dorsey, Jr., Esq., and ineffective assistance of
appellate counsel, Warren A. Brown, Esq. On June
27, 2011, Petitioner filed a Supplement to the
Petition for Post-Conviction Relief. After multiple
postponements, 7 the Court held the first post6
The Certificate of Service attached to the Petition for PostConviction Relief has the date of service as June 28, 2010,
which would be more than ten (10) years after the date of
sentencing (June 6, 2000). Under Crim. Proc. § 7-103, a petition
for post-conviction relief must be filed within ten (10) years of
the date of sentencing. The Court can reasonably conclude,
however, that the date listed on the Certificate of Service is
incorrect because the petition was received on May 28, 2010.
7

The post-conviction hearing was scheduled and postponed
seven times before the hearing took place. The previously
scheduled dates were: December 20, 2010, August 8, 2011,
October 20, 2011, February 6, 2012, March 6, 2012, July 26,
2012, and August 9, 2012. Petitioner requested a majority of
these postponements in his attempt to produce McClain, an outof-state witness, for the October 2012 post-conviction hearing.

269a
conviction hearing on October 11, 2012, and October
25, 2012. At the hearing, C. Justin Brown, Esq.,
represented Petitioner and Kathleen C. Murphy,
Esq., represented the State.8 On January 6, 2014, the
Court issued a Memorandum Opinion denying the
Petition for Post-Conviction Relief.
Pursuant to the Remand Order and Crim. Proc.
§ 7-104, Petitioner filed a Motion to Re-Open PostConviction Proceedings on June 30, 2015. On August
24, 2015, Petitioner filed a Supplement to the Motion
to Re-Open Post-Conviction Proceedings. The Court
granted Petitioner’s Motion to Re-Open PostConviction Proceedings on November 6, 2015, for the
limited consideration of: 1) trial counsel’s alleged
failure to contact McClain as a potential alibi
witness; and 2) the reliability of the cell tower
location evidence. The Court held the second postconviction hearing from February 3, 2016, to
February 9, 2016. At the February 2016 hearing, C.
Justin Brown, Esq., and Christopher C. Nieto, Esq.,
represented Petitioner, and Deputy Attorney
General, Thiruvendran Vignarajah, Esq., Deputy
Counsel for Civil Rights, Tiffany Harvey, Esq.,
Assistant Attorney General, Charlton T. Howard,
Esq., and Staff Attorney, Matthew Krimski, Esq.,
8

On September 29, 2011, Petitioner moved to disqualify
Assistant State’s Attorney Kathleen C. Murphy, Esq., as
counsel for the State. The motion alleged that Ms. Murphy
must be disqualified pursuant to Rule 3.7 of the Maryland
Rules of Professional Conduct, which forbids an attorney from
acting as counsel and witness in the same proceeding.
Petitioner argued that he intended to call Ms. Murphy as a
witness during the post-conviction hearing. Following a hearing
on February 6, 2012, the Court denied Petitioner’s Motion to
Disqualify Counsel on February 13, 2012.

270a
represented the State. All other pertinent facts will
be discussed in the Court’s analysis of Petitioner’s
allegations.
DISCUSSION
I. Ineffective Assistance of Counsel – The Alibi
Petitioner alleges that trial counsel rendered
ineffective assistance when she failed to contact
McClain and investigate her as a potential alibi
witness. The Court engages in a two-prong inquiry to
evaluate whether counsel’s representation deprived
the accused of his or her Sixth Amendment right to
effective assistance of counsel. Strickland v.
Washington, 466 U.S. 668 (1984). First, a petitioner
must “identify the acts or omissions that are alleged
not to have been the result of reasonable professional
judgment.” Id. at 690. Second, counsel’s deficient
performance “must be prejudicial to the defense” to
warrant relief. Id. at 691.
Petitioner argues that trial counsel provided
deficient performance because her failure to contact
and investigate McClain as a potential alibi witness
fell below the standard of reasonable professional
judgment. The standard of reviewing counsel’s
performance for deficiency is an objective one made
in light of prevailing professional norms. Redman v.
State, 363 Md. 298, 310 (2001). Judicial scrutiny of
counsel’s performance is highly deferential and it is
presumed that counsel has rendered effective
assistance. State v. Thomas, 325 Md. 160, 171 (1992).
The Court must also resist the temptation of
hindsight and instead must evaluate counsel’s
performance from his or her perspective at the time

271a
of the alleged act or omission. Strickland, 466 U.S. at
689-90.
According to eyewitness testimony, the victim was
last seen leaving school to pick up her cousins at
approximately 2:15 p.m. on January 13, 1999. The
victim’s cousins, however, notified her family at
approximately 3:00 p.m. that the victim did not show
up to give them a ride. Wilds testified that Petitioner
called him to request a ride from the Best Buy
parking lot sometime during the afternoon of
January 13, 1999. When Wilds arrived at the
parking lot, Petitioner opened the trunk of the
victim’s vehicle and revealed the victim’s body to
Wilds. The State corroborated Wilds testimony with
Petitioner’s cell phone records. In particular, the
State alleged that Petitioner made the 2:36 p.m.
incoming call to request a ride from the Best Buy
parking lot.9 Based on the testimony and evidence
9

The record reflects that Wilds’s testimony is inconsistent
with the State’s adopted timeline that Petitioner called Wilds at
2:36 p.m. According to Wilds, he did not receive the call from
Petitioner until he had left Pusateri’s residence at 3:45 p.m. At
the February 2016 post-conviction hearing, the State suggested
a new timeline that would have allowed Petitioner to commit
the murder after 2:45 p.m. and then call Wilds at 3:15 p.m.
instead of 2:36 p.m., which would negate the relevance of the
potential alibi. The trial record is clear, however, that the State
committed to the 2:15 p.m. – 2:45 p.m. window as the
timeframe of the murder and the 2:36 p.m. call as the call from
the Best Buy parking lot. During opening arguments, for
instance, the State asserted that at “[a]bout 2:35, 2:36, Jay
Wilds received a call on the cell phone from [Petitioner] saying,
‘Hey, come meet me at the Best Buy.’” Trial Tr., at 106, Jan. 27,
2000.
The State also elicited testimony during the trial that is
incongruent with the State’s newly adopted timeline. Wilds

272a
presented at trial, the State established that the
victim died twenty to twenty-five minutes after
school had ended, sometime between 2:35 p.m. and
2:40 p.m. on January 13, 1999.
Prior to trial, Petitioner gave trial counsel two
letters from McClain. The letters indicated that she
saw Petitioner at a different location during the 2:35
p.m. to 2:40 p.m. window when the victim was
allegedly murdered. In the first letter, dated March
1, 1999, McClain wrote that she remembered talking
to Petitioner at the Woodlawn Public Library during
testified on direct examination that he called Pusateri at 3:21
p.m. to go buy some marijuana after abandoning the victim’s
body and her vehicle at the Interstate 70 Park & Ride.
Accordingly, the State’s new timeline would create a six-minute
window between the 3:15 p.m. call from Petitioner and the 3:21
p.m. call to Pusateri. Within this six-minute window, Wilds had
to complete a seven-minute drive to the Best Buy on Security
Boulevard from Craigmount Street, where he claimed he was
located when he received Petitioner’s call. Wilds then had to
make a stop at the Best Buy parking lot, where Petitioner
showed him the body in the victim’s vehicle. Then, both parties
had to take another seven-minute drive to the Interstate 70
Park & Ride to abandon the victim’s body and her vehicle. It
would be highly unlikely that Wilds could have completed this
sequence of events within a six-minute window under the
State’s new timeline.
The State contended during closing arguments that “[the
victim] was dead 20 to 25 minutes from when she left school” at
2:15 p.m. Trial Tr., at 54, Feb. 25, 2000. The State also urged
the jury to consider the 2:36 p.m. incoming call on Petitioner’s
cell phone records, and asserted once again that “[alt 2:36 p.m.
[Petitioner] call[ed] Jay Wilds, come get me at Best Buy.” Id. at
66. Based on the facts and arguments reflected in the record,
the Court finds that the State committed to the 2:36 p.m.
timeline and thus, the Court will not accept the newly
established timeline.

273a
the afternoon of January 13, 1999, and offered to
account for some of his “unaccounted lost time (2:15
– 8:00; Jan. 13).” Petitioner’s Exhibit PC2-4. McClain
also typed a second letter, dated March 2, 1999,
affirming that she remembered talking to Petitioner
at the library during the afternoon of January 13,
1999. Petitioner’s Exhibit PC2-5.
The notes found in trial counsel’s file further
indicate that Petitioner informed trial counsel that
McClain was a potential alibi witness. According to
notes dated July 13, 1999, Petitioner informed trial
counsel’s law clerk that McClain saw Petitioner at
the Woodlawn Public Library at around 3:00 p.m. on
January 13, 1999. Petitioner’s Exhibit PC2-2. Trial
counsel also noted that “[McClain] and her boyfriend
saw [Petitioner] in library” from around 2:15 p.m. to
2:45 p.m. Petitioner’s Exhibit PC2-13.
Although trial counsel had notice of the potential
alibi witness, neither she nor her staff ever contacted
McClain. After the conclusion of the trial, McClain
signed an affidavit on March 25, 2000, stating that
she spoke with Petitioner at the library sometime
between 2:20 p.m. and 2:40 p.m. on January 13,
1999, and that no attorney had ever contacted her.10
10

At the October 2012 post-conviction hearing, Kevin Urick,
Esq., testified that McClain signed the March 25, 2000 affidavit
due to pressure from Petitioner’s family based on his
impression from a telephone conversation with McClain.
McClain refuted that assertion in her January 13, 2015
affidavit and during her testimony at the February 2016 postconviction hearing. Furthermore, Petitioner alleges that Mr.
Urick misrepresented McClain’s position at the October 2012
post-conviction hearing and committed misconduct by
dissuading McClain from testifying. It is unnecessary for the
Court to make findings as to the merits of Petitioner’s

274a
Petitioner’s Exhibit PC2-6. Almost fifteen years
later, McClain signed a second affidavit, dated
January 13, 2015, affirming that she saw Petitioner
at the library around 2:30 p.m. and that no one from
Petitioner’s defense team had ever contacted her.
Petitioner’s Exhibit PC2-7.
Petitioner contends that trial counsel rendered
deficient performance when she failed to contact and
investigate McClain as a potential alibi witness. The
Supreme Court of the United States has defined the
standard for reviewing the strategic judgments made
to support the adequacy of an investigation:
“[S]trategic choices made after thorough
investigation of law and facts relevant to
plausible
options
are
virtually
unchallengeable; and strategic choices made
after less than complete investigation are
reasonable precisely to the extent that
reasonable professional judgments support the
limitations on investigation. In other words,
counsel has a duty to make reasonable
investigations or to make a reasonable
decision that makes particular investigations
unnecessary. In any ineffectiveness case, a
particular decision not to investigate must be
directly assessed for reasonableness in all the
circumstances, applying a heavy measure of
deference to counsel’s judgments.”
Wiggins v. Smith, 539 U.S. 510, 521-22 (2003) (citing
Strickland, 466 U.S. at 690-91). The Court
allegation regarding potential misconduct because McClain was
afforded the opportunity to appear and testify at the February
2016 post-conviction hearing as to the facts of the alibi.

275a
previously held that trial counsel made a strategic
decision not to investigate McClain’s potential alibi
and thus, trial counsel did not render deficient
performance. See January 6, 2014 Memorandum
Opinion at 10-12. In light of the expanded record and
the legal arguments presented at the February 2016
post-conviction hearing, however, the Court here
finds that trial counsel’s failure to investigate
McClain as a potential alibi witness fell below the
standard of reasonable professional judgment.
The Court’s analysis of counsel’s duty to investigate
a potential alibi witness begins with In re Parris W.,
363 Md. 717 (2000). In Parris, the juvenile court
found the juvenile to be delinquent of assault and
trespass that, according to the victim, occurred
during the afternoon of April 27, 1999. Id. at 720.
The juvenile notified counsel that his father could
provide a potential alibi; the father would have
testified that he took his son to work the entire day
and then brought him over to a friend’s apartment
during the afternoon that the assault occurred. Id. at
722-23. Counsel subpoenaed a number of witnesses
who could have corroborated the alibi, but counsel
inadvertently issued the subpoenas for the wrong
date without checking the computer for the correct
date. Id. at 721-722. The Maryland Court of Appeals
held that counsel rendered deficient performance
when she failed to issue subpoenas with the correct
date for uninterested witnesses that could have
corroborated the alibi defense, which ultimately
prejudiced the juvenile’s defense. Id. at 727-30.
Although the issue in the present matter does not
involve counsel’s failure to subpoena alibi witnesses
for the correct date, the Maryland Court of Appeals

276a
in Parris cited favorably a number of cases, which
ruled that counsel’s failure to investigate a potential
alibi witness is inconsistent with the exercise of
reasonable professional judgment. Id. at 730-36; see
Griffin v. Warden, Md. Corr. Adjustment Center, 970
F.2d 1355, 1358-59 (4th Cir. 1992) (finding that
counsel’s performance was clearly deficient when
counsel failed, due to unpardonable neglect, to
contact, interview, and present the testimony of a
potential alibi witness); see also Montgomery v.
Petersen, 846 F.2d 407, 413-14 (7th Cir. 1988) (ruling
that counsel rendered deficient performance when
counsel failed to investigate the potential alibi
witness); Grooms v. Solem, 923 F.2d 88, 90 (8th Cir.
1991) (holding that counsel’s performance fell below
the standard of reasonable professional judgment
when counsel failed to investigate an alibi witness
and request a continuance for further investigation).
The Court finds these cases to be instructive in the
present matter.
In Grooms, a jury convicted the defendant of selling
stolen Native American artifacts; the sale took place
between 5:00 and 5:30 p.m. on May 15, 1984. 923
F.2d at 89. On the day of the trial, the defendant
informed counsel that he spent May 15, 1984,
waiting for mechanics to replace the transmission on
his pickup truck, and the mechanics did not complete
the repairs until late in the evening, well after the
events of the crime. Id. The defendant provided
counsel with a cancelled check dated May 15, 1984,
made payable for the truck repairs and a work order
dated May 14, 1984, made out to the defendant. Id.
at 89-90. Trial counsel did not contact the mechanics
to investigate the potential alibi because he assumed

277a
that the court would have precluded the evidence of
an alibi due to lack of an alibi notice. Id. at 90.
The United States Court of Appeals for the Eighth
Circuit noted that “[o]nce a defendant identifies a
potential alibi witness, it is unreasonable not to
make some effort to contact [the witness] to ascertain
whether their testimony would aid the defense.” Id.
The Court ultimately held that counsel’s “failure to
check the bona fides of the documents [the
defendant] presented by contacting [the mechanics]
or to advise the court of his predicament and request
a continuance was unreasonable under the
circumstances of this case.” Id.
The present matter before the Court shares similar
circumstances to those found in Grooms. Similar to
Grooms, Petitioner informed counsel of a potential
alibi defense that could have placed him in the
Woodlawn Public Library from about 2:15 p.m. to
2:45 pm on January 13, 1999. Petitioner also
produced two letters from McClain, who had written
that she remembered talking to Petitioner at the
library after school ended on January 13, 1999. Trial
counsel, however, failed to make any effort to contact
McClain and investigate the bona fides of the March
1, 1999 and March 2, 1999 letters, or ascertain
whether McClain’s testimony would aid Petitioner’s
defense. In Grooms, the Court held that trial counsel
should have attempted to investigate the alibi
despite learning about the potential alibi on the day
of the trial. Id. at 91. Trial counsel in the present
case learned about the potential alibi witness on July
13, 1999, nearly five months prior to trial, and thus,
she had ample time and opportunity to investigate
the potential alibi. Under these circumstances, the

278a
Court is persuaded that trial counsel’s failure to
contact and investigate McClain as a potential alibi
witness fell below the standard of reasonable
professional judgment.
The State insists, however, that trial counsel made
a strategic decision not to investigate McClain
because the potential alibi was in fact a scheme
manufactured by Petitioner to secure a false alibi.
The State posits this theory on two grounds. First,
the State directs the Court’s attention to the level of
detail contained in McClain’s March 2, 1999 letter,
written just two days after Petitioner’s arrest; the
State argues that the level of detail in the letter
would have caused a reasonable attorney to doubt
the bona fides of the potential alibi. For instance, the
State questions how McClain, a seventeen-year-old
high school student at the time, could have obtained
Petitioner’s booking number (#992005477), which is
found in the heading of McClain’s March 2, 1999
letter. The State also calls into doubt how McClain
could have known so much about the details of the
murder, such as how the police took three weeks to
find the victim’s car, how Petitioner could have
followed the victim in his car and killed her, the
exact location of the victim’s “shallow grave” in
Leakin Park, the cause of the victim’s death, and the
“fibers” on her body. Based on the alleged in-depth
knowledge found in the letter, the State concludes
that a reasonable attorney would have wondered
whether a third party, namely Petitioner, or someone
acting on his behalf, supplied McClain with the
information.
Second, the State argues that the notes detailing a
detective’s
interview
with
Ju’uan
Gordon

279a
(hereinafter “Gordon”) could have led a reasonable
attorney to conclude that McClain’s letters were a
ruse to secure a false alibi for Petitioner. The
detective who investigated the case interviewed
Gordon, a friend of Petitioner, on April 20, 1999.
State’s Exhibit 1B-0133. According to the notes,
Gordon stated the following:
[Petitioner] wrote a letter to a girl to
type up with his address on it
But she got it wrong
101 East Eager Street
Asia? 12th grade
[Gordon] got one, Justin Ager got one
Id. The State asserts that the notes of Gordon’s
interview strongly suggests that Petitioner wrote the
March 2, 1999 letter for McClain to “type up” as part
of a scheme to secure a false alibi. Therefore, the
State concludes that trial counsel made a strategic
decision not to investigate a false alibi.
Although the State presents quite a compelling
theory, the Court must adhere to the legal standard
governing claims of ineffective assistance of counsel
by evaluating trial counsel’s performance without
engaging in the “exercise of retrospective sophistry.”
Griffin, 970 F.2d at 1358. In Griffin, trial counsel
failed to contact and investigate a list of alibi
witnesses that could have accounted for the
defendant’s whereabouts during a robbery. Id. at
1356. Trial counsel explained that he did not contact
any witnesses because he expected the defendant to
take a plea. Id. Despite counsel’s admission, the
state court found that counsel made a cogent tactical
decision not to investigate a potential alibi witness
because a security guard identified the witness as

280a
one of the robbers and thus, if the alibi witness were
an accomplice to the robbery, calling the witness
would have hurt the defendant’s case. The United
States Court of Appeals for the Fourth Circuit
rejected the state court’s reasoning as “thoroughly
disingenuous” because counsel never spoke to the
potential alibi witness or made a strategic decision
not to call the witness. Id. at 1358. In finding that
counsel rendered deficient performance, the Court
explained that “[t]olerance of tactical miscalculation
is one thing; fabrication of tactical excuse is quite
another.” Id. at 1359 (citing Kimmelman v. Morrison,
477 U.S. 365, 386-87 (1986) (cautioning against the
use of hindsight to supply a reason for counsel’s
decision)).
In the case at hand, adopting the State’s theory
that Petitioner fabricated the alibi based on
McClain’s March 2, 1999 letter and the detective’s
interview notes of Gordon would require the Court to
retroactively supply reasoning that is contrary to the
facts and the law. The State argues that the in-depth
knowledge of the case in McClain’s March 2, 1999
letter is proof that either Petitioner or his agent
provided the information to McClain. In order to
reach the State’s conclusion, however, the Court
would have to assume that it was highly unlikely
that McClain could have obtained the information
from other sources, which is an assumption that is
contrary to the facts. The details of the victim’s
death, including when the victim was last seen, the
location of her car, and the location of the “shallow
grave” in Leakin Park have been publicly available
since February 12, 1999, approximately two weeks
before McClain wrote her letter. Petitioner’s Exhibit

281a
PC2-42. The details of Petitioner’s location after his
arrest and the cause of the victim’s death were also
public knowledge prior to when McClain wrote her
letter. Petitioner’s Exhibit PC2-43.
The State’s theory would also invite the Court to
entertain speculations about strategic decisions that
counsel made in determining to forgo investigating
the potential alibi witness. The State argues that it
is highly questionable that a seventeen-year-old high
school student could have obtained Petitioner’s
booking number just two days after his arrest,
suggesting that Petitioner or his agent provided
McClain with the booking number and other
information found in the March 2, 1999 letter. While
the State’s speculation is plausible, the State is
essentially asking the Court to favor one conjecture
and ignore other equally plausible speculations.
Perhaps out of a desire to write to Petitioner,
McClain asked her friends and teachers about how
she could contact Petitioner while he was
incarcerated. Another possibility is that McClain
could have asked Petitioner’s family about how she
could write to Petitioner when she visited his house
on the night of March 1, 1999. See Petitioner’s
Exhibit PC2-4.
Similarly, the State’s reliance on the detective’s
interview notes of Gordon would require the Court to
review counsel’s performance with the distortions of
hindsight and unwarranted speculations. According
to the interview notes, Petitioner wrote a letter to a
girl named Asia to “type up,” but she wrote the
wrong address – “101 E. Eager Street.” Based on the
sentence fragments of an extensive interview, the
State concludes that Petitioner wrote the March 2,

282a
1999 letter for McClain to “type up,” revealing
Petitioner’s scheme to secure a false alibi. In order to
adopt the State’s theory, the Court would have to
assume that the “Asia” referenced by Gordon is
McClain as opposed to another individual who shares
the same name. The notes are unclear as to the
identity of this “letter”; Gordon could be referencing
the March 2, 1999 letter or another letter altogether.
With respect to the “wrong address,” the Court is left
to speculate whether “101 East Eager Street” is the
correct or wrong address given the lack of context in
the notes.
The State’s theory regarding the March 2, 1999
letter and the detective’s interview notes of Gordon
would require the Court to engage in the kind of
hindsight sophistry that Kimmelman and Griffin
cautioned against when evaluating counsel’s
performance. As adopting the State’s theory would
require the Court to retroactively supply key
assumptions and speculations, the Court rejects the
State’s invitation to indulge in such hindsight
sophistry, given that it is contrary to the legal
framework set forth under Strickland.
The Court also rejects the notion that trial counsel
could have relied upon the interview notes with
Gordon to make a strategic decision not to
investigate the potential alibi witness. Lawrence v.
Armontrout, 900 F.2d 127 (8th Cir. 1990), is
illuminating on this point. There, the defendant was
found guilty of committing a murder that occurred at
a time when the defendant’s girlfriend and several
other witnesses could have accounted for the
defendant’s location. Id. at 128-29. Trial counsel
elected not to investigate the potential alibi

283a
witnesses partly because the defendant’s girlfriend
had informed trial counsel that she could not locate
one of the witnesses and the other witness refused to
testify. Id. at 129. The United States Court of
Appeals for the Eighth Circuit ruled that counsel’s
decision not to investigate the potential alibi
witnesses fell below the standard of reasonable
professional judgment. Id. at 129-30. The Court
explained that counsel owed a greater duty than
merely accepting the hearsay statements of others
without independent verification when the life of an
individual is at stake. Id. Here, the State asserts
that trial counsel’s reliance on the hearsay
statements in Gordon’s interview, without any
independent verification, was perfectly acceptable,
even though the life and liberty interests of a
seventeen-year-old were at stake. The Court must
disagree. Although the constitutional standard of
evaluating
counsel’s
performance
is
highly
deferential, the Sixth Amendment guarantee of
effective assistance of counsel carries significantly
more weight than a rubber stamp.
The State also argues that trial counsel made a
strategic decision against investigating McClain
because the potential alibi would have been
inconsistent with Petitioner’s own stated alibi that
he remained on the high school campus from 2:15
p.m. to 3:30 p.m. At the February 2016 postconviction hearing, however, Petitioner presented
evidence showing the close proximity between the
school campus of Woodlawn High School and
Woodlawn Public Library. Petitioner’s Exhibit PC239. As such, the potential alibi and Petitioner’s own
stated alibi placed Petitioner in the general vicinity

284a
of the school campus, albeit with a minor
inconsistency. The Court finds that this minor
inconsistency does not justify counsel’s failure to
investigate the potential alibi witness.
The State suggests that trial counsel did not need
to personally contact McClain in order to ascertain
whether the potential alibi could have aided
Petitioner’s defense. At the October 2012 postconviction hearing, Petitioner testified that he was
“fairly certain” that he went to use the computers at
the Woodlawn Public Library to check his email
account. According to the law clerk notes found in
trial counsel’s file, trial counsel obtained the login
information for Petitioner’s email account. Therefore,
the State concludes that “by simply entering in the
login information and password scribbled on the law
clerk’s notes, [trial counsel] could have swiftly
evaluated the potential alibi by determining whether
[Petitioner’s] email account had activity during the
relevant timeframe.” State’s Consolidated Response,
September 23, 2015, at 27, n.3.
The Court finds that the State’s argument is
misplaced. When users log in to their email accounts,
they can conduct an array of activities, such as
reading
recently
received
emails,
drafting
correspondences, and deleting old messages. Account
holders may log in, check to see if any new messages
had been received, and then log out of the account
without ever conducting any traceable activity, such
as drafting and sending emails. Under this scenario,
the lack of traceable activity found on the email
account does not necessarily mean that the user did
not check the account during a specific timeframe. As
such, trial counsel could not have evaluated the

285a
potential alibi simply by signing in to Petitioner’s
email account.
The State also theorizes that because trial counsel
generated a list of eighty alibi witnesses, the Court
can reasonably conclude that trial counsel conducted
“some inspection” of the potential alibi. 11 The
pertinent question is not whether trial counsel
conducted “some inspection,” but whether trial
counsel conducted the type of reasonable
investigation that is required under the prevailing
standard of reasonable professional judgment.
Strickland, 466 U.S. at 690-91. As the Court has
explained, reasonable professional judgment under
the facts of the present case required trial counsel to
contact the potential alibi witness and investigate
whether her testimony would aid Petitioner’s
defense. The facts in the present matter are clear;
trial counsel made no effort to contact McClain in
order to investigate the alibi and thus, trial counsel’s
omission fell below the standard of reasonable
professional judgment.
11
According to the State, trial counsel made a strategic
decision not to investigate the alibi based on information she
obtained from investigating the witnesses listed on the alibi
notice. The Court is perplexed by the State’s position.
Apparently, trial counsel obtained information about the merits
of the alibi by interviewing witnesses who had no relation to
McClain’s potential alibi, Although the alibi notice specified
that these witnesses could “testify to as to [Petitioner’s] regular
attendance at school, track practice, and the mosque[,]” the
alibi notice does not specify which witness, if any, could have
accounted for Petitioner’s regular routine in between school and
track practice. Petitioner’s Exhibit PC2-11. The Court is once
again left to speculate what information trial counsel might
have learned from these witnesses that would have deterred
trial counsel from contacting McClain.

286a
In holding that trial counsel rendered deficient
performance by failing to contact McClain to
investigate the alibi, the Court is not imposing an
undue burden upon trial counsel. The Court is
cognizant of the limited time and resources that
defense attorneys may have in preparing for trial. In
the present case, however, trial counsel had nearly
five months before trial to contact McClain after
learning about the potential alibi as early as July 13,
1999. Trial counsel did not have to spend extensive
resources to contact the potential alibi witness
because McClain’s March 1, 1999 letter provided the
phone numbers through which she could have been
contacted. Petitioner’s Exhibit PC2-4. Trial counsel
could have simply picked up the telephone, made a
local telephone call, and ascertained whether
McClain’s testimony would aid Petitioner’s defense.
If trial counsel had reservations about the bona fides
of the letters as the State suggests, trial counsel
could have spoken to McClain about these concerns
instead of rejecting the potential alibi outright. See
Montgomery, 846 F.2d at 412 (7th Cir. 1988) (ruling
that counsel’s failure to investigate potential alibi
witness because counsel “simply didn’t believe” the
defendant fell below the standard of reasonable
professional judgment); see also United States v.
Debango, 780 F.2d 81, 85 (D.C. Cir. 1986)
(concluding that the failure to investigate a
potentially corroborating witnesses “can hardly be
considered a tactical decision”).12
12

Petitioner’s assertions regarding trial counsel’s matters
before the Maryland Attorney Grievance Commission and
health status have no bearing on the Court’s findings.
Petitioner also presented the expert testimony of David B.

287a
In order to prevail on an ineffective assistance of
counsel claim, however, Petitioner must prove that
trial counsel’s failure to investigate McClain as a
potential alibi witness prejudiced his defense. Under
the prejudice prong, a petitioner must show “a
reasonable probability” that, but for counsel’s
deficient performance, the result of the proceeding
would have been different. Strickland 466 U.S. at
694. “A reasonable probability is a probability
sufficient to undermine confidence in the outcome.”
Id. In Oken v. State, 343 Md. 256, 284 (1996), the
Maryland Court of Appeals explained that a
petitioner must establish a “substantial possibility”
that the result of the proceeding would have been
different, but for counsel’s unprofessional errors. The
Court’s analysis “should not focus solely on an
outcome determination, but whether the result of the
proceeding was fundamentally unfair or unreliable.”
Id. (internal citations and quotations omitted).
At the February 2016 post-conviction hearing,
McClain affirmed her statements in her letters to the
Petitioner and the affidavits; she testified that she
saw Petitioner at the Woodlawn Public Library on
January 13, 1999 at about 2:15 p.m. and spoke to
him for about twenty minutes before leaving with
her boyfriend. Petitioner argues that had counsel
contacted McClain to investigate her as a potential
alibi witness, her testimony could have placed
Petitioner at the library during the time of the
murder. Therefore, Petitioner concludes there is a
Irwin, Esq., who testified as to the prevailing professional
norms of the duty to contact a potential alibi witness. The Court
took Mr. Irwin’s testimony into consideration with the
limitations specified during the hearing in reaching its findings.

288a
substantial possibility that, but for counsel’s
deficient performance, the result of the trial would
have been different.
The Court finds that trial counsel’s failure to
investigate McClain’s alibi did not prejudice the
defense because the crux of the State’s case did not
rest on the time of the murder. In fact, the State
presented a relatively weak theory as to the time of
the murder because the State relied upon
inconsistent facts to support its theory. At trial, the
State sought to implicate Petitioner in the murder by
advancing the theory that Petitioner had strangled
the victim to death by the time he called Wilds at
2:36 p.m. to request a ride from the Best Buy
parking lot. To prove this theory, the State relied
upon: 1) Wilds’s testimony that Petitioner called him
to request a ride from the Best Buy parking lot,
where he saw the victim’s body in the trunk of her
car; and 2) Petitioner’s cell phone records, which
showed that his cell phone received an incoming call
at 2:36 p.m. Upon reviewing the record, however,
Wilds’s testimony diverged from the cell phone
records that the State used to identify the call at
issue:
[STATE]: And did there come a time when you
left [Pusateri’s residence]?
[WILDS]: Yes.
[STATE]: And where did you go when you left?
[WILDS]: Well, in [Petitioner’s] last phone
call, he was like I need you to come get me
at like 3:45 or something like that he told
me, and I was like all right, cool. I waited

289a
until then and there was no phone call, so I
was going to my friend Jeff’s house.
[STATE]: And on your way there, what if
anything happened?
[WILDS]: Jeff wasn’t home. As I was leaving
his street, I received a phone call. It was
Adnan. He asked me to come and get him at
Best Buy.
Trial Tr., at 130, Feb. 4, 2000 (emphasis added).
Had trial counsel investigated the potential alibi
witness, she could have undermined a theory
premised upon inconsistent facts. The potential alibi
witness, however, would not have undermined the
crux of the State’s case: that Petitioner buried the
victim’s body in Leakin Park at approximately 7:00
p.m. on January 13, 1999. The Leakin Park burial
marked the convergence point between Wilds’s
testimony and Petitioner’s cell phone records.
According to Wilds, Petitioner received two incoming
calls while burying the victim’s body in Leakin Park
at about 7:00 p.m. The State corroborated Wilds
testimony with Petitioner’s cell phone records, which
showed that his cell phone received two incoming
calls at 7:09 p.m. and 7:16 p.m. The cell phone
records also reflected that the two incoming calls
connected with cell site “L689B,” which the State’s
cell tower expert identified as the cell site that
provided coverage to an area that encompassed
Leakin Park.
Together, Wilds’s testimony and Petitioner’s cell
phone records created the nexus between Petitioner
and the murder. Even if trial counsel had contacted
McClain to investigate the potential alibi, McClain’s

290a
testimony would not have been able to sever this
crucial link. Therefore, the Court finds that
Petitioner failed to establish a substantial possibility
that, but for trial counsel’s deficient performance, the
result of the trial would have been different.
Accordingly, the Court shall deny post-conviction
relief with respect to Petitioner’s claim that trial
counsel rendered ineffective assistance by failing to
investigate McClain as a potential alibi witness.
II. Brady – Reliability of Cell Tower Location
Evidence
Petitioner alleges that the State failed to disclose
potentially exculpatory evidence related to the
reliability of cell tower location evidence and thus,
the State violated its obligation under Brady v.
Maryland, 373 U.S. 83 (1963), as well as Petitioner’s
right to a fair trial. The State responds that
Petitioner waived his right to challenge the
reliability of cell tower location evidence because he
failed to raise the issue in a prior proceeding. The
Maryland Uniform Post-Conviction Procedure Act
provides that an allegation of error is waived when a
petitioner could have made, but intelligently and
knowingly failed to make, the allegation before trial,
at trial, on direct appeal, in an application for leave
to appeal a conviction based on a guilty plea, in a
habeas corpus or coram nobis proceeding, in a prior
petition for post-conviction relief, or in any other
proceeding that a petitioner began. Crim. Proc. § 7106(b)(1)(i). Where a petitioner could have made an
allegation of error at a prior proceeding but failed to
do so, the petitioner bears the burden of overcoming
the “rebuttable presumption that the petitioner

291a
intelligently and knowingly failed to make the
allegation of error.” Crim. Proc. § 7-1 06(b)(2).
Maryland appellate courts have extensively
explored the issue of waiver. See State v. Gutierrez,
153 Md. App. 462, 470-75 (2003); McElroy v. State,
329 Md. 136, 145-49 (1993); State v. Thornton, 73
Md. App. 247, 259-66 (1987); Wyche v. State, 53 Md.
App. 403, 405-09 (1983); State v. Magwood, 290 Md.
615, 624-29 (1981); Curtis v. State, 284 Md. 132, 133
(1978). The plain text of the Maryland Uniform PostConviction Procedure Act provides that in order for
Petitioner to waive an issue, he must “intelligently
and knowingly” effect the waiver. Crim. Proc. § 7106(b)(1)(i). The standard of proof, however, differs
depending on whether the issue being raised relates
to a fundamental or non-fundamental right.
Fundamental rights are “basic rights of a
constitutional origin, whether federal or state, that
have been guaranteed to a criminal defendant in
order to preserve a fair trial and the reliability of the
truth-determining process.” Wyche, 53 Md. App. at
406. A fundamental right can only be waived if
Petitioner “intelligently and knowingly” effected the
waiver. Id. “A non-fundamental right will be deemed
waived by a showing that Petitioner had the
opportunity to raise the issue in a prior proceeding
but failed to do so.” Gutierrez, 153 Md. App. at 471.
Therefore, the Court must first determine whether
the alleged Brady violation relates to a fundamental
or non-fundamental right. In Brady, the Supreme
Court of the United States held that suppression of
favorable and material evidence by the State
amounts to denial of defendant’s right to due process.
373 U.S. at 87. In so holding, the Supreme Court of

292a
the United States recognized that “[s]ociety wins not
only when the guilty are convicted but when criminal
trials are fair; our system of the administration of
justice suffers when any accused is treated unfairly.”
Id. A Brady violation relates to the right to a fair
trial. The right to a fair trial is rooted in the Sixth
Amendment and the Due Process Clause of the
Fourteenth Amendment of the United States
Constitution, both of which form the foundation of
our criminal justice system.
The application of the “intelligent and knowing”
standard, however, does not necessarily apply to an
asserted right originating from a constitutional
guarantee. See Wyche, 53 Md. App. at 406. Thus far,
Maryland appellate courts have only identified a
limited number of fundamental rights that require a
showing of an “intelligent and knowing” waiver. See
Davis v. State, 285 Md. 19, 33-34 (1979) (noting that
the “knowing and intelligent” standard applies to the
Sixth Amendment right to effective assistance of
counsel, the right to a jury trial, a guilty plea, the
Fifth Amendment self-incrimination privilege, and
the double jeopardy clause). Maryland appellate
courts have not explicitly identified the underlying
basis of a Brady claim as a fundamental right.
Conyers v. State, 367 Md. 571 (2002), is instructive
in determining whether an allegation of a Brady
violation relates to a fundamental or nonfundamental right. In Conyers, the defendant alleged
that the State violated Brady when the prosecution
failed to disclose impeachment evidence of a witness
who testified that the defendant confessed to his
involvement in the crime. Id. at 583-84. In analyzing
whether the defendant waived his right to raise the

293a
Brady allegation, the Maryland Court of Appeals
used language suggesting that a Brady claim relates
to a non-fundamental right. The Maryland Court of
Appeals explained that the post-conviction statute
presupposes that “an opportunity to raise the
challenge existed at the time of the lower court
proceeding.” Id. at 595 (emphasis added). The Court
then cited to a number of cases that addressed
waiver of non-fundamental rights. Id. at 595-96; see
also Hunt v. State, 345 Md. 122, 142-46 (1997)
(concluding that the intelligent and knowing
standard does not apply to a waiver of the
petitioner’s right to voir dire of prospective jurors);
Oken v. State, 343 Md. 256, 269-272 (1996) (holding
that a waiver of the right to “reverse-Witherspoon”
questions on voir dire is not controlled by the
“intelligent and knowing” standard); Walker v. State,
343 Md. 629, 647 (1996) (noting that a failure to
object to a jury instruction does not require a
showing of an intelligent and knowing waiver). The
Court also noted that “if a right alleged to have been
violated is a non-fundamental right, waiver will be
found if it is determined that the possibility existed
for the petitioner to have raised the allegation in a
prior proceeding, but he did not do so[.]” Conyers, 367
Md. at 596 (citing Wyche, 53 Md. App. at 407)
(internal quotations omitted; emphasis in original).
Based on the Maryland Court of Appeals’ treatment
of the Brady issue in Conyers, the Court shall review
the potential waiver of Petitioner’s Brady allegation
in the context of a non-fundamental right by
determining whether Petitioner had a prior
opportunity to raise the issue, but failed to do so.

294a
Conyers is particularly instructive in evaluating
the merits of the alleged waiver of Petitioner’s Brady
claim. In Conyers, the defendant contended that the
State failed to disclose evidence that could have
impeached the witness who testified that the
defendant provided a jailhouse confession. 367 Md.
at 583-84. The State argued that the defendant
waived his Brady allegation because he failed to
raise the issue at trial or on direct appeal. Id. at 5788. As noted, supra, the Maryland Court of Appeals
analyzed the merits of the waiver argument by
determining whether the opportunity existed for the
defendant to raise the issue in the lower court
proceeding. The Maryland Court of Appeals
determined that the factual basis of the Brady claim
did not become known to the petitioner until the
detective inadvertently disclosed the impeachment
evidence at the post-conviction hearing. Id. at 596.
The Maryland Court of Appeals held that the
opportunity to raise the issue did not exist in a lower
court proceeding because the defendant did not have
the impeachment evidence to raise his Brady claim.
Id. As such, the Maryland Court of Appeals held that
the defendant did not waive the right to raise the
Brady allegation. Id. Under the principles set forth
in Conyers, Petitioner bears the burden of proving
that he did not have the opportunity to raise the
Brady allegation in a prior proceeding.
The Court finds that Petitioner waived his right to
raise the Brady allegation because he had the
opportunity to make his claim in a prior proceeding.
Petitioner’s Brady claim is premised on two grounds.
First, Petitioner argues that when the State
presented his cell phone records at trial, the

295a
prosecution omitted a fax cover sheet that contained
a set of instructions on how to read a “subscriber
activity report” and a disclaimer about the
unreliability of using incoming calls for location.
Petitioner’s Exhibit PC2-16. Second, Petitioner
argues that the State presented his cell phone
records without the subject page identifying the cell
phone records as an excerpt of a subscriber activity
report.13 Petitioner’s Exhibit PC2-15.
Although the State omitted these documents when
the prosecution introduced Petitioner’s cell phone
records into evidence, Petitioner had the opportunity
to challenge the alleged Brady violation in a prior
proceeding. Whereas the defendant in Conyers did
not know about the impeachment evidence until the
post-conviction hearing, in the instant matter, trial
counsel possessed the disclaimer and the subject
page, as both of these documents were found in her
file. As trial counsel had both documents in her
possession at least since the time of trial, Petitioner
had the factual basis and the opportunity to raise the
issue at trial, on direct appeal, in his first postconviction petition, and in the application for leave to
appeal. Petitioner’s failure to act upon these
opportunities to raise the issue in a prior proceeding
amounts to waiver of the Brady allegation.
Even if the Court were to consider the merits of
Petitioner’s Brady argument, the Court would
conclude that the State did not commit a Brady
violation. Petitioner alleges that the State committed
a Brady violation by suppressing evidence that
13

The significance of these documents will be discussed in
greater detail, infra.

296a
undermined the reliability of the cell tower evidence.
The Supreme Court explained in Brady that “the
suppression by the prosecution of evidence favorable
to an accused upon request violates due process
where the evidence is material either to guilt or
punishment, irrespective of the good faith or bad
faith of the prosecution.” 373 U.S. at 87.
In order to establish a Brady violation, Petitioner
must show that: 1) the prosecution suppressed the
evidence at issue; 2) the suppressed evidence is
favorable to the defense because it is either
exculpatory, provides a basis for impeaching a
witness, or offers grounds for mitigating a sentence;
and 3) the evidence is material. United States v.
Bagley, 473 U.S. 667, 674-78 (1985). When
determining whether the evidence is material, the
Court applies the “reasonable probability” test,
which the Supreme Court adopted from Strickland.
The suppressed evidence is material “only if there is
a reasonable probability that, had the evidence been
disclosed to the defense, the result of the proceeding
would have been different.” Bagley, 473 U.S. at 682.
Petitioner’s Brady allegation is premised on how
the State used Petitioner’s cell phone records to
corroborate Wilds’s testimony. At trial, Wilds
testified that Petitioner disposed of the victim’s body
in Leakin Park at approximately 7:00 p.m. on
January 13, 1999. According to Wilds, Petitioner
received two incoming calls during the time of the
burial. The State presented Petitioner’s cell phone
records (hereinafter “Exhibit 31”) as circumstantial
evidence to corroborate Wilds’s testimony by
identifying two incoming calls that occurred at 7:09
p.m. and 7:16 p.m. Both of these calls connected with

297a
cell site “L689B.” Waranowitz, the State’s cell tower
expert, testified that cell site “L689B” serviced the
coverage area that encompassed the Leakin Park
burial site. Based on the evidence and testimony
presented, the State urged the jury to make a
reasonable inference that Petitioner’s cell phone was
possibly located in Leakin Park during the time of
the burial.
According to Petitioner, the State violated Brady
when the prosecution presented Exhibit 31 without
the subject page identifying the exhibit as a
“subscriber activity report” and the disclaimer about
the unreliability of using incoming calls for location
information.14 Petitioner argues that the disclaimer
and the subject page are favorable evidence that he
could have used to question the reliability of the cell
tower evidence that the State used to approximate
Petitioner’s cell phone during the time of the burial.
As such, there is a substantial possibility that had
the State presented Exhibit 31 with both of these
documents, Petitioner could have undermined a key
14

Petitioner initially moved the Court to consider his Brady
allegation on the omission of the disclaimer and the subject
page. See Petitioner’s Reply to the State’s Consolidated
Response, October 13, 2015, at 8-20. Accordingly, the Court reopened the post-conviction proceedings to address the narrow
scope of Petitioner’s Brady allegation. See Statement of
Reasons and Order of the Court, November 6, 2015, During the
February 2016 post-conviction hearing, however, Petitioner
expanded upon his argument and alleged that the State also
violated Brady when the prosecution disclosed a truncated copy
of Petitioner’s cell phone records. Petitioner’s Exhibit PC2-40.
The Court reopened the post-conviction proceeding on limited
grounds and thus, the Court will not consider arguments that
are beyond the scope of the Court’s Order.

298a
pillar of the State’s case, and thus, the result of the
trial would have been different.
Assuming, arguendo, that the documents are
favorable and material evidence, the Court does not
find merit to Petitioner’s argument. Petitioner has
failed to establish that the State suppressed the
evidence at issue. As a guiding principle, the
Supreme Court did not intend for the Brady rule “to
displace the adversary system as the primary means
by which truth is discovered.” Bagley, 473 U.S. at
675. “The Brady rule does not relieve the defense
from the obligation to investigate the case and
prepare for trial.” Ware v. State, 348 Md. 19, 39
(1997). The prosecution cannot be said to have
suppressed evidence when the information was
available to the defense through a “reasonable and
diligent investigation.” Id.
The United States Court of Appeals for the Fourth
Circuit’s decision in Barnes v. Thompson, 58 F.3d
971 (4th Cir. 1995), is illuminating. In Barnes, the
defendant and his accomplice robbed a supermarket,
and the defendant shot and killed two victims during
the course of the robbery. Id. at 973. After
investigating the crime scene, the police retrieved a
gun belonging to one of the victims beneath or near
the victim’s body. Id. A jury found the defendant
guilty of capital murder, and the trial court
sentenced the defendant to death. Id. The defendant
filed for a writ of habeas corpus claiming that the
State’s failure to disclose the exact location of the
gun violated Brady because the defendant could have
shown that he killed the armed victim in an act of
self-defense. Id.

299a
The United States Court of Appeals for the Fourth
Circuit ruled that although the State did not disclose
the exact location of the gun, the defense could have
discovered the information through a reasonable and
diligent investigation. Id. at 976-77. The defendant
knew that the State had retrieved the gun at the
scene of robbery because a detective revealed this
information when he testified during a preliminary
hearing. Id. at 976. At the trial of the accomplice, the
police officers also testified that they had recovered a
gun beneath or near the victim’s body. Id. at 97677.
The United States Court of Appeals for the Fourth
Circuit rejected the Brady challenge because the
defendant could have conducted a reasonable and
diligent investigation to ascertain the location of the
gun by either interviewing the police officers or
reviewing the transcripts of the accomplice’s trial. Id.
at 977.
In the present matter, the facts that would have
allowed Petitioner to discover the omission of the
documents were readily available to Petitioner. The
disclaimer and the subject page were found in trial
counsel’s file, and the State disclosed these
documents as part of pretrial discovery and conveyed
its intention to introduce these records at tria1.15
State’s Exhibit 1A0023. As he had access and
advance notice that the State intended to introduce
15

Throughout the pleading stage and the February 2016 postconviction hearing, Petitioner conceded that trial counsel
possessed the disclaimer in her file. The entirety of Petitioner’s
cell phone records were also found in trial counsel’s file. State’s
Exhibit 1A-0394 – 0511. Petitioner could have cross-referenced
Exhibit 31, an excerpt of Petitioner’s cell phone records, with
the entire record to discover the omission of the subject page.

300a
these records into evidence, Petitioner had the facts
and the opportunity to conduct a reasonable and
diligent investigation to uncover the State’s
omission. Therefore, the Court shall deny relief with
respect to Petitioner’s Brady allegation.
III. Ineffective Assistance of Counsel –
Reliability of Cell Tower Location Evidence
Petitioner claims that trial counsel rendered
ineffective assistance of counsel when she failed to
use the disclaimer to cross-examine Waranowitz, the
State’s cell tower expert, about the reliability of the
cell tower location evidence. The State responds that
similar to Petitioner’s Brady claim, he waived his
right to challenge trial counsel’s representation
because he failed to raise the issue in a prior
proceeding. The Court finds, however, that although
Petitioner failed to raise the issue in a prior
proceeding, he did not “intelligently and knowingly”
effect the waiver.
As the Court has explained, supra, the standard of
proof for finding that a waiver occurred differs
depending on whether the allegation of error relates
to a fundamental or non-fundamental right. Whereas
the right underlying Petitioner’s Brady claim is a
non-fundamental right, Maryland appellate courts
have identified the Sixth Amendment right to
effective assistance of counsel as a fundamental right
in the context of waiver. See Davis, 285 Md. at 3334;
see also Wyche, 53 Md. App. at 406. In order to waive
a fundamental right, a petitioner must “intelligently
and knowingly” effect the waiver. Gutierrez, 153 Md.
at 471-72. An intelligent and knowing waiver is an
“intentional relinquishment of a known right or
privilege.” Thornton, 73 Md. App. at 253. Therefore,

301a
waiver may be found when the record “expressly
reflects” that a petitioner had a basic understanding
of the nature of the right and that he or she agreed
to waive the claim at issue. Wyche, 53 Md. App. at
403. The post-conviction statute places the burden on
Petitioner to rebut the presumption that he
“intelligently and knowingly” waived his claim that
trial counsel rendered ineffective assistance of
counsel. Crim. Proc. § 7-106(b)(2).
In McElroy v. State, 329 Md. 136, 147-48 (1993),
the Maryland Court of Appeals identified the kind of
evidence that must be offered to rebut the
presumption that a petitioner intelligently and
knowingly effected a waiver. First, the issue must
not have been raised by the petitioner in a prior
proceeding. Id. Second, the petitioner must never
have been advised by counsel that the petitioner
should have raised the issue of ineffective assistance
of counsel in the initial petition for post-conviction
relief Id. Third, the petitioner must never have been
advised that trial counsel may have been ineffective
for failing to pursue certain actions underlying the
ineffective assistance of counsel claim at issue. Id.
Finally, the Court must take into consideration the
petitioner’s education level and mental capacity to
intelligently and knowingly waive the allegation. Id.
Here, the Court finds that Petitioner has met the
burden to rebut the presumption that he intelligently
and knowingly waived his right to seek relief based
on trial counsel’s alleged failure to challenge the
reliability of the cell tower evidence. Although
Petitioner alleged that trial counsel may have been
ineffective on other grounds in his initial petition, he
has never alleged that trial counsel rendered

302a
ineffective assistance for her alleged failure to
challenge the State’s cell tower expert with the
disclaimer. More importantly, Petitioner was never
advised that trial counsel may have been ineffective
for her alleged failure to challenge the State’s cell
tower expert at trial with the disclaimer in prior
proceedings. In fact, Petitioner’s counsel for the postconviction proceedings did not advise Petitioner
about the issue until shortly before August 24, 2015,
when counsel consulted with a cell tower expert
about the potential ramifications of the disclaimer.16
See Curtis, 284 Md. at 142-50 (holding that the
Maryland General Assembly did not intend to bind
the petitioner to his or her lawyer’s action or inaction
under the waiver statute; instead, the pertinent
question is whether the petitioner intelligently and
knowingly effected the waiver). Since Petitioner did
not know about the potential implications of trial
counsel’s failure to challenge the cell tower evidence,
he could not have knowingly waived his right to raise
the allegation.
The record also shows that at Petitioner never
completed his high school education. See Disposition
Tr., at 11, Jun. 6, 2000. Requiring a layman who
lacks a complete high school education to understand
the intricacies of cellular network design and the
legal ramifications of trial counsel’s failures to
challenge the evidence would be inconsistent with

16

Counsel also did not fully advise Petitioner of the factual
basis of his ineffective assistance of counsel allegation until
sometime after September 29, 2015, when Waranowitz, the
State’s cell tower expert at trial, informed counsel that he never
saw the disclaimer at issue. See Petitioner’s Exhibit PC2-20.

303a
the spirit of the Sixth Amendment. As Justice
Alexander George Sutherland explained:
Even the intelligent and educated layman has
small and sometimes no skill in the science of
law. If charged with crime, he is incapable,
generally, of determining for himself whether the
indictment is good or bad. He is unfamiliar with
the rules of evidence. Left without the aid of
counsel he may be put on trial without a proper
charge, and convicted upon incompetent evidence,
or evidence irrelevant to the issue or otherwise
inadmissible. He lacks both the skill and
knowledge adequately to prepare his defense,
even though he have a perfect one. He requires
the guiding hand of counsel at every step in the
proceedings against him. Without it, though he be
not guilty, he faces the danger of conviction
because he does not know how to establish his
innocence. If that be true of men of intelligence,
how much more true is it of the ignorant and
illiterate, or those of feeble intellect.
Powell v. Alabama, 287 U.S. 45, 69 (1932). In
accordance with the fundamental nature of the Sixth
Amendment, the Court finds that Petitioner did not
intelligently and knowingly waive his right to
challenge trial counsel’s alleged failure to confront
the State’s cell tower expert with the disclaimer.
Accordingly, the Court shall consider the merits of
the allegation that trial counsel rendered ineffective
assistance when she failed to cross-examine the
State’s cell tower expert about the reliability of the

304a
cell tower evidence. 17 To prevail on an ineffective
assistance of counsel claim, a petitioner must satisfy
the two-prong test established in Strickland v.
Washington. 466 U.S. 668, 690-91 (1984). First, a
petitioner must show that counsel rendered deficient
performance. Id. at 690. Second, a petitioner must
also establish that counsel’s deficient performance
prejudiced his or her defense. Id. at 691.
Petitioner argues that trial counsel’s performance
fell below the standard of reasonable professional
judgment when she failed to use the disclaimer to
confront the State’s expert about the reliability of the
cell tower evidence. When reviewing counsel’s
performance for deficiency, the Court presumes that
counsel “rendered adequate assistance and made all
significant decisions in exercise of reasonable
professional judgment.” Bowers v. State, 320 Md.
416, 421 (1996). Deficient performance may be found,
however, if Petitioner establishes that counsel’s
performance “fell below an objective standard of
reasonableness.” Harris v. State, 303 Md. 685, 697
17

In Petitioner’s Supplement to Re-Open Post-Conviction
Proceedings, Petitioner advanced a general argument that trial
counsel’s failure to “act” on the disclaimer amounted to
ineffective assistance of counsel. Petitioner argued that trial
counsel should have cross-examined the State’s expert about
the disclaimer or filed a motion in limine to exclude Exhibit 31
through a Frye-Reed hearing. In the November 6, 2015
Statement of Reasons and Order of the Court, the Court limited
the scope of the issue that would be under consideration:
whether trial counsel rendered ineffective assistance for her
alleged failure to cross-examine the State’s cell tower expert.
Although Petitioner attempted to make additional arguments
regarding the cell tower evidence at the February 2016 postconviction hearing, the Court will not consider issues that are
outside the scope of the issues specified in the Court’s Order.

305a
(1985). Most importantly, the Court must refrain
from succumbing to the temptation of hindsight;
instead, counsel’s performance must be evaluated at
the time of his or her conduct. Strickland, 466 U.S.
at 690.
At trial, the State relied upon two incoming calls to
corroborate Wilds’s testimony that Petitioner had
buried the victim’s body in Leakin Park at
approximately 7:00 p.m. on January 13, 1999. The
State specifically identified two incoming calls at
7:09 p.m. and 7:16 p.m. on Exhibit 31 that connected
with cell site “L689B,” which provided cellular
network coverage to an area that encompassed
Leakin Park. In addition to Wilds’s testimony and
Exhibit 31, the State relied upon radio frequency
engineer Waranowitz, who testified as an expert in
wireless cellular phone network design and
functioning in the greater Baltimore area.
Prior to trial, Waranowitz had conducted a test to
determine which cell site would provide the strongest
signal when a call is originated at a certain location.
Waranowitz conducted the test by making a call at a
location provided by the State and then recording
which cell site provided the strongest signal for the
call. The State asked Waranowitz to conduct an
origination test at the burial site, which elicited the
following testimony at trial:
[STATE]: If I may approach the Clerk at this
time, I need State’s Exhibit 9. It’s one of the big
photo arrays. I’m now showing you what’s been
marked for identification or in evidence as State’s
Exhibit 9. I would like you to look at the top left
photograph and then the others as well. Can you
identify the location?

306a
[WARANOWITZ]: This was the location I was
taken to where I was told a body was buried.
[STATE]: Already designated on this map by B.
You’ve had a chance to look at the map and see
that?
[WARANOWITZ]: Yes.
[STATE]: When you got to that site and you
can hand the exhibit back to the Clerk at
this time, what test did you perform?
[WARANOWITZ]: I originated a phone call.
[STATE]: And what cell site did you find that
that site went through?
[WARANOWITZ]: L689B.
[STATE]: I would like if you look at lines 10
and 11 on the State’s Exhibit 34,[18] you’ve got
cell site 689, L689B, address 2122 Windsor
Park Lane. Is that the same cell site that a
phone call initiated there went through?
[WARANOWITZ]: Yes.
***
[STATE]: Now, if there were testimony that
two people in Leakin Park at the burial site
and that two incoming calls were received
on a cell phone, they’re an AT&T subscriber
cell phone there, cell phone records with
two calls that were – went through that
particular cell site location [L689B], would

18

State’s trial Exhibit 34 is a copy of Exhibit 31, Petitioner’s
cell phone records, with an additional column of addresses
designated by the State.

307a
be – that functioning of the AT&T network
be consistent with the testimony.
[DEFENSE]: Objection.
[COURT]: You may only answer only as it relates
to an Erickson piece of equipment.[19]
[WARANOWITZ]: Yes.
Trial Tr., at 97-100, Feb. 8, 2000 (emphasis added).
The testimony revealed that when Waranowitz
conducted the origination test at the burial site, he
recorded that the test call connected with cell site
“L689B.” At trial, Waranowitz affirmed that his test
results matched the same “L689B” cell site identified
in Exhibit 31 for the 7:09 p.m. and 7:16 p.m.
incoming calls. Waranowitz then testified that if
Exhibit 31 showed two incoming calls connected with
cell site “L689B,” then the cell phone could have
possibly been located in Leakin Park when the phone
received the incoming calls.
According to Petitioner, Exhibit 31 is an excerpt of
a much larger set of documents, and the subject page
of these documents is titled: “SUBSCRIBER
ACTIVITY.” Petitioner’s Exhibit PC2-15. Trial
counsel also possessed an AT&T fax coversheet that
she obtained during pretrial disclosure, and the fax
19

The Court had initially limited Waranowitz’s testimony to
Erickson equipment because Waranowitz received his training
and conducted the test using an Erickson phone, instead of a
Nokia 6160 phone that Petitioner had used on January 13,
1999. However, the trial court would later qualify Waranowitz
as an expert in Nokia 6160 phones because he had conducted
other tests with that phone model. Waranowitz testified that
the Nokia 6160 would perform about the same as the Erickson
model.

308a
cover sheet contained a set of instructions labeled,
“How to read ‘Subscriber Activity’ Report.”
Petitioner’s Exhibit PC2-16. The set of instructions
also included a disclaimer which specified that:
Outgoing calls only are reliable for location
status. Any incoming calls will NOT be
reliable information for location.
Id. (emphasis added). Petitioner contends that a
reasonable attorney would have cross-examined
Waranowitz about the disclaimer and undermined
the State’s reliance on the 7:09 p.m. and 7:16 p.m.
incoming calls to approximate the general location of
Petitioner’s cell phone during the time of the burial.
The Court finds that trial counsel rendered
deficient performance when she failed to properly
cross-examine Waranowitz about the disclaimer. The
Maryland Court of Appeals has recognized that the
failure to conduct an adequate cross-examination
may be grounds for finding deficient performance.
See Bowers, 320 Md. at 436-37; see also People v. Lee,
185 Ill.App.3d 420, 438 (1989) (holding that counsel’s
cross-examination of the State’s most crucial witness
fell below the standard of reasonable professional
judgment); People v. Trait, 527 N.Y.S.2d 920, 921
(1988) (finding that counsel’s “excessive and
purposeless” cross-examination deprived the accused
of the right to effective assistance of counsel).
The United States Court of Appeals for the Eighth
Circuit’s decision in Driscoll v. Delo, 71 F.3d 701 (8th
Cir. 1995), is instructive. In Driscoll, the defendant
was convicted of murdering a correctional officer
during a prison disturbance. Id. at 704. At trial, the
State presented the testimony of a serological expert,

309a
who conducted a series of blood trace examinations
on a homemade knife that belonged to the defendant.
Id. at 707. According to the State’s expert, the
examinations revealed that the blood trace found on
the homemade knife matched the blood type “A” of
another officer, but the examination could not find
the victim’s blood type “0” on the knife. Id. The State
advanced the theory that the victim’s blood was
actually present on the knife, but the presence of an
additional blood type “masked” the victim’s “0” blood.
Id. The laboratory report indicated, however, that
another test had been conducted showing that no
blood type “0” had been masked on the knife, which
conclusively disproved the State’s argument. Id. at
707-08. Although the State had disclosed the report
of the test results to defense counsel, he failed to
cross-examine the State’s serology expert about the
test results that would have undermined the State’s
theory of the case. Id. at 708.
The United States Court of Appeals for the Eighth
Circuit evaluated counsel’s performance in light of
the circumstances of the case. In particular, the
United States Court of Appeals for the Eighth
Circuit noted that the defendant was confronted with
a possible death sentence if convicted of the capital
murder charge. Id. at 709. Given the stakes of the
case, whether the blood traces on the defendant’s
knife matched the blood type of the victim
“constituted an issue of utmost importance.” Id. A
reasonable attorney under these circumstances
would have carefully reviewed the blood test reports,
and exposed the weakness of the State’s case on
cross-examination if the State advanced a theory
that was inconsistent with the test results. Id. As

310a
such, the United States Court of Appeals for the
Eighth Circuit held that “defense counsel’s failures
to prepare for the introduction of the serology
evidence, to subject the state’s theories to the rigors
of adversarial testing, and to prevent the jury from
retiring with an inaccurate impression that the
victim’s blood might have been present on the
defendant’s knife fall short of reasonableness under
the prevailing professional norms.” Id.
The circumstances in the present case are
strikingly similar to those found in Driscoll. Here,
the State charged Petitioner with first-degree
murder and if convicted, Petitioner faced a lifetime of
confinement. Whether Petitioner’s cell phone records
revealed an incriminating link between Petitioner
and the murder was an issue of crucial importance.
Under these circumstances, a reasonable attorney
would have carefully reviewed the documents
disclosed as part of pre-trial discovery, including the
set of instructions and disclaimer provided by AT&T
on how to correctly interpret the cell phone records.
If the State advanced a theory that contradicted the
instructions or disclaimer, a reasonable attorney
would have undermined the State’s theory through
adequate cross-examination.
As the Court noted, supra, the State’s theory relied
upon the two incoming calls at 7:09 p.m. and 7:16
p.m. to approximate the general location of
Petitioner’s cell phone during the time of the burial.
The State advanced its theory through the expert
opinion of Waranowitz, who testified that if Exhibit
31 indicated that the two incoming calls at issue
connected with cell site “L689B,” then it was possible
that the cell phone was located in Leakin Park when

311a
the phone received the incoming calls. The State’s
theory of relying on incoming calls to determine the
general location of Petitioner’s cell phone, however,
was directly contradicted by the disclaimer, which
specified that “any incoming calls will NOT be
considered reliable information for location.”
Petitioner’s Exhibit PC2-16.
Upon reviewing the contents of Exhibit 31 and the
disclaimer, a reasonable attorney would have noticed
that the only information pertinent to location in
Exhibit 31 was the cell site column. Therefore, the
disclaimer raised the possibility that Exhibit 31 may
not reliably have reflected the corresponding cell site
of an incoming call. If the cell sites contained in
Exhibit 31 were not reliable with respect to incoming
calls, then it was not certain whether cell site
“L689B” could be relied upon for location with
respect to the two incoming calls at 7:09 p.m. and
7:16 p.m. Despite this uncertainty, the State asked
Waranowitz to compare his test results and draw an
inference as to the possible location of Petitioner’s
cell phone using the cell site information for the
incoming calls at 7:09 p.m. and 7:16 p.m.
A reasonable attorney would have exposed the
misleading nature of the State’s theory by crossexamining Waranowitz. The record reflects, however,
that trial counsel failed to cross-examine
Waranowitz about the disclaimer.20 Even under the
20

Trial counsel cross-examined Waranowitz on several topics.
Trial counsel asked Waranowitz whether he ensured the testing
conditions were similar to the circumstances present on
January 13, 1999, such as by testing under similar weather
conditions, using the same brand of cell phone, and dialing the
same set of numbers. Waranowitz responded that he did not

312a
highly deferential standard of Strickland, the failure
to cross-examine the State’s expert witness
regarding evidence that contradicted the State’s
theory of the case can hardly be considered a
strategic decision made within the range of
reasonable professional judgment. See Washington v.
Murray, 952 F.2d 1472, 1476 (4th Cir. 1991) (noting
that counsel’s performance would have fallen below
the standard of reasonable professional judgment if
counsel failed to present available evidence that
would have questioned the defendant’s involvement
in the crime). As in Driscoll, Petitioner’s trial counsel
committed a similar error by failing to use readily
accessible information to expose the weakness of the
State’s theory through adequate cross-examination of
the State’s expert witness.
The State argues, however, that requiring trial
counsel to cross-examine Waranowitz regarding “a
fax cover sheet” would be at odds with the highly
deferential standard of Strickland, which the
Supreme Court recently reaffirmed in Maryland v.
Kulbicki,136 S.Ct. 2 (2015) (per curiam). As a
preliminary matter, the issue before the Court is
whether trial counsel failed to cross-examine the
State’s cell tower expert about the contents of the fax
cover sheet, namely the set of instructions and
match any conditions when he conducted the origination test at
the burial site because in most cases, cell site “L689B” is the
only cell site with the strongest signal to reach the burial site.
Moreover, Waranowitz also testified that the Erickson and
Nokia brand phones performed almost exactly the same. With
respect to Exhibit 31, trial counsel cross-examined Waranowitz
about the call times and durations, but she failed to explore the
disclaimer in any way.

313a
disclaimer that provided guidance on how to properly
interpret Exhibit 31. With respect to the State’s
reliance on Kulbicki, the Court finds that the facts of
the present case are significantly different from
those found in Kulbicki.
In Kulbicki, the defendant alleged that trial
counsel rendered ineffective assistance when he
failed to cross-examine the State’s ballistic expert
about a report, which failed to explain the causes of
the overlapping chemical compositions of bullets
produced from different sources. 136 S.Ct. at 3. The
Maryland Court of Appeals held that trial counsel
rendered deficient performance when he failed to
discover this methodological flaw that would
eventually lead to the demise of Comparative
Ballistic Lead Analysis evidence and cross-examine
the State’s expert about the report that was authored
by the expert a few years prior to trial. Id. at 3-4.
The Supreme Court of the United States reversed
the decision of the Maryland Court of Appeals and
held that trial counsel did not perform deficiently by
failing to “pok[e] methodological holes in a thenuncontroversial mode of ballistic analysis.” Id. at 4.
In so holding, the Supreme Court of the United State
doubted whether a diligent search would have
uncovered the report at issue given that “in an era of
card catalogues, not a worldwide web, what efforts
would counsel have had to expend to find the
compilation [that included the report]?” Id. As the
Supreme Court of the United States explained, the
highly deferential standard of Strickland does not
require attorneys to go “looking for a needle in a
haystack.” Id. at 4-5 (citing Rompilla v. Beard, 545
U.S. 374, 389 (2005)).

314a
The Court’s decision in this case does not require
trial counsel to provide representation that is “close
to perfect advocacy”; the Court is simply adhering to
the standard of “reasonable competence” that is
guaranteed by the Sixth Amendment right to
effective assistance of counsel. Id. at 5 (citing
Yarborough v. Gentry, 540 U.S. 1, 8 (2003) (per
curiam) (internal quotations omitted)). In the case
sub judice, the Court is not concluding that trial
counsel should have predicted the eventual downfall
of a non-controversial mode of scientific evidence.21
The Court is simply stating that reasonable
competence required Petitioner’s trial counsel to pay
close attention to detail while conducting document
review. 22 Moreover, trial counsel did not have to
expend an unreasonable amount of resources or go
look for a “needle in a haystack.” Id. at 4-5. The
21

Trial counsel did not have to be clairvoyant to predict that
the State would rely upon Petitioner’s cell phone records; the
State disclosed its intention to introduce Petitioner’s cell phone
records prior to trial. State’s Exhibit 1A¬0023. The record also
reflects that trial counsel had some notice of the State’s
intention to introduce Petitioner’s cell phone records into
evidence because she had stipulated to its introduction prior to
trial.
22

A reasonable attorney would have noticed that Exhibit 31 is
an excerpt of a larger set of phone records, because the top of
the very first page of these phone records clearly specified
“SUBSCRIBER ACTIVITY.” Petitioner’s Exhibit PC2-15. The
title of the phone records ought to have alerted trial counsel to
the set of instructions and the disclaimer about “How to read
‘Subscriber Activity’ Report,” which she had obtained as part of
pre-trial discovery. Petitioner’s Exhibit PC2-16. Trial counsel
simply had to use two fundamental skill-sets that are essential
to reasonably competent lawyers: reading comprehension and
attention to detail.

315a
metaphorical needle at issue – the disclaimer about
the unreliability of incoming calls – was disclosed to
trial counsel as part of pre-trial discovery. As such,
the concerns that the Supreme Court of the United
States expressed in Kulbicki are not present in the
instant case.
As the Court has explained, supra, a reasonable
attorney under these circumstances would have
carefully reviewed the documents disclosed through
pre-trial discovery, and have been prepared to
“subject the State’s theories to the rigors of
adversarial testing.” Driscoll, 71 F.3d at 709.
Instead, trial counsel failed to confront the State’s
cell tower expert with the disclaimer, and thereby
allowed the jury to deliberate with the misleading
impression that the State used reliable information
to approximate the general location of Petitioner’s
cell phone during the time of the burial. Reasonable
professional judgment requires attorneys to review
discovery materials and challenge an attempt by the
State to present a misleading theory to the jury. In
light of these circumstances, the Court finds that
trial counsel’s performance fell below the standard of
reasonable professional judgment when she failed to
pay close attention to detail while reviewing the
documents obtained through pre-trial discovery and
when she failed to cross-examine the State’s cell
tower expert regarding the disclaimer about the
unreliability of using incoming calls to determine
location.
In addition to establishing deficient performance,
Petitioner must also demonstrate that trial counsel’s
unprofessional errors prejudiced his defense.
Strickland, 466 U.S. at 691. Prejudice exists if there

316a
is a “reasonable probability” that, but for counsel’s
deficient performance, the result of the proceeding
would have been different. Id. at 694. “A reasonable
probability is a probability sufficient to undermine
confidence in the outcome.” Id. As the Maryland
Court of Appeals explained in Oken, a petitioner
must show a “substantial possibility” that the result
of the proceeding would have been different, but for
counsel’s unprofessional errors. 343 Md. at 284.
Citing Strickland, the Maryland Court of Appeals
noted that when analyzing prejudice, the focus
should be on “whether the result of the proceeding
was fundamentally unfair or unreliable.” Id.
Petitioner argues that trial counsel’s failure to
cross-examine Waranowitz regarding the disclaimer
prejudiced his defense. Petitioner claims that had
trial counsel confronted Waranowitz about the
unreliability of using incoming calls to determine
location, there is a substantial possibility that the
results of the trial would have been different.
At trial, the State advanced the theory that
Petitioner strangled the victim in the Best Buy
parking lot sometime between 2:15 p.m. and 2:45
p.m. and then disposed of the victim’s body in Leakin
Park later that night at approximately 7:00 p.m. As
the Court has noted supra, the evidence presented by
the State to establish the general location of
Petitioner’s cell phone during the time of the burial
was the crux of the State’s case. The record reflects
that the State relied upon the evidence related to the
burial event throughout the trial. In the State’s
opening statement, for instance, the prosecution
presented the connection between the burial site and

317a
Petitioner’s cell phone as the jury’s first impression
of the case:
[STATE]: At this time I get to let you know in
advance what the evidence you’re going to hear is.
Well, you’re going to find out that on
January 13th, 1999, somewhere about 7:09,
7:16, one [Pusateri] was calling a friend of
hers by the name of [Wilds]. The number
that she dialed was 443-253-9023. That’s the
defendant’s cell phone number. She was
dialing that number because she got a voicemail –
a message left on her phone from [Wilds] that was
somewhat garbled. It was somewhere around in
here. She got this call. She –
(Pause)
[STATE]: Actually the seven o’ clock call, a
message left for her. It was garbled. She didn’t
understand it. She called back to find out what’s
going on. Well the phone was answered. One of
these calls, 7:09, 7:16, was her calling this
number. The phone was answered. The
defendant in this case answered the phone.
She said, ‘This is [Pusateri] I am calling for
[Wilds].’ The defendant said, ‘[Wilds] can’t
come to the phone right now, we’re busy,’
and hung up. At that moment, the
defendant, along with [Wilds], was in Leakin
Park. The defendant was burying the body
of one Hae Min Lee.
Trial Tr., at 96, Jan. 27, 2000 (emphasis added). A
jury’s first impression of a case plays a significant
role in the jury’s ultimate verdict. As the Maryland
Court of Appeals explained in Arrington v. State, 411

318a
Md. 524, 555 (2009), since “opening statements are
the first characterization of the case heard by the
jury and often presented in artful form, [the courts]
do not underestimate the ultimate impact of these
statements on the jury’s verdict.”
The State also emphasized the connection between
the burial and Petitioner’s cell phone records during
closing arguments:
[STATE]: At this point in time [Wilds] knows he’s
not going to meet [Pusateri] as they had
previously arranged. So at 7:00 he pages
[Pusateri]. He leaves that confusing message that
she tells you about. [Wilds] and the Defendant go
to Leakin Park – time. And the next phone
call, calls 10 and 11, are crucial. [Wilds] tells
you that as they’re entering the park,
preparing to bury the body of [the victim],
[Pusateri] returns that call ... that call ladies
and gentlemen, at 7:09 or 7:16 p.m., occurred
in the cell phone area covered by Leakin
Park. That call is consistent with everything
the witnesses told you.
Trial Tr., at 70, Feb. 25, 2000 (emphasis added).
During the State’s rebuttal, the prosecution once
again urged the jury to consider the 7:09 p.m. and
7:16 p.m. incoming calls and to draw inferences as to
the possible location of Petitioner’s cell phone during
the time of the burial:
[STATE]: The Defense tells you well, they can’t
place you specifically within any place by this.
Absolutely true, but look at 7:09 and 7:16,
689B, which is the Leakin Park coverage
area. There’s a witness who says they were

319a
in Leakin Park. If the cell coverage area
comes back as that that includes Leakin
Park, that is reasonable circumstantial
evidence that you can use to say they were
in Leakin Park.
Id. at 125 (emphasis added). The record shows that
the cell tower evidence reflected in Petitioner’s cell
phone records during the time of the burial served a
central role in the State’s theory of the case.
Scientific evidence, such as the cell tower evidence
contained in Petitioner’s cell phone records, plays a
significant role in a jury’s decision-making process.
In Reed v. State, 283 Md. 374, 375 (1978), the
Maryland Court of Appeals addressed the issue of
whether
testimony
based
on
spectrograms,
commonly described as “voiceprints,” was admissible
as evidence of voice identification. The Maryland
Court of Appeals recognized the potential dangers of
scientific evidence in the truth-determining process:
Frye was deliberately intended to interpose a
substantial obstacle to the unrestrained
admission of evidence based upon new scientific
principles. . . . Several reasons founded in logic
and common sense support a posture of judicial
caution in this area. Lay jurors tend to give
considerable weight to ‘scientific’ evidence
when presented by ‘experts’ with impressive
credentials. We have acknowledged the
existence of a . . . misleading aura of certainty
which often envelops a new scientific process,
obscuring its currently experimental nature. As
stated in Addison, supra, in the course of
rejecting
the
admissibility
of
voiceprint
testimony, scientific proof may in some

320a
instances assume a posture of
infallibility in the eyes of a jury[.]

mystic

Id. at 386 (citing People v. Kelly, 17 Cal. 3d 24, 32
(1976) (internal quotations omitted; emphasis
added)). More recently, the Maryland Court of
Appeals continued to express similar concerns when
reviewing the validity and reliability of Comparative
Ballistic Lead Analysis evidence. See Clemons v.
State, 392 Md. 339, 347 n.6 (2006); see also Kulbicki
v. State, 440 Md. 33, 55 (2014) (noting the
“significance jurors afford to forensic evidence in
assessing a defendant’s guilt or innocence”),
reconsideration denied (Oct. 21, 2014), cert. granted,
judgment rev’d, 136 S. Ct. 2 (2015).
These same concerns are also present in this case.
At trial, the State presented the expert testimony of
Waranowitz, a radio frequency engineer who
designed, maintained, and provided troubleshooting
services for the AT&T wireless cellular network in
the greater Baltimore area. Given Waranowitz’s
impressive credentials, the jury likely gave
considerable weight to his testimony regarding the
potential location of Petitioner’s cell phone during
the time of the burial.
As such, the record reflects that the cell sites of the
incoming calls during the time of the burial and
Waranowitz’s testimony served as the foundation of
the State’s case. Trial counsel could have
undermined the foundation of the State’s case had
she cross-examined Waranowitz regarding the
unreliability of using incoming calls for determining
location. Therefore, the Court finds that there is a
substantial possibility that, but for trial counsel’s
unprofessional error in failing to confront the State’s

321a
cell tower expert with the disclaimer, the result of
the trial would have been different.
The State argues, however, that even if trial
counsel had cross-examined Waranowitz about the
disclaimer, the result of the trial would have
remained the same because the set of instructions
and the disclaimer do not apply to Exhibit 31. To
support its theory, the State presented the expert
testimony of FBI Special Agent Chad Fitzgerald
(hereinafter “Agent Fitzgerald”). Agent Fitzgerald
testified that the set of instructions and disclaimer
only apply to subscriber activity reports. According to
Agent Fitzgerald, Exhibit 31 is not a subscriber
activity report because Exhibit 31 does not have the
“type codes” or the “blacked out areas” that are
identified in the fax cover sheet:
Type codes are defined as the following:
Inl = Outgoing Long
distance call

Lel = Outgoing local
call

CFO = Call forwarding

Sp = Special Feature

Inc = Incoming Call
***
Blacked out areas on this report (if any) are cell
site locations which need a court order signed by
a judge in order for [AT&T] to provide.
Petitioner’s Exhibit PC2-16. The State argues that
because Exhibit 31 is not a subscriber activity report,
but “call detail records,” the disclaimer regarding the
unreliability of using incoming call information for
location does not apply. Instead, the State claims
that the set of instructions and disclaimer only apply

322a
to the redacted version of Petitioner’s cell phone
records because the redacted records contain the
“type codes” and “blacked out areas” that are
characteristic of a subscriber activity report. State’s
Exhibit 1A-0442 – 0459.
The Court is perplexed by Agent Fitzgerald’s
interpretation that Exhibit 31 are “call detail
records,” and not a subscriber activity report,
because the Agent’s interpretation is contrary to the
text of Petitioner’s cell phone records. Exhibit 31 is
an excerpt of a much larger set of phone records, and
subject page for the set of phone records is clearly
titled “SUBSCRIBER ACTIVITY.” Petitioner’s
Exhibit PC2-15. Agent Fitzgerald apparently finds
the title of the subject page to be irrelevant in his
analysis. Instead, what really matters to the Agent is
that subscriber activity reports must contain “type
codes” and “blacked out areas.” The plain text of the
instructions, however, specified that “[b]lacked out
areas on this report (if any) are cell site locations
which need a court order signed by a judge in order
for [AT&T] to provide.” Petitioner’s Exhibit PC2-16
(emphasis added). The conditional phrase of “if any”
suggests that some subscriber activity reports may
not contain “blacked out areas.”
Agent Fitzgerald also contradicted his own
testimony. Agent Fitzgerald testified that he agreed
with most of Waranowitz’s analysis, but he
discovered that Waranowitz made an error in
interpreting
Exhibit
31.
The
erroneous
interpretation at issue involved lines 18 and 19 of
Exhibit 31:

323a
Dialed No.

Call Time

18

#4432539023

5:14:07 PM

19

incoming

5:14:07 PM

Petitioner’s Exhibit PC2-15. At trial, Waranowitz
testified that the two lines showed that the customer
had dialed his voicemail. However, Agent Fitzgerald
explained that lines 18 and 19 represent an incoming
call that was not answered and then forwarded to
voicemail. According to Agent Fitzgerald, he was
able to interpret correctly lines 18 and 19 because
where
the
“Dialed
No.”
column
shows
“#4432539023,” that symbolizes an incoming call
that was not answered and then forwarded to
voicemail. Agent Fitzgerald’s testimony directly
mirrors the set of instructions for how to read
subscriber activity reports:
When ‘Sp’ is noted in the ‘Type’ column and then
the ‘Dialed #’ column shows ‘# and the target
number’ for instance ‘#7182225555’, this is an
incoming call that was not answered and
then forwarded to voicemail. The preceding
row (which is an incoming call) will also indicate
‘CFO’ in the ‘feature’ column.
Petitioner’s Exhibit PC2-16 (emphasis added). In
other words, contrary to Agent Fitzgerald’s claim
that the set of instructions and the disclaimer do not
apply to Exhibit 31, the instructions do apply to
Exhibit 31. When confronted with this inconsistency
in his testimony, Agent Fitzgerald abandoned his
initial position and identified Exhibit 31 as a
subscriber activity report, but not the subscriber

324a
activity report that is specified in the set of
instructions.
Contrary to Agent Fitzgerald’s testimony, the set of
instructions does not distinguish between different
types of subscriber activity reports. Instead, the title
of the instructions merely specified “How to read
‘Subscriber Activity’ Reports.” Petitioner’s Exhibit
PC2-16. Moreover, the Court does not accept the
State’s argument that is based solely on semantics.
The Court finds that Exhibit 31 is an excerpt of a
subscriber activity report based on the subject page
titled “SUBSCRIBER ACTIVITY,” and that the set of
instructions is applicable to Exhibit 31.
Agent Fitzgerald also testified that even if Exhibit
31 was a subscriber activity report, the term
“location” referenced in the disclaimer does not refer
to cell site location. Instead, the term “location”
means the location of the “switch” that is identified
by the “Location1” column in the redacted version of
the subscriber activity report. State’s Exhibit 1A0459. According to the Agent, incoming calls are not
reliable information for determining the location of
the switch because of the call forwarding feature.
Agent Fitzgerald explained that when a cell phone
receives an incoming call while the phone is turned
off, the call is automatically forwarded to the user’s
voicemail. When the cell phone is turned off, the
phone does not connect to a nearby cell site to
forward the call. Instead, the cell phone’s preassigned switch handles the call forwarding
mechanic, which is then recorded in the redacted
subscriber activity report. Given that the location of
the pre-assigned switch may be miles away from the
switch that is closest to the cell phone, Agent

325a
Fitzgerald concluded that incoming calls are not
reliable for the location of the switch.
However, Petitioner identifies a series of
questionable incoming calls in the un-redacted
subscriber activity report, the source of Exhibit 31,
which shows that the term location may also refer to
the location of the cell site. The un-redacted
subscriber activity report showed that Petitioner’s
cell phone made an outgoing call at 10:58 p.m. on
January 16, 1999. Petitioner’s Exhibit PC2-15. The
outgoing call connected with cell site “L651C,” which
is the cell site that provided coverage to an area that
encompassed Petitioner’s residence at Johnnycake
Road, Baltimore County. About thirty minutes later
on that same day, the subscriber activity report
showed that Petitioner’s cell phone received an
incoming call at approximately 11:25 p.m., and the
call was forwarded to Petitioner’s voicemail. The
incoming call at 11:25 p.m. connected with cell site
“D125C,” which provided coverage to an area near
Connecticut Avenue in Washington, D.C. Petitioner
argues that it is highly unlikely that he could have
made a phone call near his house at 10:58 p.m. and
then received an incoming call that connected with a
cell site in Washington, D.C. approximately twenty
seven minutes later at 11:25 p.m. Petitioner
contends that the cell site location that is reflected in
the un-redacted subscriber activity report is
unreliable because it is highly unlikely that he could
have traveled to Washington, D.0 from Baltimore
City within twenty seven minutes. Therefore, the
Petitioner claims that the term “location” in the
disclaimer refers to the location of the cell sites.

326a
When Agent Fitzgerald attempted to provide an
explanation for this discrepancy, he affirmed that the
cell site information reflected in the un-redacted
subscriber activity report may not be reliable.
According to Agent Fitzgerald, the discrepancy that
Petitioner identified is a phenomenon that occurs
when a cell phone receives an incoming call along the
Metrorail that services the Maryland, Washington,
D.C, and Virginia communities. When a cell phone
receives an incoming call along the metro system, the
subscriber activity report records the cell phone
connecting to the central equipment instead of the
cell site or antenna that is closest to the phone.
Given this metro system phenomenon, the State
argues that it is entirely possible that the 11:25 p.m.
incoming call connected with a cell site in the
Glenmont metro station in Silver Spring, Maryland,
which is just a thirty-minute drive from Baltimore
City.
Regardless of whether Petitioner could have driven
from Baltimore City to Silver Spring within a
twenty-seven minute window, Agent Fitzgerald’s
explanation of the metro phenomenon contradicted
his own testimony that the term “location” refers to
the switch and not the cell site. The Agent initially
testified that incoming calls are not reliable for
determining the location of the switch due to the call
forwarding feature, and thus, the term “location”
means the location of the switch and not cell site
location. Agent Fitzgerald proceeded to explain,
however, that when a call is made or received in the
metro transit system, the actual cell site or antenna
that the phone connected with is not recorded in the
subscriber activity report. Instead, the subscriber

327a
activity report would show the phone connecting to
the central equipment regardless of the distance
between the phone and the central equipment. In
other words, contrary to the Agent’s initial position
that location refers to the location of the switch and
not the cell site, the Agent informs the Court that we
cannot rely on cell site “D125C” to determine the
actual cell site or antenna that the cell phone
connected with when it received the incoming call.
As such, the Court finds that the term “location”
specified in the disclaimer refers to cell site location
and thus, the disclaimer applies to Exhibit 31.23
Finally, the State argues that the outcome of the
trial would have remained the same because there is
“overwhelming evidence” that Petitioner murdered
the victim. The State’s argument, however, does not
address the pertinent question under the prejudice
prong of Strickland. As the Maryland Court of
Appeals explained in Oken, the “proper analysis of
prejudice . . . should not focus solely on an outcome
determination, but should consider whether the
result of the proceeding was fundamentally unfair or
unreliable.” 343 Md. at 285 (citing Lockhart v.
Fretwell, 506 U.S. 364, 369 (1993)). Thus, the issue is
not whether Petitioner would have obtained a “not
guilty” verdict had trial counsel cross-examined
Waranowitz about the disclaimer. Instead, the
pertinent question is whether the result of the trial
was “fundamentally unfair or unreliable”, but for
trial counsel’s unprofessional errors. Id.

23

The Court’s finding is also supported by the testimony of
Gerald R. Grant, Jr., Petitioner’s cell tower expert.

328a
The Court finds that trial counsel’s deficient
performance in failing to confront the State’s cell
tower expert regarding the disclaimer created a
substantial possibility that the result of the trial was
fundamentally unreliable. As the Court has
explained, the cell site information for the 7:09 p.m.
and 7:16 p.m. incoming calls played a significant role
in the State’s case and the jury’s decision-making
process. The disclaimer casts a fog of uncertainty
over Exhibit 31 and thus, but for trial counsel’s
failure to cross-examine Waranowitz about the
disclaimer, there is a substantial possibility that the
result of the trial was fundamentally unreliable.24 In
view of the foregoing, the Court finds that Petitioner
successfully established the deficient performance
prong and the prejudice prong under Strickland.
Accordingly, the Court shall grant post-conviction
relief with respect to Petitioner’s allegation that trial
counsel rendered ineffective assistance when she
failed to cross-examine the State’s cell tower expert
regarding the disclaimer.

24

Waranowitz submitted an affidavit on October 5, 2015, and
stated:
“If I had been aware of this disclaimer, it would have
affected my testimony. I would not have affirmed the
interpretation of a phone’s possible geographical
location until I could ascertain the reasons and details
for the disclaimer.”
Petitioner’s Exhibit PC2-20. Although the Court’s ultimate
finding does not depend solely on Waranowitz’s affidavit, the
affidavit casts an additional fog of uncertainty that shakes the
Court’s confidence in the outcome of the trial.

329a
CONCLUSION
The present proceedings resulted from a tragedy
that occurred approximately seventeen years ago –
the death of Hae Min Lee. 25 A jury unanimously
convicted Petitioner of first-degree murder,
kidnapping, and robbery. Petitioner received a life
sentence for first-degree murder, thirty years for
robbery to run consecutively with the life sentence,
and a concurrent ten-year sentence for robbery.
Petitioner comes before the Court requesting relief
pursuant to the Maryland Uniform Post-Conviction
Procedure Act, which grants Petitioner the legal
right to seek relief if “the sentence or judgment was
imposed in violation of the Constitution of the United
States or the Constitution or laws of the State [of
Maryland].” Crim. Proc. § 7-102(a)(1).
Petitioner alleges that he is entitled to receive postconviction relief on three grounds: (1) that his trial
counsel’s failure to contact a potential alibi witness
amounted to ineffective assistance of counsel in
violation of his Sixth Amendment rights; (2) that the
State violated his right to a fair trial and due process
by failing to disclose a disclaimer related to the
reliability of the cell tower location evidence, in
violation of Brady v. Maryland, 373 U.S. 83 (1963);
and (3) that his trial counsel rendered ineffective
assistance in violation of his Sixth Amendment
rights when she failed to cross-examine the State’s
25

Hae Min Lee was a gifted and talented student who was
loved by her family and friends. The loss suffered by her family
is most appropriately reflected in a Korean proverb: when a
parent dies, you bury the parent in the earth, when a child dies,
you bury the child in your heart. See Disposition Tr., at 8, Jun.
6, 2000.

330a
expert regarding the unreliability of the cell tower
location evidence. The Court finds that Petitioner’s
arguments on the first two issues lack sufficient
merit but concludes that he is entitled to postconviction relief on the third issue.
On the issue of ineffective assistance concerning
trial counsel’s failure to contact the potential alibi
witness, the Court finds that trial counsel’s
performance fell below the standard of reasonable
professional judgment. Nonetheless, the Court finds
that trial counsel’s unprofessional errors did not
prejudice Petitioner’s defense because the potential
alibi witness could not account for the cell tower
location evidence that placed Petitioner’s cell phone
in the general geographical area of the burial site.
Thus, the Court finds that Petitioner is not entitled
to post-conviction relief despite the deficient
performance rendered by trial counsel.
Regarding the State’s failure to disclose the
disclaimer about the reliability of cell tower location
evidence, the Court finds that this allegation fails on
two grounds. First, as a procedural matter,
Petitioner waived his right to raise the Brady
allegation because he had an opportunity to make
the allegation in prior proceedings, but he failed to
do so. Second, even if the Court were to consider the
merits of Petitioner’s argument, his Brady claim
would still fail because the allegedly suppressed
evidence could have been discovered through a
reasonable and diligent investigation of the
materials disclosed to trial counsel as part of pretrial discovery.
Finally, the Court agreed with Petitioner’s claim
that he was entitled to post-conviction relief because

331a
trial counsel rendered ineffective assistance when
she failed to cross-examine the State’s expert
regarding the unreliability of cell tower location
evidence. Although Petitioner had not raised this
issue in a prior proceeding, the Court considered the
merits of Petitioner’s claim because he did not
intelligently and knowingly waive his right to raise
the issue. The Court finds that trial counsel’s
performance fell below the standard of reasonable
professional judgment when she failed to crossexamine the State’s cell tower expert regarding a
disclaimer obtained as part of pre-trial discovery,
which specified that “[a]ny incoming calls will NOT
be considered reliable for location.” The Court also
finds that trial counsel’s unprofessional error
prejudiced Petitioner’s defense because there is a
substantial possibility that the result of the
proceeding would have been different but for trial
counsel’s failure to cross-examine the State’s cell
tower witness about the disclaimer.
This case represents a unique juncture between the
criminal justice system and a phenomenally strong
public interest created by modern media. Throughout
the proceedings, the parties made repeated efforts to
direct the Court’s attention to the Serial podcast, a
twelve-part episodic internet audio program that
explored the substantive and procedural issues of
this case from trial through the present postconviction proceedings. 26 Serial has attracted
millions of active listeners worldwide and inspired
many, through social media, to support or advocate
26

In reaching its factual findings and legal conclusions, the
Court did not listen to the Serial podcast because the audio
program is not a part of the evidentiary record.

332a
against Petitioner’s request for post-conviction relief.
Regardless of the public interest surrounding this
case, the Court used its best efforts to address the
merits of Petitioner’s petition for post-conviction
relief like it would in any other case that comes
before the Court; unfettered by sympathy, prejudice,
or public opinion.
Accordingly, based on the reasons stated above, the
Court finds that Petitioner is entitled to postconviction relief because trial counsel rendered
ineffective assistance when she failed to crossexamine the State’s expert regarding the reliability
of cell tower location evidence. Therefore, it is this
30th of June, 2016, the Petition for Post-Conviction
Relief is hereby GRANTED; Petitioner’s convictions
in the above-captioned case are VACATED; and
Petitioner’s request for a new trial is hereby
GRANTED.
Judge Martin P. Welch
Judge’s Signature appears
on the original document

333a
APPENDIX E
_________
IN THE CIRCUIT COURT FOR BALTIMORE CITY
_________
Case: 199103042-46
_________
ADNAN SYED,
Petitioner,
v.
STATE OF MARYLAND.
_________
TRANSCRIPT OF OFFICIAL PROCEEDINGS
(EVIDENTIARY HEARING)
_________
BEFORE:

THE HONORABLE MARTIN P.
WELCH, JUDGE
_________

HEARING DATE: FEBRUARY 3, 2016
_________
APPEARANCES:
For the Petitioner: C. Justin Brown, Esquire
Christopher C. Nieto, Esquire
For the State:

Thiruvendran Vignarajah, AAG
Matthew Krimski, AAG
Tiffany Harvey, AAG

Transcriptionist:

Patricia Noell

334a
AAERT Cert. No.: CET 362
Transcription Service:
ACCUSCRIBES
TRANSCRIPTION SERVICE
Proceedings recorded on digital media with video,
transcript produced by transcription service.
_________
PROCEEDINGS
***
[Testimony of Asia Chapman, formerly Asia
McClain, pp. 167:8-168:8; 174:17-177:24]
***
ASIA CHAPMAN
called as a witness on behalf of the Petitioner, first
duly sworn according to law, was examined and
testified as follows:
MADAM CLERK: You may be seated.
MS. CHAPMAN: Thank you.
MADAM CLERK: And please state your full
name for the record.
MS. CHAPMAN: Asia Chapman.
MADAM CLERK: Thank you. She’s been
sworn.
THE COURT: Okay. Mr. Brown?
MR. BROWN: Thank you, Your Honor.
DIRECT EXAMINATION
BY MR. BROWN:
Q

Good afternoon, Ms. Chapman.

A

Good afternoon.

335a
Q Did you formerly go by the name Asia
McClain?
A

Yes, I did.

Q And is it okay if I refer to you as Asia McClain
throughout the course of this examination?
A

Yes, it is.

Q

And Chapman is your married name, right?

A

Yes.

Q Were you with Adnan Syed on January 13th,
1999 at the Woodlawn Public Library?
A

Yes, I was.
***

BY MR. BROWN:
Q And I – I’m sorry. Can you repeat your answer
as to why you were going over to the library?
A
Yes. My boyfriend and I made arrangements
for him to come pick me up, drop me off at his house
and then for him to go back to school.
Q Okay. What was the name of your boyfriend at
the time?
A

Derek Banks.

Q And when you went to a library, did Mr.
Banks come and pick you up as planned?
A

No. Not at -- not on time, no.

Q

What happened?

A
I ended up sitting there for several hours,
waiting.
Q
up?

And how did you feel about him not showing

336a
A
Q
out?

Not too happy.
Were you still at the library when school let

A

Yes, unfortunately.

Q

How do you know that?

A
Because I was aware that the -- the normal
school buses that came to pick up the, you know,
everybody, they were already in the circle right there
in front of the school.
MR. BROWN: If we could have the exhibit one
more time, Exhibit 39?
BY MR. BROWN:
Q

Are you able to point to --

A

Yes. Sorry.
MR. NIETO: If I may, Your Honor?

MS. CHAPMAN: Yeah. So the buses would
come up this driveway and they would all park
around here and so when the students would come
out at the end of the day they would all get on their
buses and leave for the day and I was already aware
that all the buses were lined up waiting for everyone
to come out.
BY MR. BROWN:
Q

Right. And what time did school get out?

A

2:15.

Q Okay. Were you concerned about how you
would get home?
A
Yes. At that point I still didn’t know if Derek
was going to show up or if I was going to be forced to
take one of the school buses or if I was going to stick
around and wait for -- and if he didn’t come I would

337a
have to take public transportation and I absolutely
hated the NTA back then, so.
Q Okay. Did there come a time when you had a
conversation with Adnan Syed in the library?
A

Yes, there was.

Q And
approximately
conversation take place?

when

did

A

Shortly after 2:15.

Q

Okay. And how did that conversation go?

that

A
Well, I was sitting there waiting for my ride at
one of the tables and he walked in and I was so glad
to see someone that I knew because I hadn't been -- I
had been sitting there all day practically by myself
and so when he came in I -- we saw each other and
he came over and sat down across the table from me.
Q And what was his demeanor during the
conversation?
A

Completely normal.

Q Do you have an idea of approximately how
long the conversation lasted?
A
Well, honestly, I’d have to refer to my original
affidavit and -- I think it was about 15 to 20 minutes.
Q And have you in fact looked at this prior to
your testimony, that prior affidavit, to refresh your
recollection?
A

Yes.

Q Okay. Do you remember how the conversation
ended?
A

Yeah.

Q

With Mr. Syed.

338a
A
Yes. We were in the middle of a conversation
and my boyfriend and his friend, Jarah (ph.)
Johnson, walked in and the entrance was behind
where Adnan was sitting, so he couldn't see them
and I said, hey, my ride’s here. He turned around to
see who I was talking about and the two guys came
over. Everybody said, hi, and then we left.
***

339a
APPENDIX F
_________
IN THE CIRCUIT COURT FOR BALTIMORE CITY,
MARYLAND
_________
Indictment No. 199103042_________
STATE OF MARYLAND,
v.
ADNAN SYED,
Defendant.
_________
REPORTER’S OFFICIAL TRANSCRIPT OF
PROCEEDINGS
(Trial on the merits)
Baltimore, Maryland
February 10, 2000
BEFORE:
HONORABLE WANDA
Associate Judge

KEYES

APPEARANCES:
For the State:
KEVIN URICK, ESQ.,
KATHLEEN MURPHY, ESQ.
For the Defendant:
CHRISTINA GUTIERREZ, ESQ.

HEARD,

340a
RECORDED BY: VIDEOTAPE
TRANSCRIBED BY:
Christopher W. Metcalf
Official Court Reporter
507 Courthouse West
Baltimore, Maryland 21202
_________
PROCEEDINGS
***
[Testimony of Jay W. Wilds, pp. 125:1-127:24]
***
Q Okay. Now, let us then go back to the first
interview, the one where there was no tape. Did you
provide them information about the location of the
car?
A
Q
not?
A

No, ma’am.
Now, so you sort of lied by omitting it, did you
Yes, ma’am.

Q Okay. And did you provide them information
about seeing the body in the trunk?
A

I don’t believe so.

Q You don’t believe so. So, you lied about that
too, right?
A

Yes, ma’am.

Q Okay. And or at least what you said at first
was very different then what you said next, right?
A

In the second time.

341a
Q And in fact, you first told them nothing about
Jen Pusateri, right?
A

Yes, ma’am.

Q And in your second statement when the tape
recorded was turned on you also didn’t say anything.
about Jen Pusateri, right?
A

Correct.

Q

Your very, very good friend?

A

Yes, ma’am.

Q

So, you continued -- and that was a lie, right?

A

No, it was not the truth, you’re right.

Q

It wasn’t, so yes it was a lie?

A

Yes, ma’am.

Q Okay. And so you lied in the first statement
about that and you continued to lie in the second
statement about that same thing, right’?
A

Yes, ma’am.

Q And the first time before the tape recorder was
on, you didn’t happen to tell them about your good
friend, Christa Myers, did you?
A

No, ma’am.

Q And in the second statement you didn’t tell
them about your good friend, Christa Myers, did you?
A

Christa Myers’?

Q

I’m sorry. Christa Vincent.

A

Yes, ma’am.

Q

You didn’t tell them, right’?

A

No, ma’am.

Q

And that was a lie, wasn’t it?

342a
A

Yes, ma’am.

Q Okay. So, in regard to your good friend,
Christa Myers you lied to them the first time, right?
A

Vincent.

Q

Pardon.

A

Vincent.

Q Vincent. In regard to her you lied to them the
3 first time, right?
A

Yes.

Q

And you lied to them the second time, right?

A

Yes.

Q You didn’t get around to telling them about
Christa Myers -A

Vincent.

Q Christa Vincent, until your third statement,
right?
A

Yes.

Q Okay. Now, and in regard to events that
happened in Lincoln Park as you say in the first
statement you didn’t tell all about that, did you?
A

No, ma’am.

Q And the first time you mentioned that was in
the second statement, right?
A

Yes, ma’am.

Q

After -- after the tape was turned off, right?

A

Yes, ma’am.

Q And in regard to issues like your clothes and
what you did with them at any time after those

343a
events, you didn’t tell them the truth in the first
statement, did you?
A

No, ma’am.
***

344a
APPENDIX G
_________
IN THE CIRCUIT COURT FOR BALTIMORE CITY,
MARYLAND
_________
Indictment Nos. 199103042-46
_________
STATE OF MARYLAND,
v.
ADNAN MASUD SYED,
Defendant.
_________
REPORTER’S OFFICIAL TRANSCRIPT OF
PROCEEDINGS
(Excerpt – opening statement of Mr. Urick)
Baltimore, Maryland
Wednesday, December 15, 1999
BEFORE:
THE HONORABLE
(and a jury)

JUDGE

QUARLES

APPEARANCES:
For the State:
KEVIN URICK, ESQ.,
KATHLEEN C. MURPHY, ESQ.
For the defendant:
M. CHRISTINA GUTIERREZ, ESQ.

345a
recorded on videotape
TRANSCRIBED BY:
Charles F. Madden
Official Court Reporter
507 Courthouse West
Baltimore, Maryland 21202
_________
PROCEEDINGS
***
[pp. 250:22-251:2; 254:24-255:5]
***
MS. GUTIERREZ: Judge, prior to calling down the
jury I would like to make a record about the two
separate things?
THE COURT: Yes, please come up.
(Counsel and the defendant approached the bench,
and the following ensued:)
***
THE COURT: The motion to reopen the crossexamination is denied. However, I do have a note
from Alternate Number 4, “In view of that fact that
you’ve determined that Ms. Gutierrez is a liar, will
she be removed? Will we start over?”
Your motion for mistrial is granted.
MS. GUTIERREZ: Thank you.
***

